<html>
<title> - UNDER PRESSURE: THE STATE OF TRUCKING IN AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            UNDER PRESSURE: THE STATE OF TRUCKING IN AMERICA

=======================================================================

                                (116-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-370 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                  Subcommittee on Highways and Transit

           ELEANOR HOLMES NORTON, District of Columbia, Chair

EDDIE BERNICE JOHNSON, Texas         RODNEY DAVIS, Illinois
STEVE COHEN, Tennessee               DON YOUNG, Alaska
JOHN GARAMENDI, California           ERIC A. ``RICK'' CRAWFORD, 
HENRY C. ``HANK'' JOHNSON, Jr.,      Arkansas
Georgia                              BOB GIBBS, Ohio
JARED HUFFMAN, California            DANIEL WEBSTER, Florida
JULIA BROWNLEY, California           THOMAS MASSIE, Kentucky
FREDERICA S. WILSON, Florida         MARK MEADOWS, North Carolina
ALAN S. LOWENTHAL, California        ROB WOODALL, Georgia
MARK DeSAULNIER, California          JOHN KATKO, New York
SALUD O. CARBAJAL, California        BRIAN BABIN, Texas
ANTHONY G. BROWN, Maryland           DAVID ROUZER, North Carolina
ADRIANO ESPAILLAT, New York          MIKE BOST, Illinois
TOM MALINOWSKI, New Jersey           DOUG LaMALFA, California
GREG STANTON, Arizona                BRUCE WESTERMAN, Arkansas
COLIN Z. ALLRED, Texas               LLOYD SMUCKER, Pennsylvania
SHARICE DAVIDS, Kansas               PAUL MITCHELL, Michigan
ABBY FINKENAUER, Iowa, Vice Chair    MIKE GALLAGHER, Wisconsin
JESUS G. ``CHUY'' GARCIA, Illinois   GARY J. PALMER, Alabama
ANTONIO DELGADO, New York            BRIAN K. FITZPATRICK, Pennsylvania
CHRIS PAPPAS, New Hampshire          TROY BALDERSON, Ohio
ANGIE CRAIG, Minnesota               ROSS SPANO, Florida
HARLEY ROUDA, California             PETE STAUBER, Minnesota
GRACE F. NAPOLITANO, California      CAROL D. MILLER, West Virginia
ALBIO SIRES, New Jersey              GREG PENCE, Indiana
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
DANIEL LIPINSKI, Illinois
DINA TITUS, Nevada
STACEY E. PLASKETT, Virgin Islands
PETER A. DeFAZIO, Oregon (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia, and Chair, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Rodney Davis, a Representative in Congress from the State of 
  Illinois, and Ranking Member, Subcommittee on Highways and 
  Transit:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chair, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     5
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................   129
Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas, prepared statement.............................   129
Hon. Carol D. Miller, a Representative in Congress from the State 
  of West Virginia, prepared statement...........................   130

                               WITNESSES

Catherine Chase, President, Advocates for Highway and Auto 
  Safety:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Chris Spear, President and Chief Executive Officer, American 
  Trucking Associations:

    Oral statement...............................................    17
    Prepared statement...........................................    19
Todd Spencer, President and Chief Executive Officer, Owner-
  Operator Independent Drivers Association:

    Oral statement...............................................    37
    Prepared statement...........................................    39
Lamont Byrd, Director of Safety and Health, International 
  Brotherhood of Teamsters:

    Oral statement...............................................    41
    Prepared statement...........................................    43
Jason Craig, Director of Government Affairs, C.H. Robinson:

    Oral statement...............................................    50
    Prepared statement...........................................    52
Rodney Noble, Senior Director of Transportation Global 
  Procurement, PepsiCo:

    Oral statement...............................................    61
    Prepared statement...........................................    62
Deputy Chief Mark Savage, Colorado State Patrol, on behalf of the 
  Commercial Vehicle Safety Alliance:

    Oral statement...............................................    66
    Prepared statement...........................................    68
Andy Young, Truck Safety Advocate:

    Oral statement...............................................    74
    Prepared statement...........................................    76

                       SUBMISSIONS FOR THE RECORD

Submissions for the Record by Hon. Eleanor Holmes Norton:

    Report entitled ``Irregular Cross-border Employment Practices 
      of U.S.-domiciled Trucking Companies,'' by Empower, LLC, 
      March 2019.................................................    43
    Report entitled ``Is the U.S. Labor Market for Truck Drivers 
      Broken?,'' by Stephen V. Burks and Kristen Monaco, Monthly 
      Labor Review, U.S. Bureau of Labor Statistics, March 2019..    98
    Statement of Lane Kidd, Managing Director, Alliance for 
      Driver Safety & Security (The Trucking Alliance)...........   131
    Letter from Cian Cashin, Director of Government Affairs, 
      American Association of Motor Vehicle Administrators.......   134
    Letter of June 17, 2019, from Cal Dooley, President and CEO, 
      American Chemistry Council.................................   137
    Statement of the Associated General Contractors of America...   138
    Letter of June 12, 2019, from Shailen P. Bhatt, President and 
      CEO, Intelligent Transportation Society of America.........   141
    Statement of Phil Hunt, Executive Vice President, Uline......   143
Submissions for the Record by Hon. Sam Graves of Missouri:

    Letter of June 25, 2019, from Heidi K. McAuliffe, Esq., Vice 
      President, Government Affairs, American Coatings 
      Association................................................   146
    Letter of June 27, 2019, from Chris Spear, President and 
      Chief Executive Officer, American Trucking Associations....   147
    Letter of June 10, 2019, from Randy Mullett, Executive 
      Director, The Americans for Modern Transportation Coalition   147
    Letter of June 12, 2019, from Marc Scribner, Senior Fellow, 
      Competitive Enterprise Institute...........................   149
Appendix to Prepared Statement of Chris Spear, President and 
  Chief Executive Officer, American Trucking Associations........   149

                                APPENDIX

Questions from Hon. Eleanor Holmes Norton for Catherine Chase, 
  President, Advocates for Highway and Auto Safety...............   163
Questions from Hon. Angie Craig for Catherine Chase, President, 
  Advocates for Highway and Auto Safety..........................   164
Questions from Hon. Rob Woodall for Catherine Chase, President, 
  Advocates for Highway and Auto Safety..........................   164
Questions from Hon. Peter A. DeFazio for Chris Spear, President 
  and Chief Executive Officer, American Trucking Associations....   166
Questions from Hon. Eleanor Holmes Norton for Chris Spear, 
  President and Chief Executive Officer, American Trucking 
  Associations...................................................   167
Questions from Hon. Angie Craig for Chris Spear, President and 
  Chief Executive Officer, American Trucking Associations........   168
Questions from Hon. Sam Graves of Missouri for Chris Spear, 
  President and Chief Executive Officer, American Trucking 
  Associations...................................................   171
Questions from Hon. Troy Balderson for Chris Spear, President and 
  Chief Executive Officer, American Trucking Associations........   173
Questions from Hon. Carol D. Miller for Chris Spear, President 
  and Chief Executive Officer, American Trucking Associations....   175
Questions from Hon. Angie Craig for Todd Spencer, President and 
  Chief Executive Officer, Owner-Operator Independent Drivers 
  Association....................................................   178
Questions from Hon. Peter A. DeFazio for Lamont Byrd, Director of 
  Safety and Health, International Brotherhood of Teamsters......   179
Questions from Hon. Angie Craig for Lamont Byrd, Director of 
  Safety and Health, International Brotherhood of Teamsters......   180
Questions from Hon. Peter A. DeFazio for Rodney Noble, Senior 
  Director of Transportation Global Procurement, PepsiCo.........   181
Questions from Hon. Angie Craig for Rodney Noble, Senior Director 
  of Transportation Global Procurement, PepsiCo..................   182
Questions from Hon. Peter A. DeFazio for Deputy Chief Mark 
  Savage, Colorado State Patrol, on behalf of the Commercial 
  Vehicle Safety Alliance........................................   183
Questions from Hon. Steve Cohen for Deputy Chief Mark Savage, 
  Colorado State Patrol, on behalf of the Commercial Vehicle 
  Safety Alliance................................................   184
Questions from Hon. Mark DeSaulnier for Andy Young, Truck Safety 
  Advocate.......................................................   190
Questions from Hon. Angie Craig for Andy Young, Truck Safety 
  Advocate.......................................................   190
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              June 7, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Highways and Transit
    FROM:   Staff, Subcommittee on Highways and Transit
    RE:       Subcommittee Hearing on ``Under Pressure: The 
State of Trucking in America''

                                PURPOSE

    The Subcommittee on Highways and Transit will meet on 
Wednesday, June 12, 2019, at 10:00 a.m. in 2167 Rayburn House 
Office Building to receive testimony related to ``Under 
Pressure: The State of Trucking in America.'' The purpose of 
this hearing is to learn from stakeholders about current 
challenges faced by motor carriers, truck drivers, shippers, 
and brokers; and how these challenges impact safety, 
operations, jobs, and goods movement on our Nation's roads. The 
Subcommittee will hear from representatives of the 
International Brotherhood of Teamsters, Advocates for Highway 
and Auto Safety, C.H. Robinson, PepsiCo, the Commercial Motor 
Vehicle Safety Alliance, the American Trucking Associations, 
the Owner-Operator Independent Drivers Association, and a truck 
safety advocate.

                               BACKGROUND

    The Subcommittee on Highways and Transit has broad 
jurisdiction over trucking, including: Federal Motor Carrier 
Safety Administration (FMCSA) grant programs to States; safety 
oversight of trucking companies; commercial driver 
qualifications and operating regulations; commercial vehicle 
size and weight limits and safety requirements; and cross 
border transportation.
    The FMCSA was created by Congress in 1999 as an independent 
agency within the United States Department of Transportation. 
The agency's primary mission is to reduce commercial motor 
vehicle-related fatalities and injuries and is directed by 
Congress to consider ``safety as the highest priority'' in 
carrying out its duties. FMCSA sets safety standards for 
commercial drivers and motor carriers and partners with State 
law enforcement agencies to administer Federal motor carrier 
safety regulations throughout the country.
    Large truck crashes claimed 4,761 lives in 2017 according 
to data by the National Highway Traffic Safety Administration 
\1\. Since 2009, the number of fatalities in crashes involving 
large trucks and buses has risen, both in absolute terms and 
when adjusted for vehicle miles traveled.
---------------------------------------------------------------------------
    \1\ https://crashstats.nhtsa.dot.gov/Api/Public/ViewPublication/
812663.
---------------------------------------------------------------------------
    In 2015, Congress enacted H.R. 22, Fixing America's Surface 
Transportation Act (FAST Act; P.L. 114-94), which reauthorized 
FMCSA programs through Fiscal Year 2020. This legislation and 
its predecessor, MAP-21 (P.L. 112-141), included a number of 
provisions to improve motor carrier safety and address 
challenges in the trucking industry. Background on a range of 
issues that may be raised in witness testimony is provided 
below.

COMMERCIAL DRIVERS

    There are approximately 6 million drivers with active 
Commercial Drivers Licenses (CDLs) regulated by FMCSA \2\. 
Drivers are required to hold a CDL if they operate in 
interstate, intrastate, or foreign commerce and drive a vehicle 
that meets the definition of a commercial motor vehicle. A 
driver must be 21 years of age to operate in interstate 
commerce, while States may set lower age thresholds for drivers 
operating solely intrastate. Congress first established a 
requirement that commercial drivers must hold a single CDL in 
the Commercial Motor Vehicle Safety Act of 1986 (P.L. 99-570). 
The Motor Carrier Safety Improvement Act of 1999 (P.L. 106-159) 
strengthened the CDL program by, among other provisions, 
requiring that States verify whether an individual is medically 
fit to drive in order to obtain a CDL. Congress has made 
further modifications and improvements to the program in 
subsequent acts.
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------

HOURS OF SERVICE AND ELECTRONIC LOGS

    Federal motor carrier safety regulations govern commercial 
driver hours of service (HOS), or limits on the maximum time 
that a driver may operate a commercial motor vehicle. FMCSA is 
expected to release a Notice of Proposed Rulemaking this month, 
revising HOS rules. This revision is the latest attempt to 
alter the HOS rules, which over the last 20 years have been 
modified through rulemakings, legal challenges, and 
legislation.
    The authority to regulate commercial driver hours of 
service originated under the Motor Carrier Act of 1935 (P.L. 
74-255). The Interstate Commerce Commission (ICC) first 
established qualifications and maximum hours of service for 
drivers through a rulemaking on December 29, 1937. The 
regulations provided that, in a 24-hour period, a driver could 
drive a maximum of 10 hours and must have 8 hours of 
consecutive rest. The regulations also set a weekly on-duty 
limit of 60 hours in any 7 consecutive days or 70 hours in 8 
consecutive days. When Congress enacted the Fair Labor 
Standards Act in 1938, the Act exempted commercial drivers from 
overtime pay rules, since their hours were set by the ICC. The 
exemption continues to apply.\3\
---------------------------------------------------------------------------
    \3\ 29 U.S.C. Sec.  213(b)(1).
---------------------------------------------------------------------------
    In 1962, the ICC amended the regulations to eliminate the 
limitation on driving 10 hours within a 24-hour period. This 
change allowed, for example, a driver who came on-duty and 
started driving at midnight through 10 am, followed by 8 hours 
off-duty, to continue driving from 6 pm until midnight.
    These rules remain unchanged until Congress directed DOT to 
conduct a rulemaking ``dealing with a variety of fatigue-
related issues pertaining to commercial motor vehicle safety'' 
in the ICC Termination Act of 1995 (P.L. 104-88). FMCSA 
published comprehensive revisions of the hours of service 
regulations in a final rule on April 28, 2003, eight years 
after the mandate. The final rule extended driving time from 10 
to 11 hours and extended the daily rest period from 8 to 10 
hours. These new rules re-established a fixed 24-hour period 
for drivers by requiring that once going on duty, a driver had 
a consecutive 14 hour on-duty window. Prior to the changes, 
drivers were able to switch to off-duty time while waiting, 
such as while being delayed or refueling, and subtract that 
time from their on-duty time, thereby extending the length of 
their workday. The rule also included a ``restart'' provision 
that allowed drivers to restart their weekly hour calculation 
after they took an off-duty break of at least 34 consecutive 
hours. A driver who maximized the use of the restart provision 
could work over 80 hours a week.
    The applicability of this rule was in flux over the next 
decade as it underwent multiple legal challenges. The rule was 
vacated by the U.S. Court of Appeals for the District of 
Columbia Circuit (DC Circuit) on June 16, 2004, on the grounds 
that it did not consider its impacts on the health of drivers 
\4\. Congress directed that the 2003 rule would remain in 
effect until FMCSA issued a new final rule addressing the 
issues raised by the Court in the Surface Transportation 
Extension Act of 2004, Part V (P.L. 108-310). On August 25, 
2005, FMCSA reissued the rule, with its core provisions intact, 
and some revisions to provisions governing sleeper-berths \5\. 
This rule was again challenged, and the DC Circuit vacated the 
11-hour driving time and the 34-hour restart provisions on the 
basis that FMCSA did not comply with the Administrative 
Procedures Act \6\. On November 19, 2008, FMCSA published a 
Final Rule that continued the provisions of the 2005 rule 
without change \7\.
---------------------------------------------------------------------------
    \4\ Public Citizen v. FMCSA, 374 F.3d 1209 (D.C. Cir. 2004).
    \5\ 70 Fed. Reg. 49978 (August 25, 2005).
    \6\ OOIDA v. FMCSA et al., 494 F.3d 188 (D.C. Cir. Jul. 24, 2007).
    \7\ 73 Fed. Reg. 69567 (November 19, 2008).
---------------------------------------------------------------------------
    On December 18, 2008, safety groups petitioned FMCSA to 
reconsider the research and crash data justifying the 11-hour 
driving rule and the 34-hour restart provision. FMCSA denied 
the petition. On March 9, 2009, these same groups filed a 
petition for review of the 2008 rule in the DC Circuit \8\. In 
October 2009, FMCSA and the petitioners reached a settlement 
agreement that FMCSA would issue a revised rule \9\.
---------------------------------------------------------------------------
    \8\ Public Citizen, et al. v. FMCSA, et al. (D.C. Cir. No. 09-
1094).
    \9\ Settlement Agreement Between the Hours of Service Petitioners 
and the Federal Motor Carrier Safety Administration and the U.S. 
Department of Transportation (D.C. Cir. Oct. 26, 2009) (No. 09-1094).
---------------------------------------------------------------------------
    FMCSA issued a final rule on December 27, 2011, which: 
retained the 11-hour daily driving limit and the 60- and 70-
hour weekly driving limits; retained the 14 consecutive hour 
on-duty period; modified the restart provision to require at 
least two periods of rest between 1 am-5 am, and only allowed 
the restart to be used once during a seven-day period; and 
required drivers to take a break of at least 30 minutes during 
their first 8 hours on duty, in order to be able to drive past 
8 hours.
    Safety groups challenged the additional hour of driving 
allowed in the rule. Separately, the trucking industry 
petitioned the DC Circuit to review the 30 minute rest break 
and consecutive nighttime rest provisions of the final rule 
\10\. In August 2013, a U.S. district court upheld the majority 
of the 2011 final rule but struck down the 30-minute rest break 
requirement only as it applied to short-haul drivers \11\. 
Subsequently, Congress suspended, then overturned, the 
nighttime rest requirements under the 34-hour restart 
provisions contained from the 2011 rule in the Consolidated and 
Further Continuing Appropriations Act of 2015 (P.L. 113-235), 
the Consolidated Appropriations Act, 2016 (P.L. 114-113), and 
the Consolidated Appropriations Act, 2017 (P.L. 115-31). The 30 
minute rest break requirement for drivers was retained.
---------------------------------------------------------------------------
    \10\ Petition of American Trucking Associations, Inc., (D.C. Cir. 
2012) (No. 12-1092).
    \11\ American Trucking Associations, Inc, et al. v. FMCSA, et al., 
No. 12-1092 Consolidated with 12-1113 (D.C. Cir. Aug. 2, 2013).
---------------------------------------------------------------------------
    A number of exemptions from HOS limits have been provided 
to certain industries and in certain circumstances by Congress, 
including utility workers, certain rail construction workers, 
and agriculture haulers. FMCSA also has authority to grant 
exemptions administratively, for a period of five years and 
subsequent renewal pursuant to a process outlined in statute. 
Representatives of the motor carrier law enforcement community 
have raised concerns over both administrative and statutory 
exemptions to motor carrier safety regulations broadly, arguing 
that exemptions compromise safety as well as create confusion 
and inconsistency in enforcement \12\.
---------------------------------------------------------------------------
    \12\ http://cvsa.org/wp-content/uploads/Exemptions.pdf.
---------------------------------------------------------------------------
    In 2018, FMCSA issued administrative guidance that expands 
the exemption for transporters of agricultural commodities, 
including livestock and insects. The statute provides an 
exemption from HOS rules for the transportation of agricultural 
commodities during planting and harvest season, within a 150 
air-mile radius. FMCSA's guidance reinterpreted this provision 
to mean that a driver can work or drive unlimited hours without 
maintaining logs within a 150-mile area, and then start toward 
their limits of 11 hours of driving only apply once the drivers 
crosses the 150 miles. Time spent working within the 150 air-
mile radius does not count toward the driver's daily and weekly 
limits, thereby allowing a significant and undefined expansion 
of allowable on duty time for these drivers \13\. In 2018, 
FMCSA also finalized guidance that allows a driver to move a 
vehicle, even if laden with cargo, once the driver reaches his 
or her HOS driving limit, under an exemption known as 
``personal conveyance''. The guidance is open-ended, and does 
not place any limit on how long or how far a driver can drive 
claiming personal use \14\.
---------------------------------------------------------------------------
    \13\ https://www.fmcsa.dot.gov/hours-service/elds/eld-hours-
service-hos-and-agriculture-exemptions.
    \14\ 83 Fed. Reg. 26377 (June 7, 2018).
---------------------------------------------------------------------------
    Commercial driver hours of service have historically been 
tracked through paper logbooks. In MAP-21, Congress required 
long-haul truck drivers to use electronic logging devices 
(ELDs) to record their hours to ensure compliance with HOS 
regulations and address fatigued driving. ELDs help prevent 
falsified or inaccurate paper log books by electronically 
recording the hours that commercial drivers operate. As of 
December 2017, all long-haul truck drivers (unless they are 
covered under an exemption) must now use ELDs. The requirement 
for ELDs in the industry has led to an increased focus by the 
regulated community on the HOS rules, and an increase in 
requests to Congress to consider further exemptions and changes 
to the rules.

DRIVER TRAINING

    Congress first directed DOT to develop training standards 
for commercial motor vehicle drivers in 1991. A 2004 rule 
published by DOT was invalidated by the D.C. Circuit Court \15\ 
after safety groups sued the agency because the rule did not 
include any requirements related to behind-the-wheel training 
for drivers. A second attempt to publish the rule in 2007 \16\ 
was withdrawn by the Department. MAP-21 required FMCSA to 
establish minimum training requirements for individuals seeking 
a CDL, including behind-the-wheel training. In response, FMCSA 
convened an Entry-Level Driver Training Advisory Committee to 
complete a negotiated rulemaking with members representing 
FMCSA, the trucking industry, labor, law enforcement, training 
institutions, and safety advocates.
---------------------------------------------------------------------------
    \15\ Advocates for Highway and Auto Safety v. FMCSA (D.C. Cir. Dec. 
2, 2005) (No. 04-1233).
    \16\ 72 Fed. Reg. 73226 (December 26, 2007).
---------------------------------------------------------------------------
    The Advisory Committee reached unanimous consensus on a 
package of recommendations in 2015. FMCSA's proposed rule 
published in March 2016 \17\ was based on those 
recommendations. The approved package of recommendations 
included a mandate for a minimum number of hours of behind-the-
wheel training that a new driver must obtain before being 
granted a CDL (30 hours or 15 hours, depending on the class of 
CDL). When FMCSA published its final rule in December 2016 
\18\, it did not include the requirement that drivers engage in 
a minimum number of hours of behind-the-wheel training prior to 
receiving a CDL. The rule instead includes a performance-based 
standard, which leaves the amount of training required to the 
discretion of individual trainers.
---------------------------------------------------------------------------
    \17\ 81 Fed. Reg. 11943 (March 7, 2016).
    \18\ 81 Fed. Reg. 88732 (December 8, 2016).
---------------------------------------------------------------------------

DRUG TESTING

    The Omnibus Transportation Employee Testing Act of 1991 
(P.L. 102-143) required drug and alcohol testing of safety-
sensitive employees. In August 2001, FMCSA published motor-
carrier specific rules that apply to safety-sensitive employees 
who operate commercial motor vehicles requiring a CDL. These 
rules require drug and alcohol testing under several 
conditions: preemployment, reasonable suspicion, post-accident, 
random, return-to-duty, and follow-up. Section 32402 of MAP-21 
required DOT to establish a clearinghouse of drug and alcohol 
test results to assist in identifying violations of Federal 
testing rules. FMCSA published a final rule in December 2016 to 
establish the clearinghouse. The FAST Act required the 
Secretary of Health and Human Services to issue standards 
within a year of enactment for testing hair samples for the 
presence of drugs and alcohol. The Secretary of Health and 
Human Services has yet to issue the standards. Once such 
standards are issued, the FMCSA will be authorized to allow 
motor carriers to test hair samples of commercial motor vehicle 
drivers for drug use in lieu of urinalysis.

ATTRACTING AND RETAINING COMMERCIAL DRIVERS

    Certain segments of the trucking industry have pointed to 
Federal rules that do not allow a driver to operate in 
interstate commerce until 21 years old in the context of 
ensuring an available pool of qualified drivers in the 
industry. Under Section 5404 of the FAST Act, Congress 
authorized a pilot program for individuals between the ages of 
18 and 21 to drive such vehicles across state borders but only 
for those with commercial motor vehicle training in the Armed 
Services. Congress directed FMCSA to establish the pilot 
program in consultation with a working group established by the 
Secretary consisting of representatives of the armed forces, 
industry, drivers, safety groups, and State licensing 
officials; and to report to Congress on its findings upon 
completion of the program. FMCSA issued notices on a proposed 
pilot program on August 22, 2016 and July 6, 2018,\19\ but the 
program only began accepting driver applications this week, on 
June 3, 2019. While not yet completing the Congressional 
mandate to conduct a limited pilot and report on the findings, 
on May 15, 2019, FMCSA initiated a separate effort and 
published a Federal Register notice requesting comments on a 
broader pilot program for drivers ages 18-21 to operate in 
interstate commerce, without a role for Congress.\20\
---------------------------------------------------------------------------
    \19\ 83 Fed. Reg. 31633.
    \20\ 84 Fed. Reg. 21895.
---------------------------------------------------------------------------
    There is growing recognition \21\ in the industry that 
driver wages and working conditions are a significant factor in 
the industry's challenge in attracting and retaining qualified 
drivers. Most truck drivers in the industry today are paid by 
the mile or by the load, not by the time it takes to make a 
delivery. Yet drivers are also subject to HOS limits outlined 
above, putting a limitation on the time they have to operate. 
Drivers also have little control over delays, for example, at 
shipper facilities or due to growing congestion on roads. 
Section 5501 of the FAST Act directed FMCSA to study and 
collect data on delays experienced by drivers before loading 
and unloading their vehicles and at other points in the pick-up 
and delivery process. FMCSA has yet to issue the rule to begin 
the data collection process.
---------------------------------------------------------------------------
    \21\ https://www.joc.com/trucking-logistics/us-trucking-firms-
rethink-pay-recruit-drivers_20180220.html.
---------------------------------------------------------------------------
    The FAST Act, under Section 5401, also included several 
provisions to expand opportunities for veterans in the trucking 
industry by facilitating the transition to a civilian CDL after 
military service. Section 5506 of the FAST Act also requested 
the Government Accountability Office to review the 
administration of CDL skills tests by State licensing agencies 
and steps that FMCSA is taking to address skills testing 
delays, to ensure qualified drivers are not delayed in 
receiving their credentials.

CARRIERS

SAFETY OVERSIGHT

    There are over 543,000 companies registered with FMCSA to 
operate commercial trucks and buses interstate in the United 
States \22\. The FMCSA carries out several programs to enforce 
motor carrier safety regulations intended to improve the safe 
operations of carriers. The Compliance, Safety, Accountability 
(CSA) program, initiated in December 2010, is FMCSA's primary 
tool for evaluating the safety performance of commercial truck 
and bus companies. CSA relies on a safety measurement system 
that analyzes safety violations from inspections and crash data 
to assign each carrier a score, in order to identify high-risk 
carriers.
---------------------------------------------------------------------------
    \22\ https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
safety/data-and-statistics/413361/fmcsa-pocket-guide-2018-final-508-
compliant.pdf.
---------------------------------------------------------------------------
    The FAST Act mandated a review of the CSA program by the 
National Academies of Sciences, Engineering, and Medicine 
(National Academies). The FAST Act required that CSA scores of 
trucking companies be removed from public view until the 
National Academies completes its review, FMCSA implements a 
corrective action plan, and the U.S. Department of 
Transportation (DOT) Inspector General (IG) certifies that any 
deficiencies have been addressed. The National Academies 
released its report in April 2018 and recommended that FMCSA 
make several improvements to its scoring model. FMCSA submitted 
a corrective action plan to Congress in July 2018, which is 
currently under evaluation by the IG. The FY 2020 
Transportation, Housing, and Urban Development (THUD) 
appropriations bill includes a provision directing FMCSA to 
make an analysis of violations under CSA publicly available 
within 6 months of enactment, as was the case prior to the FAST 
Act.
    The CSA scoring system was developed as an internal tool 
for FMCSA to prioritize oversight and interventions for motor 
carriers exhibiting patterns of safety problems. In order to 
make its internal analysis useful to the public and others to 
gauge the safety of a carrier, FMCSA has relied on the 
assignment of a safety fitness rating. FMCSA currently 
continues to rely on a system of compliance reviews in which 
carriers are assigned a satisfactory, conditional, or 
unsatisfactory safety rating. These ratings are based on 
detailed investigations and on-site reviews and, because they 
are resource intensive, FMCSA is only able to review and rate 
approximately one percent of registered carriers each year.\23\ 
As a result, existing carrier ratings are often outdated. 
Moreover, the vast majority of carriers (86 percent) do not 
have a safety rating according to the latest available FMSCA 
data.\24\
---------------------------------------------------------------------------
    \23\ For a snapshot of data from 2015-2019 see: https://
ai.fmcsa.dot.gov/SafetyProgram/spRptReview.aspx?rpt=RVFR.
    \24\ See figure 3-4, https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/
files/docs/safety/data-and-statistics/413361/fmcsapocket-guide-2018-
final-508-compliant-1.pdf.
---------------------------------------------------------------------------
    Since the initiation of the CSA program, FMCSA has been 
working to update the methodology it uses to make Safety 
Fitness Determination (SFD) ratings, but to date, roadside and 
other data in CSA has not been incorporated into the process of 
making these determinations. In January 2016, FMCSA issued a 
proposed SFD rule that, by the agency's projections, would 
increase the number of motor carriers rated to 75,000 every 
month \25\. In March 2017, the Trump Administration withdrew 
the proposed rule, citing the need to review the National 
Academies study before deciding how to proceed on company 
safety ratings \26\.
---------------------------------------------------------------------------
    \25\ 81 Fed. Reg. 3562 (January 21, 2016); https://
csa.fmcsa.dot.gov/WhatsNew/Article?articleId=82776.
    \26\ 82 Fed. Reg. 14848 (March 23, 2017).
---------------------------------------------------------------------------
    The lack of a definitive method to interpret violation data 
under CSA and signal that a carrier is considered safe by 
regulators has been cited as a source of confusion and concern 
among stakeholders in the industry. In the past, carriers have 
expressed concerns about how raw violation data was displayed, 
and the agency's calculation of ``relative'' scores, rating 
carriers in relation to other carriers. Brokers and other third 
party logistics providers (3PLs) have called for a statutory 
Federal hiring or selection standard, as 3PLs have been exposed 
to liability when using carriers with safety violations to move 
goods. Without FMCSA rules in place for determining safety 
fitness, however, setting a selection standard (and 
legislatively mandating what data to rely on) is difficult in 
order to ensure the selection of a safe carrier as well as 
ensuring fairness among carriers seeking to bid for loads, 
given that 86 percent of the industry is currently unrated by 
the agency.

ADDITIONAL REGULATION

    Prior to 1980, the motor carrier industry was heavily 
regulated, including rate regulations for what a motor carrier 
could charge to deliver goods over a particular route. Most 
federal economic regulation of the trucking industry ended when 
Congress enacted the Motor Carrier Act of 1980. On January 1, 
1996, the Interstate Commerce Commission (ICC), which had 
primary jurisdiction over the remaining economic regulation of 
the motor carrier industry, was terminated by Congress in the 
ICC Termination Act (P.L. 104-88). Any remaining requirements, 
such as registration requirements, are now under FMCSA.
    Companies that operate commercial vehicles transporting 
passengers or hauling cargo in interstate commerce must be 
registered with FMCSA, obtain operating authority, and have a 
U.S. DOT Number. Brokers or freight forwarders of property are 
also required to obtain operating authority from the FMCSA. 
Operating authority dictates the type of motor carrier 
operations a company may conduct, the cargo it may carry, and 
the geographical area in which it may legally operate. Carriers 
not required to have operating authority include private 
carriers and carriers that exclusively haul commodities exempt 
from federal regulations. To obtain operating authority, a 
carrier must exhibit that the company is fit, willing, and able 
to provide transportation services and comply with federal 
regulations.
    In addition, carriers must provide proof that they hold a 
minimum level of liability insurance in order to obtain and 
maintain operating authority. Congress first directed the 
establishment of Federal regulations for interstate motor 
carrier operations to govern ``security for the protection of 
the public'' in the Motor Carrier Act of 1935 (Section 215 of 
P.L. 74-255). In implementing this legislation, the ICC set a 
minimum level of financial responsibility to be held by motor 
carriers and brokers. Section 30 of the Motor Carrier Act of 
1980 set requirements for property carrying companies at 
$750,000 for the transportation of property, and $1 million to 
$5 million for transportation of different classes of hazardous 
material. These levels have not changed since that time.
    Section 32104 of MAP-21 directed the Secretary to issue a 
report on the adequacy of current minimum financial 
responsibility requirements and current bond and insurance 
requirements for freight forwarders and brokers. FMCSA issued 
this report in April 2014.\27\ MAP-21 directed the agency to 
reevaluate the requirements every four years and to issue 
similar reports to Congress, but a subsequent report has not 
been produced. In its April 2014 report, FMCSA concluded that 
the current financial responsibility minimums warranted a re-
evaluation. On November 28, 2014, FMCSA published an advanced 
notice of proposed rulemaking to consider increasing the 
minimum levels of financial responsibility a motor carrier must 
hold, including liability coverage for bodily injury or 
property damage, and implement financial responsibility 
requirements for brokers and freight forwarders.\28\ This 
rulemaking was formally withdrawn on June 5, 2017.\29\
---------------------------------------------------------------------------
    \27\ https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/
Financial-Responsibility-Requirements-Report-Enclosure-FINAL-
April%202014.pdf.
    \28\ 79 Fed. Reg. 70839.
    \29\ 82 Fed. Reg. 25753.
---------------------------------------------------------------------------

FEDERAL PREEMPTION

    In the Federal Aviation Authorization Act of 1994 (P.L. 
103-305), Congress enacted a provision specifying that ``a 
State, a political subdivision of a State, or political 
authority of two or more States may not enact or enforce a law, 
regulation, or other provision having the force and effect of 
law related to a price, route, or service of any motor carrier 
. . . with respect to the transportation of property.'' \30\ 
The law allows States to continue regulating safety, insurance, 
vehicle size and weight, hazardous materials routings, 
household goods, and certain tow truck operations.
---------------------------------------------------------------------------
    \30\ 49 USC Sec.  14501(c)(1).
---------------------------------------------------------------------------
    The Conference Report (H. Rept. 103-677) accompanying the 
1994 law discusses that Congress was intending to address 
direct economic regulation of intrastate trucking by States, 
through direct actions such as ``entry controls, tariff filing 
and price regulation, and types of commodities carried.'' The 
Conference Report notes that, although the industry was 
deregulated in 1980, 41 States continued to regulate intrastate 
prices, routes, and services of motor carriers and 26 States 
strictly regulated trucking prices. The Report further states 
that such regulations were usually designed to ensure that 
prices ``are kept high enough to cover all costs and are not so 
low as to be `predatory'. Price regulation also involves filing 
of tariffs and long intervals for approval to change prices.'' 
Nearly 15 years after deregulation, States were still directly 
dictating the rates and prices motor carriers could charge for 
movement of goods through the particular State.
    The preemption language, as enacted, was added in 
Conference. The House bill had no provision, and the Senate 
bill had a provision narrowly tailored to apply preemption to 
intermodal all-cargo air carriers. The provision was inserted 
after a legal decision determined that Federal Express (FedEx) 
was not subject to intrastate economic regulations for motor 
carriers because FedEx could rely on pre-emption under the 
Airline Deregulation Act of 1978 as an air carrier.\31\ UPS, 
however, remained regulated as a motor carrier, according to 
the Conference Report, ``putting it at a competitive 
disadvantage in a number of States.'' After the FedEx decision, 
California and other States began to enact laws extending the 
preemption to other carriers affiliated with direct air 
carriers, but some segments of the motor carrier industry, such 
as owner-operators, were still subject to regulation.
---------------------------------------------------------------------------
    \31\ See Fed. Express Corp. v. Cal. Pub. Utils. Comm'n, 936 F.2d 
1075 (9th Cir. 1991), cert denied, 112 S.Ct. 2956 (1992).
---------------------------------------------------------------------------
    Despite this intent, the preemption provision has been 
heavily utilized as the basis for litigation over a variety of 
State and local laws and regulations that go beyond tariffs and 
price regulation. Hundreds of cases cite the preemption statute 
in different contexts. Several of these cases have been heard 
by the Supreme Court. For example, the New Hampshire Motor 
Transport Association sued the State of Maine over a law 
attempting to curtail tobacco sales to minors, which required 
online tobacco sales to utilize delivery companies that provide 
recipient-verification services to confirm the legal age of the 
recipient. In 2008, the Supreme Court upheld that the 
requirement for signature delivery violates the Federal 
preemption statute.\32\ This provision of law was also the 
basis for the American Trucking Association's suit against the 
City of Los Angeles over the way the Port of Los Angeles and 
the Board of Harbor Commissioners attempted to implement a 
program to reduce truck emissions around the ports. The Board 
proposed to require motor carriers to enter into a concession 
agreement in order to service the port. In 2013, the Supreme 
Court upheld that the City's plans were preempted by Federal 
law.\33\
---------------------------------------------------------------------------
    \32\ Rowe v. New Hampshire Motor Transp. Assn., 552 U.S. 364 
(2008).
    \33\ American Trucking Assns, Inc. v. City of Los Angeles, 569 U.S. 
641 (2013).
---------------------------------------------------------------------------
    More recently, this provision has been the basis for 
litigation over State labor laws, including meal and rest break 
rules. On July 9, 2014, the Ninth Circuit U.S. Court of Appeals 
upheld the State of California's meal and rest break laws for 
all workers, including truck drivers.\34\ The Ninth Circuit's 
decision found that California's labor laws, particularly 
related to intrastate truck drivers in this case, are not 
preempted under the 1994 preemption provision:
---------------------------------------------------------------------------
    \34\ See Dilts v. Penske Logistics, LLC, 769 F.3d 637 (9th Cir. 
2014), cert. denied, 135 S. Ct. 2049 (2015).

        Although we have in the past confronted close cases that have 
        required us to struggle with the ``related to'' test, and 
        refine our principles of FAAAA preemption, we do not think that 
        this is one of them. In light of the FAAAA preemption 
        principles outlined above, California's meal and rest break 
        laws plainly are not the sorts of laws `related to' prices, 
        routes, or services that Congress intended to preempt. They do 
        not set prices, mandate or prohibit certain routes, or tell 
        motor carriers what services they may or may not provide, 
        either directly or indirectly . . . They are normal background 
        rules for almost all employers doing business in the state of 
        California. (Dilts, 769 F.3d at 647.)

    In May 2015, the U.S. Supreme Court denied the petition to 
hear the case. In the wake of the Supreme Court's denial, 
Congress debated, and rejected each time, changes to the 
preemption statute to preempt State wage and hour laws in six 
legislative vehicles. These include: the FAST Act; H.R. 4441, 
the House-introduced ``Aviation Innovation, Reform, and 
Reauthorization Act of 2016;'' H.R. 5394, the FY 2017 
Transportation, Housing, and Urban Development Appropriations 
Act; H.R. 3353, the FY 2018 Transportation, Housing, and Urban 
Development Appropriations Act; H.R. 4, the ``FAA 
Reauthorization Act of 2018;'' and H.R. 6072, the FY 2019 
Transportation, Housing, and Urban Development Appropriations 
Act.
    In September 2018, the U.S. Supreme Court also denied 
hearing an appeal in another class action case involving the 
applicability of California wage and hours laws beyond meal and 
rest break, including piece-rate pay (or pay by the load).\35\ 
The preemption provision was also the basis for the challenge 
by the trucking industry to a California Supreme Court decision 
\36\ that established a new test for whether a driver is 
considered an employee or an independent contractor. On March 
29, 2019, the U.S. District Court for the Eastern District of 
California dismissed the legal challenge by the Western States 
Trucking Association.\37\
---------------------------------------------------------------------------
    \35\ Ortega v. J.B. Hunt Transp., Inc., 694 Fed. Appx. 589 (9th 
Circ. 2017), cert. denied, J.B. Hunt Transp., Inc. v. Ortega, 138 S. 
Ct. 2601 (2018).
    \36\ Dynamex Operations West, Inc. v. Superior Court, No. S222732 
(Cal. 2018).
    \37\ Western States Trucking Association v. Schoorl, 2:18-cv-01989 
(E.D. Cal. 2019).
---------------------------------------------------------------------------
    In 2008, FMCSA denied a request for a determination of 
preemption by the American Trucking Associations under a 
separate authority to preempt State law, under 49 U.S.C. 31141. 
FMCSA concluded that the petition did not meet the threshold 
for preemption because the California rules are ``simply one 
part of California's comprehensive regulations governing wages, 
hours, and working conditions'' and that ``in no sense'' do the 
California laws regulate ``commercial vehicle safety.'' \38\ 
FMCSA further found that ``there is nothing in the statutory 
language or legislative history . . . that would justify 
reading into the authority to preempt State laws `affecting' 
commercial motor vehicle safety''--and that, ``[b]ecause the 
California meal and rest break rules are not `regulations on 
commercial motor vehicle safety,' the Agency has no authority 
to preempt them under 49 U.S.C. 31141. Furthermore, that 
statute does not allow the preemption of other State or local 
regulations merely because they have some effect on [commercial 
motor vehicle] operations.'' \39\
---------------------------------------------------------------------------
    \38\ Petition for Preemption of California Regulations on Meal 
Breaks and Rest Breaks for Commercial Motor Vehicle Drivers, 73 
Fed.Reg. 79204, 79206 (2008).
    \39\ Id. at 79206.
---------------------------------------------------------------------------
    On October 4, 2018, FMCSA published a request for comments 
on a petition submitted in 2018 by the American Trucking 
Associations, seeking a determination that California's meal 
and rest break rules do not apply to drivers covered by the 
agency's hours of service rules.\40\ The petition prompted a 
significant response from Members of Congress, with over 50 
House Members and Senators weighing in via letter with the 
agency. Representatives and Senators from the affected State of 
California strongly opposed preemption of California law.\41\
---------------------------------------------------------------------------
    \40\ 83 Fed. Reg. 50142.
    \41\ Congressional letters available at: https://
www.regulations.gov/document?D=FMCSA-2018-0304-0726.
---------------------------------------------------------------------------
    On December 28, 2018, the Trump Administration reversed 
FMCSA's position from 2008 and granted the petition and 
preempted meal and rest break requirements for drivers as 
enacted by the State of California. On February 7, 2019, the 
California Attorney General filed a petition with the U.S. 
Court of Appeals for the Ninth Circuit, seeking reversal of 
FMCSA's preemption determination.
    On April 18, 2019, the Washington State Trucking 
Association petitioned FMCSA, seeking a determination that 
Washington State meal and rest break rules are preempted. The 
FY 2020 House Transportation, Housing, and Urban Development 
Appropriations Act includes language prohibiting FMCSA from 
reviewing or issuing a decision on petitions to preempt State 
meal and rest break laws.

COMMERCIAL VEHICLES

TRUCK SIZE AND WEIGHT

    Federal law sets maximum standards for weight on the 
Interstate System and minimum standards for length of trucks 
traveling on the Interstate System and the National Network, a 
system of approximately 209,000 miles of roads. Statutory 
changes are required to grant a variance or exemption to allow 
heavier or longer vehicles on any portion of these roads. 
Beyond the Interstate System and National Network, states have 
the ability to set their own size and weight limitations on all 
other roads.
    Federal weight limits applicable on the Interstate System 
are set in section 127 of title 23, United States Code, at 
20,000 pounds on a single axle; 34,000 pounds on a tandem axle; 
and 80,000 pounds gross vehicle weight. Federal law prohibits a 
state from prescribing weight limits that are more or less than 
the federal limits unless it has grandfather rights. In 
addition to the overall weight standards, a state must meet the 
requirements of the Federal Bridge Formula.
    Truck size laws are codified in sections 31111 through 
31115 of title 49, United States Code. Federal length and width 
laws apply on both the Interstate System and the broader 
National Network. Federal law requires a width of 102 inches to 
operate on the National Network, and prohibits a State from 
prescribing standards of more or less than this measurement. 
There is no federal length limit on the National Network; 
instead, federal law requires a minimum 28-foot length for 
trailers in a double combination and 48-foot length for a 
semitrailer. There is no federal standard for vehicle height.
    Congress enacted the first federal truck size and weight 
limits as part of the Federal-Aid Highway Act of 1956 (P.L. 84-
627), and these standards were subsequently amended in the 
Federal-Aid Highway Amendments Act of 1974 (P.L. 93-643) and 
again in the Surface Transportation Assistance Act of 1982 
(P.L. 97-424). Each of these acts contained provisions to allow 
states to continue existing size and weight standards already 
in place, known as grandfather rights. In 1991, in Section 1023 
of the Intermodal Surface Transportation Efficiency Act (ISTEA; 
P.L. 102-240), Congress enacted a freeze on the size and weight 
of longer combination vehicles, defined in the legislation as 
``any combination of a truck tractor and two or more trailers 
or semitrailers which operates on the Interstate System at a 
gross vehicle weight greater than 80,000 pounds.'' Subsequent 
acts of Congress, including SAFETEA-LU in 2005 (P.L. 109-59), 
MAP-21, the FAST Act, and various appropriations Acts have 
included State-specific and industry-specific statutory 
exemptions from the weight standards.
    MAP-21 further required DOT to conduct a Comprehensive 
Truck Size and Weight Study. The Federal Highway Administration 
(FHWA) released the final study in April 2016.\42\ The study 
did not include any recommended changes to current law 
governing truck size and weight due to a lack of sufficient 
data on the impacts of increased truck size and weight on 
infrastructure and safety.
---------------------------------------------------------------------------
    \42\ https://ops.fhwa.dot.gov/freight/sw/map21tswstudy/index.htm.
---------------------------------------------------------------------------

COMMERCIAL VEHICLE SAFETY STANDARDS

    The National Highway Traffic Safety Administration (NHTSA) 
establishes Federal motor vehicle safety standards (FMVSS) 
applicable to commercial vehicles. FMCSA issues Federal motor 
carrier safety regulations (FMCSR) that govern the safe 
operation of a commercial vehicle.

Speed Limiters
    In September 2016, NHTSA and FMCSA published a joint 
proposed rule to require heavy trucks and buses manufactured 
after August 1, 2020, to be equipped with a speed limiting 
device \43\. This rulemaking was undertaken in response to 
petitions requesting a rulemaking, filed separately by the 
American Trucking Associations and Road Safe America. Under the 
proposal, each speed limiting device would be required to be 
operational at all times for drivers who operate in interstate 
commerce. The proposed rule did not specify a maximum speed to 
which a limiter would have to be set; the agencies indicated a 
particular speed would be specified in a final rule once 
comments were reviewed. This rule is listed on DOT's latest 
significant rulemaking report as not active, with no further 
milestones or anticipated dates listed. The FY2018 
Transportation, Housing, and Urban Development Appropriations 
bill, as passed by the House, contained language prohibiting 
DOT from finalizing the speed limiter rule, but this 
prohibition was not retained in final legislation.
---------------------------------------------------------------------------
    \43\ 81 Fed. Reg. 61942 (September 7, 2016).

Underride Guards
    Crashes involving passenger vehicles and large trucks most 
often result in death or injury to occupants of the passenger 
vehicle. In 2017, ninety-seven percent of occupant fatalities 
in large truck-passenger vehicle crashes were those riding in 
the passenger vehicle \44\. One reason why these crashes can be 
so hazardous is that an underride may occur during the 
collision. An underride occurs when the passenger vehicle 
travels partially or completely under the truck due to the 
height differential between the two vehicles. Such underride 
collisions can defeat vehicle crumple zones, prevent air bag 
deployment, and severely crush the vehicle's passenger 
compartment. A 1997 Insurance Institute for Highway Safety 
(IIHS) study estimated that half of all fatal crashes between 
large trucks and passenger vehicles involve an underride \45\.
---------------------------------------------------------------------------
    \44\ Insurance Institute for Highway Safety (2019). Fatality Facts 
2017 Large trucks. https://www.iihs.org/topics/fatalitystatistics/
detail/large-trucks.
    \45\ Insurance Institute for Highway Safety (2019). Large Trucks. 
https://www.iihs.org/topics/large-trucks#truckunderride.
---------------------------------------------------------------------------
    The first Federal underride standard was instituted in 
1953. It required tractor-trailers and single-unit trucks to 
have basic rear guards to block underrides. Currently, heavy 
trailers are required to be equipped with rear underride guards 
that meet standards issued by NHTSA in 1996.\46\ There is no 
Federal requirement that trucks or trailers be equipped with 
side underride guards.
---------------------------------------------------------------------------
    \46\ 61 Fed. Reg. 2004 (January 24, 1996).
---------------------------------------------------------------------------
    IIHS crash tests have demonstrated that rear guards meeting 
current standards perform poorly and that stronger rear and 
side guards currently available on the market provide better 
protection and have the potential to reduce the risk of injury 
and death in up to three-fourths of underride cases.\47\ NHTSA 
issued a Notice of Proposed Rulemaking on December 12, 2015, in 
response to several petitioners to upgrade rear underride 
guards to adopt Transport Canada's rear underride 
requirements.\48\ NHTSA is determining next steps for this 
rulemaking, and the agency's latest rulemaking agenda lists the 
status of this rule as ``long term action''. NHTSA has also 
conducted research into rear and side underride fatal 
crashes.\49\
---------------------------------------------------------------------------
    \47\ Insurance Institute for Highway Safety (2019). Large Trucks. 
https://www.iihs.org/topics/large-trucks#truckunderride.
    \48\ 80 Fed. Reg. 78418.
    \49\ Heavy-Vehicle Crash Data Collection and Analysis to 
Characterize Rear and Side Underride and Front Override in Fatal Truck 
Crashes (DOT HS 811 725), March 2013; Analysis of Rear Underride in 
Fatal Truck Crashes (DOT HS 811 652), August 2012.

Autonomous Vehicles
    The development and deployment of autonomous vehicle 
technologies across different levels of automation is likely to 
have tremendous impacts on the nation's surface transportation 
system. The Society of Automotive Engineers International (SAE) 
has developed six standardized, internationally-adopted 
definitions to describe levels of automation, from Level 0 (no 
automation) with incremental increases in automation up to 
Level 5 (full automation).\50\ Autonomous vehicles use cameras, 
radar, GPS, and other sensors to react to other vehicles on the 
roadway, and the level depends upon the number of features 
included on the vehicle.
---------------------------------------------------------------------------
    \50\ https://www.sae.org/news/press-room/2018/12/sae-international-
releases-updated-visual-chart-for-its-%E2%80%9Clevels-of-driving-
automation%E2%80%9D-standard-for-self-driving-vehicles.
---------------------------------------------------------------------------
    On October 4, 2018, DOT released updated Federal guidance 
for automated vehicles, ``Automated Vehicles 3.0: Preparing for 
the Future of Transportation.'' This built upon DOT's previous 
voluntary guidance for states. The October 2018 guidance 
indicates FMCSA intends to initiate a rulemaking to, ``better 
understand areas of responsibility between the State and 
Federal governments in the context of [automated driving 
system] ADS-equipped commercial motor vehicles and commercial 
carriers.'' \51\ While DOT has looked to the future for 
automation, the Department has not taken steps to require 
driver assist features on newly-manufactured heavy trucks such 
as automatic emergency braking, lane departure warning, and 
collision warning systems, which are considered low levels of 
automation and widely commercially available today.
---------------------------------------------------------------------------
    \51\ See page 12 of https://www.transportation.gov/sites/dot.gov/
files/docs/policy-initiatives/automatedvehicles/320711/preparing-
future-transportation-automated-vehicle-30.pdf.
---------------------------------------------------------------------------
    The NHTSA guidance also raises the need to evaluate and 
respond to the workforce impacts of autonomous vehicles. 
According to NHTSA, ``Entities involved in developing and 
deploying automation technologies may want to consider how to 
assess potential workforce effects, future needs for new skills 
and capabilities, and how the workforce will transition into 
new roles over time. Identifying these workforce effects and 
training needs now will help lead to an American workforce that 
has the appropriate skills to support new technologies.'' \52\
---------------------------------------------------------------------------
    \52\ Ibid, page 10.
---------------------------------------------------------------------------

CROSS BORDER

    The North American Free Trade Agreement (NAFTA), which took 
effect in 1994, required the U.S. to grant Mexico-domiciled 
long-haul trucks the ability to carry goods into the U.S., with 
reciprocity for U.S. carriers travelling into Mexico. The U.S. 
initially delayed granting cross-border operating authority due 
to reports of safety violations on the part of Mexican motor 
carriers. However, Mexico successfully appealed the delay to a 
NAFTA arbitration panel in 2000. This prompted Congress to pass 
Section 350 of the FY 2002 Department of Transportation and 
Related Agencies Appropriations Act (P.L. 107-87), which 
implemented 22 preconditions and safety requirements Mexican 
carriers had to meet before FMCSA could grant them U.S. 
operating authority.
    In 2007, DOT instituted a pilot program for Mexican 
carriers to begin operating in the U.S., but the initial pilot 
program announcement did not apply the same safety standards to 
Mexican carriers and drivers as those in the U.S., such as drug 
and alcohol testing, new entrant safety audits, hours of 
service requirements, and English proficiency requirements. In 
2009, Congress blocked the pilot program from proceeding in the 
Omnibus Appropriations Act of 2009 (P.L. 111-8). In response, 
Mexico imposed retaliatory tariffs against the U.S. In 2011, 
DOT once again launched a revised pilot program to allow access 
to Mexican carriers to operate long-haul in the U.S.
    In 2018, U.S. negotiators under the Trump Administration 
secured language in the United States-Mexico-Canada Agreement 
(USMCA), intended to replace NAFTA, reserving the U.S.'s right 
to impose safety and other standards on trucks entering from 
Mexico, including limiting the operating authority of long-haul 
trucks entering from Mexico based on impacts to U.S. industry. 
Congress must pass the implementing legislation for the USMCA 
before it goes into effect.

TRUCK PARKING

    Carriers and drivers regularly report a significant 
shortage of available parking for trucks in parts of the 
country, and indicate the lack of available parking is a safety 
problem for drivers. In 2005 under SAFETEA-LU, Congress 
authorized $25 million over 4 years for a pilot program to 
address the shortage of long term parking for commercial motor 
vehicles on the National Highway System (NHS). Section 1305 of 
SAFETEA-LU created a discretionary Truck Parking Facilities 
program, providing $6.25 million per year beginning is fiscal 
year 2006. States, metropolitan planning organizations (MPOs), 
and local governments could use funds awarded under this 
competitive program for projects on the National Highway System 
(NHS) to: construct safety rest areas that include commercial 
vehicle parking; construct commercial vehicle parking 
facilities adjacent to commercial truck stops and travel 
plazas; construct turnouts for commercial vehicles; open 
existing facilities to commercial vehicles; make capital 
improvements to public commercial vehicle parking facilities to 
allow year-round use; improve the geometric design of 
interchanges to improve access to parking facilities; and 
promote the availability of publicly or privately provided 
commercial vehicle parking on the NHS using Intelligent 
Transportation Systems and other means.
    In 2015, MAP-21 eliminated the dedicated funding for the 
Truck Parking Facilities program, but it established 
eligibility for truck parking under the National Highway 
Performance Program, the Surface Transportation Program, and 
the Highway Safety Improvement Program. Section 1401 of MAP-21, 
referred to as ``Jason's Law,'' also required the Federal 
Highway Administration (FHWA) to conduct a survey to evaluate 
the capability of States to provide adequate parking and rest 
facilities for commercial motor vehicles engaged in interstate 
transportation. FHWA worked with States and industry members 
and organizations, including truck drivers and representatives 
of trucking firms, travel plaza and truck stop owners and 
operators, and commercial motor vehicle safety contacts in each 
State. The results of the survey provide States and MPOs with 
insight into the issues associated with commercial vehicle 
parking, including shortages in particular geographic regions, 
to identify parking needs and to encourage improvements and 
investments. FHWA conducted the survey required by Jason's Law 
and published the results in August 2015.\53\
---------------------------------------------------------------------------
    \53\ https://ops.fhwa.dot.gov/freight/infrastructure/truck_parking/
jasons_law/truckparkingsurvey/jasons_law.pdf.
---------------------------------------------------------------------------

                              WITNESS LIST

    <bullet>  Ms. Cathy Chase, President, Advocates for Highway 
and Auto Safety
    <bullet>  Mr. Chris Spear, President & CEO, American 
Trucking Associations
    <bullet>  Mr. Todd Spencer, President, Owner-Operator 
Independent Drivers Association
    <bullet>  Mr. Lamont Byrd, Director, Health and Safety 
Department, International Brotherhood of Teamsters
    <bullet>  Mr. Jason Craig, Director of Government Affairs, 
C.H. Robinson
    <bullet>  Mr. Rodney Noble, Senior Director for 
Transportation Global Procurement, PepsiCo
    <bullet>  Deputy Chief Mark Savage, Colorado Highway 
Patrol, on behalf of the Commercial Vehicle Safety Alliance
    <bullet>  Mr. Andy Young, Truck Safety Advocate

 
            UNDER PRESSURE: THE STATE OF TRUCKING IN AMERICA

                              ----------                              


                        WEDNESDAY, JUNE 12, 2019

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton (Chairwoman of the subcommittee) presiding.
    Ms. Norton. Good morning. I ask unanimous consent that 
Members not on the subcommittee be permitted to sit with the 
subcommittee at today's hearing and ask questions.
    Without objection, so ordered.
    Mr. Davis. I regrettably cannot object because he is not 
here yet, but I would like for the record that Garret Graves 
did not say please to get put on this.
    Ms. Norton. So noted.
    I will now make my own opening statement.
    I want to welcome you all to today's hearing. There are 
some surprising, at least to me, issues to be discussed and 
current challenges that this committee needs to take under 
advisement.
    As Congress looks to enact changes to trucking policy in 
the upcoming reauthorization, how to improve safety must be a 
guiding question, and I must say new questions, new challenges, 
new statistics need to be explained.
    For example, truck crash fatalities jumped nearly 10 
percent in 1 year between 2016 and 2017. I would have questions 
on that. I do not understand it.
    And these fatalities have increased 40 percent in the last 
10 years, since 2009. We clearly must do more to save lives.
    The Federal Government has no--and perhaps this has 
something to do with it--has no clear safety measurement 
system, and the public does not have access to safety oversight 
data.
    The U.S. Department of Transportation has worked for over a 
decade to improve the system of safety oversight of trucking 
companies, but so far it has not translated the safety data it 
has collected into a way to measure, some meaningful measure 
that can help shippers and brokers and insurers and the 
traveling public understand which companies are safe and which 
companies are not.
    Currently 86 percent of the industry--that is the 
overwhelming amount of the industry--has no safety rating, and 
many of the ratings in existence are so outdated that they are 
obsolete and no one should rely upon them.
    Congress needs to take action to get a handle on this 
problem and direct the U.S. Department of Transportation to 
finalize a safety fitness determination rule.
    We will also hear about an issue that I tried to highlight 
for years, fixing the glaring omission in licensing rules that 
allows a new driver to obtain a commercial driver's license 
without a specific amount of behind-the-wheel training time 
required.
    DOT did issue a training rule in 2016, after 25 years, I 
should note, in which it had engaged in rulemaking trying to 
get it right. And still DOT failed to require a minimum number 
of hours behind the wheel. Why? What is the problem here?
    Providing robust training empowers drivers to be safe and 
confident on the road and is an important way to attract 
quality drivers, and of course, that is a major problem in the 
industry.
    We will also hear today that the trucking industry is 
increasingly losing drivers, and obviously for years now it has 
had trouble attracting drivers. This is not an occupation in 
which people want to engage, especially young people today, and 
we need to understand why and what to do about it.
    While some in the industry call for lowering the interstate 
driving age from 21 to 18, this certainly does not solve the 
underlying factors that thwart the industry from attracting 
drivers and keeping good drivers. That is probably wages and 
really the appalling working conditions that come with being a 
truck driver in our country today.
    There is a growing recognition that the way drivers are 
compensated--by the load or the mile, not by the hour--is a 
problem. Drivers face increased pressure to deliver goods, 
although many factors on the routes are beyond their control, 
for example, congested roads and delays at shipper facilities.
    Segments of the industry are seeking exemption requests 
from Congress for additional on-duty time, but these requests 
focus on the ability for companies to squeeze more hours into 
the day. There is no mention that extra hours do not mean extra 
pay for millions of drivers in the industry.
    This, too, is something the subcommittee, which is 
responsible for oversight of hours-of-service regulation, needs 
to focus on for a solution finally.
    I am eager to hear about the future of the industry, and I 
particularly look forward to the strides that companies, such 
as PepsiCo, which is testifying on the panel, have made to 
electrify and green their truck fleets. Technology and 
innovation continue to hold great potential to realize safety 
gains and to improve mobility in goods movement.
    But these gains can only be recognized if we find the right 
balance to protect consumers and drivers and workers in the 
industry while at the same time compensating innovation. The 
committee must play a strong role in sustaining--striking, 
indeed--this balance.
    I also know that full automation is not right around the 
corner, exciting as this notion is. In the immediate term, 
technology is available to save lives, such as automatic 
emergency braking and collision warning systems, although these 
remain optional on trucks today.
    Finally, I would like to welcome Marianne Karth and Lois 
Durso, who have been dedicated safety advocates. In our 
audience today is Marianne Karth. I want to thank both of these 
women for their efforts to turn the tragic loss of their 
children in truck underride crashes, which we will also hear 
about today, into a force for good.
    I want to thank all of our witnesses. I will look forward 
to discussion about creative, collaborative solutions that will 
elevate the state of the industry and improve the safety of 
trucks in our Nation today.
    I now call on the ranking member of the subcommittee, Mr. 
Davis, for his opening statement.
    [Ms. Norton's prepared statement follows:]

                                 <F-dash>
    Prepared Statement of Hon. Eleanor Holmes Norton, a Delegate in 
  Congress from the District of Columbia, and Chair, Subcommittee on 
                          Highways and Transit
    Welcome to today's hearing on the state of trucking. I look forward 
to what I expect will be a lively discussion, on a wide range of 
topics, from a diverse panel of witnesses. We will hear about current 
challenges facing the industry, as well as a look ahead to the future.
    As Congress looks to enact changes to trucking policy in 
reauthorization, how to improve safety must be a guiding question. 
Truck crash fatalities jumped nearly ten percent between 2016 and 2017, 
and increased over 40 percent since 2009. We must do more to save 
lives.
                     safety oversight of companies
    We will hear today that there is no clear safety measurement system 
in place by the Federal Government, and that the public does not have 
access to safety oversight data. The U.S. Department of Transportation 
has worked for over a decade to improve its system of safety oversight 
of trucking companies, but so far, it has failed to translate the 
safety data it collects into a meaningful measure that can help 
shippers, brokers, insurers, and the traveling public understand which 
companies are safe and which ones are not. Currently, 86 percent of the 
industry has no safety rating, and many of the ratings are so outdated 
they're obsolete. Congress needs to take action to get a handle on this 
problem and direct U.S. DOT to finalize a Safety Fitness Determination 
rule.
                             driver issues
    We will also hear about an issue that I have highlighted for 
years--we must fix the glaring omission in licensing rules that allows 
a new driver to obtain his or her Commercial Driver's License (CDL) 
without a specific amount of behind-the-wheel training time required. 
DOT issued a training rule in 2016--after 25 years of rulemaking on 
this issue, trying to get it right--that failed to require a minimum 
number of hours behind the wheel.
    Providing robust training empowers drivers to be safe and confident 
on the road and is an important way to attract quality drivers. We will 
also hear today that the trucking industry is increasingly losing 
drivers and is having trouble attracting new drivers. While some in the 
industry call for lowering the interstate driving age from 21 years to 
18 years, this will do nothing to solve the underlying factors that 
thwart industry from attracting and keeping good drivers--namely driver 
wages and working conditions.
    There is growing recognition that the way drivers are compensated--
by the load or mile, not by the hour--is a problem. Drivers face 
increased pressure to deliver loads while many factors on their routes 
are beyond their control such as congested roads and delays at shipper 
facilities. Segments of industry are seeking exemption requests from 
Congress for additional on-duty time, but these requests focus on the 
ability for companies to squeeze more hours into a day. There is never 
a mention that extra hours do not mean extra pay for millions of 
drivers in the industry. This is something this Subcommittee, which is 
responsible for oversight of hours of service regulations, needs to 
wrestle with.
                           future of trucking
    I am eager to hear about the future of the industry. I look forward 
to hearing the strides companies, such as PepsiCo that is represented 
on the panel, have made to electrify and green their truck fleets. 
Technology and innovation continues to hold great potential to realize 
safety gains and to improve mobility in goods movement. But these gains 
can only be realized if we find the right balance to protect consumers, 
drivers, and workers in the industry while supporting innovation. This 
Committee must play a strong role in sustaining that balance. I also 
note that full automation is not right around the corner. In the 
immediate term, technology is available now to save lives--such as 
automatic emergency braking and collision warning systems--but these 
remain optional on trucks today.
    Finally, I would like commend the work of Marianne Karth and Lois 
Durso, two dedicated safety advocates. Marianne is in the audience 
today. Thank you for your efforts to turn the tragic loss of your 
children in truck underride crashes, which we will also hear about 
today, into a force for public good.
    Thank you to each of our witnesses for being here today and 
offering your unique perspective. I hope that today's discussion will 
yield creative, collaborative solutions that will elevate the state of 
the industry and improve the safety of trucks on our Nation's roadways.

    Mr. Davis. Thank you, Madam Chair.
    I want to welcome everyone to today's hearing.
    The subcommittee is continuing to ramp up its efforts to 
reauthorize the Federal surface transportation programs and 
policies. So far we have held two hearings to gather 
stakeholder feedback on possible changes to those programs and 
those policies.
    Today we are turning our attention to the policies and the 
programs that impact trucking. The trucking industry's 
contribution to the Nation's economy is very significant. 
Trucks moved approximately 10.8 billion tons of freight in 
2017, and the industry employs over 6 million drivers.
    The subcommittee has broad jurisdiction in this area. We 
are not only responsible for improving the surface 
transportation system that facilities freight movement to 
domestic and international markets, but we are also responsible 
for the safety of the users of that system and the regulatory 
environment that the trucking industry operates in.
    Each of these responsibilities must be considered in a 
comprehensive manner. As we proceed with our discussion today, 
there are a few thoughts that I think we should keep in mind.
    Safety has and must continue to be a focus of the surface 
transportation reauthorization bill. Congress, along with the 
Department of Transportation, our non-Federal partners and the 
private sector, has made strides to improve the safety of our 
surface transportation system, but there is always more that we 
can do together.
    We need to focus Federal resources where they can make the 
most impact and continue to provide State law enforcement 
agencies with the tools and the resources they need to 
effectively enforce Federal regulations.
    We must also be careful to not impose burdensome 
regulations that impeded our ability to move goods or that do 
not help us achieve our safety objective.
    Finally, we must ensure that we make the necessary 
improvements to our surface transportation system to continue 
to facilitate the safe and efficient movement of freight.
    Our panel of witnesses represents a diverse set of 
perspectives on this topic and all the topics mentioned before.
    With that, I want to thank our witnesses once again for 
being with us this morning. I look forward to hearing their 
testimony.
    And I yield back the balance of my time.
    [Mr. Davis's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rodney Davis, a Representative in Congress 
    from the State of Illinois, and Ranking Member, Subcommittee on 
                          Highways and Transit
    The subcommittee is continuing to ramp up its efforts to 
reauthorize Federal surface transportation programs and policies. So 
far, we've held two hearings to gather stakeholder feedback on possible 
changes to those programs and policies.
    Today, we're turning our attention to the policies and programs 
that impact trucking. The trucking industry's contribution to the 
Nation's economy is significant. Trucks moved approximately 10.8 
billion tons of freight in 2017, and the industry employs over 6 
million drivers.
    The subcommittee has broad jurisdiction in this area. We are not 
only responsible for improving the surface transportation system that 
facilitates freight movement to domestic and international markets, but 
we are also responsible for the safety of the users of that system and 
the regulatory environment that the trucking industry operates in. Each 
of these responsibilities must be considered in a comprehensive manner.
    As we proceed with our discussion today, there are a few thoughts 
that I think we should keep in mind.
    Safety has and must continue to be a focus of the surface 
transportation reauthorization bill. Congress, along with the 
Department of Transportation, our non-Federal partners, and the private 
sector, has made strides to improve the safety of our surface 
transportation system. But there is always more that we can do 
together.
    We need to focus Federal resources where they can make the most 
impact, and continue to provide state law enforcement agencies with the 
tools and resources they need to effectively enforce Federal 
regulations.
    We must also be careful to not impose burdensome regulations that 
impede our ability to move goods or that do not help us achieve our 
safety objective.
    Finally, we must ensure that we make the necessary improvements to 
our surface transportation system to continue to facilitate the safe 
and efficient movement of freight.

    Ms. Norton. Thank you, Mr. Davis.
    I would like to hear now from the chairman of the full 
committee, Mr. DeFazio.
    Mr. DeFazio. Thank you, Madam Chair. Thanks for calling 
this diverse group of witnesses. I expect we may have some 
lively interaction on the panel, which I always encourage.
    We are at a time where the trucking industry is, I think, 
reaching a tipping point. The pressures on carriers and drivers 
are extraordinary these days, and the policies that we enact 
here in the next surface bill will have a major impact on 
public safety, carrier operations, truck driver wages, and 
working conditions.
    Carriers have set the expectation they can and will deliver 
more goods faster at the lowest possible cost, but 
unfortunately, in many cases drivers absorb the uncertainties 
of the goods movement and the pressures that are resulting--
everything from congestion, wait time at ports, shipper 
facilities, and fluctuating fuel prices.
    Some drivers are compensated only by the mile, not by the 
hour; they are often faced with the false choice of getting a 
day's wages or getting adequate rest and following hours-of-
service rules.
    Even as their days get longer, many truck drivers have not 
seen their wages increase, and you know, sometimes when States 
move forward with progressive laws to provide truck drivers 
with paid sick leave and paid rest breaks, there is a 
tremendous attempt by the industry to preempt those rules or 
laws.
    Given these pressures, there is no surprise that rigid, 
complex legislation, such as hours of service, feel unworkable, 
but we cannot paper this over. We have got to write rules or 
mandate rules that make sense. We cannot stretch drivers even 
thinner or force them to drive unreasonable hours and, 
therefore, tired and unsafely.
    We are going to debate about why there is a driver 
shortage. It is simple in my mind. If you want to attract and 
retain quality drivers, you need policies that ensure trucking 
remains a good job with adequate compensation.
    It is also not surprising that safety indicators are moving 
in the wrong direction, as mentioned by the chair. Large truck 
fatalities have disturbingly climbed every year since 2009 in 
real terms and as a percentage of miles traveled, and saving 
lives is a very, very strong objective of this committee, and 
having better safety on the highways.
    More of the debates recently have all been about 
productivity, flexibility, and other disagreements, but we need 
to take positive steps and encourage DOT to take positive steps 
in this area.
    I think it is time for a new approach. I hear a lot from 
stakeholders, my colleagues, about the unintended consequences 
of Federal rules. Rather than rendering existing rules 
worthless through exemptions, let's be intentional.
    Let's take a fresh look at a host of things that are not 
working in our system, goods movements and how they interact. 
Let's figure out how Congress and the administration can 
maintain the highest levels of safety with clear and forceful 
regulations, but in a way that acknowledges the diversity of 
operations and rapidly changing nature of the industry.
    I also want to highlight cross-border trucking. I opposed 
NAFTA 25 years ago, in good part because it granted broad 
authority for Mexican carriers to drive on U.S. roads despite 
the very significant discrepancies in safety standards between 
the two countries.
    And I am pleased that Ambassador Lighthizer and the 
administration have been listening, and the USMCA includes 
language that will reinforce the rights of the U.S. to limit 
grants of operating authority for Mexican carriers if it will 
harm U.S. companies or drivers.
    Now, Mr. Byrd, in your testimony, you lay out troubling 
ways in which U.S. companies undermine these efforts to protect 
the domestic labor market and U.S. truck drivers by employing 
drivers from Mexico through B-1, and I think Congress needs to 
take a hard look at that.
    And, Mr. Spear, you talk about the industry's opposition to 
tolling, and I share many of your concerns there. 
Unfortunately, the only concrete proposal we have had out of 
this administration would be to shift all of the burden to the 
States to maintain the national system of infrastructure and 
goods movement, with a proliferation of tolling in the States.
    Now, the President himself has rejected that, but 
unfortunately, that is the only proposal we have seen. So I 
think this committee is going to have to look very hard at 
tolling and congestion pricing because States are moving ahead, 
and we need to look at what the implications are for the 
Federal system and the future of the movement of goods and 
people in this country.
    I welcome the witnesses and look forward to your testimony.
    Thank you, Madam Chair.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
      Congress from the State of Oregon, and Chair, Committee on 
                   Transportation and Infrastructure
    Thank you, Madam Chair, for holding this aptly titled hearing.
    The trucking industry is reaching a tipping point as carriers and 
drivers face mounting pressure. The policies Congress chooses to enact 
to relieve this pressure will have real impacts on public safety, 
carrier operations, and truck driver wages and working conditions.
    Carriers have set the expectation that they can and will deliver 
more goods, faster, and at the lowest possible cost. In many cases, 
drivers absorb the uncertainties of goods movement--everything from 
congestion and wait times at ports and shipper facilities to 
fluctuating fuel prices.
    Drivers who are compensated by the mile, not by the hour, face the 
false choice of getting paid or getting adequate rest. They often do 
not see their wages rise even as their work days get longer. And when 
States enact progressive laws to provide truck drivers with paid sick 
leave or paid rest breaks, most of the industry works to quash these 
efforts through Federal preemption.
    In light of these pressures on drivers, it's no surprise that 
rigid, complex regulations--such as hours of service--feel unworkable. 
But we cannot paper over this problem by granting exemptions and 
stretching drivers even thinner through longer on-duty windows while 
ignoring the underlying operational realities.
    Today, we will hear debate about whether--and why--there is a 
driver shortage. It's simple--if we want to attract and retain quality 
drivers, we need to support policies to ensure that trucking remains a 
good job.
    It's also not surprising that safety indicators are moving in the 
wrong direction. Large truck fatalities have climbed each year since 
2009 in real terms and as a percentage of miles travelled. Saving lives 
requires a strong commitment to safety as a top priority. 
Unfortunately, in recent years, debates in Congress have focused more 
on productivity and flexibility needs than safety outcomes. And in the 
last 2 years, the U.S. Department of Transportation has spent more time 
stalling and rolling back rules than advancing new safety initiatives.
    It's time for a new approach. I hear a lot from stakeholders and my 
colleagues about the ``unintended consequences'' of Federal rules. 
Rather than rendering existing rules worthless through endless 
exemptions, let's be intentional. Let's take a fresh look at a host of 
things that are not working in our system of goods movement and how 
they interact. Let's figure out how Congress and the administration can 
maintain the highest levels of safety with clear, enforceable 
regulations, but in a way that acknowledges the diversity of operations 
and the rapidly changing nature of the industry.
    I also want to highlight cross border trucking. I opposed NAFTA 25 
years ago, in part because it granted broad authority for Mexican 
carriers to drive on U.S. roads despite the significant discrepancies 
in safety standards between the two countries. I am pleased that the 
recently negotiated United States Mexico Canada Agreement (USMCA) 
includes language that reinforces the rights of the U.S. to limit 
grants of operating authority for Mexican carriers if it will harm U.S. 
companies or drivers.
    Mr. Byrd, your testimony lays out troubling ways in which U.S. 
companies undermine these efforts to protect the domestic labor market 
and U.S. truck drivers by employing drivers from Mexico through the B-1 
visa system. I believe Congress needs to look into this practice in 
detail.
    Finally, I'd like to note that in your testimony, Mr. Spear, you 
talk about the industry's opposition to tolling. Tolling and congestion 
pricing are topics that I believe warrant in-depth discussion as we 
look to surface reauthorization, and I expect we will have the 
opportunity delve into those at a future hearing.
    I welcome each of the witnesses assembled here today. We have quite 
a diverse set of views on the panel, and I look forward to what I hope 
will be a lively and productive discussion.

    Ms. Norton. Thank you, Mr. DeFazio or Chairman DeFazio.
    I would like to welcome our witnesses. I am going to 
quickly go down their names. They are many, but that is because 
of the issues before us today.
    Cathy Chase, president, Advocates for Highway and Auto 
Safety.
    Chris Spear, president and CEO, American Trucking 
Associations.
    Todd Spencer, president, Owner-Operator Independent Drivers 
Association.
    Lamont Byrd, director of safety and health, International 
Brotherhood of Teamsters.
    Jason Craig, director of government affairs, C.H. Robinson.
    Rodney Noble, senior director of transportation global 
procurement, PepsiCo.
    Deputy Chief Mark Savage, Colorado State Patrol, on behalf 
of the Commercial Vehicle Safety Alliance.
    And Andy Young, truck safety advocate.
    Thank you all for being here. We look forward to your 
testimony.
    Without objection, our witnesses' full statements will be 
included in the record. Since your written statement has been 
made a part of the record, the subcommittee requests that you 
limit your oral testimony to 5 minutes.
    Before we hear from our distinguished panel of witnesses, I 
recognize Representative Gibbs to introduce Mr. Young.
    Mr. Gibbs. Thank you, Madam Chair.
    I just wanted to welcome Mr. Andy Young. He is a 
constituent. It is not every day you get to welcome a 
constituent to a committee as a witness and also welcome him to 
Washington, DC.
    You can also see in his testimony he is the proud owner of 
an old, classic Peterbilt 359. Anybody who knows anything about 
trucks, that is the king of all trucks, right?
    So welcome, and I am glad you are here.
    Mr. Young. Thank you.
    Mr. Gibbs. I yield back.
    Ms. Norton. Thank you very much.
    We will now proceed with our witnesses.
    President Cathy Chase, Advocates for Highway and Auto 
Safety, you may begin.

TESTIMONY OF CATHERINE CHASE, PRESIDENT, ADVOCATES FOR HIGHWAY 
  AND AUTO SAFETY; CHRIS SPEAR, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, AMERICAN TRUCKING ASSOCIATIONS; TODD SPENCER, 
     PRESIDENT AND CHIEF EXECUTIVE OFFICER, OWNER-OPERATOR 
   INDEPENDENT DRIVERS ASSOCIATION; LAMONT BYRD, DIRECTOR OF 
  SAFETY AND HEALTH, INTERNATIONAL BROTHERHOOD OF TEAMSTERS; 
  JASON CRAIG, DIRECTOR OF GOVERNMENT AFFAIRS, C.H. ROBINSON; 
    RODNEY NOBLE, SENIOR DIRECTOR OF TRANSPORTATION GLOBAL 
PROCUREMENT, PEPSICO; DEPUTY CHIEF MARK SAVAGE, COLORADO STATE 
 PATROL, ON BEHALF OF THE COMMERCIAL VEHICLE SAFETY ALLIANCE; 
             AND ANDY YOUNG, TRUCK SAFETY ADVOCATE

    Ms. Chase. Good morning, Chairwoman Norton, Ranking Member 
Davis, and Chairman DeFazio, and members of the subcommittee.
    I am Cathy Chase, president of Advocates for Highway and 
Auto Safety. Founded in 1989, Advocates is a coalition 
comprised of public health, safety, and consumer organizations, 
and property casualty insurance companies dedicated to reducing 
crashes, deaths, injuries, and costs on our Nation's roads.
    Thank you for holding today's hearing whose title aptly 
captures that the state of trucking in America has reached a 
pressure point.
    Before today is over, more than a dozen people will be 
killed and more than 400 will suffer injuries in truck crashes, 
based on averages. Unfortunately, these numbers are getting 
worse.
    Since 2009, when truck crash fatalities were at the most 
recent low point, deaths have gone up more than 40 percent. 
While trucking is a vital, cherished, and necessary part of our 
country's commerce, we can and must do better.
    Last week I had the opportunity to go on a ride-along in a 
truck on I-95. Spending the day in a cab not only gave me 
firsthand insight into the pressures faced by truck drivers, 
but also fortified our position that this subcommittee should 
advance legislation to improve conditions for truck drivers 
and, in turn, for all motorists.
    Seeing how seamlessly advanced technologies work and that 
they are available and in trucks was remarkable. The speed 
limiter, electronic logging device, lane departure warning, and 
automatic emergency braking, which thankfully did not have to 
engage during my trip, all provided added safety assurance.
    Additionally, these technologies imbued the driver with 
tremendous pride in his job. Legislation to require these 
technologies as standard equipment would help ensure all truck 
drivers have access to these lifesaving systems.
    I also witnessed the importance of providing drivers with 
an opportunity for a break. When was the last time any of us 
worked 8 straight hours without one, let alone day after day?
    The ability to stand up, stretch your legs, grab something 
to eat or other small tasks we all take for granted are 
severely limited when driving a truck.
    In addition to threats to needed breaks, there are three 
other proposals we urge you to reject. First, attempts to 
increase truck size and weights, including State- and industry-
specific exemptions, pilot programs, and a configuration known 
as double 33s should be denied.
    Bigger and heavier trucks mean bigger problems for safety 
and infrastructure.
    Second, attempts to further chip away at rules in place to 
prevent tired truckers should be opposed. Fatigue is a major 
truck safety problem, as identified for many years by the 
National Transportation Safety Board.
    Since the ELD rule took effect, driver inspections with an 
hours-of-service violation have decreased substantially.
    And third, efforts to pull teens from carrying books in 
high school highways to getting behind the wheel on high-speed 
highways are unsafe and unwise. CMV drivers under age 21 are 
four to six times more likely to be involved in a fatal truck 
crash.
    During my ride-along, I was particularly struck by the 
massive amount of responsibility a driver has, in addition to 
driving.
    Conversely, the good news is that commonsense remedies are 
available and could be saving lives today. I will briefly 
discuss five innovative and proven solutions.
    First, speed limiters, which are currently being used in a 
majority of trucks could help prevent and mitigate truck 
crashes. According to Federal data, over 1,000 lives are lost 
annually on average to speeding CMVs.
    Second, automatic emergency braking, also known as AEB, 
systems alert the driver to an object in front of it, such as a 
vehicle, and can apply the brakes if the driver fails to 
respond.
    Third, underride guards. Standards could save lives in 
horrific and violent crashes that occur when cars travel under 
a truck or trailer.
    Fourth, entry-level driver training rules must be improved 
to include a minimum number of behind-the-wheel instruction to 
obtain a CDL, as the chairwoman noted earlier.
    And, fifth, the FMCSA must have the ability to better 
identify and intervene with high-risk carriers. The safety 
fitness determination rulemaking should be reinstated and all 
safety data that is part of the Compliance, Safety, 
Accountability program should be available to the public.
    Lastly, any conversation about autonomous trucks must 
recognize that at a minimum a driver with a CDL must be in the 
cab for the foreseeable future.
    This technology is not yet ready for prime time. Just last 
week an article revealed that the CEO of Honda was taking a 
ride in a GM autonomous prototype when the car's software 
suddenly turned itself off even as the car kept moving. A 
safety driver had to take control and bring the car to a halt. 
I shudder to think about if the vehicle had been an 18-wheeler.
    We must also make sure there are performance requirements 
for new technology and that automated systems are never used as 
a justification for getting rid of critical safety regulations.
    Thank you again for your leadership and holding this 
hearing and for the opportunity to testify. We look forward to 
working together with this subcommittee to reverse the upward 
trend of truck crash fatalities.
    [Ms. Chase's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Catherine Chase, President, Advocates for Highway 
                            and Auto Safety
                              introduction
    Advocates for Highway and Auto Safety (Advocates) is a coalition of 
public health, safety and consumer organizations, insurers and 
insurance agents that promotes highway and auto safety through the 
adoption of federal and state laws, policies and regulations. Advocates 
is unique both in its board composition and its mission of advancing 
safer vehicles, safer motorists and road users, and safer roads.
             large truck crash deaths continue to skyrocket
    Fatal truck crashes continue to occur at an alarmingly high rate. 
In 2017, crashes involving large trucks killed 4,761 people.\1\ This is 
an increase of 9 percent from the previous year and an increase of 41 
percent since 2009. Additionally, 148,000 people were injured in 
crashes involving large trucks in 2017. In fatal two-vehicle crashes 
between a large truck and a passenger motor vehicle, 97 percent of the 
fatalities were occupants of the passenger vehicle.\2\ The cost to 
society from crashes involving commercial motor vehicles (CMVs) was 
estimated to be $134 billion in 2016.
---------------------------------------------------------------------------
    \1\ Statistics are from the U.S. Department of Transportation 
unless otherwise noted.
    \2\ A Compilation of Motor Vehicle Crash Data from the Fatality 
Analysis Reporting System and the General Estimates System, NHTSA, DOT 
HS 812 554. (2016 Annual Report).
---------------------------------------------------------------------------
    Each day on average, 13 people are killed and more than 400 people 
are injured in large truck crashes. This preventable fatality toll 
amounts to a major airplane crash every other week of the year. A 
number of identified and persistent problems are contributing to these 
crashes, deaths and injuries. However, solutions are available that can 
help to reverse these grim statistics. Unfortunately, many of these 
solutions continue to languish and worse yet, certain segments of the 
industry are relentless in their efforts to roll back, weaken and 
degrade essential rules and regulations. Now is the time to turn this 
trend around.
    mounting pressure from special interests to erode truck safety 
                              protections
    Overweight trucks disproportionately damage our Nation's crumbling 
infrastructure and threaten public safety. Federal limits on the weight 
and size of CMVs are intended to protect truck drivers, the traveling 
public and America's roads and bridges. Yet, provisions allowing larger 
and heavier trucks that violate or circumvent these federal laws to 
operate in certain states or for specific industries have often been 
tucked into must-pass bills to avoid public scrutiny.
    According to the 2017 Infrastructure Report Card from the American 
Society of Civil Engineers, America's roads receive a grade of ``D'' 
and our bridges were given a ``C+''.\3\ Nearly 40 percent of our 
615,000 bridges in the National Bridge Inventory are 50 years or older, 
and one out of 11 is structurally deficient.\4\ The U.S. Department of 
Transportation (DOT) Comprehensive Truck Size and Weight Study found 
that introducing double 33-foot trailer trucks, known as ``Double 
33s,'' would be projected to result in 2,478 bridges requiring 
strengthening or replacement at an estimated one-time cost of $1.1 
billion.\5\ This figure does not even account for the additional, 
subsequent maintenance costs which will result from longer, heavier 
trucks. In fact, increasing the weight of a heavy truck by only 10 
percent increases bridge damage by 33 percent.\6\ The Federal Highway 
Administration (FHWA) estimates that the investment backlog for 
bridges, to address all cost-beneficial bridge needs, is $123.1 
billion.\7\ The U.S. would need to increase annual funding for bridges 
by 20 percent over current spending levels to eliminate the bridge 
backlog by 2032.\8\
---------------------------------------------------------------------------
    \3\ 2017 Infrastructure Report Card--Bridges, American Society of 
Civil Engineers (ASCE); 2017 Infrastructure Report Card--Roads, ASCE.
    \4\ 2017 Infrastructure Report Card--Bridges (ASCE).
    \5\ Comprehensive Truck Size and Weight Limits Study: Bridge 
Structure Comparative Analysis Technical Report, FHWA, June 2015.
    \6\ Effect of Truck Weight on Bridge network Costs, NCHRP Report 
495, National Cooperative Highway Research Program, 2003.
    \7\ 2015 Status of the Nation's Highways, Bridges, and Transit: 
Conditions and Performance, Chapter 7, p. 7-34, FHWA, 2016.
    \8\ Id.
---------------------------------------------------------------------------
    Raising truck weight or size limits could result in an increased 
prevalence and severity of crashes. Longer trucks come with operational 
difficulties such as requiring more time to pass, having larger blind 
spots, crossing into adjacent lanes, swinging into opposing lanes on 
curves and turns, and taking a longer distance to adequately brake. In 
fact, double trailer trucks have an 11 percent higher fatal crash rate 
than single trailer trucks.\9\ Overweight trucks also pose serious 
safety risk. Not surprisingly, trucks heavier than 80,000 pounds have a 
greater number of brake violations, which are a major reason for out-
of-service violations.\10\ According to a North Carolina study by the 
Insurance Institute for Highway Safety (IIHS), trucks with out-of-
service violations are 362 percent more likely to be involved in a 
crash.\11\ This is also troubling considering that tractor-trailers 
moving at 60 mph are required to stop in 310 feet--the length of a 
football field--once the brakes are applied.\12\ Actual stopping 
distances are often much longer due to driver response time before 
braking and the common problem that truck brakes are often not in 
adequate working condition.
---------------------------------------------------------------------------
    \9\ An Analysis of Truck Size and Weight: Phase I--Safety, 
Multimodal Transportation & Infrastructure Consortium, November 2013; 
Memorandum from J. Matthews, Rahall Appalachian Transportation 
Institute, Sep. 29, 2014.
    \10\ Roadside Inspections, Vehicle Violations: All Trucks Roadside 
Inspections, Vehicle Violations (2016--Calendar), FMCSA.
    \11\ Teoh E, Carter D, Smith S and McCartt A, Crash risk factors 
for interstate large trucks in North Carolina, Journal of Safety 
Research (2017).
    \12\ Code of Federal Regulations (CFR) Title 49 Part 571 Section 
121: Standard No. 121 Air brake systems (FMVSS 121).
---------------------------------------------------------------------------
    There is overwhelming opposition to any increases to truck size and 
weight limits. The public, local government officials, safety, consumer 
and public health groups, law enforcement, first responders, truck 
drivers and labor representatives, families of truck crash victims and 
survivors, and even Congress on a bipartisan level have all rejected 
attempts to increase truck size and weight. Also, the technical reports 
released in June 2015 from the U.S. DOT Comprehensive Truck Size and 
Weight Study concluded there is a ``profound'' lack of data from which 
to quantify the safety impact of larger or heavier trucks and 
consequently recommended that no changes in the relevant truck size and 
weight laws and regulations be considered until data limitations are 
overcome.
    It is clear that increasing truck size and weight will exacerbate 
safety and infrastructure problems, negate potential benefits from 
investments in roads and bridges, and divert rail traffic from 
privately owned freight railroads to our already overburdened public 
highways. Despite claims to the contrary, bigger trucks will not result 
in fewer trucks. Following every past increase to federal truck size 
and weight, the number of trucks on our roads has gone up. Since 1982, 
when Congress last increased the gross vehicle weight limit, truck 
registrations have more than doubled.\13\ The U.S. DOT study also 
addressed this meritless assertion and found that any potential mileage 
efficiencies from the use of heavier trucks would be offset in just one 
year.\14\
---------------------------------------------------------------------------
    \13\ 2016 Overview; and Traffic Safety Facts 2015, A Compilation of 
Motor Vehicle Crash Data from the Fatality Analysis Reporting System 
and the General Estimates System, NHTSA, DOT HS 812 384.
    \14\ Comprehensive Truck Size and Weight Limits Study, Federal 
Highway Administration (June 2015).

        Recommendation: Congress should oppose changes to federal truck 
        size and weight limits, including mandating double 33 feet 
        trailers, pilot programs and state or industry specific 
---------------------------------------------------------------------------
        exemptions.

    Driver fatigue is a well-known CMV safety problem. The National 
Transportation Safety Board (NTSB) has repeatedly cited fatigue as a 
major contributor to truck crashes and included reducing fatigue 
related crashes in every edition of its Most Wanted List of safety 
changes since 2016. Currently, truck drivers are permitted to drive up 
to 11 hours per day for a total of 77 hours per week. These grueling 
hours can lead to cumulative fatigue and devastating safety 
consequences. Self-reports of fatigue, which almost always 
underestimate the problem, document that fatigue in truck operations is 
a significant issue. In a 2006 driver survey prepared for the Federal 
Motor Carrier Safety Administration (FMCSA), ``65 percent [of drivers] 
reported that they often or sometimes felt drowsy while driving'' and 
almost half (47.6 percent) of drivers said they had fallen asleep while 
driving in the previous year. Yet, certain segments of the trucking 
industry continue to push for further weakening of hours-of-service 
(HOS) safety regulations.
    One of the most effective tools to help prevent driver fatigue is 
the use of Electronic Logging Devices (ELDs) to record drivers' HOS. 
Paper logs are frequently referred to as ``comic books'' throughout the 
industry because of the ease in falsifying actual driving and work 
time. The FMCSA estimates that requiring ELDs will save 26 lives, 
prevent over 500 injuries and avoid over 1,800 crashes annually. In 
addition, the U.S. DOT estimates the annualized net benefits of 
adopting ELDs to be over $1 billion. Congress, recognizing the benefits 
of ELDs, mandated their use as part of the Moving Ahead for Progress in 
the 21st Century (MAP-21) Act.\15\ In 2015, the FMCSA delivered on this 
Congressional directive and issued a rule requiring the use of ELDs 
which went into effect in December 2017. FMCSA reports that since the 
implementation of the ELD rule, the percentage of driver inspections 
with an HOS violation has decreased 39 percent.\16\ Despite this 
compelling evidence, broad support and an established final rule, a 
vocal minority continues to object to the use of this technology and is 
filing meritless applications for exemptions from compliance with the 
federal law with the FMCSA in a concerted effort to undermine the 
regulation.
---------------------------------------------------------------------------
    \15\ Pub. L. 112-141 (2012).
    \16\ FMCSA, Electronic Logging Devices: Improving Safety Through 
Technology.
---------------------------------------------------------------------------
    A barrage of legislative and regulatory proposals also continue to 
target ELDs and HOS rules. For instance, last year FMCSA issued an 
Advanced Notice of Proposed Rulemaking (ANPRM) that would dismantle 
several important safeguards in the HOS regulations including the 30-
minute rest break provision. Advocates is especially concerned that the 
FMCSA also eliminated enhanced driver protections for meal and rest 
breaks by issuing a decision preempting California law. This egregious 
agency overstep should be reversed. Further, special interests continue 
to push Congress to expand working and driving limits or create carve-
outs under the guise of ``flexibility.'' These are nothing more than 
attempts to force drivers to work even more demanding schedules.
    Additionally, in 2016, the FMCSA published an ANPRM requesting 
information regarding the potential benefits of regulatory action to 
address the safety risks posed by CMV drivers who are afflicted with 
obstructive sleep apnea (OSA).\17\ Compelling and consistent research 
has revealed that drivers afflicted with OSA that is not properly 
treated are more prone to fatigue and have a higher crash rate than the 
general driver population. In fact, the Federal Aviation Administration 
(FAA) considers OSA to be a disqualifying condition unless properly 
treated.\18\ Yet, in August of 2017 the FMCSA withdrew the OSA 
rulemaking without providing any credible analysis or reasoning for 
such an ill-advised course of action.\19\
---------------------------------------------------------------------------
    \17\ 81 FR 12642 (Mar. 10, 2016).
    \18\ Id.
    \19\ 82 FR 37038 (Aug. 8, 2017).

        Recommendation: We urge Congress to reject efforts to diminish 
        the rule requiring the use of ELDs and to further erode HOS 
        regulations. Moreover, Congress should direct the FMCSA to 
        issue a rule to ensure that drivers are properly screened for 
        obstructive sleep apnea during the medical examination and that 
        those diagnosed with the condition are receiving the medical 
        treatment necessary to avoid fatigue while operating a CMV on 
---------------------------------------------------------------------------
        public roads.

    ``Teen Truckers'' pose a major safety threat. Some segments of the 
trucking industry are pushing to allow teenagers to operate CMVs in 
interstate commerce in order to alleviate the alleged ``driver 
shortage.'' A March 2019 U.S. Bureau of Labor Statistics (BLS) study 
found that ``the labor market for truck drivers works about as well as 
the labor markets for other blue-collar occupations'' and ``a deeper 
look [at the truck industry labor market] does not find evidence of a 
secular shortage.'' \20\
---------------------------------------------------------------------------
    \20\ United States Department of Labor, Bureau of Labor Statistics, 
Is the U.S. labor market for truck drivers broken? (Mar. 2019).
---------------------------------------------------------------------------
    CMV drivers under the age of 19 are four times more likely to be 
involved in fatal crashes, as compared to CMV drivers who are 21 years 
of age and older, and CMV drivers ages 19-20 are six times more likely 
to be involved in fatal crashes (compared to CMV drivers 21 years and 
older).\21\ This alarming reality is not surprising given that 
generally younger drivers are more likely to be involved in fatal 
crashes because they lack driving experience and skills, and tend to 
take greater risks. Development of the brain region vital to decision 
making, specifically the pre-frontal cortex, may not be fully reached 
until one's mid-20s.\22\
---------------------------------------------------------------------------
    \21\ Campbell, K. L., Fatal Accident Involvement Rates By Driver 
Age For Large Trucks, Accid. Anal. & Prev. Vol 23, No. 4, pp. 287-295 
(1991).
    \22\ Arian, M, et al., Maturation of the adolescent brain, 
Neuropsychiatric Disease and Treatment (Apr. 3, 2013).
---------------------------------------------------------------------------
    Diverse stakeholders including safety groups, law enforcement, 
public health and consumer organizations, truck drivers, some trucking 
companies, and truck crash victims and survivors oppose efforts to 
lower the age to operate CMVs in interstate commerce. Additionally, the 
public has overwhelmingly rejected lowering the minimum age for 
interstate truck and bus drivers with 73 percent of respondents in 
opposition, according to a 2015 public opinion poll conducted by ORC 
International.\23\ Furthermore, in 2001, a petition was filed with 
FMCSA to lower the age at which a person could obtain a commercial 
driver's license (CDL) to operate in interstate commerce from 21 to 18. 
The FMCSA declined to lower the minimum age for an unrestricted CDL 
because the agency could not conclude that the safety performance of 
younger drivers was on par with, or even close to, that of older CMV 
drivers. The public overwhelmingly rejected the idea with 96 percent of 
individuals who responded opposing the proposal along with 88 percent 
of the truck drivers and 86 percent of the motor carriers after the 
petition was posted in the Federal Register.\24\
---------------------------------------------------------------------------
    \23\ ORC International, Road Safety Poll (2015).
    \24\ Young Commercial Driver Pilot Training Program, Notice of 
denial of petition to initiate a pilot program, 68 FR 34467, 34469 
(June 9, 2003).
---------------------------------------------------------------------------
    Advocates strongly opposes the so-called ``DRIVE-Safe Act'' (H.R. 
1374/S. 569) which would severely jeopardize the safety of all road 
users by putting teenagers behind the wheel of large trucks in 
interstate commerce. Provisions in the bill that at first glance would 
seem to be pro-safety actually could be detrimental. Specifically, 
certain technologies, such as active braking collision mitigation 
systems and speed limiters, are only required during the scant 
probationary period. The result is a teen driver would initially learn 
to drive in a truck fitted with this technology but after the 
probationary period, s/he could get behind the wheel of a truck without 
any of the safety technology and its benefits. The teen driver is then 
at a safety deficit lacking experience in safely operating trucks 
without the technology. Furthermore, the technology will not account 
for some mistakes this age group tends to make. Younger drivers exhibit 
risky behaviors such as increased levels of distraction, following too 
closely, violating traffic rules, and not using seatbelts.\25\ We 
welcome the confirmation that the recommended technology provides 
safety benefits and hope the proponents of the bill will join our 
efforts to accelerate the adoption of proven safety technologies in all 
trucks.
---------------------------------------------------------------------------
    \25\ Insurance Institute for Highway Safety, Topics, Teenagers, 
available at: https://www.iihs.org/topics/teenagers
---------------------------------------------------------------------------
    The training proposals in this bill are woefully inadequate. The 
first probationary period only consists of 80 hours of behind-the-wheel 
training which can be completed in a little over one work week while 
abiding by HOS requirements. Further, the 160 hours of driving time in 
the second probationary period can be covered in just an additional two 
weeks. In comparison, the FAA requires pilots working for passenger 
airlines to have approximately 1,500 hours of flight time. These paltry 
training requirements also pale in comparison to other less dangerous 
jobs. For example, Texas requires a journeyman plumber to have 8,000 
hours of experience; Oklahoma requires 4,000 verifiable hours of on the 
job experience for a residential electrical journeyman; and, barbers 
licensed in Virginia must accumulate 1,100 hours in school.
    Additionally, the qualifications for the teen truck driver passing 
the probationary periods are left entirely to the discretion of the 
employer who is incentivized to get the driver on the road as soon as 
possible. No standard tests or evaluations given by an independent 
party are required. Furthermore, a teen truck driver who is involved in 
a crash or is given a citation for a moving violation during the 
probationary periods is not disqualified from continuing to operate a 
truck.
    Driving a truck is already one of the most dangerous occupations, 
according to the Bureau of Labor Statistics. Allowing teenagers to 
drive trucks in interstate commerce will only serve to exacerbate the 
major problems with truck driver working conditions. Instead of tapping 
into an unsafe driving pool of teenagers, improving upon working 
conditions should result in current, experienced drivers staying on the 
job and ideally lead to being healthier and more fulfilled in their 
profession.

        Recommendation: Attempts to pull teenagers from high school 
        hallways to high speed highways should be rejected by Congress. 
        We urge members to oppose the so-called DRIVE-Safe Act.
  crucial actions necessary to improve truck safety for all road users
    Require speed limiters in large trucks. According to the FMCSA, 
10,440 people were killed from 2004 to 2013 in crashes where the speed 
of the CMV likely contributed to the severity of the crash. On average, 
that is over 1,000 lives lost annually to speeding CMVs. In September 
of 2016, the National Highway Traffic Safety Administration (NHTSA) and 
the FMCSA issued a joint Notice of Proposed Rulemaking (NPRM) to 
require vehicles with a gross vehicle weight rating (GVWR) of more than 
26,000 pounds to be equipped with a speed limiting device.\26\ The 
safety benefits of limiting the speed of a CMV are indisputable and the 
NTSB has recommended that CMVs be equipped with the technology. The 
NPRM estimates that setting the device at 60 MPH has the potential to 
save almost 500 lives and prevent nearly 11,000 injuries annually.\27\ 
Setting the speed at 65 MPH could save as many as 214 lives and prevent 
approximately 4,500 injuries.\28\ Speed limiters are also already 
widely used in the industry and their implementation is supported by 
truck drivers. Research shows that the technology is currently being 
used by 77 percent of trucks on the road in the United States.\29\ In 
addition, a 2007 survey of truck drivers by IIHS found 64 percent of 
drivers were in favor of a truck speed governor requirement.\30\
---------------------------------------------------------------------------
    \26\ 81 FR 61942 (Sep. 7, 2016).
    \27\ Id.
    \28\ Id.
    \29\ Preliminary Regulatory Impact Analysis (PRIA) and Initial 
Regulatory Flexibility Analysis, FMVSS No. 140, Speed Limiting Devices, 
p. 28 (NHTSA, Aug. 2016).
    \30\ Insurance Institute for Highway Safety (IIHS), Speed limiters 
in trucks would serve 2 purposes, Status Report, Vol. 45, No. 8 (Aug. 
21, 2010).
---------------------------------------------------------------------------
    Although the public safety benefits of requiring speed limiting 
devices in CMVs are clear and a majority of the current fleet is 
already equipped with the technology, DOT continues to delay the 
issuance of a final rule to require this lifesaving safety equipment. 
The cost of the proposed requirement is expected to be minimal since 
most CMVs are already equipped with either mechanical or electronic 
capability to limit the speed of the vehicle. ``Turning on'' the speed 
limiters that are not already engaged, or changing the speed control to 
the limit required by the final rule, involves only a minor maintenance 
cost.

        Recommendation: We urge Congress to require that the U.S. DOT 
        issue a final rule requiring all new CMVs to be equipped with 
        speed limiting devices and for those vehicles currently 
        equipped with the technology to engage this lifesaving device.

    Require automatic emergency braking to prevent and mitigate 
crashes. According to NHTSA, from 2003 through 2008, large trucks were 
the striking vehicle in approximately 32,000 rear-end crashes resulting 
in 300 fatalities and injuring over 15,000 people annually. In 2015, 
Advocates, along with the Center for Auto Safety, the Truck Safety 
Coalition (TSC) and Road Safe America, filed a petition with NHTSA 
seeking the issuance of a rule to require forward collision avoidance 
and mitigation braking systems (F-CAM), also known as automatic 
emergency braking (AEB), on CMVs with a GVWR of 10,000 pounds or more. 
These systems alert the driver to an object in front of the CMV, such 
as a motor vehicle, and can apply the brakes to stop the CMV if the 
driver fails to respond. The NHTSA estimates that fleetwide adoption of 
advanced AEB systems could save 166 lives per year and prevent 8,361 
injuries. In addition, the NTSB has recommended that AEB systems be 
required on all highway vehicles. The agency granted Advocates' 
petition in October of 2015 but has not undertaken any further 
regulatory proceedings.\31\ This needless delay is unconscionable when 
crashes could be prevented and lives could be saved by technology which 
is available and already in many CMVs.
---------------------------------------------------------------------------
    \31\ 80 FR 62487 (Oct. 16, 2015).

        Recommendation: We urge Congress to require NHTSA to set a 
        minimum performance standard and issue a rule requiring CMVs be 
---------------------------------------------------------------------------
        equipped with AEB.

    Take immediate action to address underride crashes, where a motor 
vehicle travels underneath the rear or side of a truck trailer. 
Technology is currently available that can significantly increase the 
chances that an individual can survive these violent events. For this 
reason, Advocates supports enactment of the Stop Underrides Act of 2019 
(H.R. 1511/S.665) introduced by members of this Committee, 
Representatives Steve Cohen (TN-9) and Mark DeSaulnier (CA-11). This 
important legislation will require the current federal standards for 
rear underride guards to be upgraded to meet current industry standards 
as well as the installation of side and front guards.
    In 2015, the NHTSA issued a NPRM to update the standards for rear 
impact guards that are installed on the rear of trailers. However, the 
NPRM proposed only to upgrade the federal standard to meet the Canadian 
standard which was issued over a decade ago and is substandard given 
guards currently available in the marketplace which have been shown to 
have superior performance capabilities. In addition, the agency failed 
to require that single-unit trucks (SUTs) be equipped with underride 
guards, instead requiring retroreflective tape on the side and rear. 
While requiring retroreflective tape is long overdue, it alone is not a 
sufficient countermeasure. Therefore, in order to properly address the 
public safety threat posed by rear underride crashes, the federal motor 
vehicle safety standards (FMVSS) that apply to rear underride guards 
should be updated to meet the standards set by the IIHS in their 
TOUGHGUARD award and should be applied to SUTs as well as trailers.
    Side underride crashes, where a motor vehicle travels underneath 
the side of a trailer or a SUT, also pose a serious threat to public 
safety. In May of 2017, IIHS conducted its first testing of side 
underride guards that successfully prevented a passenger vehicle from 
traveling underneath the side of a trailer. Side underride guards have 
now been proven to be able to save lives and mitigate crashes and thus, 
should be required as standard equipment on all trailers and SUTs. In 
addition, front guards that prevent a truck from overriding or 
traveling over a passenger motor vehicle when the truck strikes the 
rear of the vehicle have been in use in the European Union for years. 
The NTSB has recommended improving comprehensive underride protection. 
It is time for this lifesaving equipment to finally make its way onto 
America's roads.

        Recommendation: Congress should swiftly pass the Stop 
        Underrides Act (H.R. 1511/S. 665) which will require the 
        current federal standards for rear underride guards to be 
        upgraded and the installation of side and front guards.

    To obtain a CDL, a candidate should be required to undergo uniform 
adequate training. In 2015, Advocates was appointed by the FMCSA to 
serve on the Entry-Level Driver Training Advisory Committee (ELDTAC) 
established to complete a negotiated rulemaking on Entry-Level Driver 
Training (ELDT) for novice CMV operators. The consensus reached by the 
ELDTAC, as well as the NPRM issued by the FMCSA in March 2016, included 
the requirement that applicants for a CDL receive a minimum number of 
hours of behind-the-wheel (BTW) instruction (BTW hours requirement) as 
part of the core curricula approved for applicants seeking either a 
Class A or B CDL. As the FMCSA noted in the NPRM, `` . . . BTW training 
for entry-level drivers is uniquely suited to an hours-based approach 
because it ensures that driver-trainees will obtain the basic safe 
driving skills necessary to obtain a Class A or Class B CDL and to 
operate their vehicles safely--skills that can only be obtained after 
spending a reasonable amount of time actually driving a CMV''.\32\
---------------------------------------------------------------------------
    \32\ 81 FR 11944 (Mar. 7, 2016).
---------------------------------------------------------------------------
    However, the final rule issued by the agency in December 2016 
removed the BTW hours requirement. Instead, the rule simply requires 
that candidates demonstrate to their instructor that they are 
proficient in performing a series of maneuvers while operating a 
CMV.\33\ This does not ensure that CDL applicants who can pass the 
state CDL skills test will spend any time actually operating a CMV on 
public roads with an experienced instructor encountering safety 
critical situations. This type of real-world training and experience 
for CDL candidates, which several bodies of experts have determined 
should be required, is needed in order to enhance the ability of CDL 
applicants to operate a truck-trailer combination vehicle safely and to 
avoid crashes.
---------------------------------------------------------------------------
    \33\ 81 FR 88732 (Dec. 8, 2016).

        Recommendation: Congress should direct the FMCSA to amend the 
        ELDT final rule to include a minimum number of BTW training 
        hours to ensure that novice drivers receive adequate training 
---------------------------------------------------------------------------
        before operating a CMV on public roads.

    Data on carrier performance must be collected and publicly 
available. With fatal truck crashes continuing to occur at an 
alarmingly high rate unhampered by appropriate accountability, there is 
insufficient incentive for unsafe carriers to improve their operations. 
FMCSA's Compliance, Safety, Accountability (CSA) program evaluates the 
safety and compliance of motor carriers and is designed to identify 
high risk operations for intervention and improvement. Involvement in 
previous truck crashes in and of themselves and regardless of ``fault'' 
has been found by industry, academia and the government to be an 
accurate predictor of involvement in future truck crashes. The goal of 
CSA is to implement more effective and efficient ways for FMCSA, its 
state partners, and the trucking industry to prevent CMV crashes, 
fatalities, and injuries.
    Unfortunately, some of the CSA data was removed from public view by 
section 5223 of the FAST Act.\34\ The FAST Act also required the 
National Academies of Sciences, Engineering and Medicine (NASEM) to 
study the CSA program method for evaluating the safety of motor 
carriers and commercial vehicle drivers. The NASEM study concluded that 
the method was sound and made several recommendations to improve the 
CSA program including that FMCSA should continue to collaborate with 
states and other agencies to improve the collection of data on vehicle 
miles traveled and on crashes as well as certain characteristics of 
carriers such as turnover rates.
---------------------------------------------------------------------------
    \34\ Pub. L. 114-94 (2015).
---------------------------------------------------------------------------
    Relatedly, in 2016, the FMCSA issued a NPRM to revise the carrier 
safety ratings procedures in light of adoption of the CSA program. This 
rulemaking was intended to allow the agency to better evaluate the 
safety records of carriers. Advocates supported the agency's action to 
upgrade the safety fitness determination (SFD) process, which informs 
the CSA program, by using on-road safety data to evaluate carriers in 
addition to an agency investigation. This update to the SFD program 
would have significantly enhanced the FMCSA's ability to identify 
unsafe carriers because it would have enabled the agency to use data 
from the carrier's on-road operations, yet the agency withdrew the 
rulemaking in August of 2017.

        Recommendation: Congress should require that the public 
        availability of CSA scores be immediately reinstated while the 
        improvements recommended by the NASEM study are implemented. 
        The public should once again have access to this important 
        safety data on trucking companies without any further delay. 
        Furthermore, Congress should direct the FMCSA to immediately 
        reinstate and complete the safety fitness determination 
        rulemaking.

    Promulgate safeguards and regulations to ensure autonomous 
technology is deployed safely. Autonomous technology offers the promise 
of significantly reducing crashes involving CMVs. However, the advent 
of this technology must not be used as a pretext to eviscerate 
essential safety regulations administered by the FMCSA. The public 
safety protections provided by the Federal Motor Carrier Safety 
Regulations (FMCSRs) become no less important or applicable simply 
because a CMV has been equipped with an autonomous driving system 
(ADS). In fact, additional substantial public safety concerns are 
presented by autonomous commercial motor vehicles (ACMVs).
    Autonomous technology is still in its infancy as evidenced by fatal 
and serious crashes involving passenger motor vehicles equipped with 
driverless systems. If those incidents had involved ACMVs, the results 
could have been catastrophic and the death and injury toll could have 
been much worse. Some of the most pressing safety shortcomings 
associated with autonomous vehicle technology, which include the ADS 
properly detecting and reacting to other road users, driver engagement 
and cybersecurity, are exponentially amplified by the greater mass and 
force of an ACMV. As such, it is imperative that ACMVs be subject to 
comprehensive regulations, including having a licensed driver behind 
the wheel for the foreseeable future. The development and deployment of 
these experimental vehicles must also be subject to robust safeguards 
including sufficient data collection and sharing, performance 
requirements and enhanced operating authorities, at a minimum.

        Recommendation: ACMVs must be subject to robust federal 
        regulations and minimum performance requirements including that 
        a trained commercial driver be behind the wheel at all times. 
        Critical safety regulations that apply to driver HOS, licensing 
        requirements, entry level training and medical qualifications 
        should not be weakened. In addition, carriers using ACMVs 
        should have to apply for additional operating authority and 
        drivers operating an ACMV must have an additional endorsement 
        on their CDL to ensure they have been properly trained to 
        operate an ACMV.
                               conclusion
    Truck crashes continue to occur at an alarmingly high rate. Yet, 
there is a seemingly unending assault on essential federal regulations 
that protect public safety. Meanwhile, rulemakings which would result 
in proven safety benefits by requiring the installation of lifesaving 
safety systems languish. Advocates urges Congress to require DOT to 
focus on this unfinished safety agenda as the immediate solution to 
reducing deaths and injuries caused by CMV crashes.
    Thank you for the opportunity to testify before the Subcommittee 
during this essential hearing. Nearly 5,000 people being killed and 
150,000 being injured in truck crashes annually cannot continue to be 
accepted as a societal norm or a cost of traveling on our roads and 
highways. Advocates looks forward to working together with the 
Subcommittee members to both preserve current safeguards and 
regulations and to advance needed improvements.

    Ms. Norton. Thank you very much, Ms. Chase.
    Christopher Spear, president and CEO, American Trucking 
Associations.
    Mr. Spear. Madam Chair, Ranking Member Davis, full 
committee Chairman DeFazio, members of the subcommittee, let me 
extend my sincerest appreciation for the opportunity to testify 
today before the subcommittee on behalf of the American 
Trucking Associations.
    ATA is now in its 86th year as the largest voice of the 
trucking industry, serving 50 State associations and a vast 
array of members, including carriers, and their several million 
drivers, technicians, and valued employees, truck and trailer 
manufacturers, shippers, suppliers, including technology 
innovators, and software companies; public and private truck 
driving schools; employee health and wellness; law firms, as 
well as insurers, just to name a few.
    In short, ATA has presence in every State and congressional 
district in the country, and it's closely affiliated with 
national trucking associations throughout the world.
    Despite trucks being just 4 percent of the vehicles on our 
highways and two-thirds of the accidents involving trucks being 
caused by passenger vehicles, the trucking industry still 
spends $9.5 billion conservatively each year on safety, 
including technology, training, and compliance.
    Broadly, trucking employment now exceeds 7.7 million 
people. That is 1 in 18 jobs in the United States, where a 
truck driver is the top job in 29 States.
    Trucks move more than 71 percent of the domestic freight, 
and the people that drive, service, load and unload them are to 
be commended. They are husbands and wives, moms and dads, 
Democrats and Republicans. They include veterans, the disabled, 
minorities. They are involved in your local communities, from 
coaching Little League to raising thousands of dollars for kids 
with cancer.
    And like our men and women in uniform, they are among the 
most patriotic and hardworking people in America, the first to 
help those impacted by floods, fires, tornadoes, and hurricanes 
by delivering food, water, medicine, and comfort, and they are 
committed to helping others.
    They are often the first to respond on the scene of an 
accident, stopping to help save people that they have never 
met. This is today's trucking industry. This is an American 
story, and these are the millions of people ATA proudly 
represent.
    The subcommittee is tasked with the reauthorization of the 
FAST Act, including a safety title. My members, staff, and I 
are prepared to help you write a bill that is grounded in data, 
not rhetoric; that is shaped by facts, not opinions; and relies 
on reality, not emotion.
    To that end, ATA has submitted written testimony for this 
hearing that provides countless citations, analysis of current 
issues both in effect as well as proposed, as well as 
recommendations that address policy and programmatic 
shortfalls.
    ATA also believes it is important that you consider the 
future of the trucking industry, looking beyond the hood 5, 10, 
15 years out and how we can improve safety through innovation, 
such as connectivity; how we can grow a diverse, trained, and 
drug-free workforce that shores up the very real and very well-
documented shortage of talent; how trucking can generate and 
invest real money, not fake funding, into our decaying 
infrastructure; and how trucking can help you shape free and 
fair trade agreements that make the United States the strongest 
economy in the world.
    In closing, I want to personally underscore ATA's 
commitment to helping this subcommittee shape this legislation. 
You deserve testimony and answers that are squarely backed by 
data, not baseless rhetoric.
    ATA also will educate your colleagues in the House, Senate 
and the administration on why this bill matters. The political 
environment we all now find ourselves in raises the bar on 
getting anything passed, and this bill is no exception. This 
effort will require cooperation and compromise.
    Disagreements over policy are expected. Yet ATA will work 
with you to resolve any differences, build consensus, and 
advocate passage of a reauthorization bill that improves 
safety, leverages innovation, and enables our industry to meet 
the surging demands of our Nation's economy.
    Again, I appreciate the opportunity to represent ATA here 
today and look forward to your questions.
    Thank you, Madam Chair.
    [Mr. Spear's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Chris Spear, President and Chief Executive 
                Officer, American Trucking Associations
    Chair Norton, Ranking Member Davis, and members of the 
distinguished subcommittee, thank you for providing the American 
Trucking Associations (ATA) \1\ with the opportunity to testify before 
you today. I would like to begin my testimony by recognizing your 
leadership and focus on our nation's crumbling infrastructure. The 
trucking industry stands ready to work hand-in-hand with this 
subcommittee, Congress and the Administration to bring an end to the 
continuing cycle of underinvestment in infrastructure, which results in 
significant harm to both our economy and the safety of the motoring 
public. Under your guidance, we remain hopeful that federal action can 
solve this growing national crisis.
---------------------------------------------------------------------------
    \1\ American Trucking Associations [http://www.trucking.org/] is 
the largest national trade association for the trucking industry. 
Through a federation of 50 affiliated state trucking associations and 
industry-related conferences and councils, ATA is the voice of the 
industry America depends on most to move our nation's freight. Follow 
ATA on Twitter or on Facebook. Trucking Moves America Forward [http://
truckingmovesamerica.com/].
---------------------------------------------------------------------------
    ATA is an 86-year-old federation and the largest national trade 
organization representing the trucking industry, with affiliates in all 
50 states. ATA's membership encompasses over 34,000 motor carriers and 
suppliers directly and through affiliated organizations. Our 
association represents every sector of the industry, from LTL to 
Truckload, agriculture and livestock to auto haulers, and from the 
large motor carriers to the owner operator and mom and pop one truck 
operations. In fact, despite the claims by some before you today that 
ATA only represents the ``mega-carriers,'' 80 percent of our membership 
is comprised of small-sized carriers, whereas only 2 percent of our 
membership would be considered large-sized carrier. And, our federation 
has members in every Congressional district and every community.
    Trucking is the fulcrum point in the United States' supply chain. 
This year, our industry will move 70 percent of the nation's freight 
tonnage, and over the next decade will be tasked with moving three 
billion more tons of freight than it does today while continuing to 
deliver the vast majority of goods.\2\ More than 80 percent of U.S. 
communities rely exclusively on trucks for their freight transportation 
needs. Trucks haul 100 percent of the freight originating in the 
District of Columbia, and DC residents and businesses rely on trucks to 
deliver 98 percent of the goods coming into the District. More than 
two-thirds of the freight delivered to and from Illinois was loaded 
onto a truck. In 2017, the goods moved by trucks were worth more than 
$10 trillion.\3\ The trucking industry is also a significant source of 
employment, with 7.7 million people working in various occupations, 
accounting for every 1 in 18 jobs in the U.S.\4\ Furthermore, ``truck 
driver'' is the top job in 29 states.\5\
---------------------------------------------------------------------------
    \2\ Freight Transportation Forecast 2018 to 2029. American Trucking 
Associations, 2018.
    \3\ 2017 Commodity Flow Survey Preliminary Report. U.S. Census 
Bureau, Dec. 7, 2018.
    \4\ American Trucking Trends 2018, American Trucking Associations.
    \5\ https://www.marketwatch.com/story/keep-on-truckin-in-a-
majority-of-states-its-the-most-popular-job-2015-02-09
---------------------------------------------------------------------------
    Without trucks, our cities, towns and communities would lack key 
necessities including food and drinking water; there would not be 
clothes to purchase, and no parts to build automobiles or fuel to power 
them. The rail, air and water intermodal sectors would not exist in 
their current form without the trucking industry to support them. 
Trucks are central to our nation's economy and our way of life, and 
every time the government makes a decision that affects the trucking 
industry, those impacts are also felt by individuals and by the 
millions of businesses that could not exist without trucks.
    With this hearing, we appreciate the subcommittee's focus on the 
trucking industry, as it relates to infrastructure, interstate commerce 
and safety. As Congress looks towards the next surface transportation 
reauthorization bill, many of the topics addressed today will be key 
areas of interest and concern, which may shape the drafting of a 
legislative and regulatory framework that trucking will operate under 
in the years to come. The hearing's title rightly recognizes the state 
of the trucking industry, and that is ``under pressure.'' Indeed, the 
trucking industry is in many ways at an operational crossroads.
    Madam Chair, the trucking industry is on the cusp of a 
transformation in the movement of freight, one that you and your 
colleagues will greatly influence. Radical technological change will, 
in the near future, allow trucks to move more safely and efficiently, 
and with less impact on the environment than we ever dared to imagine. 
Yet we are facing headwinds, due almost entirely to government action 
or, in some cases inaction that will slow or cancel out entirely the 
benefits of innovation. Failure to maintain and improve the highway 
system that your predecessors helped to create will destroy the 
efficiencies that have enabled U.S. manufacturers and farmers to 
continue to compete with countries that enjoy far lower labor and 
regulatory costs and standards.
    We are at a critical point in our country's history, and the 
decisions made by this subcommittee, Congress, and the Administration 
over the next few months will impact the safety and efficiency of 
freight transportation moving forward. For the purpose of this hearing, 
I will focus my testimony on four key areas that will have the greatest 
and most immediate impact on the trucking industry: 1) Safety and 
Technology; 2) Workforce Development; 3) Infrastructure; and 4) Trade. 
Included in the accompanying Appendix is a comprehensive list of ATA's 
Surface Transportation Reauthorization Priorities, provided for your 
consideration and review.
    ATA looks forward to working with this subcommittee, and each and 
every Member of Congress, as we pursue the legislative and regulatory 
framework that will ensure our nation's surface transportation needs 
are met. That framework must be grounded in safety, science, data and 
training. We commend you for holding this important hearing, to the 
benefit of the trucking industry, interstate commerce and the millions 
of Americans and U.S. businesses that rely on the safe and efficient 
movement of our nation's goods.
                        1) SAFETY & TECHNOLOGY:
    The safety of our nation's roads and bridges, and that of the 
motoring public, is undeniably of paramount importance. And safety 
anchors the very foundation of the trucking industry, shaping our core 
values and decision-making. That is why the trucking industry invests 
approximately $10 billion annually in safety initiatives, including 
truck onboard technologies such as electronic logging devices, 
collision avoidance systems, and video-event recorders. Investments 
that also include driver safety training, driver safety incentive pay, 
and compliance with safety regulations (e.g., pre-employment and random 
drug tests and motor vehicle record checks). While some of these 
investments are made to meet a myriad of regulatory requirements, many 
of them are voluntary, progressive safety initiatives adopted by our 
members. And, they are paying dividends in highway safety. That being 
said, there is still more work to be done, and we are committed to the 
goal of accident and fatality-free highways.
    Madam Chair, the below section will briefly highlight the trucking 
industry's safety record, and the many ways in which our members 
continually work to improve upon it. Safety is a process that 
continually adapts and evolves. Our members persistently work to adopt 
processes and best practices that will make their fleets even safer. 
Meaningful improvements will require an acknowledgement of the 
principal causes of truck crashes and a commitment to making 
appropriate countermeasures the highest priority.
THE TRUCKING INDUSTRY'S SAFETY RECORD:
    Since 1980, when the trucking industry was deregulated, both the 
number of fatal truck crashes and rate of fatalities have declined 
dramatically: \6\
---------------------------------------------------------------------------
    \6\ Large Truck and Bus Crash Facts 2017, Trends chapter, Table 4, 
page 7, Federal Motor Carrier Safety Administration, Washington, D.C. 
https://www.fmcsa.dot.gov/sites/fmcsa.dot.gov/files/docs/safety/data-
and-statistics/461861/ltcbf-2017-final-5-6-2019.pdf.
---------------------------------------------------------------------------
    <bullet>  From 1980-2017, there has been a 69 percent decrease in 
the large truck involved fatal crash rate;
    <bullet>  From 1980-2017, there has been a 71 percent decrease in 
the combination truck involved fatal crash rate; and
    <bullet>  In 2017, 72 percent of large truck crashes had no truck 
driver-related factors recorded in multiple-vehicle crashes.
    The decline in large truck-involved fatal crashes since 1980 is 
due, in part, to industry-supported initiatives, many of which were 
used prior to becoming a mandated federal regulation. For instance, the 
use of Electronic Logging Devices (ELDs) was prevalent in ATA member 
fleets dating back to the early 2000s. Now, federally mandated use of 
ELDs has already had a positive effect on safety. Additionally, ATA 
members support the use of additional safety initiatives that will 
improve safety, such as the requirement for states to provide an 
employment notification system to alert employers of drivers' moving 
violations and license suspensions in a timely fashion, the use of 
alternative testing specimens to detect drug use, and vehicle safety 
technologies that can create a safer environment for all motorists.
TRUCK CRASH CAUSATION STUDY AND CRASH DATA:
    For the trucking industry to constantly improve our safety record, 
it is important that more research and attention is focused on the 
causes of truck-involved crashes, with a resulting emphasis on 
undertaking the appropriate countermeasures. Specifically, according to 
multiple studies, data, and other indicators, the vast majority of 
large truck-involved crashes are the result of driver behaviors and 
errors. Furthermore, data indicates that other motorists, not the 
professional truck driver, are more likely to be at fault. According to 
a Federal Motor Carrier Safety Administration (FMCSA) report, 70 
percent of fatal crashes involving a large truck and a passenger 
vehicle are initiated by the actions of, or are the fault of, passenger 
motorists.\7\ The American Automobile Association (AAA) conducted their 
own version of this study and found that in truck-related crashes, the 
critical factor leading to the crash was attributed to the passenger 
vehicle driver 75 percent of the time.\8\ Additionally, the AAA study 
found that in 10,732 fatal car-truck crash records from 1995-98, the 
car drivers were more likely to be cited for multiple unsafe acts. The 
study found that 36 percent of car drivers were cited for two or more 
unsafe acts, versus 11 percent of truck drivers.\9\
---------------------------------------------------------------------------
    \7\ Financial Responsibility Requirements for Commercial Motor 
Vehicles, U.S. Department of Transportation, Federal Motor Carrier 
Safety Administration, January 2013, page xii, footnote 2.
    \8\ Kostyniuk LP, Streff FM, Zakrajsek J. Identifying Unsafe Driver 
Actions that Lead to Fatal Car-Truck Crashes. Washington DC: AAA 
Foundation for Traffic Safety, April, 2002.
    \9\ Ibid.
---------------------------------------------------------------------------
    To be effective in reducing commercial motor vehicle crashes, we 
must first understand the true causes of these crashes. The Motor 
Carrier Safety Improvement Act of 1999 (MCSIA) \10\ mandated a study to 
determine the cause of, and contributing factors to, crashes involving 
commercial motor vehicles. In 2006, FMCSA published a report 
identifying areas that need to be addressed by effective crash 
countermeasures \11\. With significant improvements made to the Federal 
Motor Carrier Safety Regulations (FMCSRs), ATA believes that initiating 
a new Large Truck Crash Causation Study (LTCCS) would be an effective 
tool in understanding the increase in large truck-involved crashes. A 
LTCCS should include a large sample size so that all segments of our 
industry are included, and the data is an accurate reflection of real-
world operations. We recognize that recent data indicates that truck-
involved crashes are increasing.\12\ Our industry does not deny this. 
We do, however, require accurate data that can direct our efforts and 
resources in appropriately addressing and halting this increase. 
Understanding the role of driver behavior in crash causation will shed 
additional light on how FMCSA's use of enforcement funding and 
resulting activity can be most cost-effective.
---------------------------------------------------------------------------
    \10\ Motor Carrier Safety Improvement Act of 1999, H.R.3419, 106th 
Cong. (1999).
    \11\ Report to Congress on the Large Truck Crash Causation Study, 
U.S. Department of Transportation, Federal Motor Carrier Safety 
Administration, March 2006.
    \12\ Large Truck and Bus Crash Facts 2017, Trends chapter, Table 4, 
page 7, U.S. Department of Transportation, Federal Motor Carrier Safety 
Administration, Washington, D.C. https://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/safety/data-and-statistics/461861/ltcbf-2017-
final-5-6-2019.pdf.
---------------------------------------------------------------------------
    Just as a LTCCS will help identify the cause of large truck 
crashes, unified electronic crash report data will help to provide 
accurate and timely data on truck-involved crashes. Several states have 
already adopted electronic collection of crash reports, and many have 
seen the ability to provide more timely and accurate information to 
stakeholders. ``Real-time'' data allows law enforcement and 
transportation safety professionals to respond more quickly to 
escalating trends and ``hot spots'' and helps ensure limited resources 
are allocated to areas with greatest need. ATA supports federal funding 
for states to adopt electronic crash report data collection, along with 
funding support to upgrade existing systems, implement NHTSA's Model 
Minimum Uniform Crash Criteria data fields and training of staff on new 
systems.
    Crash causation studies and the accurate and timely data reporting 
on truck-involved accidents will help our industry understand and make 
targeted and meaningful improvements to road safety. However, I 
reiterate that our focus on improving safety is not just reactionary in 
nature, but the core value of trucking. Our industry is proactively 
taking steps to prevent the crash from occurring in the first place, as 
evident in the safety processes our members have established-processes 
that go well beyond what is required by Federal regulations.\13\ These 
investments include safety technologies, safety training and driver 
safety incentive pay. Many of these investments were industry-supported 
initiatives that were not mandated at the time. For instance, ATA was 
an early advocate for mandatory drug and alcohol testing, the 
commercial driver's license program, a ban on radar detectors in 
trucks, and the soon to be implemented drug and alcohol clearinghouse.
---------------------------------------------------------------------------
    \13\ ATA's Safety Investment Study 2016, http://www.trucking.org/.
---------------------------------------------------------------------------
ELECTRONIC LOGGING DEVICES:
    ATA members have long used ELDs, with many carriers installing this 
critical safety technology long before the December 2017, 
Congressionally-mandate implementation. Accordingly, we whole-heartedly 
support the industry-wide adoption of ELDs, and the significant impact 
this critical technology has on improving public safety--a technology 
implementation that was fully litigated, widely debated, 
congressionally-mandated, and most recently reaffirmed by FMCSA in 
denying most ELD exemption requests.\14\ Compared to the outdated pen 
and paper methods of tracking driver hours, this modern-day technology 
is more accurate, easier to enforce, more difficult to falsify, and--
most importantly--will save lives.
---------------------------------------------------------------------------
    \14\ 83 Fed. Reg. 63194 (December 7, 2018).
---------------------------------------------------------------------------
    Efforts in Congress to repeal this important mandate from certain 
fleets, such as H.R.1697, the Small Carrier Electronic Logging Device 
Exemption Act, are misguided, supported by misinformation, and an 
attempt to evade compliance with the existing laws and regulations 
governing duty hours and driver fatigue. In fact, given that 91 percent 
of all for-hire motor carriers in the United States operate six or 
fewer trucks, this legislation would serve only to cripple the ELD rule 
and give back much of the safety benefit it has brought. Enacting a 
bill such as this would pave the way for non-compliant carriers to 
avoid this important safety mandate and evade compliance with existing 
HOS regulations, which is not in the best interest of public safety.
    Opponents of the ELD implementation argue that the device has made 
highways unsafe by not allowing a driver to rest when tired. ATA, with 
its core principles rooted in the commitment to highway safety, would 
adamantly oppose any device that does not allow a driver to rest when 
tired. The simple fact is that ELDs have not changed the HOS rules that 
have been in place since the early 2000's. The requirements for how 
long a driver may operate a commercial vehicle, or the minimum amount 
of time a driver must be off-duty, were not affected by the 
implementation of ELDs. ELDs have simply replaced the traditional 
``paper log'' with an electronic version that automatically records a 
driver's duty status based on electronic data from the vehicle's engine 
and GPS location data. The argument that an ELD does not allow a driver 
to rest when tired is simply false, as the device is merely a 
recordkeeping method to ensure accuracy with a driver's HOS.
    There is, however, irrefutable evidence that ELD technology has 
proven effective in improving safety and increasing compliance. Since 
the December 18, 2017, ELD implementation date, HOS violations have 
dropped by more than half, and continue to fall.\15\ The decline in 
these violations, such as a driver driving beyond the maximum number of 
hours allowed, is a direct result of ELDs. Now that the initial ELD 
compliance date has come and gone, fleets have adopted the required 
technology and are compliant. FMCSA has stated that since April 1, 
2018, less than 1 percent of the nearly 3 million driver roadside 
inspections have resulted in a driver being cited for not having an 
ELD.\16\ FMCSA's 2014 report titled ``Evaluating the Potential Safety 
Benefits of Electronic HOS Records'' quantified the benefits of ELD 
use, finding that carriers using ELDs saw an 11.7 percent reduction in 
crash rate and a 50 percent reduction in HOS violations compared to 
those who had not adopted this safety technology. The study concluded 
that ``the results show a clear safety benefit, in terms of crash and 
HOS violation reductions for trucks equipped with ELDs.'' \17\ This and 
other evidence has convinced ATA and the vast majority of safety-
focused carriers within the trucking industry, along with law 
enforcement, Congress, FMCSA, and numerous federal courts, to support 
the ELD final rule.
---------------------------------------------------------------------------
    \15\ Federal Motor Carrier Safety Administration, Electronic 
Logging Device Hours-of-Service Violation Information Graphic. 
Retrieved February 28, 2019, from https://www.fmcsa.dot.gov/sites/
fmcsa.dot.gov/files/docs/regulations/enforcement/406471/eld-hos-
compliance-jan2019.pdf.
    \16\ Ibid.
    \17\ 79 Federal Register 27041 (May 12, 2014).
---------------------------------------------------------------------------
HOURS OF SERVICE:
    As the trucking industry has adjusted to the December 2017 
implementation of ELDs, concerns have been raised by varying segments 
of the industry for needed flexibility in commercial motor vehicle 
operators HOS. While HOS regulations are designed to provide the 
framework for the safe and efficient movement of goods, there has come 
to light the need for greater HOS flexibility to provide drivers the 
ability to adjust to changing road and weather conditions, congestion 
and sensitive truck loads.
    To address those concerns, in August 2018, FMCSA initiated a 
rulemaking on potential changes to the HOS rules. That rulemaking 
received over 5,200 comments with input on potential changes. This 
response has led FMCSA to move forward with issuing a Notice of 
Proposed Rulemaking (NPRM) which is currently at review with the Office 
of Management and Budget (OMB) and is expected to be published later 
this month. ATA--and, other industry stakeholders--continue to provide 
input to the agency on potential technical corrections to the HOS 
regulations that will allow greater flexibility for various segments of 
the industry.
    As the agency moves forward with potential adjustments to HOS, 
those changes must be based on safety data that demonstrates the change 
will create a level of safety that is equal to or greater than the 
level of safety that currently exists. Changes that lack the proper 
data and science supporting a safety benefit should not be considered.
    Additionally, while ATA would encourage the subcommittee to exert 
its oversight role in considering and reviewing FMCSA's forthcoming 
NPRM, we caution the subcommittee on dangerous and reactive legislation 
that is not grounded in safety, science or data. Legislation like 
H.R.487, the Transporting Livestock Across America Safely Act. While 
the bill's title is well-chosen, the legislation as drafted is a 
dangerous overreach, more than doubling the number of hours currently 
deemed safe for continuous commercial motor vehicle operation. While 
ATA understands and appreciates that livestock and agricultural haulers 
are a unique sector of the industry facing distinctive HOS challenges 
that should be reviewed and safely addressed, more than 24 hours of 
straight driving is not safe in a car, and it is even less so while 
transporting a trailer filled with livestock. This bill, and others 
like it, needlessly and recklessly threatens the safety of people 
traveling our highways, and should be rejected outright by this 
subcommittee and Congress.
EMPLOYER NOTIFICATION SYSTEM:
    ATA believes the FMCSA should establish a national employer 
notification system to provide motor carrier employers with timely 
alerts to driver license actions, such as suspensions, revocations, and 
convictions for moving violations. Use of this system should be 
voluntary, at least initially. Under the current process, motor 
carriers often are not notified about drivers' convictions in a timely 
manner. Employers are required to check each driver's record once per 
year, however this record may reveal violations committed up to 11 
months earlier. Employees are required to notify their employer of a 
violation of any State or local traffic law (other than a parking 
violation) within 30 days of a conviction, and of a license suspension, 
revocation, or cancellation within one day. However, they are often 
reluctant to do so because of the potential negative ramifications on 
their employment. FMCSA estimates that at least 50 percent of drivers 
may not notify employers of convictions and licensing actions within 
the required time-frames.\18\
---------------------------------------------------------------------------
    \18\ Driver Violation Notification Service Feasibility Study, U.S. 
Department of Transportation, Federal Motor Carrier Safety 
Administration, July 2005, figure 1, page 1.
---------------------------------------------------------------------------
    In 2007, a pilot ENS program was conducted to assess the 
feasibility, cost, safety impact, and benefits of such a system; and to 
assess methods for efficient exchange of driver safety data from 
existing State systems. The pilot program, tested in Colorado and 
Minnesota, allowed motor carriers to register, with the driver's 
expressed permission, to receive timely electronic notifications of 
convictions and suspensions. The results of the pilot indicated that a 
nationwide ENS was needed and could have significant safety and 
monetary benefits for motor carriers. In 2012, the Moving Ahead for 
Progress in the 21st Century Act (MAP-21) supported FMCSA's plans to 
develop and implement a national driver record notification system for 
commercial vehicle operators. ATA supports a standardized ENS approach 
and is advocating a national ENS system.
HAIR TESTING:
    An increasing number of motor carriers are conducting pre-
employment and random drug tests using drivers' hair as a testing 
sample. Hair tests provide a better, longer picture of an applicant's 
past drug use and are more difficult than other testing methods to 
subvert. However, since urine is the only sample type permitted under 
DOT regulations, companies that voluntarily conduct hair tests must do 
so in addition to mandatory urine tests. This duplicated time and 
expense deters fleets from adopting this more effective testing method. 
To help eliminate this redundancy and incent more fleets to conduct 
hair testing, ATA strongly supports the recognition of hair testing as 
a federally-accepted drug testing method.
    The Substance Abuse and Mental Health Services Administration 
(SAMHSA) has long expressed an interest in recognizing hair testing as 
a Federally-accepted drug testing method, and has been developing 
guidelines to recognize hair testing since the early 2000s. 
Unfortunately, progress has been inexcusably slow. As a result, in 
2015, Congress directed the Secretary of the Department of Health and 
Human Services (HHS) to ``issue scientific and technical guidelines for 
hair testing as a method of detecting the use of controlled substances 
for purpose of section 31306 of Title 49, United States Code'' by 
December 4, 2016.\19\ Unfortunately, this Congressionally-mandated 
deadline is now more than 2 years overdue. HHS missed this deadline, 
and continues to ignore the Congressional mandate.
---------------------------------------------------------------------------
    \19\ Fixing America's Surface Transportation Act Sec. 5402, (2015).
---------------------------------------------------------------------------
    Development of standards by HHS will pave the way for regulated 
employers to use this testing method and allow them to identify a 
greater number of safety-sensitive employees who violate Federal drug 
testing regulations. Additionally, having hair testing as a recognized 
alternative drug testing method would give motor carriers the ability 
to report positive hair test results to drivers' subsequent prospective 
employers through FMCSA's forthcoming Commercial Driver's License Drug 
and Alcohol Clearinghouse.
    Recognizing this unacceptable delay, in March 2018, the President 
signed H.R. 1625 the TARGET Act with report language to HHS on the 
Federal Drug Free Workplace Program that, ``The agreement strongly 
encourages the Secretary to expeditiously produce the technical 
guidelines for the use of hair testing as a Federally-accepted drug 
testing method.\20\ And most recently, H.R.6 the SUPPORT for Patients 
and Communities Act, the comprehensive opioids package passed by 
Congress and signed into law in October 2018, included important 
oversight and reporting requirements for HHS to follow in completing 
its work on hair testing. The legislation requires HHS to report to 
Congress on the status of hair testing guidelines within 60 days of 
enactment and annually thereafter until final publication. The report 
will include: (1) the status of the hair testing guidelines; (2) an 
explanation for why the hair testing guidelines have not been issued; 
(3) a schedule, including benchmarks, for the completion of the hair 
testing guidelines; and (4) an estimated date of completion of the hair 
testing guidelines.
---------------------------------------------------------------------------
    \20\ TARGET Act, H.R.1625, 115th Cong. (2018).
---------------------------------------------------------------------------
    ATA urges Congress and this subcommittee to put further pressure on 
HHS to pave the way toward adoption of this important safety 
initiative. Unfortunately, while this country in recent years has seen 
prescription opioid abuse grow to an epidemic, and an uptick of drug-
impaired driving, we continue to wait for these critical technical 
guidelines to be completed, so that DOT can recognize the use of hair 
testing as a federally-accepted drug testing method.
AUTOMATED AND CONNECTED VEHICLES:
    Madam Chair, I would now like to discuss automated vehicle 
technologies that we believe will help make our industry and workplace, 
the roads and bridges crisscrossing this country, safer. Automobile and 
truck manufacturers have been automating functions of vehicles for 
decades, such as the antilock braking system and cruise control. As 
technical solutions have grown, and costs have become more reasonable, 
policymakers and regulators are trying to catch up to the market-driven 
innovation and proliferating technologies. Collision avoidance system 
functionalities are becoming more affordable and standard on new light 
vehicles, and truck OEMs are on a similar path.\21\ New technology 
companies and traditional equipment suppliers are also developing 
automated vehicle technology specifically for the trucking industry, 
further accelerating the development of automated vehicle technologies 
in the trucking industry.\22\
---------------------------------------------------------------------------
    \21\ (March 8, 2019). ALL INTERNATIONAL ON-HIGHWAY TRUCKS TO COME 
STANDARD WITH BENDIX WINGMAN FUSION. Retrieved from https://
www.bendix.com/media/documents/press_releases/2019/
All_International_On-Highway_Trucks_To_Come_Standard_
With_Bendix_Wingman_Fusion319.pdf
    \22\ (January 30, 2019). Self-Driving Truck Startup Embark Releases 
Performance Data. Retrieved from https://www.ttnews.com/articles/self-
driving-truck-startup-embark-releases-performance-data
---------------------------------------------------------------------------
    The safety benefits from advancing automated truck technology also 
parallels the importance of intelligent transportation systems. Plans 
of deploying dedicated short-range communication (DSRC) devices on 
vehicles to enable vehicle-to-vehicle (V2V) and vehicle-to-
infrastructure (V2I) communications--collectively known as V2X--have 
significant future safety benefits to next generation U.S. 
transportation.\23\ Much work has been done by federal and state 
governments, research institutions, technical standards organizations, 
and technology companies to develop DSRC-based V2V protocols and 
applications for single and combination vehicles. Additionally, safety 
impacts of automated or assisted braking and steering are being studied 
and will likely show significant improvements in mitigating crashes and 
injuries.\24\ As vehicles are able to communicate with one another, the 
safety on our roadways can be vastly improved.
---------------------------------------------------------------------------
    \23\ Chang, J. (2016, July). Summary of NHTSA heavy-vehicle 
vehicle-to-vehicle safety communications research. (Report No. DOT HS 
812 300). Washington, DC: National Highway Traffic Safety 
Administration.
    \24\ (May 22, 2019). Development of Baseline Safety Performance 
Measures for Highly Automated Commercial Vehicles. Retrieved from 
https://www.fmcsa.dot.gov/research-and-analysis/technology/development-
baseline-safety-performance-measures-highly-automated
---------------------------------------------------------------------------
    Similarly, truck platooning--a DSRC platform technology that 
utilizes V2V and advanced driver assistive systems--has passed through 
early stages of testing and development, and may be deployed in the 
near future. Truck platooning could improve fuel efficiency for 
commercial vehicles, but more importantly, have added safety benefits 
as well-allowing the ``platoon'' of vehicles to instantly react to one 
another, such as applying the brakes faster than a human reaction. 
While the full impacts of automated and connected vehicles on workforce 
training, and labor regulation are not yet clear--as the effect of 
automation on trucking and logistics operations is still developing 
along with the technology--ATA does not perceive this technology to be 
``driverless'' for the trucking industry, but instead a vital driver 
assist tool. We expect that there will continue to be a role for 
drivers in trucking for the foreseeable future, similarly to pilots who 
are still in the cockpit of airplanes, fifty years after automation was 
introduced to aviation. Though the role for automation could certainly 
be modified and adjusted as the technologies continue to advance. A 
major role of drivers is responsibility for the security and oversight 
of the cargo, some of which is heavily regulated, especially hazardous 
or agricultural loads. More challenges to consider involve hours of 
service regulations, cybersecurity, insurance liability, roadside 
events, enforcement and first responder situations.
    Connected vehicles continue to be discussed as a potential safety 
technology. In January 2017, NHTSA published a proposed rule 
establishing a safety standard to mandate V2V communications for new 
light vehicles and to standardize the message and format of V2V 
transmissions.\25\ Also, FHWA issued guidance for V2I communications, 
which help transportation planners integrate the technologies to allow 
vehicles the ability to communicate to roadway infrastructure.\26\ 
Currently, three connected vehicle pilot programs are underway in 
Wyoming, Tampa, and New York City.\27\
---------------------------------------------------------------------------
    \25\ (January 12, 2017). Federal Motor Vehicle Safety Standards; 
V2V Communications. Retrieved from https://www.federalregister.gov/
documents/2017/01/12/2016-31059/federal-motor-vehicle-safety-standards-
v2v-communications
    \26\ (January 19, 2017). FHWA Announces Vehicle-to-Infrastructure 
Guidance. Retrieved from https://www.transportation.gov/briefing-room/
fhwa0317
    \27\ Connected Vehicle Pilot Deployment Program. Retrieved from 
https://www.its.dot.gov/pilots/
---------------------------------------------------------------------------
    In addition, some auto manufacturers are seeking cellular V2X (C-
V2X) frequency, not DSRC, to be dedicated on some channels of the 5.9 
GHz spectrum for vehicle safety communications. As long as the full 
breadth of 5.9 GHz spectrum is allocated for vehicle safety, then V2X 
technologies will enter the scene, allowing cars, trucks and 
infrastructure to communicate with each other. ATA believes that it is 
vitally important that the 5.9 GHz spectrum that has been reserved by 
the FCC exclusively for V2V and V2I communications be preserved against 
encroachment from other uses such as Wi-Fi, otherwise many important 
promises of automation will be lost. The FCC is anticipated to render a 
decision about the use of the 5.9 GHz spectrum, and whether it will be 
allocated to vehicle safety use or divided between that original 
purpose and unlicensed Wi-Fi users. If the full breadth of the 5.9 GHz 
spectrum is allocated for vehicle safety, then V2V and V2I technologies 
will enter the scene in an accelerated manor, better allowing cars, 
trucks and infrastructure to communicate with each other.
    ATA also believes that including the trucking industry in the 
framework of the development and testing of automated and connected 
vehicle technologies is crucial. ATA continues to engage with the FCC, 
FMCSA and other administrations within USDOT as well as other 
stakeholder advisory groups on automated and connected vehicles to 
ensure that the trucking industry's perspective is considered as future 
policies are being developed. ATA continues to work with State Trucking 
Associations and state legislators and transportation officials as 
policies, regulations, and research emanate from cities, states, 
universities, and businesses. ATA has also engaged with other 
stakeholders to study and address workforce issues related to automated 
trucks, as a founding member of the Partnership for Transportation 
Innovation & Opportunity.
ADVANCED DRIVER ASSISTIVE SYSTEMS:
    Although some automated driving systems and Vehicle-to-Vehicle 
technologies may be utilized in the near future, ATA member companies 
presently support and utilize systems to enhance the safety of their 
fleets. Substantial advancements have been made in vehicle collision 
mitigation technology through advanced driver assistive systems (ADAS), 
including advanced radar and LiDAR devices; enhanced camera and vision 
technologies; improved object detection algorithms, and automated 
steering and braking. Automated emergency braking (AEB)--a form of ADAS 
technology--detects an impending forward collision with another object 
in time to avoid or mitigate the accident. AEB systems, such as dynamic 
brake support (DBS) and crash imminent braking (CIB), use multiple 
onboard vehicle sensing technologies to monitor the proximity of 
approaching objects to warn the driver and/or apply DBS and CIB 
depending on the relative speed and distance between the host and 
opposing vehicles that suggest a collision is imminent.\28\
---------------------------------------------------------------------------
    \28\ Driver Assistance Technologies. Retrieved from https://
www.nhtsa.gov/equipment/driver-assistance-technologies
---------------------------------------------------------------------------
    In addition to AEB, commercial vehicles may now be equipped with 
ADAS such as:
    <bullet>  Adaptive Cruise Control (ACC)--A method for drivers to 
allow the system to keep a safe space in following traffic while 
maintaining a set speed through automated braking and accelerating;
    <bullet>  Forward Collision Warning (FCW)--A feature that can 
complement AEB and can generate audible, haptic and visual alerts when 
a rear-end conflict emerges;
    <bullet>  Blind Spot Detection (BSD)--A variable amount of sensors 
for detecting vehicles and vulnerable road users (can be speed 
dependent) that surround the truck and can warn the driver--or system--
during maneuvers;
    <bullet>  Lane Departure Warning (LDW)--A system alert for the 
driver when the vehicle drifts past lane markings without signal;
    <bullet>  Active Electric Steering (AES)--A combination of 
automated technology and sensory devices that can adjust the vehicle's 
heading; preemptively steer away from emergency situations, and 
maintain driver comfort during harsh environments;
    <bullet>  Lane Keeping Assist (LKA)--An AES feature that positions 
the vehicle center of its driving lane and can maintain slight turning 
directions;
    <bullet>  Camera Monitoring Systems (CMS)--Distinct camera devices 
mounted around the vehicle that enhance driver vision capabilities for 
blind spot ``No Zone'' areas and poor sight capabilities. CMS also has 
the availability to replace conventional truck mirrors for increasing 
safety and fuel efficiency; and
    <bullet>  Adaptive Driving Beam (ADB) Headlighting--A ``smart'' 
vehicle head light safety feature that adjusts the forward lighting 
brightness automatically through sensing detection technology for 
reducing glare on surrounding traffic while enhancing the driver or 
system's viewing capability in reducing accidents with vehicles and 
vulnerable road users.
    In October 2015, NHTSA granted a petition for rulemaking to 
establish a safety standard to require ADAS on certain heavy 
vehicles.\29\ The agency is currently conducting research to evaluate 
real-world performance of these systems through track testing and field 
operational testing. NHTSA also announced a commitment by majority of 
the U.S. auto market to make AEB a standard feature on virtually all 
new light-duty vehicles no later than NHTSA's 2022 reporting year.\30\ 
Additionally, AEB to be standard on virtually all new light-duty 
commercial vehicles with a gross vehicle weight between 8,501 lbs. and 
10,000 lbs. beginning no later than Sept. 1, 2025. ATA supports AEB for 
all new vehicles (Class 1-8) through a USDOT voluntary program 
challenging vehicle manufacturers to standardize AEB on new vehicles, 
and ATA supports carrier-based programs to expedite ADAS technology 
adoption.
---------------------------------------------------------------------------
    \29\ 80 Federal Register 62487 (October 16, 2015).
    \30\ (December 21, 2017). Manufacturers make progress on voluntary 
commitment to include automatic emergency braking on all new vehicles. 
Retrieved from https://www.nhtsa.gov/press-releases/nhtsa-iihs-
announcement-aeb
---------------------------------------------------------------------------
MISGUIDED SAFETY TECHNOLOGY MANDATES:
    While discussing safety technologies that our industry utilizes, 
both mandated and voluntarily, I also urge this subcommittee to use 
caution and best judgement as you consider technology mandates on the 
trucking industry that, while well intentioned, may lead to unintended 
consequences and negative impacts on both the industry and road safety. 
An example of this can be found in recent legislative attempts to 
mandate an unproven device known as a ``side underride guards'' on the 
trucking industry. Recently introduced in both the House \31\ and 
Senate \32\, the Stop Underrides Act calls for the mandating of these 
devices on the sides and front of virtually all commercial vehicles, 
including the retrofitting of already manufactured and in service 
vehicles.
---------------------------------------------------------------------------
    \31\ https://www.congress.gov/bill/116th-congress/house-bill/1511/
all-info.
    \32\ https://www.congress.gov/bill/116th-congress/senate-bill/665.
---------------------------------------------------------------------------
    This legislation, while a response to specific tragedies, seeks to 
address a certain type of truck involved accident through a highly 
prescriptive industry-wide mandate. Regrettably, the bill is not based 
on science, data or safety benefit. Moreover, it ignores potential 
technical issues a mandate of this nature raises, as well as the other 
technologies that exist for addressing these and other crashes, such as 
automatic emergency braking, camera monitoring systems, and adaptive 
turning assist. And, the bill ignores the diversity of our industry. In 
trucking, we know that one size does not fit all, and that investments 
in certain technologies that one company makes may not make sense for 
another. Standards for new and in-service truck equipment should be 
based on sound economic and engineering principles that enhance safety, 
take into account real-world operations, and weigh possible unintended 
consequences.
    The Stop Underrides Act also fails to consider numerous 
complicating factors such as engineering tradeoffs involving weight, 
strength, and effectiveness of side guards. Currently, the only testing 
that has been accomplished involves a closed course staged dry van 53 
trailer with a dummy car speeding perfectly perpendicular at its side 
underride guard well below highway speed limits. Furthermore, the bill 
raises significant operational issues related to ground clearance, 
moveable trailer axles, and the diversity of truck and trailer designs. 
For example, the ridged specified design of side underrides would not 
work well with tank and bulk trailers that are cylindrical in size and 
require underbelly accessibility; flatbed trailers, which unloaded, are 
naturally curved to suppress weight; and intermodal trailers that are 
shipped and locked onto specific designed chassis for hauling. Simply 
put, these glaring operational concerns do not signify real world 
applicability, nor justify an industry-wide mandate.
    Our industry needs to be diligent in directing safety-related 
resources, leveraging industry investments to result in the greatest 
potential benefit to highway safety, which is the only way we can hope 
to achieve the goal of accident and fatality-free highways. Equipping 
the roughly 3.2 million trailers and semi-trailers pulled by Class 7 
and 8 tractors and the overall 35 million commercial trucks (all 
classes) in the U.S with side and front underride guards will far 
exceed the $10 billion the industry currently spends annually on 
safety.\33\ As a result, the Stop Underrides Act would divert a 
significant amount of NHTSA and industry resources away from important 
crash avoidance technologies with wide-ranging benefits in all types of 
crashes to focus on a narrow type of crash and specific countermeasure 
unproven in real-world applications. Furthermore, the Government 
Accountability Office (GAO) recently completed a congressionally 
mandated report researching this very issue. In the report 
recommendations, the GAO concluded that ``The Administrator of the 
National Highway Traffic Safety Administration should conduct 
additional research on side underride guards to better understand the 
overall effectiveness and cost associated with these guards and, if 
warranted, develop standards for their implementation.'' \34\
---------------------------------------------------------------------------
    \33\ Truck and trailer data from 2017 from ACT Research.
    \34\ (March, 2019). Truck Underride Guards, Improved Data 
Collection, Inspection, and Research Needed (Report No. GAO-19-264). 
Retrieved from United States Government Accountability Office: https://
www.gao.gov/assets/700/697585.pdf.
---------------------------------------------------------------------------
    ATA strongly recommends that Congress and Federal Regulators work 
collaboratively with the industry to incentivize safety investments, 
allowing motor carrier to make the right investments that provide the 
greatest overall benefit the safety of our roads, bridges and motoring 
public. However, misguided and wrongheaded legislative mandates like 
the Stop Underrides Act ultimately detract from our shared goal of 
improved safety.
                       2) WORKFORCE DEVELOPMENT:
THE DRIVER SHORTAGE CRISIS:
    According to the Council of Economic Advisers, truck drivers are 
among the top ``infrastructure occupations'' that will be needed and in 
increased demand with expanded investments in infrastructure.\35\ 
However, as confirmed by the International Brotherhood of Teamsters 
\36\ and the Federal Reserve Board,\37\ the trucking industry is 
already facing a severe labor shortage.
---------------------------------------------------------------------------
    \35\ The Council of Economic Advisers, ``The Economic Benefits and 
Impacts of Expanded Infrastructure Investment,'' March 2018, at 26, 
https://www.whitehouse.gov/wp-content/uploads/2018/03/The-Economic-
Benefits-and-Impacts-of-Expanded-Infrastructure-Investment.pdf.
    \36\ U.S. Senate Committee on Commerce, Science, & Transportation 
Hearing, Transportation Innovation: Automated Trucks and Our Nation's 
Highways, Sep. 13, 2017, https://www.commerce.senate.gov/public/
index.cfm/hearings?ID=5A988178-CACC-4ADF-8EAC-784DE626B89F.
    \37\ The Federal Reserve Board, The Beige Book: Summary of 
Commentary on Current Economic Conditions by Federal Reserve District, 
July 18, 2018, https://www.federalreserve.gov/monetarypolicy/files/
BeigeBook_20180718.pdf.
---------------------------------------------------------------------------
    Specifically:
    <bullet>  In 2017, the industry was short 50,000 drivers, the 
highest level on record; \38\
---------------------------------------------------------------------------
    \38\ American Trucking Associations, Truck Driver Shortage Analysis 
2017, http://progressive1.acs.playstream.com/truckline/progressive/
ATAs%20Driver%20Shortage%20Report
%202017.pdf.
---------------------------------------------------------------------------
    <bullet>  In July 2018, half of the nation's twelve Federal Reserve 
Districts specifically reported trucking capacity and truck driver 
shortage issues, with many reporting rising freight and manufacturing 
costs due to the shortage; \39\
---------------------------------------------------------------------------
    \39\ The Federal Reserve Board, supra note 3.
---------------------------------------------------------------------------
    <bullet>  If current trends hold, the shortage could grow to more 
than 174,000 by 2026; and \40\
---------------------------------------------------------------------------
    \40\ Truck Driver Shortage Analysis 2017, supra note 4.
---------------------------------------------------------------------------
    <bullet>  Over the next decade, the trucking industry will need to 
hire roughly 890,000 new drivers, taking into account retirement and 
the industry's aging workforce (whose average age is 7 years older than 
that of your typical U.S. worker).\41\
---------------------------------------------------------------------------
    \41\ Id.
---------------------------------------------------------------------------
    This shortage, in turn, threatens to increase the cost of moving 
freight, and reduce supply chain efficiencies. The driver shortage 
persists despite the fact that private fleet drivers saw their pay rise 
to more than $86,000 from $73,000--or a gain of nearly 18 percent--from 
2014 to 2017.\42\ Over the same period, the median salary for a 
truckload driver working a national, irregular route increased to over 
$53,000--for an increase of $7,000 or 15 percent.\43\ These significant 
bumps in pay are in addition to the thousands of dollars in signing 
bonuses, health insurance, and retirement benefits that most carriers 
offer to recruit and retain drivers.\44\
---------------------------------------------------------------------------
    \42\ American Trucking Associations, UPDATED: New Survey Data 
Reveals Increases in Driver Compensation, March 27, 2018, https://
www.trucking.org/article/New-Survey-Data-Reveals-Increases-in-Driver-
Compensation.
    \43\ Id.
    \44\ Id.
---------------------------------------------------------------------------
BIPARTISAN SUPPORT FOR OCCUPATIONAL LICENSING REFORM:
    Given that ``truck-driver'' was one of the most in-demand jobs in 
the country with the biggest pay hikes in 2018,\45\ why is the industry 
still under pressure from a driver shortage standpoint?
---------------------------------------------------------------------------
    \45\ Paul Davidson, The most in demand jobs in 2018 with biggest 
pay hikes include cashier, truck driver, USA Today, May 22, 2018, 
https://www.usatoday.com/story/money/careers/2018/05/22/jobs-biggest-
pay-hikes-cashier-delivery-driver/630728002/.
---------------------------------------------------------------------------
    With the nation's unemployment rate hovering at historic lows and 
demand for freight transportation continuing to peak in our growing e-
commerce economy, the trucking industry is not able to replenish its 
aging workforce with younger workers--due in large part to outdated 
occupational licensing requirements that disproportionately burden 
entry-level drivers.
    As you may be aware, reforming outdated occupational licensing 
requirements has been a bipartisan priority of the past two 
administrations.\46\ In July 2015, President Obama was able to marshal 
among a wide array of stakeholders and policymakers support for 
occupational licensing reform, through the issuance of an eye-opening 
report by his Council of Economic Advisers, the U.S. Department of 
Treasury's Office of Economic Policy, and the U.S. Department of 
Labor.\47\
---------------------------------------------------------------------------
    \46\ Nick Sibilla, ``Citing Adam Smith and Milton Firedman, Obama's 
Economic Advisors Back Occupational Licensing Reform,'' Forbes, July 
31, 2015, https://www.forbes.com/sites/instituteforjustice/2015/07/31/
citing-adam-smith-and-milton-friedman-obamas-economic-advisors-back-
occupational-licensing-reform/#411b2aaf582e; Jared Meyer, ``Trump 
Doubles Down on Licensing Reform,'' Forbes, July 31, 2017, https://
www.forbes.com/sites/jaredmeyer/2017/07/31/trump-and-obama-agree-on-
licensing/#10d91bf9692d
    \47\ The Council of Economic Advisers, the U.S. Department of 
Treasury, Office of Economic Policy, and the U.S. Department of Labor, 
Occupational Licensing: A Framework for Policymakers, July 2015, 
https://obamawhitehouse.archives.gov/sites/default/files/docs/
licensing_report_final
_nonembargo.pdf.
---------------------------------------------------------------------------
    In summarizing this report, Jason Furman, Chairman of President 
Obama's Council of Economic Advisers, described the many ways in which 
outdated licensing requirements create barriers to labor market entry 
or lateral mobility, as follows:

        [T]here is evidence that some licensing requirements create 
        economic rents for licensed practitioners at the expense of 
        excluded workers and consumers--increasing inefficiency and 
        potentially also increasing inequality. First, the employment 
        barriers created by licensing raise wages for those who are 
        successful in gaining entry to a licensed occupation by 
        restricting employment in the licensed profession and lowering 
        wages for excluded workers. . . . Second, research finds that 
        more restrictive licensing laws lead to higher prices for goods 
        and services, in many cases for lower-income households, while 
        the quality, health and safety benefits do not always 
        materialize . . . . most empirical evidence does not find that 
        stricter licensing requirements improve quality, public safety 
        or health. . . . Finally, State-specific licensing requirements 
        create barriers to entry for out-of-State licensed 
        practitioners and so reduce mobility across State lines.\48\
---------------------------------------------------------------------------
    \48\ Jason Furman, Chairman, Council of Economic Advisers, 
Occupational Licensing and Economic Rents, The Brookings Institution, 
Nov. 2, 2015, https://obamawhitehouse.archives.gov/sites/default/files/
page/files/20151102_occupational_licensing_and_economic_rents.pdf.

    Not surprisingly, there is broad bipartisan support for rolling 
back these unnecessary barriers that hold back so many Americans, which 
disproportionately affect African-Americans, Hispanics, military 
spouses and veterans, returning citizens, and the poor.\49\ In 
recognition of similar challenges that outdated licensing requirements 
pose for the transportation and infrastructure workforce, Labor 
Secretary Alex Acosta has advocated for workforce development reforms 
to be included in an infrastructure package.\50\ In particular, 
Secretary Acosta testified in support of occupational licensing 
reform.\51\
---------------------------------------------------------------------------
    \49\ Matthew D. Mitchell, Occupational Licensing and the Poor and 
Disadvantaged, The Mercatus Center, Sep. 28, 2017, https://
www.mercatus.org/publications/study-american-capitalism/occupational-
licensing-and-poor-and-disadvantaged.
    \50\ U.S. Senate Committee on Commerce, Transportation, & Science 
Hearing, Rebuilding Infrastructure In America: Administration 
Perspectives, March 14, 2018, https://www.commerce.senate.gov/public/
index.cfm/hearings?ID=D68FC40C-36BC-4319-B96F-CAC99129FE3E.
    \51\ Id.
---------------------------------------------------------------------------
OCCUPATIONAL LICENSING REFORM IN THE TRUCKING INDUSTRY:
    For the reasons mentioned above, to help alleviate the truck driver 
shortage and remove unnecessary barriers to entry, ATA supports the 
following occupational licensing reforms.
            Give 18, 19, and 20-year-olds the Opportunity to Choose a 
                    Career in Trucking:
    First, ATA supports lowering the minimum age requirement for 
interstate truck driving from 21 to 18--but only for qualified 
apprentices that satisfy the safety, training, and technology 
requirements spelled out in the DRIVE Safe Act (H.R. 1374; S. 569 in 
the 116th Congress) and the new training requirements of the Obama 
Administration's Entry Level Driver Training (ELDT) Final Rule. 
Currently, 48 states and the District of Columbia allow 18-year-old CDL 
holders to drive trucks intrastate without any of these additional 
training and technology requirements. Many of these 18, 19, and 20 year 
old intrastate drivers outperform their older counterparts when it 
comes to critical safety measures such as crash rates. Additionally, 
our nation's military allows 18, 19 and 20 year old service members to 
operate heavy duty machinery, equipment and vehicles--demonstrating 
that good training makes it possible for the average U.S. sailor 
(younger than 20 years old) to steer a $4 billion aircraft carrier.\52\
---------------------------------------------------------------------------
    \52\ National U.S. Navy Aircraft Carrier Month, 2018, https://
aircraftcarrier.com/wp-content/uploads/2018/10/Talking-Points-2018.pdf
---------------------------------------------------------------------------
    Modern-day vehicle safety technologies have advanced by several 
orders of magnitude since the current minimum age requirement was 
promulgated decades ago before the advent of the internet. And research 
has shown that the technologies that would be required by the DRIVE 
Safe Act and endorsed by the NTSB--technologies such as active braking, 
collision avoidance, and event recorders--significantly improve safety 
performance. Meanwhile, 6.4 million Opportunity Youth in this country 
are neither employed nor in school, even as the nation is short 50,000 
truck drivers. An update to the minimum age requirement is well over-
due.
            Eliminate Unnecessary Barriers for Out-of-State Driver 
                    Candidates:
    Second, to better connect job-seekers to trucking careers that 
offer a median salary of $54,585, health and retirement benefits, in 
addition to potentially thousands of dollars in signing bonuses, ATA 
supports efforts to require states to better serve the growing number 
of truck driver candidates who receive driver training outside their 
state of domicile.
    Currently, out-of-state trainees have to travel back and forth to 
their home state, every time they pass either the CDL knowledge test or 
skills test--just to obtain the basic occupational licenses necessary 
to launch their trucking career. This arrangement imposes unnecessary 
financial burdens on those who can least afford it and exposes them to 
skill degradation. This problem could be addressed by requiring states 
receiving federal funds for infrastructure projects to allow such out-
of-state trainees to (1) complete all training, (2) take all necessary 
tests, and (3) obtain all necessary credentials in the state in which 
they are receiving training--without having to travel back to their 
home state.
    As the Council of Economic Advisers has noted:

        Because [occupational] licenses are largely granted by states 
        (rather than being nationally recognized), licensing inhibits 
        the free flow of licensed workers across state boundaries to 
        better match labor supply to labor demand. Unless the 
        geographic footprint and skill needs of expanded infrastructure 
        investments match the geographic distribution of currently 
        unemployed infrastructure workers, some reshuffling of workers 
        across state lines may be needed.\53\
---------------------------------------------------------------------------
    \53\ Council of Economic Advisers, supra note 1, at 33 (emphasis 
added).

    In the trucking industry, the geographic distribution of currently 
unemployed truck driver candidates does not match the geographic 
footprint of federal workforce development investments. Accordingly, 
individuals aspiring to become truck drivers are crossing state lines 
to obtain state-of-the-art training from motor carriers that have the 
support of federal workforce dollars and have been hiring minorities, 
veterans, apprentices, and other underrepresented populations at 
industry-leading rates.
    To better facilitate and scale this innovative model of workforce 
development, ATA supports efforts to require states of domicile to (1) 
accept the results of an applicant's CDL knowledge test administered in 
another state, and to (2) electronically transmit or deliver by mail 
the relevant credential--be it a CLP or a CDL--to the applicant without 
requiring him or her to physically come back to the state of domicile.
            Eliminate Skills Test Delays for CDL Applicants:
    ATA supports incentivizing states to administer the CDL skills test 
within 7 days of application or utilizing 3rd party testers. A low 
unemployment rate and the stigma surrounding blue-collar work makes it 
difficult enough to recruit drivers into the trucking industry. States 
that make applicants wait up to two months to take their skills test 
contributes to this problem by discouraging applicants from following 
through. It also invites skills erosion.
RELATED WORKFORCE PRIORITIES:
            Support Efforts to Recruit, Train, and Hire from Non-
                    Traditional Communities:
    A growing number of ATA members recruit drivers from inner cities 
and teach them life-skills such as budgeting and punctuality. These 
companies are also industry-leaders in hiring veterans, apprentices, 
and female drivers. Building on these successes, ATA is exploring a 
pilot project in Baltimore, MD, to help expand our outreach to urban 
communities. Several large ATA members are also interested in building 
career entryways for returning citizens, but there are questions about 
negligent hiring liability and grant funding.
            Support Research on the Workforce Impacts of Automated 
                    Vehicles:
    ATA supports the commonsense adoption of automated vehicle 
technology and data-driven efforts to better understand and optimize 
the potential benefits of this technology for the American workforce. 
While we recognize that the widespread adoption of these technologies 
is decades away, ATA supports increased research that will better equip 
policymakers and regulators with more data to prepare the next 
generation of American workers for the future of work in trucking and 
transportation.
                           3) INFRASTRUCTURE:
THE COST OF INACTION:
    A well-maintained, reliable and efficient network of highways is 
crucial to the delivery of the nation's freight and vital to our 
country's economic and social well-being. However, the road system is 
rapidly deteriorating, and costs the average motorist nearly $1,600 a 
year in higher maintenance and congestion expenses.\54\ Highway 
congestion also adds nearly $75 billion to the cost of freight 
transportation each year.\55\ In 2016, truck drivers sat in traffic for 
nearly 1.2 billion hours, equivalent to more than 425,000 drivers 
sitting idle for a year.\56\
---------------------------------------------------------------------------
    \54\ Bumpy Road Ahead: America's Roughest Rides and Strategies to 
make our Roads Smoother, The Road Information Program, Oct. 2018; 2015 
Urban Mobility Scorecard. Texas Transportation Institute, Aug. 2015.
    \55\ Cost of Congestion to the Trucking Industry: 2018 Update. 
American Transportation Research Institute, Oct. 2018.
    \56\ Ibid.
---------------------------------------------------------------------------
    These are impacts that serve as a brake on economic growth and job 
creation nationwide. Madam Chair, a first-world economy cannot survive 
a third-world infrastructure system. As such, the federal government 
has a Constitutional responsibility to ensure that the resources are 
available to address this self-imposed and completely solvable 
situation. The Commerce Clause does not represent an antiquated 18th 
century ideal; it is what binds us as a nation. E Pluribus Unum--out of 
many, one.
    Those who support abandoning or curtailing the federal role in 
surface transportation improvement do so in contempt of the ideals that 
have made the United States great. They are willing to put aside 
centuries of precedent in favor of a wager that 50 states will, at 
their own behest, take the actions that are necessary to prevent 
further deterioration of a transportation system that binds us together 
as one nation and allows our economy to thrive. This is especially 
problematic for low-population, large-area states, which carry large 
volumes of interstate traffic that benefit the entire nation, but do 
not have the population base to fund needed improvements. The trucking 
industry, the backbone of the economy, will not accept this reckless 
approach, and Congress and this subcommittee should reject it as well.
    Most troubling is the impact of underinvestment on highway safety. 
In nearly 53 percent of highway fatalities, the condition of the 
roadway is a contributing factor.\57\ In 2011, nearly 17,000 people 
died in roadway departure crashes, over 50 percent of the total.\58\ 
Many of these fatalities result from collisions with roadside objects, 
such as trees or poles located close to the roadway.
---------------------------------------------------------------------------
    \57\ Roadway Safety Guide. Roadway Safety Foundation, 2014.
    \58\ Ibid.
---------------------------------------------------------------------------
    The Highway Trust Fund (HTF), the primary source of federal revenue 
for highway projects, safety programs and transit investments, is 
projected to run short of the funds necessary to maintain current 
spending levels by FY2021.\59\ While an average of approximately $42 
billion per year is expected to be collected from highway users over 
the next decade, nearly $60 billion will be required annually to 
prevent significant reductions in federal aid for critical projects and 
programs.\60\ It should be noted that a $60 billion annual average 
federal investment still falls well short of the resources necessary to 
provide the federal share of the expenditure needed to address the 
nation's surface transportation safety, maintenance and capacity 
needs.\61\ According to the American Society of Civil Engineers, the 
U.S. spends less than half of what is necessary to address these needs. 
As the investment gap continues to grow, so too will the number of 
deficient bridges, miles of roads in poor condition, number of highway 
bottlenecks and, most critically, the number of crashes and fatalities 
attributable to inadequate roadways.
---------------------------------------------------------------------------
    \59\ The Budget and Economic Outlook 2019-2029, January 2019 
Congressional Budget Office.
    \60\ Ibid.
    \61\ 2015 Status of the Nation's Highways, Bridges, and Transit: 
Conditions & Performance. USDOT, Dec. 2016; see also 2017 
Infrastructure Report Card. American Society of Civil Engineers, 2017.
---------------------------------------------------------------------------
    While the cost and scale of addressing highway improvement needs is 
daunting, it is important to note that much of the congestion is 
focused at a relatively small number of locations. Just 17 percent of 
National Highway System (NHS) miles represents 87 percent of total 
truck congestion costs nationwide.\62\ Many of these locations are at 
highway bottlenecks that are identified annually by the American 
Transportation Research Institute. ATRI recently released its annual 
freight bottleneck report, which identifies the top 100 truck 
bottlenecks around the country.\63\ The Washington, DC area had two 
major bottlenecks, while Illinois had four. While most of the 
bottlenecks were in large metropolitan areas, the report found trouble 
spots even in smaller cities like Baton Rouge, LA, San Bernardino, CA, 
Birmingham, AL, Chattanooga, TN, and Greenville, SC. ATA's highway 
funding proposal, described below, would adopt a strategy for funding 
improvements at these costly choke points.
---------------------------------------------------------------------------
    \62\ Ibid.
    \63\ https://truckingresearch.org/2019/02/06/atri-2019-truck-
bottlenecks/
---------------------------------------------------------------------------
    A recently released report \64\ by the Transportation Research 
Board (TRB) requested by Congress focused specifically on the current 
state and future needs of the Interstate Highway System. This critical 
network binds our nation together and reaps immeasurable economic and 
national security benefits for the United States. Most importantly, 
because interstates are far safer than surface roads, since 1967 its 
construction has prevented nearly a quarter million people from losing 
their lives in vehicular crashes.\65\ The Interstate Highway System 
accounts for about one-quarter of all miles traveled by light-duty 
vehicles and 40 percent of miles traveled by trucks.\66\ The TRB report 
estimates that conservatively, the state and federal investment 
necessary to address the Interstate system's maintenance and capacity 
needs will have to double or triple over today's expenditures in the 
next 20 years.\67\
---------------------------------------------------------------------------
    \64\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future (2018). Transportation Research 
Board, National Academy of Sciences.
    \65\ Ibid, p. 2-18
    \66\ Ibid, p. 2-10.
    \67\ Ibid, p. S-5
---------------------------------------------------------------------------
THE BUILD AMERICA FUND:
    ATA's proposed solution to the highway funding crisis is the Build 
America Fund. The BAF would be supported with a new 20 cent per gallon 
fee built into the price of transportation fuels collected at the 
terminal rack, to be phased in over four years. The fee will be indexed 
to both inflation and improvements in fuel efficiency, with a five 
percent annual cap. We estimate that the fee will generate nearly $340 
billion over the first 10 years. It will cost the average passenger 
vehicle driver just over $100 per year once fully phased in.\68\
---------------------------------------------------------------------------
    \68\ Federal Highway Administration, Highway Statistics 2016, Table 
VM-1. Average light-duty vehicle consumed 522 gallons of fuel.
---------------------------------------------------------------------------
    We also support a new fee on hybrid and electric vehicles, which 
underpay for their use of the highway system or do not contribute at 
all. We look forward to working with the committee to identify the best 
approach to achieve that goal.
    Under the BAF proposal, the first tranche of revenue generated by 
the new fee would be transferred to the HTF. Using a FY 2020 baseline, 
existing HTF programs would be funded at authorized levels sufficient 
to prevent a reduction in distributed funds, plus an annual increase to 
account for inflation.
    Second, a new National Priorities Program (NPP) would be funded 
with an annual allocation of $5 billion, plus an annual increase 
equivalent to the percentage increase in BAF revenue. Each year, the 
U.S. Department of Transportation would determine the location of the 
costliest highway bottlenecks in the nation and publish the list. 
Criteria could include the number of vehicles; amount of freight; 
congestion levels; reliability; safety; or, air quality impacts. States 
with identified bottlenecks could apply to USDOT for project funding 
grants on a competitive basis. Locations could appear on the list over 
multiple years until they are addressed.
    The funds remaining following the transfer to the HTF and the NPP 
would be placed into the Local Priorities Program (LPP). Funds would be 
apportioned to the states according to the same formula established by 
the Surface Transportation Block Grant Program, including sub-
allocation to local agencies. Project eligibility would be the same as 
the eligibility for the National Highway Freight Program or National 
Highway Performance Program, for highway projects only.
    This approach would give state and local transportation agencies 
the long-term certainty and revenue stability they need to not only 
maintain, but also begin to improve their surface transportation 
systems. They should not be forced to resort to costly, inefficient 
practices--such as deferred maintenance--necessitated by the 
unpredictable federal revenue streams that have become all too common 
since 2008. Furthermore, while transportation investment has long-term 
benefits that extend beyond the initial construction phase, it is 
estimated that our proposal would add nearly half a million annual jobs 
related to construction nationwide, including nearly 2,000 jobs in 
Washington, D.C. and almost 7,000 jobs in Illinois.\69\
---------------------------------------------------------------------------
    \69\ A Framework for Infrastructure Funding. American 
Transportation Research Institute, Nov. 2017.
---------------------------------------------------------------------------
    The fuel tax is the most immediate, cost-efficient and conservative 
mechanism currently available for funding surface transportation 
projects and programs. Collection costs are less than one percent of 
revenue.\70\ Our proposal will not add to the federal debt or force 
states to resort to detrimental financing options that could jeopardize 
their bond ratings. Unlike other approaches that simply pass the buck 
to state and local governments by giving them additional ``tools'' to 
debt-finance their infrastructure funding shortfalls for the few 
projects that qualify, the BAF will generate real money that can be 
utilized for any federal-aid project.
---------------------------------------------------------------------------
    \70\ Ibid.
---------------------------------------------------------------------------
    While some have suggested that a fuel tax is regressive, the 
economic harm of failing to enact our proposal will be far more 
damaging to motorists. The $100 per year paid by the average car driver 
under this proposal pales in comparison with the $1,600 they are now 
forced to pay annually due to additional vehicle maintenance, lost 
time, and wasted fuel that has resulted from underinvestment in our 
infrastructure. Borrowing billions of dollars each year from China to 
debt finance the HTF funding gap--a cost imposed on current and future 
generations of Americans who will be forced to pay the interest--is far 
more regressive than the modest fee needed to avoid further blowing up 
our already massive national debt.
    Forcing states to resort to tolls by starving them of federal funds 
is far more regressive than the $2.00 a week motorists would pay under 
our proposal. One needs only look to I-66 in Northern Virginia, where 
tolls average more than $12.00 per roundtrip and can sometimes exceed 
$46.00, to understand the potential impacts on lower- or middle-income 
Americans.\71\ To put this into perspective, even if motorists only 
paid the average toll, the cost of a 10-mile trip over an eight day 
period on I-66 would be equivalent to their cost for an entire year 
under ATA's BAF proposal for all roads and bridges.
---------------------------------------------------------------------------
    \71\ http://www.66expresslanes.org/documents/
66_express_lanes_january_2018_
performance_ereport.pdf
---------------------------------------------------------------------------
    There is a perception that the fuel tax is no longer a viable 
revenue source due to the availability of electric vehicles and 
improvements in vehicle fuel efficiency. This notion is belied by the 
facts. According to the Congressional Budget Office's latest estimates, 
revenue from fuel taxes will drop less than eight percent over the next 
decade, or about $3 billion.\72\ A modest increase in the fuel tax, or 
a new fee on alternative fuel vehicles, can easily recover these lost 
revenues.
---------------------------------------------------------------------------
    \72\ Congressional Budget Office, Budget and Economic Outlook: 
2019-2029, January 2019.
---------------------------------------------------------------------------
    Finally, ATA supports repeal of the federal excise tax (FET) on 
trucking equipment, provided the revenue it generates for the HTF is 
replaced. This antiquated 12 percent sales tax, which was adopted in 
1917 to defray the costs of World War I, is a barrier to investment in 
the cleanest, safest trucks available on the market. In fact, when the 
FET was first adopted, it was applied to all vehicles, and now is 
imposed only on heavy trucks. Income from the FET has varied widely, 
mostly in response to economic conditions. Over the past decade revenue 
has ranged between $1.5 billion during the recession year of 2008 and 
$4.6 billion in 2015. This variability contributes to mismatches 
between federal-aid money authorized and revenue available for 
appropriation. In fact, the first bail-out of the HTF, in 2008, was 
necessitated largely by an unanticipated drop in FET revenue.
TOLLS:
    ATA opposes expansion of Interstate highway tolling authority and 
highway ``asset recycling.'' Interstate tolls are a highly inefficient 
method of funding highways. One study found that converting all 
Interstate highways into toll roads would cost more than $55 
billion.\73\ Tolling also forces traffic onto secondary roads, which 
are weaker and less safe.
---------------------------------------------------------------------------
    \73\ Renewing the National Commitment to the Interstate Highway 
System: A Foundation for the Future (2018). Transportation Research 
Board, National Academy of Sciences, p. 6-13.
---------------------------------------------------------------------------
    Furthermore, tolls distort the business model for companies that 
rely on Interstate highway traffic for a significant share of their 
revenue. Motels, restaurants, truck stops and other roadside 
establishments would be devastated by the imposition of tolls. Often 
they are the largest employer in rural areas and small towns, and if 
they are forced to cut back or close down, this could cause ripple 
effects through surrounding communities. Nor are the effects likely to 
be confined to the state that imposes the tolls. Indiana, for example, 
seriously considered statewide Interstate tolls using a federal 
exemption that allows tolling of replacement or reconstructed bridges. 
These tolls would have not only severely hurt businesses in Indiana, 
but also in neighboring states that rely on Indiana highways for 
freight services.
    In addition, tolls present a strong temptation for states to 
contrive ways to unfairly shift their revenue burdens 
disproportionately to out-of-state users to whom they are not 
politically accountable. Rhode Island's RhodeWorks program is a case in 
point: the state legislature abused the federal bridge exemption to the 
general prohibition on tolling federal-aid highways to transform 
``bridges'' like two-lane overpasses into toll facilities, and 
authorized imposition of tolls only on tractor-semitrailers--precisely 
the vehicles most likely to be engage in interstate commerce--while 
excluding passenger cars and heavy trucks such as construction vehicles 
and dump trucks that are more likely to come from in-state. Other 
states have expressed interest in similarly extorting the interstate 
trucking industry. To be clear, the trucking industry is committed to 
paying its fair share of highway costs. But to treat the industry as a 
piggy bank to avoid fairly distributing the burden is unacceptable, and 
that is why ATA is currently challenging the RhodeWorks program in 
federal court, as an unconstitutional, discriminatory burden on 
interstate commerce. But Congress should also act to make clear to 
states that Rhode Island's cynical exploitation of the bridge exemption 
undermines the presumption against tolling federally supported roads, 
and to expressly prohibit states that choose to toll the channels of 
interstate commerce from doing so in a way that insulates favored in-
state users from the impact.
    The exceptions to the federal ban on Interstate tolls have evolved 
over the decades into a confusing, incoherent mess that serve neither 
state transportation agencies, nor the public, very well. It is time to 
establish a rational system that protects the public from the negative 
impacts of tolls. These reforms are described in greater detail in 
ATA's Surface Transportation Reauthorization Priorities document 
included in the Appendix.
    Related to tolls, some have suggested using asset recycling to 
raise money for infrastructure investment. Asset recycling involves 
selling or leasing public assets to the private sector. Where asset 
recycling has been utilized on toll roads in the U.S., toll payers have 
seen their rates increased, only to subsidize projects with little or 
no benefit to them. One need only consider the recent 35 percent 
increase in truck toll rates on the Indiana Toll Road for an example of 
these abusive practices. The state gets a single tranche of money for 
road, broadband, airport and other projects that have no direct benefit 
for toll road users, while the private operator of the highway reaps 
the profits for the next six decades. This latest increase is on top of 
the doubling of toll rates prior to the initial lease in 2006, and 
subsequent annual increases that have resulted in a greater than 300 
percent increase in truck toll rates over the past 13 years, with 
little or no benefit to toll road users. ATA is adamantly opposed to 
these types of forced subsidies. Please note that our position on asset 
recycling pertains only to the highway sector.
THE TRUCK DRIVER PARKING SHORTAGE:
    Research and feedback from carriers and drivers suggest there is a 
significant shortage of available parking for truck drivers in certain 
parts of the country. Given the projected growth in demand for trucking 
services, this problem will likely worsen. There are significant safety 
benefits from investing in truck parking to ensure that trucks are not 
parking in unsafe areas due to lack of space.
    Funding for truck parking is available to states under the current 
federal-aid highway program, but truck parking has not been a priority 
given a shortage of funds for essential highway projects. Therefore, we 
support the creation of a new discretionary grant program with 
dedicated funding from the federal-aid highway program for truck 
parking capital projects.
                               4) TRADE:
TRADE & THE TRUCKING INDUSTRY:
    Trucking is the largest mode of freight transportation in the 
United States; over 70 percent of all freight tonnage is transported by 
truck, and when trucks are not the primary mode of transportation, 
other modes often depend on trucks for final delivery.\74\ Nearly 
everything we buy--from food to clothing to commodities as well as 
domestically produced goods and imports--has been hauled by truck at 
least once before ultimately landing in the hands of the consumer. We 
at ATA like to say that trade is synonymous with trucking because the 
vitality of the U.S. economy depends on a robust trucking industry to 
deliver goods throughout the supply chain.
---------------------------------------------------------------------------
    \74\ ATA U.S. Freight Transportation Forecast to 2029 (2018); 
American Trucking Associations. https://www.atabusinesssolutions.com/
ATA-Store/ProductDetails/productid/4012243
---------------------------------------------------------------------------
CONGRESSIONAL RATIFICATION OF THE USMCA:
    Trucking dominates cross-border freight movements as well. Every 
single day, there are 33,000 total truck entries along our northern and 
southern borders hauling more than $2 billion of goods. To put this in 
perspective, in 2018, 12.2 million truck crossings moved approximately 
$772 billion of goods across our Canadian and Mexican borders.\75\ 
Trade with our northern and southern neighbors has created or supported 
tens of thousands of jobs in the United States, with motor carriers, 
suppliers and shippers, underscoring the benefits of free trade.
---------------------------------------------------------------------------
    \75\ Trade Moves North America Forward (2019); American Trucking 
Associations. https://www.trucking.org/ATA%20Docs/
News%20and%20Information/Reports%20Trends%20and%20Statistics/
ATA_NorthAmericanTrade2018.pdf
---------------------------------------------------------------------------
    While the North American Free Trade Agreement has been a tremendous 
benefit to the trucking industry, the United States-Mexico-Canada 
Agreement, or USMCA, is a timely, welcome, and necessary update to the 
incumbent agreement. NAFTA entered into force on January 1, 1994--long 
before the advent of e-commerce and digital trade. As technology 
becomes even more integrated into the supply chain, it is imperative 
that our North American trade framework follows suit. Simply put, a 
21st century trade environment necessitates a 21st century trade 
agreement, and the USMCA is the best vehicle to propel the U.S. trade 
economy into modernity.
    The United States, Mexico and Canada have been transformed by 
nearly 25 years of tariff-free trade, generating a level of economic 
integration that has made North America one of the most competitive and 
successful trading blocs. The uncertainties regarding the future of 
this vital relationship have a reverberating effect on the trucking 
industry, as trucks haul 84 percent of all surface trade with Mexico 
and 67 percent of all surface trade with Canada.\76\ The USMCA is not 
just a trade agreement--it is the foundation of our economic and 
broader relationship with our strongest allies that supports the 
livelihoods of the nearly 90,000 people employed in the U.S. trucking 
industry,\77\ including nearly 60,000 U.S. truck drivers (full-time 
equivalent),\78\ from truck transported trade. Given that Canada and 
Mexico are our number 1 and number 2 export markets respectively,\79\ 
the trucking industry supports ratification of the USMCA to both 
maintain market access and to ensure the continuity of cross-border 
trucking operations. Simply put--trade has benefited blue-collar 
workers in the trucking industry, and we look forward to working with 
Congress to make USMCA a reality.
---------------------------------------------------------------------------
    \76\ Ibid.
    \77\ Ibid.
    \78\ Ibid.
    \79\ Top Trading Partners--March 2019: Year-to-Date Exports (2019); 
United States Census Bureau. https://www.census.gov/foreign-trade/
statistics/highlights/toppartners.html#exports
---------------------------------------------------------------------------
TARIFFS:
    ATA understands the Administration's concern that countries like 
China are not playing by the same set of rules that the U.S. does when 
it comes to allowing direct foreign investment, access to markets, and 
stealing proprietary technologies. ATA also appreciates that the 
Administration would like to tackle these problems to level the playing 
field for U.S. interests at home and abroad. However, we do have 
concerns regarding the use of certain tariffs that can adversely affect 
U.S. business activity without sending a direct message to unscrupulous 
actors. For example, with regard to the tariffs proposed in the Federal 
Register on May 17, 2019,\80\ ATA is very concerned that products 
covered by the 8609.00.00 heading have no domestic alternative for the 
trucking industry. It is our understanding that included in 8609.00.00 
are 53 containers utilized in domestic U.S. intermodal moves, which 
have no U.S. supplier. The largest suppliers of 53 containers are two 
companies in China. As a result, U.S. logistics providers, including 
trucking companies, will have no choice but to continue sourcing 53 
containers from Chinese companies and incurring significant costs that 
they simply cannot avoid. The price of a single container will likely 
increase by $3,000 or more as a result of the proposed tariffs.\81\
---------------------------------------------------------------------------
    \80\ 84 FR 22564 (May 17, 2019).
    \81\ Cargo Equipment Back in the Tariff Crosshairs (May 20, 2019); 
JOC. https://www.joc.com/maritime-news/container-lines/cargo-equipment-
back-tariff-crosshairs_20190520.html
---------------------------------------------------------------------------
    Additionally, in light of Congress' narrowing timeframe for USMCA 
consideration, ATA is very concerned about the Administration's 
proposal to impose 5 percent tariffs on Mexico, the U.S.'s third 
largest trade partner. While ATA agrees that the migrant crisis should 
be addressed thoughtfully and comprehensively, we believe that this 
approach could inadvertently undermine U.S. and Mexican efforts to 
ratify the USMCA. Keeping our borders open for business for free and 
fair trade is important to our nation's economy, and is vital for the 
nearly 90,000 Americans who work in trucking-related jobs supported by 
cross-border freight movements between the U.S. and Mexico.\82\
---------------------------------------------------------------------------
    \82\ Trade Moves North America Forward (2019); American Trucking 
Associations. https://www.trucking.org/ATA%20Docs/
News%20and%20Information/Reports%20Trends%20and%20Statistics/
ATA_NorthAmericanTrade2018.pdf
---------------------------------------------------------------------------
THE CRISIS ALONG THE SOUTHERN BORDER, AND IMPLICATION FOR TRUCKING:
    The crisis along the southern border has escalated to the point of 
unsustainability. A few weeks ago, U.S. Border Patrol agents from El 
Paso Sector apprehended 1,036 people--the largest group of illegal 
aliens ever encountered in a single group--and took them into 
custody.\83\ While the dedicated men and women of the CBP are doing 
their best to address the unprecedented influx of family units and 
unaccompanied children, the situation is overwhelming the resources of 
CBP and has severely impacted the ability of the Department of Homeland 
Security to secure the U.S. border and enforce the immigration laws of 
the United States.
---------------------------------------------------------------------------
    \83\ Border Patrol Agents Apprehend Largest Group Ever Encountered 
(May 30, 2019); Department of Homeland Security. https://www.dhs.gov/
news/2019/05/30/border-patrol-agents-apprehend-largest-group-ever-
encountered
---------------------------------------------------------------------------
    Every day in May 2019, an average of over 4,500 people crossed our 
border illegally or arrived at ports of entry without documents.\84\ In 
May of 2017, the average was less than 700 people per day.\85\ 
According to CBP, the month of May was on pace to be the highest month 
in crossings in over 12 years and will significantly surpass the record 
109,000 in April 2019.\86\
---------------------------------------------------------------------------
    \84\ Background Press Call by Senior Administration Officials on 
the Crisis at our Southern Border (May 31, 2019); Office of the Press 
Secretary. https://www.dhs.gov/news/2019/05/30/background-press-call-
senior-administration-officials-crisis-our-southern-border
    \85\ Ibid.
    \86\ Ibid.
---------------------------------------------------------------------------
    To address the humanitarian and border security crisis, CBP 
reconfigured its staffing allocation model.\87\ Initially, 545 CBP 
officers were reassigned from their posts along the southern border to 
assist the Border Patrol in problematic sectors. As a result, cargo 
processing and commercial throughput at ports of entry slowed 
dramatically. We heard reports from ATA members that wait times at 
certain ports of entry exceeded 11 hours. To mitigate these effects, 
CBP then transferred 300 officers from the northern border, airports, 
and seaports to the southern border to partially relieve the 545 
officers and enable them to move back to their primary assignments. In 
May, CBP transferred an additional 186 officers from the northern 
border, airports, and seaports to supplement the 300 officers who had 
previously been reassigned to support the Border Patrol. In total, 731 
CBP officers were called upon to assist the Border Patrol in their law 
enforcement functions along the southern border.
---------------------------------------------------------------------------
    \87\ CBP hosted weekly teleconferences with the trade community to 
share updates about CBP commercial operations at ports of entry along 
the southern border. Information about CBP's staffing allocation was 
communicated during these teleconferences.
---------------------------------------------------------------------------
    Without a solution, the humanitarian and border security crisis 
will continue to overwhelm CBP's operational capacity at and between 
ports of entry. The crisis, which has seen hundreds of CBP officers 
diverted away from trade facilitation duties in order to humanely and 
efficiently process thousands of asylum claims, has resulted in 
dramatic spikes in commercial wait times at U.S.-Mexico land border 
ports of entry. Such disruptions in trade operations translate to 
increased costs throughout the supply chain and risk damage to the U.S. 
economy. ATA strongly supports a supplemental appropriation for the 
current fiscal year to help the Department of Homeland Security 
confront the current challenge as the Department assesses its long-term 
workforce needs and strategy.
                              CONCLUSION:
    Chair Norton, Ranking Member Davis, and members of the 
subcommittee, thank you again for providing ATA with the opportunity to 
testify before you today. As you recognize in the title of this 
hearing, the trucking industry is under pressure, and in many ways at 
an operational crossroads. Too often our federal government is mired in 
squabbling about yesterday's problems rather than leading the way to 
addressing tomorrow. Your leadership toward the challenges of today and 
the future are vital to our continued economic strength and the 
families and businesses that benefit from it.
    The actions of this subcommittee, Congress and the Administration 
over the next several months could help steer our great industry 
towards tremendous advancements in safety, efficiency and productivity. 
Providing the resources and regulatory framework that will make our 
fleets safer and more connected. Allowing our industry to meet the 
growing driver shortage head-on, and recruit a workforce for the next 
generation of trucking. Preventing the continued decay of our 
infrastructure and sense of national decline, to return the national 
sense to that of a ``shining city on a hill,'' where the roads to that 
city are not scarred by potholes and collapsing bridges. And 
facilitating free and fair trade that will allow the trucking industry 
to continue driving the economy.
    Alternatively, inaction or misguided action will grind the wheels 
of the trucking industry and the economy to a screeching halt. Making 
our roads less safe, ceding our global leadership in freight movement 
to countries that are making the necessary investments in 
infrastructure, and failing to improve the well-being and quality of 
life of our citizens and society.
    Our unwavering hope is that Congress and the Administration will 
now roll up their sleeves, make the tough decisions, and work together 
to support infrastructure, the economy, and the industry that moves it. 
ATA and the trucking industry stand ready to work with you on these 
major issues. Under your leadership and guidance, we believe that the 
important and necessary steps can and will be taken to facilitate and 
support the continued movement of our economy.
                               __________
                                APPENDIX
       the american trucking associations priorities for surface 
                     transportation reauthorization
    [The appendix referenced in Mr. Spear's prepared statement is on 
pages 149-162.]

    Mr. DeFazio [presiding]. Thank you, and thank you for 
staying within your time.
    Now I would move on to Mr. Todd Spencer, president of 
OOIDA, Owner-Operator Independent Drivers Association.
    Mr. Spencer.
    Mr. Spencer. Chairman DeFazio, Ranking Member Davis, and 
members of the subcommittee, thank you for the opportunity to 
share the views of our Nation's small business professional 
truckers here today.
    My name is Todd Spencer. I am president and CEO of the 
Owner-Operator Independent Drivers Association.
    OOIDA is a trade association founded in 1973 by real 
truckers as a result of significant disruptions that occurred 
in the industry. When I say ``real truckers,'' I mean the men 
and women that actually deliver our Nation's goods.
    All OOIDA officers and directors must come from behind the 
wheel. My background is from behind the wheel, and I still hold 
a commercial driver's license.
    Small trucking businesses, like those we represent, account 
for 96 percent of registered motor carriers in the U.S. They 
are the safest and most diverse operators on our Nation's 
roads.
    Our activities impact all sectors of the American economy 
on a daily basis. We move everything and anything wherever it 
needs to go.
    I commend the subcommittee for exploring the state of 
trucking in America today, but I regret to inform you the 
current condition can only be defined as broken. Unfortunately, 
trucking has been fundamentally broken for years and can show 
little sign of improving.
    Making a living as an over-the-road driver has never been 
easy. Our typical member will spend 250 nights or more away 
from home and family, dealing with way too much traffic and 
congestion, bad and unpredictable weather every year, and 
working around the schedules of all others in the supply chain.
    I know all of you on this subcommittee have heard about the 
driver shortage. I have, too, pretty much my entire career in 
trucking. Guess what. ``There ain't one.'' Simple math tells 
the story.
    When the number you hear is 50,000 or some other number for 
the shortage, States issue over 400,000 new CDLs every year, 
every year. What is incorrectly labeled as ``shortage'' is 
actually turnover, attrition.
    People attracted to driving, trucking with the hopes of 
doing better for themselves and their family are quickly met 
with unkept promises and say goodbye to trucking.
    Not all of trucking is like this. LTL carriers do not 
complain about driver shortage, nor do private carriers. The 
reason is pay, benefits, and working conditions. Much of the 
growth that occurred in trucking during the past 2 years has 
come from among small carriers. They treat their drivers 
better.
    I really cannot think of a worse response to the math of 
the driver shortage than to lower the driving age or reduce the 
already low standards to get a CDL. This really is a highway 
safety issue.
    What is not a myth is that new drivers crash more often and 
younger drivers crash more often. There is no substitute for 
experience when it comes to safety, and doing things that help 
perpetuate the churn or driver turnover is not only 
counterproductive to safety, but it undermines the economics 
for all drivers.
    The economic model for paying drivers has been broken for a 
long time, despite the rhetoric you might hear about boosting 
pay and bonuses. If driver pay had been pegged to the consumer 
price index in 1980, most of today's drivers would be bringing 
home six figures in wages.
    They do not make that because their value is set by what 
they can be replaced for, no matter how good or safe they may 
be or even how many millions of safe miles they have driven.
    Another contributing factor is how they are paid. Most 
over-the-road drivers are paid exclusively by the mile with 
nothing for their time. Time stuck in traffic is an issue, to 
be sure, but the bigger one by far is time detained at shippers 
and receivers when trying to get in and out to stay on schedule 
and to comply with hours-of-service regulations.
    For too many drivers this time can amount to 10 to 40 hours 
per week, and to add insult to this injury of time lost, we 
even have receivers and sometimes shippers now charging drivers 
fees of hundreds of dollars for being as little as 15 minutes 
late.
    This has to change if trucking is to attract and retain the 
good drivers we need to move the goods in the future, but it 
will not change as long as drivers can be detained and not be 
paid for their time.
    Going hand in hand with this is the exemption from the 
overtime pay that exists in the Fair Labor Standards Act for 
drivers operating under DOT regulations. The idea way back in 
the 1930s when drivers were paid mostly by the hour was to 
discourage really long workweeks. Now with mileage pay as the 
norm, it does just the opposite.
    Highway safety is a top priority for our members and this 
committee. Where we are today is that we have never had more 
regulations. We have never had greater compliance with those 
regulations, and we have never had more enforcement of those 
regulations, and the crash rates are going up.
    This is just a copy of the regulations that all drivers are 
required to comply with [indicating ``Federal Motor Carrier 
Safety Regulations Handbook'']. They are trained on virtually 
none, but they are there because they can be held responsible 
even when they should have no responsibility.
    CSA is a mandate from Congress that at best is only a 
partial----
    Ms. Norton [presiding]. Mr. Spencer, you are over 5 
minutes. Would you summarize your remarks?
    Mr. Spencer. CSA is a mandate from Congress that at best is 
only a partial measure of compliance. It is a very, very flawed 
system, and no matter how you may torture that data, that is 
not going to change.
    ELDs, a monstrous mandate on small business truckers in the 
billions of dollars, realize no safety benefit whatsoever from 
that, no safety benefit, and if it has a direct impact on 
safety, it is quite likely a negative one because of the 
pressures it puts on drivers.
    [Mr. Spencer's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Todd Spencer, President and Chief Executive 
        Officer, Owner-Operator Independent Drivers Association
    Chairwoman Norton, Ranking Member Davis, and Members of the 
Subcommittee, thank you for providing me the opportunity to testify 
today. My name is Todd Spencer and I began my career as a professional 
truck driver in 1974. In 1978, I was elected to the Board of Directors 
of the Owner-Operator Independent Drivers Association (OOIDA). In 1992, 
I was elected Executive Vice President of the association--a position 
in which I served until the 2018 passing of our long-time leader, Jim 
Johnston. On April 26, 2018, I was elected to replace Mr. Johnston as 
President & CEO of OOIDA.
    For those unfamiliar with our organization, OOIDA has represented 
the interests of owner-operators and professional drivers for over 45 
years. We were created by truckers to ensure their voices were being 
heard in Washington and beyond. Decades later, we continue to be led by 
men and women who make their living behind the wheel. Today, we have 
over 160,000 members across the United States and Canada. No other 
organization participating in today's hearing knows truckers like we 
do.
    For those unfamiliar with our industry, small trucking businesses 
like those we represent account for 96 percent of registered motor 
carriers in the U.S. We are undoubtedly the safest and most diverse 
operators on our nation's roads. Our activities impact all sectors of 
the American economy on a daily basis. We move everything and 
anything--from agricultural products and household goods to military 
equipment and energy resources.
    I commend the Subcommittee for exploring the state of the trucking 
industry in America today, but I regret to inform you the current 
condition can only be defined as broken. Unfortunately, trucking has 
been fundamentally broken for years and conditions show little sign of 
improving. While there is no quick and easy solution for remedying the 
many pervasive problems within the industry, I'm very eager to 
highlight what can be done to help make a career in trucking more 
appealing, safe and sustainable.
    First, allow me to paint a picture of the current state of trucking 
from the perspective of an OOIDA member.
    Our members typically spend roughly 250 nights on the road each 
year, keeping them away from family, friends, and the comforts of home. 
They often work between 60 and 80 hours each week--a demanding schedule 
that is rarely reflected in their paychecks. Some even make less than 
minimum wage as a professional driver.
    Truckers work in extremely difficult conditions--inclement and 
unpredictable weather, dangerously congested highways and deteriorating 
roads add extra stress and volatility to their jobs.
    They strive to comply with an outrageously extensive list of 
federal, state, and local regulations, many of which have nothing to do 
with highway safety. A prime example is the electronic logging device 
(ELD) mandate.
    They have to contend with shippers and receivers that needlessly 
detain them for hours on end, dishonest brokers that have no intention 
of providing them agreed upon compensation, and large motor carriers 
that subject them to deplorable working conditions.
    While the life of every American is intrinsically dependent on the 
work of truckers, they are widely treated as nuisances by the motorists 
with whom they share the roads--motorists who are far more likely to be 
responsible for a crash involving a commercial motor vehicle.
    Things that many of us take for granted--such as the ability to 
access basic amenities, and to park and rest in a safe location--are 
daily challenges for our members. In fact, few people know the lack of 
available truck parking has reached a crisis level and is now 
contributing to a decrease in safety.
    Here in Washington, elected officials have long viewed truckers as 
reckless threats to highway safety, dispensable elements of the supply 
chain, rolling sources of revenue or all of the above. Very few are 
aware of the important role truckers play in our economy or the many 
serious challenges facing those who make their living behind the wheel. 
Unfortunately, most federal lawmakers mistakenly believe the most 
significant problem facing our industry is a shortage of drivers.
    Immediate acceptance of the driver shortage myth illustrates 
Congress's troubling lack of understanding involving our industry. 
Taking a closer look at what's actually occurring in trucking will 
reveal there is no driver shortage at all. You'll also discover 
embracing some of the solutions proposed by those peddling the myth 
will only compound many of the actual problems I've already mentioned.
    Consider this reality: there are more than 400,000 new commercial 
driver's licenses (CDL) issued each year--most for long-haul 
operations. However, most of these new drivers won't last more than a 
few months behind the wheel. In fact, some of our nation's largest 
truckload carriers have driver turnover rates that consistently exceed 
90 percent year-after-year. To be clear, high driver turnover is a 
serious problem in trucking but THERE IS NO DRIVER SHORTAGE.
    Once you understand the driver shortage is a myth, proposals like 
the DRIVE-Safe Act are exposed for what they really are--dangerous 
attempts by large fleets to increase their supply of cheap labor 
without taking any steps to improve compensation or working conditions. 
As long as the status quo remains intact, turnover rates will continue 
to be sky high among large carriers, no matter the age of their 
drivers.
    If Congress is serious about improving the state of trucking in 
America--and I believe you are--you must start by helping to make 
careers in trucking more viable. To do so, you must work to create a 
regulatory environment featuring rules that are proven to enhance 
safety. With the exception of driver training, you must also limit the 
implementation of one-size-fits-all requirements that fail to reflect 
the diversity of trucking. Additionally, steps must be taken to improve 
working conditions and ensure drivers are fairly compensated.
    Truckers prioritize safety, but oppose the implementation of costly 
and burdensome regulations that do nothing to promote it. For example, 
not enough is known about underride crashes or equipment to justify 
implementation of a multi-billion dollar mandate for front and side 
underride guards. The proposed speed limiter mandate would create 
dangerous speed differentials on American roads, which is proven by 
empirical third party research to increase crash rates. And proposals 
to raise trucker's minimum liability insurance coverage to outlandish 
levels would likely force many of the safest and most experienced 
drivers out of business.
    Truckers will tell you the best way to promote safety is to improve 
driver training requirements. Too many new drivers enter our industry 
without the basic skills to safely operate a commercial motor vehicle. 
While the Entry-Level Driver Training rulemaking--set to go into effect 
next year--will finally establish national training standards, the 
regulation does not include any behind-the-wheel instruction necessary 
for acquiring a CDL. None.
    Truckers also want reasonable hours-of-service requirements that 
reflect the current realities of their profession. Today's standards 
have done nothing to improve safety, but add unnecessary stress and 
complexity to a driver's day. Congress must continue to support the 
administration's efforts to provide truckers greater flexibility and 
control of their schedules through the modernization of HOS 
requirements.
    Drivers need reliable and safe parking, so they can rest when 
fatigued or running out of time on their clock. OOIDA is working with 
members of this panel to draft legislation that will provide dedicated 
funding for the expansion of truck parking capacity. When developing 
legislation that invests in America's infrastructure, Congress must 
prioritize truck parking.
    Like all hard-working Americans, drivers want to be appropriately 
compensated for the work they do. For decades, driver compensation has 
been stagnant, making careers in trucking less appealing to new 
entrants and less sustainable for experienced truckers. Today, if the 
wheels of a truck aren't moving, drivers typically aren't getting paid. 
However, they are burning more and more hours needlessly detained by 
shippers and receivers because Congress has failed to address excessive 
detention time. Drivers are also exempt from over-time pay through the 
Fair Labor Standards Act (FLSA). This exemption was implemented in the 
1930's to prevent drivers from working too many hours, but today, it 
simply prevents them from receiving adequate compensation for the work 
they do. The FLSA exemption for truck drivers is outdated and should be 
repealed.
    Truckers are subject to more regulations and greater enforcement 
than ever before, and while compliance with those regulations has never 
been higher, crash rates are still moving in the wrong direction. Large 
motor carriers are pressuring Congress to enact unsafe policies to 
combat a fictitious driver shortage, while doing nothing to address 
their precariously high turnover rates. The American economy is 
stronger than it has been in years, but many drivers are still 
struggling to make ends meet. The lack of truck parking is becoming a 
national safety crisis, but few consider it a priority for 
infrastructure investment. These are the symptoms of an industry that 
is broken.
    Thankfully, trucking is not broken beyond repair, and hosting this 
hearing is a critical step toward helping repair our industry. However, 
until Congress understands the most important component in trucking is 
the driver, very little will change. The next steps you must take are 
clear--help make trucking an appealing, safe and sustainable career. 
OOIDA is eager to work you with.
    Chairwoman Norton and Ranking Member Davis, thank you for allowing 
me the opportunity to testify today on behalf of owner-operators and 
professional drivers. I look forward to answering your questions.

    Ms. Norton. Thank you very much, Mr. Spencer.
    Next, Lamont Byrd, director, Safety and Health Department 
of the International Brotherhood of Teamsters.
    Mr. Byrd. Chairwoman Norton, Chairman DeFazio, and Ranking 
Member Davis, members of the subcommittee, I am Lamont Byrd. I 
am the director of the Safety and Health Department at the 
International Brotherhood of Teamsters.
    Thank you for inviting me here today to testify about the 
state of the U.S. trucking industry.
    The Teamsters Union represents more than 600,000 members 
who drive commercial motor vehicles, and ``under pressure'' is 
an appropriate description of how they operate on a daily 
basis.
    These pressures come from many sources, and some are 
related to policies that either do not exist or have not kept 
pace with the changing transportation system. Specific policy 
issues relating to infrastructure, driver compensation, hours 
of service, driver harassment, driver health, driver training 
and retention, automation, and globalization, all contribute to 
these pressures.
    The failure to improve and maintain the Nation's 
infrastructure adversely impacts the trucking industry and its 
drivers. Traffic congestion fueled by years of delayed highway 
construction and improvement projects, reroutings caused by 
reduced weight limits on deteriorating bridges, and the general 
condition of some highways that cause road and lane closures, 
all place drivers in a pressure cooker environment of stop and 
go traffic.
    These pressures increase exponentially as companies demand 
drivers be more productive even if it means violating safety 
regulations. For example, the union is involved in a case where 
a driver reported that his cargo shifted en route. Management 
instructed him to fix the problem and keep working.
    He advised management that it was unsafe for him to do so 
on the roadside and returned to the terminal to properly secure 
the load and resume making deliveries. Although this driver 
complied with the safety regulations and the collective 
bargaining agreement, he was terminated.
    We anticipate being able to get this driver reinstated, but 
the company's actions send a chilling message to his coworkers.
    These non-driving stressors also highlight another major 
concern, proposals to increase the workday for our members. 
Proposals to extend the hours-of-service short-haul provision 
for CDL qualified drivers from a 12-hour workday to 14 hours 
will lead to more work-related injuries and fatigue-related 
crashes for drivers and increase worker comp costs for motor 
carriers.
    The trucking industry is one of the most hazardous 
industries in the U.S. Studies show a correlation between the 
misuse of opioids and workers employed in high-hazard 
industries. The last thing we need to do is add more injury-
inducing work into a driver's day, especially when we consider 
motor carriers already face significant challenges recruiting 
and hiring qualified drivers.
    These recruiting and retention challenges do not occur in a 
vacuum. The pay and working conditions of drivers is directly 
tied to the quality of drivers' day-to-day lives as well. While 
motor carriers lament the driver shortage, they work behind the 
scenes to rob drivers of rest and mealtime.
    The IBT has fought in Congress against the preemption of 
State meal and rest breaks for truck drivers. Basic protections 
like these make the job better and help keep drivers in the 
industry. Yet the California Trucking Association filed a 
petition with FMCSA to preempt meal and rest breaks in that 
State, which the agency erroneously granted.
    We expect other State trucking and trade associations will 
surely follow and recruitment and retention issues to continue.
    Some view lowering the minimum driving age for interstate 
drivers to 18 as another solution to this recruitment problem 
even though significant evidence shows young drivers are more 
likely to be involved in crashes. Any effort to lower the 
driving age before the completion of the congressionally 
mandated pilot program for the military would be premature.
    Truck drivers are also threatened by transnational 
corporations to circumvent current trade rules and regulations 
that restrict cross-border trucking. Both U.S. and Mexican 
carriers have taken advantage of loopholes allowing them to 
operate using suspect authority which can jeopardize safety and 
raise questions about who is financially responsible when 
accidents occur.
    I ask that an investigative report prepared by Empower, a 
Mexico City-based research firm, be entered into the hearing 
record, and this is a copy. It describes irregular cross-border 
employment practices finding specific examples of how the B-1 
visa program has been taken advantage of by companies seeking 
to accomplish these goals.
    [The information follows:]

                                 <F-dash>
    ``Irregular Cross-border Employment Practices of U.S.-domiciled 
 Trucking Companies,'' March 2019, by Empower, LLC, Submitted for the 
                         Record by Hon. Norton
    The report is retained in committee files and is available online 
at govinfo at https://www.govinfo.gov/content/pkg/CPRT-116HPRT38932/
pdf/CPRT-116HPRT38932.pdf.

    Mr. Byrd. Finally, autonomous vehicle technology holds the 
potential to improve truck safety and efficiency, but the 
potential for job degradation or replacement puts our members 
on edge. Drivers recount how even lower levels of automation, 
like automatic braking systems, can malfunction and activate 
with no warning.
    Congress should demand proof and accountability for any new 
autonomous systems that are introduced so that these systems do 
not add to the incredible pressure drivers are already 
experiencing.
    Thank you, and I welcome any questions you may have.
    [Mr. Byrd's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Lamont Byrd, Director of Safety and Health, 
                 International Brotherhood of Teamsters
                              introduction
    Chairwoman Norton, Ranking Member Davis and Members of the 
Subcommittee: My name is Lamont Byrd, Director of Safety and Health for 
the International Brotherhood of Teamsters (IBT). Thank you for 
inviting me here today to testify about the state of the U.S. trucking 
industry. The Teamsters Union represents more than 600,000 members who 
turn a key in a truck to start their workday. Whether they drive a 
tractor trailer, a concrete truck, deliver beer or bakery goods, or 
drop a package at your door, ``Under Pressure'' is a very appropriate 
description of how truck drivers must operate on a daily basis.
    These ``pressures'' come from a variety of sources, some obvious, 
others not so obvious. But a recurring theme pushing drivers sometimes 
to their limit is a need by carriers for flexibility and greater 
efficiency. There are many reasons that put the trucking industry and 
its drivers under the gun. And a lot of it has to do with policy or 
lack thereof that hasn't kept pace with an ever changing transportation 
system. Specific policy issues relating to infrastructure, driver 
compensation, Hours-of-Service regulations and exemptions from other 
safety regulations, detention time, outright driver harassment, driver 
health, driver training and retention, automation and globalization all 
contribute to these pressures and are discussed at length in our 
testimony that follows. It's a fact that a truck driver operates in a 
very regulated arena. From the time he/she obtains a Commercial 
Driver's License (CDL), the driver is subject to medical certification, 
drug testing, and dozens of safety regulations. Drivers for the most 
part are paid by the mile, work the longest hours in any industry (60 
to 70 hours per week) and don't receive overtime pay. They make money 
by delivering a product on time, and the odds right now are stacked 
against them in doing so by many factors.
                             infrastructure
    The failure to invest and improve the nation's infrastructure 
impacts the trucking industry, its drivers and consumers in many 
adverse ways. The explosion of on-line shopping coupled with consumer 
demands of ``I have to have it tomorrow'' and an even greater emphasis 
on just-in-time delivery have put more trucks on the road and more 
pressure on carriers and drivers to deliver the goods quickly. But 
there are several ``roadblocks'' in their way caused by infrastructure 
deficiencies. Traffic congestion fueled by years of delayed highway 
construction and improvement projects, weight limits on deteriorating 
bridges that necessitate re-routings, and the general condition of some 
highways that cause road closures and detours all put truck drivers 
behind the wheel longer than they need to be and in a ``pressure 
cooker'' environment of stop and go traffic. Traffic jams alone cost 
the U.S. $87 billion in lost productivity in 2018 according to data 
analyzed by the research firm INRIX. Our hope is that this 
Administration can return to the table and partner with Congress to 
move forward on rebuilding America's highways, bridges, ports, and 
other much needed infrastructure projects.
               globalization/trade/cross-border trucking
    Globalization and international trade agreements have opened new 
challenges to the American worker, including truck drivers'. Ever since 
the North American Free Trade Agreement (NAFTA) entered into force in 
1994, the Teamsters Union has fought to ensure that highway safety is 
paramount in implementing the NAFTA provision that permitted Mexican 
domiciled carriers to perform long haul trucking operations beyond the 
commercial border zones.
    After completion of a three-year pilot program in October 2014, the 
objective of which was to test the safe operation of Mexican motor 
carriers in long-haul trucking throughout the U.S., the DOT moved 
forward, despite flawed and inadequate data, in approving operating 
authority for additional Mexico-domiciled carriers for long-haul 
operation into the U.S. The agency took this action ignoring the 
findings of the DOT Inspector General (IG).
    In May 2017, President Trump announced the renegotiation of NAFTA, 
which presented an opportunity to revisit the Mexican Cross-Border 
Trucking issue. The Teamsters, working with the United States Trade 
Representative, were successful in having language inserted in the 
services chapter of the new United States Mexico Canada Agreement 
(USMCA) that not only reinforces cabotage protection for movement of 
freight within the United States, but also allows the United States to 
adopt and maintain limitations on grants of operating authority of 
Mexico-domiciled carriers, if there is evidence of material harm or the 
threat of material harm to U.S. suppliers, operators or drivers. We 
will continue to work with the Administration and the Congress to 
ensure that these protections will be enforced in the USMCA 
implementing legislation.
    Despite the promise of these new protections, American truck 
drivers are threatened in new ways from transnational corporations and 
the Mexican trucking industry, which have figured out ways around the 
current trade rules and regulations that restrict cross-border 
trucking. For example, Mexican carriers have set up shop in U.S. border 
cities to take advantage of loopholes in the Enterprise carrier program 
that allows Mexican-owned but U.S. domiciled carriers to game the 
system and continue operating on authority that in many cases is 
suspect. In some instances, operating authority has not even been 
properly renewed. In others, multiple carriers use the same address, 
right down to the Suite # in the same building, as their place of 
business in the U.S. These practices require greater scrutiny.
    Yet another harmful practice is occurring when U.S. firms set up 
subsidiaries in Mexico for the sole purpose of recruiting Mexican 
drivers using B-1 work visas to haul freight from Mexico anywhere in 
the U.S. using American flagged equipment. While this practice may not 
be illegal on its own, the result has been violations of U.S. cabotage 
laws by Mexican drivers, putting Mexican drivers on U.S. roads without 
English proficiency to properly understand instructions and road signs, 
and a spider's web of ownership that has called into question what 
carrier or company is liable when an accident occurs.
    The Teamsters Union and Owner-Operator Independent Drivers 
Association (OOIDA) recently engaged EMPOWER, a Mexico City-based 
research firm, to investigate these widespread practices that harm the 
American workforce and threaten highway safety; and EMPOWER's report 
(which we will submit for the hearing record) reinforces several of the 
concerns that we hope will be addressed by the USMCA's implementing 
legislation. We realize that this committee does not have jurisdiction 
on immigration matters and driver wages, but you should be concerned 
about Mexican carriers conducting business in the U.S. without the 
proper operating authority and this documented influx of B-1 drivers 
who in some cases do not have English proficiency, and carriers who 
shield themselves from liability. B-1 drivers interviewed by EMPOWER 
admitted that, although they are permitted to transport cargo from 
Mexico into the United States, they are often picked up in Mexico, 
transported across the border and only then given a truck to drive a 
load between points in the U.S., violating our cabotage laws. This is 
despite the fact that U.S. Customs and Border Protection (CBP) holds 
workshops with major B-1 employers about expedited border crossing 
programs and U.S. cabotage law.
    More relevant to the committee's jurisdiction is the issue of 
financial responsibility. Let me give you a real-life example to 
illustrate the convoluted ownership and hiring practices that are 
permitting U.S. companies to avoid liability. That's the business plan 
of Transportation Services International (TSI) as exposed in and on-
going Kentucky wrongful death case, White v. TSI, et al. According to 
the discovery in that case, TSI, headquartered in Romulus, Michigan, 
set up TSI-Logistica Fronteriza, S.de R.L. de C.V. (TSI-LF) in a small 
office in Santa Rosa, Mexico ``as a freight transportation arrangement 
company that leases international commercial drivers to American 
trucking companies, under the terms of the North American Free Trade 
Agreement (NAFTA).'' TSI-LF hires B-1 visa drivers who are then leased 
to TSI that ``do not in any way have a relationship or responsibilities 
of civil, commercial, labor, fiscal or any other nature of the 
Fronteriza staff''.
    Under the facts of this unfortunate case, two B-1 visa drivers were 
operating a tractor trailer for TSI on the evening of August 6, 2016 
traveling northbound on Interstate 69, they overran their exit, #108 
near Madisonville, Kentucky. Rather than proceed to the next exit and 
turn around, the TSI-LF driver stopped the truck on the highway and 
attempted to back it up without employing any warning signal or device. 
In the process, he apparently jackknifed the trailer obstructing the 
interstate's left and right northbound lanes. A mother, Krystal Brook 
White, and her daughter were travelling northbound and under-rode the 
trailer fatally injuring Ms. White. With the car impacted at its 
underside, the TSI-LF driver drove the eighteen-wheeler another 180 
feet before coming to a stop. Ms. White died that evening. When law 
enforcement arrived, the drivers were unable to converse in English and 
an interpreter via telephone was required for law enforcement to 
conduct an initial investigation.
    To avoid liability, TSI-LF has argued that it merely loans/leases 
drivers to other companies such as TSI, and exercises no control over 
the drivers. On the other hand, TSI claims that the drivers are not 
their employees and that it should not be held liable either. This case 
goes to trial this month. There are at least two other negligence cases 
that we know of filed in Texas involving B-1 visa drivers.
    As the EMPOWER Report points out, the use of B-1 drivers is on the 
verge of de facto institutionalization. These cases illustrate the need 
for Congress to review financial responsibility statutes to ensure that 
responsible parties are held liable for their actions. As well, FMCSA 
should review its enforcement mechanisms to ensure that foreign drivers 
meet the English proficiency requirements of driving in the United 
States, and review operating authority of enterprise carriers to ensure 
that they are travelling legally in the US.
                          coercion/harassment
    Companies are increasing pressure on drivers to be more productive 
even if it means violating safety regulations. For example, the Union 
is involved in a case where a driver/member reported that the cargo he 
was transporting via truck was loaded with melons on the bottom of 
pallets and improperly secured and consequently shifted while en-route. 
It should be noted that the driver was unable to thoroughly inspect the 
load prior to leaving the terminal because the truck was fully loaded 
when he picked it up. After reporting that the load had shifted and he 
could not safely deliver the cargo, he was instructed by management to 
unload the truck on the road side, organize the cargo, reload the truck 
and continue on his route. When he advised management that he could not 
safely perform these job tasks as he did not have load securing 
equipment (load bars--the ones that he had were damaged as a result of 
the shifting freight; no straps and shrink wrap) and to do so on the 
roadside would place him in danger. He would have also been at 
significant risk of work-related injury, having to climb up and down a 
small set of stairs to enter and exit the trailer while carrying cargo. 
This is a union shop where in addition to regulations and company 
policies that preclude the drivers from performing such dangerous work, 
there is language in the collective bargaining agreement that empowers 
the drivers to refuse to perform dangerous and illegal work. Yet, this 
driver was summarily terminated when he returned a short distance to 
the terminal for assistance. Although we anticipate being able to get 
this driver reinstated at his job, this practice not only adversely 
affected him, it sends a chilling message to other drivers who are 
aware of this situation.
                    hours of service/driver's health
    There are efforts to revise the Hours of Service--Short Haul 
Provision for Commercial Driver's License qualified drivers from a 12-
hour work day to 14 hours. The IBT anticipates that the proposed 
extension of the 12-hour exception to 14-hours, will result in short-
haul drivers spending additional time loading trailers, staging 
freight, and making more deliveries. Therefore, it is reasonable to 
expect that these drivers will experience an increase in the incidence 
of occupational injuries and illnesses. Consequently, motor carriers 
will experience higher worker compensation costs and may experience an 
increase in the costs associated with fatigue-related crashes.
    The trucking industry ranks among the industries having the highest 
occupational illness and injury rates in the United States and the 
worker's compensation costs to motor carriers are tremendous. According 
to Bureau of Labor Statistics (BLS) data for 2017, the non-fatal 
occupational incidence rate for truck transportation, nationally, was 
4.2 injuries per 100 workers as compared to 2.8 injuries per 100 
workers for private industry.\1\ Several studies show that the majority 
of work-related injuries occurring among truck drivers result from non-
driving work activities.\2\ When researchers further investigated these 
findings they found that the types of injuries experienced by truck 
drivers varied by industry sector but were generally associated with 
falling from heights, trips, slips, falls, and overexertion due to 
manual materials handling.
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics, 2018.
    \2\ Friswell, Williamson, Accident Analysis and Prevention, 2010 
Nov; 42(6): 2068-74.
---------------------------------------------------------------------------
    Drivers who are involved in short-haul operations experienced 
occupational injuries primarily while performing three activities: 
``(1) Operating the truck; (2) lifting/cranking; and (3) maneuvering 
into/out of truck cab.'' \3\ Chandler, et. al., in further describing 
the injuries indicated that incidents that occurred while operating the 
truck, included losing control of the truck, being struck from behind 
by another vehicle, and musculoskeletal injuries associated with 
extended routine driving. With respect to lifting/cranking related 
injuries, the researchers found that drivers were injured while 
manually handling cargo, connecting dollies, and lifting/ adjusting 
ramps to the trailers. Researchers also reported that drivers 
experienced injuries due to trips, slips, and falls as they entered or 
exited the truck cab and trailer.
---------------------------------------------------------------------------
    \3\ Chandler, M., Bunn, T.L., Slavova, S., International Journal of 
Injury Control and Safety Promotion, 2017, Vol. 24, No. 1, 120-130.
---------------------------------------------------------------------------
    Commercial drivers, including short-haul drivers, 
disproportionately experience musculoskeletal injuries and illnesses. 
The National Institute for Occupational Safety and Health (NIOSH) 
conducted a review of over forty studies that investigated the 
relationship between low-back pain/disorders and determined that there 
is strong evidence that correlates physical workplace factors such as 
heavy physical work, lifting, bending and twisting, whole body 
vibration (WBV), and static work postures with low back pain/
disorders.\4\ All of these contributing factors to low-back pain/
disorders are present in commercial driving, particularly in short-haul 
operations. This is critical when one considers that according to the 
American Industrial Hygiene Association (AIHA) a survey conducted by 
the organization in 2003, MSDs costs the trucking industry 
approximately $4 billion dollars each year.\5\ The Bureau of Labor 
Statistics reported that workers in truck transportation experienced 
work-related musculoskeletal disorders at a rate of 62.3/10,000 workers 
as compared to 28.6/10,000 for private industry.\6\
---------------------------------------------------------------------------
    \4\ https://www.cdc.gov/niosh/docs/97-141/pdfs/97-
141.pdf?id=10.26616/NIOSHPUB97141
    \5\ American Industrial Hygiene Association, 2003, ``American 
Industrial Hygiene Association position statement on ergonomics 
[online]. Available from: http://www.aiha.org/1documents/
GovernmentAffairs/P-ergonomics091403.pdf
    \6\ Bureau of Labor Statistics, 2018.
---------------------------------------------------------------------------
    Short-haul drivers will experience increased fatigue as a result of 
having to work an extended number of hours and concurrently experience 
more fatigue-related occupational injuries and crashes. The National 
Institute for Occupational Safety and Health (NIOSH) published a report 
that summarized over 50 studies that investigated the impact that long 
working hours have on illnesses, injuries, health behaviors, and job 
performance.\7\ Studies showed that workers who worked long shifts, 
i.e., 12 or more hours, each day and more than 40 hours per week 
experienced an increase in occupational injuries and ``a pattern of 
deteriorating performance on psychophysiological tests.'' \8\ This is 
of significant concern when considering the fact that short-haul 
commercial drivers perform safety-sensitive job functions such as 
operating large trucks in oftentimes congested areas that are shared 
with passenger vehicles and pedestrians.
---------------------------------------------------------------------------
    \7\ https://www.cdc.gov/niosh/docs/2004-143/pdfs/2004-143.pdf
    \8\ Ibid, p. 27
---------------------------------------------------------------------------
    In 1996, NIOSH conducted an ergonomic study for drivers in the soft 
beverage delivery industry during which the researchers evaluated 
drivers over a four month period.\9\ Researchers found that drivers had 
to routinely lift products that exceeded the recommended weight limit 
per the NIOSH Lifting Criteria.\10\ In addition, researcher collected 
data on the driver's heart rates to estimate metabolic output and 
determined that such drivers worked in a job that required a high level 
of energy. Drivers in this physically demanding job also experienced 
twice as many lost work days when compared to workers in general 
manufacturing jobs. Although the study was conducted over twenty years 
ago, members of the Teamsters Union who have high tenure in the 
industry reported that not much has changed and that the changes that 
have occurred are generally not an improvement. For example, these 
drivers reported that traffic conditions are much worse; parking for 
large vehicles is more limited; they continue to have to manually 
deliver large quantities of heavy products such as cases and kegs while 
negotiating stairs, curbs, ramps, narrow entrances and exits to 
buildings, and having to perform these job tasks in inclement weather 
(heat, cold, ice).
---------------------------------------------------------------------------
    \9\ https://www.cdc.gov/niosh/docs/96-109/pdfs/96-
109.pdf?id=10.26616/NIOSHPUB96109
    \10\ https://www.cdc.gov/niosh/docs/94-110/pdfs/94-110.pdf
---------------------------------------------------------------------------
    The current Hours of Service Regulation for non-CDL qualified 
commercial drivers who use the short-haul exception are allowed to work 
14 hours each day, extend the work day to 16 hours two times each week 
and drive up to 11 hours each day. According to BLS data these drivers 
have a higher rate of injury and severity of injury (based on the 
number of lost work days per injury) than other commercial drivers, 
i.e., non-CDL drivers who do not use the Short-Haul provision and CDL 
qualified drivers. It should be noted that CDL qualified drivers 
operate larger trucks that are able to carry more freight that is 
larger and heavier than what is typically transported and delivered by 
non-CDL drivers. Therefore, one can reasonably expect injury rates to 
increase among CDL qualified short-haul drivers if the number of hours 
that they are permitted to work increases.
    The Massachusetts Department of Public Health released a report 
\11\ concerning the misuse of opioids among workers who are employed in 
industries, such as trucking, that has a high rate of occupational 
injuries. Drivers are very concerned about their risk of suffering 
awork-related injury, being prescribed pain killers such as opioids, 
and the possibility that the use of such drugs could result in not only 
adverse health outcomes, but also the chance of becoming medically 
disqualified to operate commercial motor vehicles.
---------------------------------------------------------------------------
    \11\ https://www.mass.gov/news/department-of-public-health-taking-
steps-to-keep-job-related-injuries-from-leading-to-opioid
---------------------------------------------------------------------------
    The Teamsters will oppose any efforts to expand the short-haul 
exemption for CDL-qualified drivers through legislative or regulatory 
actions.
               recruiting/retaining drivers/young drivers
    Motor carrier employers face significant challenges recruiting and 
hiring qualified drivers. Increasingly long work hours, difficult work, 
the need for a clean driving record, and a drug/alcohol testing record 
that is free from positive results, creates additional hiring 
challenges for motor carriers. As a result of increases in the demand 
for goods, the Bureau of Labor Statistics (BLS) projects that between 
2016 and 2026, there will be a need for 108,400 additional drivers in 
heavy truck transportation.\12\ It should be noted as an aging driver 
workforce retires from the industry, there will be an even greater need 
for qualified drivers. According to 2018 data from the BLS over 21 
percent of the current driver population will reach 65 years of age in 
the next ten years, with over 46 percent reaching 65 within next 20 
years.\13\
---------------------------------------------------------------------------
    \12\ https://www.bls.gov/ooh/transportation-and-material-moving/
heavy-and-tractor-trailer-truck-drivers.htm
    \13\ Ibid.
---------------------------------------------------------------------------
    There are some in the trucking industry who view lowering the 
minimum driving age for commercial drivers to 18 as one solution to the 
increasing demand for qualified drivers. The Teamsters Union is 
particularly concerned about this issue as there is significant 
evidence showing young drivers are more likely to be involved in 
crashes. In the previous highway bill, the FAST Act, Congress 
instructed DOT to study this topic using only younger drivers who had 
gained driving experience during their time in the military. The 
purpose of that pilot was to better gauge the potential for younger 
individuals to drive in interstate commerce, while also attempting to 
minimize risks to the public by only using drivers with behind-the-
wheel training who were also likely to be more responsible than your 
average teenager. We believe there are serious safety risks inherent in 
using any teenage drivers in interstate commerce, including in any 
pilot program. But we recognize the desire to see where the facts would 
lead in this situation. However, we believe that any effort to lower 
the driving age, or conduct broader pilot programs before the 
Congressionally-mandated military pilot program is complete, would be a 
mistake.
    Another issue that affects retention is driver compensation. 
Teamster Union drivers are among the highest paid in the industry, with 
good health benefits and pensions, which is why the retention rate is 
much higher among unionized truck drivers. Our National Master Freight 
Agreement also addresses the issue of detention time--that period of 
time where a driver is kept waiting for his truck to be loaded or 
unloaded. Teamster Union drivers are paid for this time that they are 
waiting, which is why the practice is not prevalent in our industry 
sector. Paying drivers for wasting their valuable on-duty time gives 
motor carriers and shippers an incentive to have a load ready when a 
driver arrives at the loading dock. It will also prevent drivers from 
making up for lost time and possibly violating safety regulations in 
the process. Congress should take the necessary steps to mandate that 
drivers be paid for this detention time.
                           give 'em a break!
    It is difficult if not impossible to discuss driver retention 
without examining the day-to-day working conditions of drivers, and 
what the trucking industry is doing or not doing to improve those 
conditions. The Teamsters Union has fought in Congress for several 
years against the preemption of state meal and rest breaks for truck 
drivers. Congress, rightly so, on several occasions has rejected the 
American Trucking Association's numerous attempts to pass legislation 
to preempt these breaks. While motor carriers lament about the driver 
shortage and what needs to be done to recruit more workers into the 
industry, they work behind the scenes to rob drivers of rest and meal 
time. Having not succeeded in the legislative arena, the ATA's state 
affiliate, the California Trucking Association (CTA), filed a petition 
with the FMCSA to preempt meal and rest breaks in that state. The 
FMCSA, reversing its previous stance on the issue, decided that these 
breaks are preempted by federal law. The Washington State Trucking 
Association and The American Bus Association have ``copy-catted'' the 
CTA's petition and we expect other state trucking and trade 
associations to follow. These short 10-minute rest breaks and 30-minute 
meal breaks are afforded to all workers in the states that mandate 
them, not just to truck drivers. This issue is now in the courts, and 
the Teamsters Union will continue to fight for the rights of drivers to 
take these breaks. Fatigued drivers jeopardize highway safety for all 
of us.
                         truck size and weight
    Certain industry stakeholders continue to call for increases in 
truck size and weight. Whether it's increasing the weight limit on 
federal highways to 90,000 lbs. or expanding the use of the twin 33, 
trailer configuration, the Teamsters Union opposes any increase in the 
current Federal weight limits for trucks and the current size of double 
trailers traveling on the National Highway System. Our Interstates and 
other major highways are in serious disrepair and half of our bridges 
are more than 40 years old with one in four being structurally 
deficient or functionally obsolete. Increasing truck size and length 
will put further stress on an already deteriorating infrastructure 
system. While a properly deployed 6th axle can mitigate weight 
increases on road surfaces, the same cannot be done on bridges. In 
addition, our highways are not designed for longer combination 
vehicles. Our merge lanes and entrance and exit ramps are not designed 
for eighty-four feet long vehicles. Longer and heavier trucks take more 
time to get up to speed and require greater stopping distances. From a 
driver's perspective, our roadways are congested like never before. 
Reaction times are pushed to the limit as drivers attempt to maneuver 
big rigs and avoid quick changing lanes or slowed down vehicles. The 
claim that increasing truck lengths and weights will result in fewer 
trucks on the road is unfounded. Historically, each time increases have 
occurred truck traffic has grown as shippers take advantage of cheaper 
rates and divert freight from rail to highways. Currently, 39 states 
prohibit twin 33-foot trailers on their highways, and there is no 
justification to allow them to operate on our interstate highways.
    According to FMCSA's Large Truck and Bus Crash Facts, ``the number 
of large trucks involved in fatal crashes increased 10 percent from 
4,251 to 4,657, and the large truck involvement rate (large trucks 
involved in fatal crashes per 100 million miles traveled by large 
trucks) increased 6 percent, from 1.48 to 1.56.'' Deaths from large 
truck crashes reached their highest level in 29 years in 2017, 
according to National Highway Traffic Safety Administration data. 
Fatalities from big truck crashes rose even though the overall traffic 
fatality rate declined. Large truck fatalities rose 9 percent to 4,761, 
an increase of 392 lives lost over the prior year. Congressionally-
approved exemptions to weight and length limits based on a specific 
section of highway or a specific industry should be rejected. Piecemeal 
approaches undermine federal transportation policy and further 
jeopardizes safety on our nation's highways.
            safety-assist technology and autonomous vehicles
    Autonomous vehicles have the potential to reshape the entire 
transportation industry, not just the trucking industry. While some of 
this technology holds the potential to improve truck safety and 
efficiency in the short term, the threat of self-driving trucks 
replacing or degrading millions of truck driver jobs has many of our 
members on edge. We believe that the trucking industry will have the 
need for skilled drivers for decades to come. But some of that relies 
on this committee making sure we aren't forced down a self-destructive 
path of unsafe and job-killing automation before the proper protections 
are put in place.
    As this hearing examines pressure points impacting drivers, the 
threat of automation is one that cannot be ignored. Drivers feel like 
disposable cogs in a machine when some members of this body talk 
gleefully about the prospects of automating away their jobs. What's 
worse, many drivers' only interaction with lower levels of automation 
have actually deepened their mistrust of these new technologies. Our 
members have reported dangerous malfunctions of automatic braking 
systems being used in trucks right now. These systems are supposed to 
make a driver's life easier, and we would gladly support them if they 
did. But drivers tell us stories of these automatic braking systems 
often detecting things like snow or an oncoming overpass as an 
obstacle, and mistakenly slamming on the brakes with no warning. The 
driver is then the only thing stopping the truck from jack knifing or 
skidding off the road. Imagine surviving that incident and then having 
to show up to work the next day and drive a truck with the same 
technology on board? No one should have to feel like they are taking 
their life into their own hands just by showing up to work. That is the 
pressure drivers today are under. Congress must bring a healthy dose of 
skepticism whenever you are approached with a piece of automation 
technology that is being touted as improving safety or that will make a 
driver's life easier. It may not live up to closer scrutiny.
                      supply chain accountability
    Our union has taken great pride in the work we have done to improve 
the trucking industry for drivers and all other road users. But changes 
to the industry since deregulation have hampered those efforts. The 
rise of independent contractors, the ability of carriers to avoid 
liability by closing up shop and reorganizing under a new name after 
they are caught breaking the law, the increase in subcontracting even 
by union employers, have all negatively impacted our ability to make 
sure that the trucking industry is a safe and responsible business.
    A new focus of our union is ``supply chain accountability''. We 
believe that everyone who uses the current transportation system; 
shippers, brokers, consumers, retailers, and others, all have a duty to 
help us make sure that the trucks who haul that company's goods employ 
business practices that are aboveboard. Drivers at the ports of LA and 
Long Beach provide a good example of how this can be accomplished.
    Last year, California passed SB 1402. This bill created a system 
that shippers can use to identify which port trucking companies have 
outstanding labor violations on their records, such as unpaid fines and 
unsatisfied judgments, before choosing to contract with them to ship 
their goods. This brings important transparency to the system. It 
empowers shippers to hire only responsible port trucking companies, and 
in turn helps us ensure the drivers who are hauling their goods are 
safe drivers and well-treated employees. If they don't, and these 
shippers willingly choose to contract with low-road trucking companies 
who misclassify their employees, they will be held liable for the 
future labor violations incurred by that contracted trucking company. 
We believe this sort of transparent and free market-based system 
represents an important step in helping us uplift drivers who have been 
among the most abused in our country, while also increasing safety and 
security at the ports.
    The current system has allowed trucking companies who flaunt 
existing laws to have a competitive advantage over other employers that 
play by the rules. That must change. We are pleased to see this unfair 
advantage now melting away, thanks in large part to the fearless 
activism of port truck drivers and the leadership of local elected 
leaders that has given other supply chain users the tools to make this 
change possible. We call on Congress to take this model nationally and 
help us create a safe trucking industry that all system users can be 
proud of.

    Ms. Norton. Thank you very much, Mr. Byrd.
    Next will be Jason Craig, director of government affairs, 
C.H. Robinson.
    Mr. Craig. Thank you, Chair Norton and Ranking Member 
Davis.
    As one of the Nation's largest freight brokers and the 
original third-party logistics provider, C.H. Robinson has a 
unique view of how goods flow through our Nation.
    Our employees in Phoenix, Eden Prairie, Chicago, and more 
than 130 offices across 40 States send their warm greetings.
    Our role within freight transportation has been described 
as a travel agent for goods, although that is simplistic. Our 
industry is often referred to as the third-party logistics or 
3PL industry and is represented by the Transportation 
Intermediaries Association.
    While my colleagues have expertise in the operations of the 
physical truck, I wish to focus on how motor carriers are 
selected. Congress has given FMCSA many tools to remove unsafe 
trucks from the roads. These include assigning carriers an 
unsatisfactory safety rating and declaring carriers an imminent 
hazard, among others.
    C.H. Robinson has a thorough and consistent qualification 
process that includes reinforcing all of these actions and 
denies freight to any carrier declared out of service.
    However, from time to time, mostly in tragic and severe 
accidents, our carrier qualification process is challenged in 
court. A common theme in negligence selection cases is that 
brokers and shippers should check more than the credentials 
that allow motor carriers to operate, but there has been no 
guidance as to what additional data should result in denial of 
business beyond the tools Congress has provided.
    I have been involved in and monitoring the Compliance, 
Safety, Accountability program since 2006. While the original 
goal of replacing an audit-based safety fitness determination 
with one that is data-based is laudable and necessary, in 
practice, it has become extremely difficult to complete.
    In 2012, C.H. Robinson testified before this committee 
regarding then publicly available BASIC data and the confusion 
it created. This data was intended to help prioritize 
enforcement actions and carry the following warning: readers 
should not draw conclusions about a carrier's overall safety 
condition simply based on the data in this system.
    Unless the motor carrier has received an unsatisfactory 
safety rating or has otherwise been ordered to discontinue 
operations, it is authorized to operate on the Nation's 
roadways. That warning is still in place, and the SFD linking 
the data with the safety rating is still not complete.
    In 2014, CVSA wrote Administrator Darling to express 
concern about the public display of data. They wrote, ``SMS 
scores are a poor indicator of an individual fleet's propensity 
to be involved in a future crash, their utility in providing 
the public with information about fleet's safety performance is 
limited.''
    In 2016, FMCSA released a draft SFD rule that would have 
established a new safety rating process. However, that rule was 
withdrawn in 2017 for very legitimate reasons around data 
consistency and correlation to crash risk.
    Congress mandated a study of the correlation between data 
and crash risk as part of the FAST Act. Part of the study was 
specifically to look at, quote, ``how members of the public use 
the SMS information.''
    In addition, parts of the BASIC data were removed from 
public view.
    When the National Academy of Sciences submitted its study 
in 2017, they recommended that FMCSA, quote, ``should undertake 
a study to better understand the percentile ranks to support 
decisions regarding the usability of public scores.''
    We were tremendously disappointed that the NAS study 
recommended yet another study. The experts at the NAS, quote, 
``were unable to recommend to FMCSA whether to make all 
percentile ranks public.''
    While we agree that the use of data is an effective tool to 
identify groups of at-risk carriers, data without context has 
and is being used inappropriately. In some cases, brokers and 
shippers have been made to take legal responsibility for 
gauging the safety carriers when there is no clear regulatory 
system in place for us to reliably check.
    This confusion is especially damaging to smaller carriers 
who may not have extensive data available in their profile.
    Currently, there is no requirement to check any safety 
status. A selection standard will improve truck safety by more 
quickly eliminating business to those who should not be 
operating.
    A recent story perfectly describes the situation. In 2017, 
CVSA added an inactive U.S. DOT number to the out-of-service 
criteria. Our regulators did not announce this change broadly. 
Many in the industry remain unaware of this.
    We want to ensure the carriers we select are safe to 
operate. We look forward to amplifying FMCSA decisions 
regarding who should be authorized to operate on the Nation's 
roadways when Congress clearly establishes a motor carrier 
selection standard we can rely on. Thank you.
    [Mr. Craig's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Jason Craig, Director of Government Affairs, C.H. 
                                Robinson
    Chairman DeFazio, Ranking Member Graves, Chair Norton, Ranking 
Member Davis, and members of the Subcommittee on Highways and Transit, 
thank you for the opportunity to testify at today's hearing. As one of 
the nation's largest freight transportation brokers and the original 
third party logistics provider, C.H. Robinson has a unique view of how 
goods and commerce flow through our nation's infrastructure from 
manufacturer to consumer. Our customers and transportation providers 
represent the entire cross section of freight transportation stake 
holders however, approximately 70 percent of our revenue is derived 
from truckload or less-than-truckload services. I intend to provide you 
insights into what supply chain vice presidents and directors need 
Congress to accomplish to improve trucking safety while maintaining our 
globally leading supply chain efficiency.
                      Introduction of Jason Craig
    I serve as the Director of Government Affairs for C.H. Robinson. I 
joined C.H. Robinson in 1996 in operations, managing the export 
movements of hardwood lumber from Northern Minnesota to Asia. Over the 
course of my career at C.H. Robinson I have managed operations across 
modes and service lines for a wide range of shippers. I am also 
currently the vice-chair of the Minnesota Freight Advisory Committee.
                     Introduction of C.H. Robinson
    C.H. Robinson was founded in 1905 and has grown to over 15,000 
employees globally. We are the 7th largest publicly held company 
headquartered in Minnesota, and we have offices across the United 
States. Our employees in Phoenix, Kansas City, Eden Prairie, Chicago, 
and more than 130 other offices across 40 states send their warm 
greetings. Our role within freight transportation has often been 
described as similar to that of a travel agent for goods, although that 
is a simplistic description. I prefer to think of ourselves as an 
outsourced freight transportation department which companies utilize in 
many different ways as their needs and our value dictate.
    We do not own any commercial trucks ourselves, but rather build 
technology platforms and logistics services that allow us to streamline 
complex transportation management on behalf of our customers. A freight 
property broker is legally defined and regulated by the Federal Motor 
Carrier Safety Administration under Title 49 of the Code of Federal 
Regulations. Our industry is commonly referred to as the third party 
logistics or 3PL industry and is represented by the Transportation 
Intermediaries Association (TIA), which has over 1,700 companies as 
members.
    C.H. Robinson is the original 3PL and we have seen our industry 
overall thrive as investments in technology, analysis, and visibility 
has led to greater value to both our customers and transportation 
providers. FMCSA lists 17,966 registered property brokers in 2017 as 
part of the ``2018 Pocket Guide to Large Truck and Bus Statistics'', a 
30 percent increase since 2013.
           Confusion Created by FMCSA Publicly Available Data
    While my colleagues have expertise in the operation and enforcement 
of the physical truck, I wish to focus on how motor carriers are 
selected and assigned to loads and how the committee can improve this 
process to increase safety and end confusion in this area.
    Congress has given FMCSA many tools to remove unsafe motor carriers 
from the roads. These include assigning the carrier an unsatisfactory 
safety rating, declaring the carrier an imminent hazard, and 
withdrawing the carrier's operating authority for failing to respond to 
a new entrant safety audit among other things. These tools are compiled 
annually in the Commercial Vehicle Safety Alliance's ``North American 
Out-of-Service Criteria'' guide, at the carrier level, specifically the 
administrative out-of-service chapter IV.
    C.H. Robinson has established a detailed, thorough and consistent 
carrier qualification process that includes rapidly re-enforcing all of 
FMCSA's actions and denies freight to any carrier that FMCSA has 
declared out-of-service freight. However, from time to time, mostly in 
tragic and severe accidents, our carrier qualification process is 
challenged in court. A common theme in most negligent selection cases 
is that brokers and shippers should check more than the licenses and 
authorities that allow motor carriers to operate on the nation's 
highways, but there has been no guidance or direction provided as to 
what data and what thresholds are important enough to deny offering 
freight to a motor carrier beyond the tools Congress has provided FMCSA 
to take carriers off the roads.
    I have been involved in and monitoring the Compliance, Safety, and 
Accountability or CSA program since approximately 2006. While the 
original goal of replacing an audit based Safety Fitness Determination 
(SFD) system with one that is data based is laudable and necessary, as 
many know, in practice it has become extremely difficult to complete. 
In September of 2012, C.H. Robinson testified before this committee 
regarding the then publicly available BASIC data and the confusion 
created by the BASIC data.\1\ This data was intended to help FMCSA 
prioritize inspections and enforcement actions and carried the 
following warning:
---------------------------------------------------------------------------
    \1\ BASIC data is also referred to as the Safety Measurement System 
or SMS. BASIC stands for Behavior Analysis and Safety Improvement 
Categories.

        Readers should not draw conclusions about a carrier's overall 
        safety condition simply based on the data displayed in this 
        system. Unless a motor carrier in the SMS has received an 
        UNSATISFACTORY safety rating pursuant to CFR Part 385, or has 
        otherwise been ordered to discontinue operations by the FMCSA, 
---------------------------------------------------------------------------
        it is authorized to operate on the nation's roadways.

    That warning is still in place today and the SFD linking the data 
with the safety rating is still not complete. In January 2016, FMCSA 
released a draft SFD rule that would have established a new safety 
rating process, however that rule was withdrawn in March 2017, for some 
very legitimate reasons primarily around data consistency and 
correlation to crash risk. As part of the Federal Register notice 
regarding the withdrawal, our comments were mentioned: ``Specifically, 
C.H. Robinson noted it has long recommended a two-tiered structure that 
more clearly signals to shippers and other industry stakeholders, which 
carriers should not be hired due to safety concerns.''
    In 2014, CVSA wrote then Administrator Darling to express concern 
about the public display of motor carrier BASIC data. CVSA Executive 
Director at the time, Steve Keppler wrote ``SMS (BASIC) scores are a 
poor indicator of an individual fleet's propensity to be involved in a 
future crash, their utility in providing the public with information 
about fleet's safety performance is limited.'' \2\
---------------------------------------------------------------------------
    \2\ See letter attached as Appendix A.
---------------------------------------------------------------------------
    In response to feedback from across the freight transportation 
industry regarding the BASIC data, Congress mandated a study of the 
correlation between BASIC data and crash risk as part of the FAST Act. 
Part of the study was specifically to look at ``how members of the 
public use the SMS and what effect making the SMS information public 
has had on reducing crashes and eliminating unsafe motor carriers from 
the industry.'' In addition, Congress required FMCSA to remove certain 
parts of the BASIC data from public view.
    When the National Academy of Science submitted its correlation 
study in June of 2017, they responded to the issue of the public use of 
the data by recommending that FMCSA ``should undertake a study to 
better understand the statistical operating characteristics of the 
percentile ranks to support decisions regarding the usability of public 
scores.'' We were tremendously disappointed that the NAS study 
recommended yet another study. While the experts at the National 
Academy of Science undertook a very detailed, 183 page mathematical 
study regarding the entirety of the BASIC data model, they ``were 
unable to recommend to FMCSA whether to make all percentile ranks 
public.''
    Even though a large amount of data has been hidden from public 
view, other motor carrier data remains,\3\ without guidance from 
Congress or FMCSA regarding which data should be used by shippers and 
brokers to properly selected motor carriers. While we wholeheartedly 
agree that the use of appropriate motor carrier data is an effective 
tool to identify groups of potentially at-risk carriers compared to 
previous eras of solely audit based decisions, data without context has 
and is being used inappropriately. In some cases, brokers and shippers 
have been made to take legal responsibility for gauging the safety of 
carriers when there is no clear regulatory system in place for us to 
reliably check. This is a significant unintended consequence of the 
almost decade long delay by FMCSA and Congress to provide clear 
guidance regarding which carriers should be safe to tender loads to.
---------------------------------------------------------------------------
    \3\ See screenshot of current SMS data in Appendix B.
---------------------------------------------------------------------------
    Is a carrier with an unsafe driving score of 81 more dangerous than 
one with a score of 78? If that is true, then why not use only carriers 
with a score below 60 and shut all the other carriers down? A relative 
safety system is fine for internal inspection prioritization by FMCSA, 
but is damaging to market participants when made public without proper 
context, especially damaging to smaller carriers who may not have 
extensive data available in their profile.
    Currently there is no requirement to validate any authority or 
safety status when selecting and tendering a load to a motor carrier. 
We feel strongly that the establishment of a motor carrier selection 
standard that mirrors the tools Congress has given FMCSA to take 
carriers off the road will improve truck safety by more quickly 
eliminating freight opportunities to motor carriers who have their 
authority pulled or are otherwise placed into an administrative out-of-
service status at the carrier level.
    A recent story perfectly describes the situation. In April of 2017, 
CVSA added an inactive US DOT number to the administrative out-of-
service criteria.\4\ This means that when law enforcement stops a 
carrier operating under an inactive US DOT number, they are to be 
placed out-of-service immediately. Neither CVSA nor FMCSA announced 
this change broadly to those who select motor carriers. There is no 
clear, consolidated screenshot that aggregates all the information that 
allows a motor carrier to operate on the nation's roads, although they 
have slowly been making improvements. The only place shippers and 
brokers could see this change was by ordering the full North America 
Standard Out-Of-Service Criteria Guide for $35 on the CVSA website. 
Even today, many in the industry are unaware that an inactive or 
suspended US DOT number is not only a separate process than suspending 
operating authority, but also an administrative out-of-service 
criteria. If Congress would establish a motor carrier selection 
standard that allowed industry to reliably re-enforce FMCSA 
administrative out-of-service criteria, carriers who should be denied 
freight opportunities will more quickly be pulled off the road.
---------------------------------------------------------------------------
    \4\ See Appendix C from the CVSA 2017 North American Out of Service 
Criteria Report.
---------------------------------------------------------------------------
    Instead, by publishing a myriad of motor carrier data with little 
clear guidance on its use (which even the experts at the National 
Academy of Science are unable to recommend if they should be used by 
the public or not) many shippers and brokers do not check any federal 
qualifications. Other shippers may be using unrelated or less important 
data with no correlation to crash risk which results in lost business 
opportunities for motor carriers whom FMCSA fully licenses and 
authorizes to operate.
    C.H. Robinson, other brokers, and shippers are important 
stakeholders when it comes to motor carrier safety. While we are not as 
critical to motor carrier safety as those who operate, maintain and 
drive trucks, we can and want to ensure that the carriers we select 
have been deemed safe to operate on the nation's roadways by FMCSA. We 
look forward to being able to amplify and re-enforce the expert 
decisions at FMCSA regarding who should be authorized to operate on the 
nation's roadways when Congress clearly establishes a motor carrier 
selection standard we can rely on.
           Other Issues of Safety Important to C.H. Robinson
                             truck parking
    The current availability of truck parking in our country is 
insufficient. In fact, when weather events challenge truck drivers, 
some of our customers have begun opening their yards not just to 
drivers on loads for their own freight, but for all truck drivers. They 
recognize that there is simply no place for these drivers to go. We are 
encouraged by provisions included in MAP-21 and the FAST Act to address 
truck parking and we look forward to additional solutions to this issue 
that will make America's supply chain safer and more competitive.
                       infrastructure investment
    Outdated and poorly designed infrastructure is a safety risk to 
all. C.H. Robinson wholeheartedly supports a robust investment in the 
nation's freight roadways that will also improve safety and reduce 
truck crashes. Properly designed and maintained ramps, merges and sight 
lines help keep us all safe. We would refer committee members to the 
National Association of Manufacturers infrastructure blueprint titled 
``Building to Win'' that was recently released and included the 
following:

        Unsound infrastructure puts lives at risk. Businesses and 
        manufacturers are cutting into their bottom lines with wasted 
        time and money. According to the NAM's quarterly survey, 
        manufacturers consider rising transportation costs a top 
        business concern. The United States desperately needs a 
        targeted, substantial investment in revitalizing the nation's 
        infrastructure. Congress should legislate identifying and 
        prioritizing projects of national and regional significance 
        requiring federal investment and vision to revitalize the 
        nation's infrastructure.
                      freight advisory committees
    This committee should also be aware that many supply chain 
professionals feel very disconnected from the policy making process. If 
they do have a local need or issue, they have trouble connecting in a 
timely manner with the right agency or official who can address the 
issue. Sometimes a supply chain professional may have a need in 
Missouri, but controls the freight from their office in Atlanta. We see 
the same frustration from state and local officials who try to engage 
the freight community. The establishment of state Freight Advisory 
Committees as part of the FAST Act has provided shippers an opportunity 
to more directly connect with state infrastructure planners. We see 
tremendous potential for these committees to be incubators of policy 
and expertise for both state, regional, and national freight 
transportation planners. One example of how this structure is working 
successfully is how a proposal by U.S. Customs to adjust hours at a 
border crossing in northern Minnesota was vetted through the Minnesota 
Freight Advisory Committee and stakeholders were quickly identified to 
provide input and execute a solution that worked for all public and 
private stakeholders. Congress should continue to bolster this program 
and provide more opportunities for these Freight Advisory Committees to 
add their voices to the freight infrastructure planning process.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Norton. Thank you very much, Mr. Craig.
    Next, we will hear from Rodney Noble, senior director of 
transportation global procurement, PepsiCo.
    Mr. Noble. Thank you. Good morning.
    Chairwoman Norton, Ranking Member Davis, and Chairman 
DeFazio, and members of the subcommittee, I am Rodney Noble. I 
have been handling transportation for PepsiCo for over three 
decades.
    PepsiCo is pleased to be here today to discuss our efforts 
to improve truck safety and reduce emissions. We own the 
largest independently owned fleet of trucks in the U.S. We have 
over 70,000 assets, including 36,000 trucks, and we employ over 
25,000 drivers. Needless to say, we are experienced in 
transportation.
    First some background on PepsiCo. PepsiCo is the largest 
food and beverage company in the United States. Our portfolio 
includes Pepsi-Cola, Frito-Lay products, as well as Aquafina, 
Lipton, Tropicana, Gatorade, and Quaker Oats. These brands and 
others are enjoyed by our consumers over a billion times a day 
around the world.
    With our franchise bottlers, we employ and support the jobs 
of nearly 140,000 Americans in all 50 States, the Virgin 
Islands, as well as the District of Columbia.
    We have 94 U.S. manufacturing sites, many in your 
districts, like our Quaker plant in Cedar Rapids, Iowa, our 
Pepsi plant in Cheverly, Maryland, our Frito-Lay facilities in 
Canton, Ohio, Jonesboro, Arkansas, and Dallas, Texas.
    PepsiCo is committed to reducing our absolute greenhouse 
gas emissions by 20 percent by 2030. We have made significant 
improvements in our fleet efficiencies by broadening our fuel 
use.
    We currently operate 1,500 alternative fuel vehicles. More 
specifically, PepsiCo owns one of the largest commercial fleets 
of electric vehicles in the U.S. and is exploring more use of 
electric power across our fleets.
    Frito-Lay has increased the use of our renewable natural 
gas, allowing us to cut diesel fuel by 30 percent. We are on 
track to cut conventional fuel by 50 percent by 2020.
    We have improved our truck routings that has reduced the 
miles that we have traveled. This not only cuts emissions, but 
it enhances safety because reducing miles reduces a chance of 
accidents.
    Safety is paramount at PepsiCo, and we have created a 
culture around our driver training programs. We have also 
invested in technology beyond what is needed to meet the 
government requirements.
    Our written statement includes more on our safety 
investments, as well as our training programs.
    While PepsiCo is proud of our ability to innovate, we 
believe more can be done, but we are constrained by the 
outdated Federal laws like the current 80,000-pound gross 
vehicle weight limit that was set in 1983.
    They say a picture is worth a thousand words. I would like 
to call your attention to the screen, if you would.
    [Slide.]
    If you look, you can see the standard 53-foot trailer that 
is generally limited to 80,000 pounds in the U.S. that operates 
on five axles. The other vehicle has six axles, not five, and 
in Canada where the industry operates these at 102,500 pounds, 
we analyzed 5 years of our operation in Canada. These vehicles 
collectively traveled roughly 13 million miles, and we have had 
zero fatality accidents.
    PepsiCo is a member of the SHIP Coalition, which supports a 
pilot program to allow single trucks on the interstate at 
91,000 pounds, with the requirement of the six-axle. PepsiCo 
believes that this modest increase, subject to important safety 
and infrastructure protection conditions, would reduce road 
wear, emissions, and increase safety.
    Under this proposal, our products can move with fewer 
trucks. This leads to fewer miles, reducing the chance of 
accidents. This pilot would help reduce emissions and address 
the nationwide commercial driver shortage.
    The Federal Government can also address this issue by 
passing the DRIVE-Safe Act, which I detail in my written 
statement.
    In conclusion, PepsiCo is committed to improving our 
transportation operations. I have been doing this job 30 years, 
and what keeps me up at night is what a lot of the folks here 
talked about. It is the safety of our drivers, the operational 
efficiency, but also attracting the next generation of drivers 
to the business.
    This hearing could not be more timely, and we look forward 
to working with you to address these critical challenges.
    Thank you for the time to be here today.
    [Mr. Noble's prepared statement follows:]

                                 <F-dash>
  Prepared Statement Rodney Noble, Senior Director of Transportation 
                      Global Procurement, PepsiCo
    Chairwoman Holmes Norton, Ranking Member Davis, Chairman DeFazio, 
Ranking Member Graves, and Members of the Subcommittee, I am pleased to 
appear before you today on behalf of PepsiCo to share our perspective 
on important issues impacting the trucking industry.
    My name is Rodney Noble and I am Senior Director of Transportation 
Global Procurement. I have been with PepsiCo for 33 years and in my 
current role I am responsible for strategy development and capacity 
procurement for all modes of purchased transportation/freight as well 
as North America Fleet procurement for PepsiCo. This role is a mixture 
of transportation execution, centralized strategy, planning, 
technology, integration and procurement of freight and fleet solutions 
for PepsiCo across North America.
    My testimony will outline our efforts to improve truck safety and 
reduce emissions from trucking as part of our continuous efforts to 
improve our transportation and logistics systems. But first I'll 
provide some important context.
                   pepsico and its logistics network
    PepsiCo is the largest food and beverage Company in the United 
States and our portfolio includes our iconic Pepsi-Cola and Frito-Lay 
products, as well as brands such as Aquafina, Lipton, Tropicana, 
Gatorade, Quaker Oats, Sun Chips and Sabra hummus. PepsiCo sources over 
six million metric tons of potatoes, grains, fruits, vegetable oil and 
more in the U.S., from growers of all sizes. Along with our franchise 
bottlers, we employ and support the jobs of nearly 140,000 Americans in 
all 50 states and the District of Columbia. We have a total of 94 
manufacturing sites across the United States with many of these 
facilities located in your Congressional districts; like our Quaker 
plant in Cedar Rapids, Iowa, our Pepsi plant in Hyattsville, Maryland, 
or our Frito-Lay facilities in Canton, Ohio, Jonesboro, Arkansas or 
Dallas, Texas. PepsiCo considers itself part of these communities with 
our employees living in small towns and large cities, and contributing 
through hard work and volunteer efforts.
    Although you may be familiar with our brands, you may not know of 
PepsiCo's logistical network. Through our transportation subsidiaries, 
PepsiCo owns the largest independently-owned fleet of trucks in the 
United States. We own over 36,000 trucks and a total of over 70,000 
assets including over 11,000 tractors, 12,300 vans and 8,300 service 
support vehicles. PepsiCo employs over 25,000 drivers, all of whom are 
integral to the success of our logistics network to make sure our 
product gets from the farm to your grocery store shelf in a safe and 
environmentally responsible manner. Now knowing the scope of our fleet, 
you can imagine the impact that well maintained infrastructure and 
smart transportation policies can have on our day-to-day operations.
       environmental leadership; reducing emissions from trucking
    Earlier this year PepsiCo adopted a new corporate vision, Winning 
with Purpose, which conveys our belief that sustainability can be an 
even greater contributor to our success in the marketplace. We are 
committed to reducing our absolute greenhouse gas emissions across our 
supply chain by at least 20 percent by 2030. Our fleet operations adopt 
sustainability in their everyday practices and long-term business plans 
by reducing emissions through efficient, new technology and the sharing 
of best practices. For a number of years, we have made significant 
improvements in fleet efficiency. One way is diversifying the types of 
fuels we use; PepsiCo operates over 1,500 alternative fuel vehicles and 
in 2018 our fleet logged over 64.5 million alternative fueled miles.
    These changes have not come without their challenges, even for a 
company the size of PepsiCo; incorporating emerging technology requires 
additional training for our mechanics so they have the technical 
skillset and expertise to operate and maintain these highly technical 
systems. It also requires PepsiCo to remain current with our diagnostic 
software and update our site and maintenance facilities, including our 
refueling infrastructure. Despite these challenges, we believe these 
investments are right for the environment and give us the ability to 
contain current and future transportation costs, which means that your 
constituents will continue to be able to purchase our products at an 
affordable price. Here are some quick facts on our fleet:
    <bullet>  PepsiCo owns one of the largest commercial fleets of 
electric vehicles in the U.S.
    <bullet>  PepsiCo is working to increase the volume of renewable 
natural gas (RNG) used in our freight trucks. Within the Frito-Lay 
division alone, the fleet reduced its diesel fuel usage by more than 30 
percent. We are now on track to cut conventional fuel use from our 
fleet by 50 percent by 2020, compared to a 2008 baseline.
    <bullet>  PepsiCo is an industry leader in investing in compressed 
natural gas (CNG) tractors and advanced diesel technology. Forty two 
percent of our Frito-Lay over-the-road fleet has been converted to 
compressed natural gas and in 2018 our CNG fleet drove 56.3 million 
miles.
    <bullet>  PepsiCo made an initial reservation for 100 all-electric 
semi-trucks. This investment represents part of our broader strategy 
and gives us an opportunity to explore electrification across all our 
vehicle classes.
    <bullet>  With a grant from the California Air Resources Board, 
Frito-Lay will replace all of its diesel equipment in Modesto, CA with 
Zero emissions or Near Zero emissions equipment in the next two years.
    We believe there is more to energy efficiency than just our 
equipment alone. We continually look for other ways to achieve 
excellence in operations to accomplish our sustainability and 
productivity goals. This includes incorporating everything from driver 
training, the latest in safety technology and more efficient routing as 
important components of our strategy.
                          safety is paramount
    At PepsiCo we make a point of celebrating safety within our fleet. 
One example is Frito-Lay's annual Million Mile award ceremony where we 
recognize our drivers that have driven one million miles without an 
accident. This past April we celebrated 78 U.S. and Canada based over-
the-road drivers from more than 30 sites who drove one, two, and three 
million accident-free miles. To put that in perspective, it takes 
Frito-Lay drivers approximately 10-12 years to reach the one million 
mile mark. Needless to say, we are extremely proud of these drivers and 
their incredible safety record.
    Over the last few years, PepsiCo has created a culture around 
driver-training programs, training thousands of drivers to help reduce 
fuel use through their driving habits. From avoiding unnecessary 
braking and eliminating idling to gentler acceleration and leveraging 
cruise control, our programs encourage best practice sharing and 
tracking to improve fuel mileage.
    PepsiCo knows how important safety is and we have made decisions to 
go above and beyond current federal and state safety regulations. The 
majority of our new vehicles are outfitted with features including: 
collision mitigation, lane departure, blind spot detection, LED 
headlights, back-up cameras, antilock brakes, traction control and 
electronic stability control. We are also adding forward facing cameras 
and lane departure devices to our existing fleet, while continuing to 
leverage telematics for proactive driver training on safe driver 
behaviors. As a pioneer in the safety space, we also work to influence 
manufacturers to bring the latest technologies to market to benefit the 
industry as a whole, wherever possible.
    The key to our fleet strategy is spending the time and effort to 
procure equipment that is best suited to the business, allowing us to 
employ the most efficient trucks for our operations. For example, 
PepsiCo Beverages North America is accelerating a new and innovative 
delivery system, which replaces segmented bulk and bay delivery trucks 
with specially designed and specified trailers that are pre-loaded at 
the warehouse. This helps ensure the right quantity and assortment of 
product reaches the retail customer in a more efficient and timely 
manner while saving time for route delivery drivers and fuel by 
eliminating overlapping delivery vehicles.
    To date, approximately 44.1 percent of routes have been converted 
to this new system, resulting in a 15 percent reduction in the number 
of truck days and total miles from the system. Reducing miles improves 
safety because it translates into fewer exposures for our drivers and 
decreases the chances of crashes.
      legislation can advance our safety and environmental efforts
    We are very supportive of Congress getting started on legislation 
to improve our nation's road infrastructure. Better bridges and 
highways will help reduce wear and tear on our fleet and improve 
driving conditions for our trucks, all of which will benefit our 
industry. While PepsiCo is proud of our ability to innovate around the 
current challenges facing our trucking fleet, we believe more can be 
done to advance safety, reduce emissions, and protect infrastructure; 
but we are constrained by antiquated federal laws.
    For example, the current 80,000 pound gross vehicle weight (GVW) 
limit for five axle trucks operating on Federal Interstate System 
highways was set in 1983, since that time the transportation industry 
has seen significant safety improvements like the standardization of 
anti-lock brakes. In the intervening decades a majority of States now 
allow trucks over 80,000 pounds on state and local roads but the 
Federal GVW limit for the Interstate System remains stubbornly stuck at 
80,000 pounds. What does this mean for PepsiCo? Since many of our 
products are heavy, we often hit the 80,000 pound limit and our trucks 
are only partially full, which leads to more trucks on the road and 
carbon emissions than if we were able to fill our trucks to their 
optimal capacity.
    To begin addressing this, we support Congress authorizing a pilot 
program for a limited number of States to allow a modest increase in 
the gross vehicle weight (GVW) of trucks on the Interstate Highway 
System. PepsiCo is a member of the Safer Hauling and Infrastructure 
Protection Coalition, or SHIP Coalition, which believes modestly higher 
truck weights, subject to important conditions for safety and 
infrastructure protection, would reduce road wear and tear and greatly 
reduce greenhouse gas emissions, all while being carried out safely. We 
know it can work because our company is already safely operating six-
axle vehicles at over 80,000 pounds in Canada; just one of the many 
developed nations with higher GVW limits.
    They say a picture is worth a thousand words and I'd like at this 
time to call the Subcommittee's attention to the photo on the screen 
and attached to our prepared testimony. You will see a standard 53-foot 
trailer that, with tractor, is generally limited to 80,000 pounds GVW 
in the U.S. and operates on 4-5 axles. The other vehicle is equipped 
with 6 axles, not 5, and in Canada we are operating these at a GVW even 
higher than 91,000 pounds. Before this hearing we checked back five 
years and found zero fatalities in our operation of these vehicles in 
Canada, even though they cover an average of 2.6 million miles 
annually.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    In the U.S. we believe that, by allowing more cargo to be carried 
in fewer vehicles, this pilot program would reduce the growth in the 
number of trucks on the road.
    By allowing a given amount of cargo to be carried in fewer 
vehicles, this pilot program will help: reduce congestion on roads, 
lower fuel consumption, and mitigate exhaust emissions. USDOT estimated 
that a 6-axle/91,000 pound configuration reduces CO2 and NOX emissions, 
with NOX being a particulate matter pollutant precursor.
    In addition, by reducing miles to move a given amount of cargo, 
exposures on the road are also reduced, which decreases the chances of 
crashes.
    The additional axle comes with additional wheels and brakes, 
increasing braking power. DOT found the 91,000 pounds GVW, six-axle 
vehicle stopped one-foot shorter than the conventional 80,000 pounds 5-
axle vehicle. Importantly, this ten-state pilot program would 
facilitate shifting truck traffic away from lower classification roads 
that often pass by schools and shopping centers and through 
neighborhoods with pedestrians. Instead, trucks would be able to use 
the Interstate Highway System, found by the Transportation Research 
Board in a 2019 report to be the safest and best suited roads for 
trucks.
    In addition, States that opt in to the voluntary pilot program 
would have to collect certain data regarding the GVW of a truck in the 
pilot program in the event of a crash. The lack of data on the loaded 
weight of a truck at the time of a fatality or injury was noted in 2015 
and 2016 by the U.S. Department of Transportation (DOT) as a critical 
data gap. PepsiCo is an industry leader in telematics, data collection, 
and analysis--and we are particularly well equipped to provide valuable 
feedback data to the program.
    By requiring an additional axle the proposed pilot also addresses 
concerns on potential road wear and tear. With the additional axle, the 
weight transferred to the pavement is lower per axle at 91,000 pounds 
GVW than a five-axle 80,000 pounds GVW vehicle. USDOT found this six-
axle configuration would reduce, not increase, life-cycle pavement 
costs, with savings of 2.4 to 4.2 percent.
    Another advantage of the SHIP pilot proposal is it would help 
alleviate the pressure PepsiCo and the trucking industry at large is 
feeling from the nationwide commercial driver shortage. With the 
current shortfall of drivers only expected to increase, the ability to 
more efficiently move our product would go a long way in enabling us to 
continue to take the time needed to attract the highest quality 
drivers.
    Another way the Federal government could help to address the 
commercial driver shortage is by passing the Developing Responsible 
Individuals for a Vibrant Economy Act also known as the ``Drive Safe 
Act''. We believe this legislation would help establish a pipeline for 
drivers by allowing 18-21 year olds that already have a commercial 
driver's license to drive interstate pending completion of a 400 hour 
apprenticeship program with an experienced driver. Right now, young 
adults coming out of high school who might be interested or even just 
considering a career in the trucking industry are choosing a different 
occupation because they can't afford to wait until they are 21 to be 
hired and we are losing access to a valuable pipeline of potential 
talent. We also believe it is important that the legislation ensures 
that vehicles used in the program would be required to have the latest 
safety technology.
    In conclusion, PepsiCo is deeply committed to efforts to 
continuously improve our truck, transportation and logistics 
operations, particularly as to safety and emissions reductions. We look 
forward to working with Congress to help advance sensible 
transportation policies that will help improve our nation's trucking 
infrastructure for the next generation.
    Thank you, again, for the opportunity to be here today and I will 
be happy to respond to any questions.

    Ms. Norton. Thank you very much, Mr. Noble.
    Next, Deputy Chief Mark Savage, Colorado State Patrol on 
behalf of the Commercial Vehicle Safety Alliance, and, yes, 
please proceed.
    Mr. Savage. Good afternoon, Chairwoman Norton, Ranking 
Member Davis, full committee Chair DeFazio, and members of the 
subcommittee.
    Thank you for inviting me to participate in today's 
important discussion on the state of the trucking industry.
    As deputy chief of the Colorado State Patrol, I oversee our 
State's CMV enforcement program. Under the Motor Carrier Safety 
Assistance Program, today I am here representing the Commercial 
Vehicle Safety Alliance where I serve as a past president. CVSA 
represents State agencies who enforce motor carrier safety 
regulations in the United States, Canada, and Mexico.
    CVSA has a number of recommendations aimed at improving CMV 
safety. I am sure many of them will be included in the 
discussion today.
    However, from our perspective, it all boils down to one 
thing, providing the motor carrier industry and the enforcement 
community with a regulatory framework that is clear, safety 
driven, and enforceable.
    Every day across the country, CVSA members work with 
industry and FMCSA to reduce crashes and save lives. At the 
same time, the trucking industry continues to grow and becomes 
more sophisticated every day. Finding solutions that ensure the 
safe transport of goods is, needless to say, complicated.
    We need a regulatory framework that can keep pace with the 
changing industry. Unfortunately, regulatory activity at the 
agency--one of FMCSA's basic responsibilities--has come to a 
near standstill, and the necessary work to maintain regulations 
is suffering.
    For example, in 2016, FMCSA sent a letter to a member of 
the broadband service industry indicating that wireless and 
broadband services qualify under the public utility hours-of-
service exemption.
    CVSA petitioned the agency in May of 2017 to update those 
regulations to reflect this decision. Last March, the agency 
granted our petition. Yet we are still waiting for this simple 
definition change to be completed.
    This may seem like a small thing, but it is just one 
example of a number of similar scenarios that build upon one 
another.
    In addition, high-profile initiatives like rolling out the 
ELD rule consume the agency's resources, especially when they 
are met with a high volume of exemption requests. As a result 
and in place of actual regulatory action, the agency has come 
to rely heavily on interpretations, personalized letters, 
informal electronic communications, enforcement guidance, 
frequently asked questions, and other means providing 
enforcement and industry with clarity on issues that arise with 
the expectations that the regulations will be updated in the 
future.
    Unfortunately, that update often never takes place, 
resulting in an inconsistent understanding of the requirement.
    When the regulations lack clarity, they are ineffective, 
creating confusion and inconsistencies in enforcement, which in 
turn leads to unnecessary conflict between enforcement and 
industry and ultimately it erodes the CMV community's trust in 
the regulatory process.
    This lack of clarity in the regulations is further 
complicated by the growing list of exemptions being listed by 
various segments of the industry. While we understand the motor 
carrier industry is diverse, the motor carrier safety 
regulations are just that, safety regulations, and any 
exemption granted should be based on the clear critical need, 
not merely because it would be more convenient for the 
industry.
    This is not to say we oppose all exemptions. We recognize 
that there are times where granting exemptions is appropriate. 
In those instances, FMCSA has a process in place to allow for 
the review of exemption requests based on the applicant's 
ability to demonstrate need and the ability to maintain an 
equivalent level of safety.
    We encourage Members to point their constituents to this 
established process rather than incorporating exemptions into 
legislation. Exemptions not only have the potential to 
undermine safety, but they complicate the enforcement process 
and confuse inspectors, drivers, and the industry alike.
    While one individual exemption may not seem like such a big 
deal, they add up and result in confusing, contradictory and 
inconsistent enforcement of the regulations. To address these 
concerns, we encourage Congress to impress upon FMCSA the 
importance of the agency conducting its regulatory 
responsibilities in a timely manner and ensure the agency has 
the necessary resources, technical staff, authority, and time 
to do so.
    In addition, we encourage Members to minimize the number of 
exemptions written in legislation and to consider the practical 
impacts of any new requirements or programs to the enforcement 
community's ability to conduct our critical lifesaving 
activities.
    Those of us in the enforcement community, including FMCSA, 
as well as those in the regulated industry, cannot achieve our 
mutual goal of reducing crashes and saving lives without 
clearly written safety regulations that are based on unbiased 
data and designed with safety as the top priority.
    We look forward to working with all of you to address these 
challenges.
    Thank you.
    [Mr. Savage's prepared statement follows:]
                                 <F-dash>
Prepared Statement of Deputy Chief Mark Savage, Colorado State Patrol, 
          on behalf of the Commercial Vehicle Safety Alliance
                              Introduction
    Chairman Norton, Ranking Member Davis and Members of the 
Subcommittee, thank you for holding this important hearing and for 
inviting me here today to discuss the state of the trucking industry in 
America.
    My name is Mark Savage, I am deputy chief of the Colorado State 
Patrol, and I currently serve as a past president of the Commercial 
Vehicle Safety Alliance (CVSA). CVSA is a nonprofit association 
comprised of local, state, provincial, territorial and federal 
commercial motor vehicle safety officials and industry representatives. 
We represent the state agencies responsible for the administration and 
enforcement of commercial motor carrier safety regulations in the 
United States (U.S.), Canada and Mexico. We work to improve commercial 
motor vehicle safety and uniformity by bringing truck and bus 
regulatory, safety and enforcement agencies together with industry 
representatives to solve highway transportation safety problems. Every 
state in the U.S., all Canadian provinces and territories, the country 
of Mexico, and all U.S. territories and possessions are members of 
CVSA.
    As Congress begins work on the next surface transportation bill, 
this timely hearing will hopefully provide members with valuable 
insight into the incredibly complex world of regulating the trucking 
industry to ensure safety, while also providing for the efficient flow 
of goods across the country. My testimony will highlight areas of 
concern for the Alliance, as well as recommendations on how best to 
move forward to meet our shared goal of preventing crashes, injuries 
and fatalities related to commercial motor vehicles on our nation's 
roadways. While a number of issues will be discussed during the 
hearing, from our perspective, it all boils down to one thing: 
providing the motor carrier industry and enforcement community with a 
regulatory framework that is clear, safety-driven and enforceable. The 
trucking industry continues to grow and become more sophisticated every 
day. We need a regulatory framework that can keep pace with the 
changing industry.
                  Clarity in the Regulatory Framework
    Clear, enforceable rules are the cornerstone of an effective 
regulatory framework designed to ensure safety on our roadways. It is 
imperative that those subject to the Federal Motor Carrier Safety 
Regulations (FMCSRs) understand their responsibilities and that those 
tasked with enforcing those safety regulations can do so effectively to 
ensure the quality and uniformity of the more than four million 
roadside inspections conducted annually throughout North America. Over 
time, additional regulatory authority, coupled with changes to the 
industry and technological advancements can result in inconsistent, 
outdated and redundant regulatory language. To address this continued 
evolution of the program, the Federal Motor Carrier Safety 
Administration (FMCSA) is tasked with maintaining the regulations.
    Unfortunately, regulatory activity at the agency--one of FMCSA's 
basic responsibilities--has come to a near standstill, and the 
necessary work of maintaining the regulations is suffering. High 
profile initiatives, such as implementation of the electronic logging 
device rule, can consume the agency's resources, especially when those 
efforts are met with a high volume of exemption requests.
    For example, in 2016, FMCSA sent a letter to a member of the 
broadband service industry indicating that wireless and broadband 
services qualify under the `public utility' hours-of-service exemption. 
After learning of the letter, in May of 2017, CVSA petitioned the 
agency to update the regulations to reflect this decision. In March of 
last year, the agency granted the petition, but to date we are still 
waiting for the rulemaking to be initiated.
    In an effort to address the growing backlog and delays, the agency 
has come to rely heavily on the use of regulatory guidance to address 
necessary clarifications to the regulations, using guidance documents 
or frequently asked questions (FAQs) to correct technical errors in 
published rules or to clarify vague regulatory language within the 
safety regulations while improvements to the regulations make their way 
through the rulemaking process. However, the number of full rulemakings 
that can make it through the agency in any given year is limited by 
staff and funding, and a number of higher profile rules tend to push 
simple technical changes back in the queue, some never to be published. 
As a result, a disconnect has evolved between written regulation, 
regulatory guidance, interpretations and FAQs.
    As a result, unintentional inconsistencies and contradictions have 
worked their way into the regulatory framework. These inconsistencies 
can lead to confusion among both the regulated and enforcement 
communities. Recently the Office of the Secretary of Transportation 
published a notice asking stakeholders to review all existing 
regulatory guidance and make recommendations on which documents should 
be incorporated into regulation, what can be eliminated and what other 
guidance may be necessary. While this is a good start, the request was 
too broad in nature, seeking comment on all existing guidance to any 
regulation under the department's purview, not merely the FMCSRs 
overseen by FMSCA. Asking for input on all existing regulatory guidance 
is an enormous task and one that is not achievable in such a short time 
frame. Instead, such a review should be conducted in a methodical and 
organized manner. FMCSA should conduct a review of each Part of Title 
49 of the FMCSRs on an individual basis, rather than all at once. As a 
part of this review, FMCSA should examine all informal guidance that 
has been issued and adopt the updated informal guidance as official 
regulatory guidance.
    This process, once complete, will help clarify a number of 
inconsistencies in regulation, helping those who are subject to the 
FMCSRs better understand their responsibilities and allowing those 
tasked with enforcing the regulations to do so effectively. This, in 
turn, will help improve the quality and uniformity of the more than 
four million roadside inspections conducted annually throughout North 
America. However, it is not enough for the agency to do this one 
review. This process must be conducted on an ongoing basis, in order to 
keep pace with ongoing changes and developments. Continued review and 
updates to guidance are necessary to remove redundancies, reflect 
recent changes, correct errors and eliminate contradictions provides 
both the law enforcement community and motor carrier industry with 
clearer guidelines to follow. Regulatory guidance should be reviewed 
and updated on a regular basis to ensure accuracy and clarity.
    As noted, there are a number of factors that contribute to the 
growing delay in regulatory action at FMCSA. We recognize that many of 
these factors are outside the agency's control. The result is that the 
agency is struggling to meet one of its basic responsibilities, which 
is to maintain the FMCSRs, something only the agency can do, in order 
to keep pace with industry and ensure that motor carriers are being 
held to a standard that will ensure the safe operation of vehicles on 
our nation's roadways. FMCSA must be given the resources and support to 
allow the agency to prioritize the day to day maintenance of the 
regulations, while also meeting obligations set forth by Congress. 
Allowing this critical responsibility to lapse does a disservice to 
both the motor carrier industry and the enforcement community and 
undermines the agency's efforts to improve safety.
                               Exemptions
    The growing lack of clarity and inconsistency in the regulations is 
further compounded by the growing number of regulatory exemptions being 
issued. The federal safety regulations are designed to reduce or 
prevent truck and bus crashes, fatalities and injuries by establishing 
minimum credentialing and vehicle mechanical fitness requirements to 
ensure interstate motor carriers and drivers operate safely. The 
regulations are developed in consultation with enforcement, industry 
and subject matter experts, and are intended to establish a clear set 
of rules by which all drivers and motor carriers must abide. The 
states, in partnership with FMCSA, work to enforce those regulations 
consistently and correctly. In order to become a commercial motor 
vehicle inspector, an individual must go through rigorous training. 
Once certified, an inspector must conduct a minimum number of 
inspections each year to maintain their certification. Inspectors must 
also attend annual in-service/refresher training courses and receive 
ongoing training updates as a result of various regulatory updates or 
changes. Significant training and continuing education are geared 
towards ensuring inspectors and roadside enforcement officials fully 
understand and effectively communicate the regulations they enforce.
    Inconsistencies and exceptions within the regulations require more 
training and create more opportunities for mistakes, which in turn 
require additional resources to correct. Unfortunately, however, the 
number of exemptions continues to grow. Particularly problematic are 
those exemptions issued through legislation. Issues begin with the 
adoption of exemptions themselves. While the exemptions are made 
effective at the federal level upon enactment of the bill, that is not 
necessarily the case at the state level. The states cannot enforce 
federal laws and regulations, and instead adopt or incorporate federal 
regulations into their own state laws, regulations and codes. Some 
states adopt federal rules by reference, allowing them to automatically 
adopt federal changes immediately. However, many states do not adopt by 
reference and must go through either a legislative or regulatory 
process to make the federal regulatory changes effective at the state 
level. This process takes time, especially in states where the 
legislature does not meet annually.
    Even in states where adoption is automatic by reference, there is 
still a delay in the practical implementation of an exemption. 
Jurisdictions must be made aware of the change and its impacts. In many 
cases, interpretations and guidance from the federal agency on the 
parameters and definitions of the exemption are necessary. For example, 
a number of the exemptions to commercial motor vehicle size and weight 
limits included in the Fixing America's Surface Transportation (FAST) 
Act required guidance from the Federal Highway Administration (FHWA). 
FHWA worked quickly to provide the guidance to the states, but even so, 
the document was not circulated until February of 2016, which left the 
motor carrier industry and the enforcement community wondering how the 
exemptions would work in the meantime and at times created conflicts 
during roadside inspections.
    Finally, once the exemption has been analyzed and guidance 
provided, state enforcement personnel must be trained on the new 
exemptions. Inspectors must be taken away from important enforcement 
and education efforts and scheduled to be trained on the changes. 
Practically speaking, this takes time. This guidance and the subsequent 
training are critical to ensuring the exemption is interpreted and 
enforced uniformly.
    Recognizing these challenges, FMCSA has a policy in place that 
allows states three years to adopt changes to the FMCSRs. While states 
work hard to adopt the changes as quickly as possible, the three-year 
window allows enough time for the states to go through their process 
and for inspectors to be properly trained. Currently, no such provision 
exists on the legislative side. Moving forward, CVSA encourages 
Congress to consider including an implementation window or some other 
mechanism that allows federal agencies enough time to provide any 
necessary guidance on the exemption and the states enough time to adopt 
the changes and train inspectors and enforcement personnel. We 
understand the exemptions are intended to relieve industry of a certain 
burden, but if the exemption cannot be implemented correctly and 
consistently, the motor carrier industry and the enforcement community 
both suffer. CVSA looks forward to working with Congress and our 
partners in the motor carrier industry to identify a solution to this 
issue that meets the industry's needs while also allowing for clear, 
uniform application and enforcement of the regulations.
                       Hours-of-Service Revisions
    One area of the regulations that presents a significant challenge 
for the enforcement community is the hours-of-service requirements. 
Recently, and motivated partially by the electronic logging device 
(ELD) requirement, there has been a lot of discussion about the need 
for additional `flexibility' in the hours-of-service rules. CVSA does 
not have expertise in fatigue data and will not weigh in on all the 
proposed changes being discussed. However, it should be noted that the 
federal hours-of-service requirements exist to help prevent and manage 
driver fatigue. While sleep cannot be regulated, the hours-of-service 
rules set forth a framework that, if followed, allow drivers to get the 
rest necessary to operate their vehicles safely. It is important that 
the hours-of-service requirements continue to focus on fatigue 
management and safety, factoring in the best available fatigue data. 
Recognizing that the motor carrier industry is diverse, it is critical 
that the regulations account for significant variances within segments 
of the industry, while keeping exemptions to a minimum, in order to 
ensure uniform enforcement.
ELDs and the North American Fatigue Management Program
    Moving forward, CVSA would encourage that any new exemptions from 
the hours-of-service requirements or any changes that provide 
additional flexibility come with two requirements. First, we believe an 
electronic logging device should be required. Electronic logging 
devices are a valuable tool designed to help inspectors verify 
compliance with hours-of-service requirements. This will be even more 
important as the rules become more complicated. Hours-of-service 
violations continue to be some of the most frequently found violations 
by enforcement. What this tells us is that too many drivers and motor 
carriers either don't understand the hours-of-service rules or are 
intentionally violating them--and, as a result, drivers are likely 
driving fatigued. Deployment of electronic logging devices helps 
address both of these issues.
    For those drivers and motor carriers who don't understand the 
intricacies of the hours-of-service requirements and for those who make 
the occasional mistake when using their paper log, electronic logging 
devices remove the guess work and the risk of human error. This results 
in better compliance with fewer violations being identified, resulting 
in improved motor carrier safety ratings. For those who were using 
their log books to find `wiggle room' in the hours-of-service 
regulations, electronic logging devices make it easier for inspectors 
to identify violations and take unsafe, noncompliant drivers off the 
roadways. The devices also save time for both inspectors and drivers, 
leading to more efficiency. For those in industry who demonstrate the 
need for additional flexibility in the hours-of-service requirements, 
it would be beneficial to require an electronic logging device in order 
to help ensure compliance.
    Similarly, any motor carrier or sector of industry that is seeking 
authorization to drive longer hours should be required to participate 
in the North American Fatigue Management Program. The North American 
Fatigue Management Program is a joint effort by Canada and the United 
States to provide a comprehensive approach for managing fatigue, 
enhancing a motor carrier's ability to effectively deal with the 
challenges of fatigue in a highly competitive, widely dispersed and 
rapidly changing industry.
Personal Conveyance
    Another hours-of-service issue that is related to the regulatory 
guidance matter discussed above is the ``personal conveyance'' 
designation under the hours-of-service rules. In June of 2018, FMCSA 
published new guidance providing a new interpretation of how to apply 
and use the ``personal conveyance'' designation. To be able to log 
personal conveyance time as off-duty, commercial motor vehicle drivers 
must meet several conditions as outlined in the regulatory guidance. 
These include being relieved of all on-duty activities and 
responsibilities and ensuring that the off-duty trip is personal in 
nature. While these conditions present certain parameters to drivers 
and enforcement, the guidance it offers is incomplete because it does 
not provide a maximum distance and/or time that a driver can travel 
under the ``personal conveyance'' designation.
    Under the revised guidance, a driver could, in theory, drive 
hundreds of miles over the course of several hours all under the 
designation of ``personal conveyance''. This presents the opportunity 
for increased driver fatigue and risk on our roadways, as drivers may 
decide to travel hundreds of miles in order to strategically relocate 
to an alternate location after driving a full day. When combined with 
the ability to operate under personal conveyance while laden, this new 
guidance provides an opportunity for drivers to abuse personal 
conveyance time in order to circumvent the hours-of-service 
regulations. Further, the allowance of laden vehicles for personal 
conveyance use makes it much more difficult for a roadside inspector to 
determine the intent of a driver at the time of inspection. Inspectors 
are consistently seeing blatant abuse of this designation and we have 
heard feedback from drivers and motor carriers who indicate they are 
receiving pressure from shippers to use the designation incorrectly in 
order to deliver loads faster.
    CVSA has petitioned the agency to provide a clear, set distance 
that is permissible under the personal conveyance designation. In 
setting clear guidelines on the use of personal conveyance, CVSA 
recommended that FMCSA look to the standard set in Canada, which allows 
drivers to use a vehicle for personal conveyance purposes for a maximum 
of 75 km per day (approximately 46 miles), unladen. FMCSA should set a 
quantifiable distance that drivers are allowed to log as personal 
conveyance, in addition to the parameters already offered for Sec.  
395.8.
                           Safety Technology
    Given the growing size and complexity of the trucking industry, 
jurisdictions do not have the resources necessary to inspect every 
vehicle, driver and motor carrier operating on our roadways on a 
regular basis. In order to maximize resources, jurisdictions use a 
combination of methods to identify vehicles, drivers and motor carriers 
for intervention and enforcement. As a result, inspectors interact with 
only a small fraction of the commercial motor vehicles currently 
operating on our roadways. However, technologies exist today that would 
allow enforcement to identify nearly all commercial motor vehicles 
electronically, while those vehicles are in motion. If this concept 
were universally deployed, it would revolutionize the way commercial 
motor vehicle roadside monitoring, inspection and enforcement are 
conducted.
    Requiring a universal electronic vehicle identifier on all 
commercial motor vehicles would, in time, eliminate the need to stop a 
commercial motor vehicle to review driver information and inspect the 
vehicle, improving efficiencies for the enforcement community and the 
motor carrier industry. It would improve the effectiveness of 
enforcement programs while reducing costs, for both enforcement and 
industry, all while improving safety. CVSA has petitioned the National 
Highway Traffic Safety Administration (NHTSA) and FMCSA to require all 
commercial motor vehicles to be equipped with technology that allows 
them to be identified electronically by enforcement. Deployment of this 
technology would revolutionize the way commercial motor vehicle 
roadside monitoring, inspection and enforcement are conducted, 
exponentially growing the program and improving roadway safety.
    While many questions still exist surrounding this concept, 
establishing a universal electronic vehicle identifier requirement for 
all commercial motor vehicles will have tremendous benefit. 
Jurisdictions will save time and see improved efficiencies as 
inspectors are able to more accurately target vehicles, drivers and 
motor carriers in need of an intervention while allowing safe, 
compliant vehicles to deliver their freight more quickly and 
efficiently. Most importantly, establishing a universal electronic 
vehicle identifier requirement for all commercial motor vehicles would 
benefit the public by improving safety, helping to take unsafe 
vehicles, drivers and motor carriers off the roadways. As industry 
continues to grow and more people take to the roads, it is imperative 
that we leverage technology where possible to improve the efficacy of 
our enforcement programs.
    Further, the need for a universal electronic vehicle identifier 
becomes more critical as the industry moves forward to implement driver 
assistive truck platooning, increasingly advanced driver assistance 
systems, and partially or fully automated driving systems, which will 
require new methods and levels of safety checks. As driver assistive 
technologies evolve in commercial motor vehicle use, the proper 
identification and monitoring of these commercial motor vehicles 
becomes increasingly necessary. No matter the method, this proposed 
requirement would enable efficient identification and inspection/
screening of vehicle systems to help ensure safe operation of 
commercial motor vehicles, including those being operated with or 
without a human operator on board.
    The trucking industry continues to grow more complex every day and 
technology plays a huge role in the ongoing evolution of the motor 
carrier industry. In particular, impressive advancements are being made 
in the realm of safety technology. As the industry moves ahead with 
deployment of automated driving system technology and other 
technologies and as Congress and the administration consider mandating 
certain systems, it is important that consideration be given to the 
practical aspects roadside. It is imperative that federal agencies and 
lawmakers keep pace with technical developments by consulting with 
industry and the enforcement community to determine the necessary 
guidelines for safe operation on public roadways. In particular, a 
dialog with the enforcement community is needed on the requirements and 
capabilities of this technology to self-monitor vehicle systems' safety 
status and interact with law enforcement. Each new requirement in the 
regulations will come with a corresponding item on the roadside 
inspector's checklist. If a vehicle is required to have a particular 
component or piece of technology, thought must be given to how the 
enforcement community will effectively inspect the component or 
function, and in the pursuit of maintaining safety on our public 
roadways, ensure compliance with that requirement. Regulations should 
be clearly written and enforceable. With appropriate federal standards 
in place, these technologies have great potential to increase roadway 
safety.
                Motor Carrier Safety Assistance Program
    In order to ensure compliance by the motor carrier industry, 
Congress provides funding to the states through the Motor Carrier 
Safety Assistance Program (MCSAP). The states use these funds to 
conduct inspection and enforcement activities, train enforcement 
personnel, purchase necessary equipment, update software and other 
technology, and conduct outreach and education campaigns to raise 
awareness and improve commercial motor vehicle safety issues. The funds 
are used, in part, to pay the salaries of more than 12,000 full and 
part-time commercial motor vehicle safety professionals. These people 
conduct more than 3.5 million commercial motor vehicle roadside 
inspections, 34,000 new entrant safety audits and 6,000 compliance 
reviews each year.
Program Performance
    The FAST Act included a number of provisions dealing with MCSAP, 
making significant organizational and programmatic changes, intended to 
reduce the administrative burden for both FMCSA and the states. CVSA 
strongly supported the changes to MCSAP implemented in the FAST Act. 
The changes, most of which were effective beginning in fiscal 2017, 
have provided states with additional flexibility in how they spend 
their MCSAP grant funds, streamlined the grant application process, 
eliminated redundancies between overlapping programs and reduced the 
administrative burden on states, allowing them to spend more time doing 
the work of the program and less time on administrative activities. 
This flexibility is critical, giving states the ability to design a 
comprehensive commercial motor vehicle safety program that utilizes 
creative solutions to address issues unique to each state, while also 
meeting all program requirements.
    We are just a few years into the reorganization and some pieces of 
it, such as the move to a multi-year commercial vehicle safety plan, 
are not yet completed. The states and agency are both still adjusting 
and adapting to the new structure, processes and requirements, so it is 
too early to tell if additional changes are necessary. However, 
overall, feedback to date has been largely positive. In particular, 
states are pleased with the additional time given to spend funds after 
they are awarded by the agency, particularly given the ongoing delays 
in the appropriations and grant approval processes, which results in 
states receiving the bulk of their funds as late as June or August in 
some fiscal years.
    Until the overhaul is completely implemented and states have had 
some time to get used to the new model and evaluate its effectiveness, 
we are not able to say with certainty if the changes were successful or 
if additional adjustments are necessary. So many of the components are 
interrelated and it's not possible to evaluate the whole program with 
some of the pieces left incomplete.
New MCSAP Grants Formula
    One provision in particular that remains incomplete that will have 
a tremendous impact on the efficacy of the new MCSAP structure is the 
new MCSAP formula. The FAST Act included a requirement that FMCSA 
convene a group to evaluate the current MCSAP allocation formula. The 
group was tasked with recommending a new formula that will better 
allocate MCSAP funds to where they are most needed. The group's 
recommendations were finalized in April of 2017 and the agency is 
currently in the final stages of publishing the recommendations in the 
``Federal Register'' for comment. Once that process is complete, FMCSA 
will need time to adjust their programs accordingly and states will 
need to be able to plan for any changes in funding levels based on the 
new formula. States are currently receiving funds based on an interim 
formula, which was intended to serve as a short-term place holder. As 
such, many jurisdictions are reluctant to make longer-term changes to 
their programs before they know what funding will look like in the 
future. As a result, innovative programs and technology deployments are 
being placed on hold.
Funding Delays Impact Program Efficacy
    The states' work through MCSAP saves lives every day, keeping 
dangerous vehicles and unqualified and unsafe drivers off the nation's 
roads. According to FMCSA's ``2018 Pocket Guide to Large Truck and Bus 
Statistics,'' the agency regulates 543,061 motor carriers, 6.1 million 
commercial drivers and 12.5 million commercial motor vehicles. The 
state and local agencies that receive MCSAP funding are responsible for 
ensuring those motor carriers, vehicles and drivers operate safely. 
Furthermore, the commercial motor vehicle enforcement landscape is 
constantly evolving and changing as Congress and FMCSA work to refine 
and improve the FMCSRs and Hazardous Materials Regulations (HMRs). 
Despite these challenges, MCSAP, as administered by the states, has 
been successful in reducing crashes, injuries and fatalities on our 
nation's roadways, in spite of a steady increase in the number of 
commercial motor vehicles operating on those roads.
    One challenge the states face is an ongoing delay and lack of 
consistency in the timing of funding disbursement, which prevents many 
state from being able to implement long term plans and programs. There 
are a number of factors that contribute to these delays and result in 
complications for the states. Allocation of MCSAP funds are tied to the 
annual appropriations process, which has become more and more delayed 
each year. If the process worked as it should, appropriations for the 
fiscal year would be finalized before October 1 of each year and FMCSA 
would have time to run the formulas and award funds, in full, at the 
start of each fiscal year. Instead, continuing resolutions force the 
agency to disburse the funds in phases until a final bill is approved 
and the remaining funds can be released. When funds do become 
available, the grant review and approval process takes far too long, 
further delaying receipt of funds for safety programs. It can take 
weeks and sometimes months for the agency to get the necessary 
approvals to award the funds to the states. This unpredictable, 
piecemeal approach to funding makes planning and management of state 
enforcement programs difficult.
    Relying on the appropriations cycle to determine funding levels on 
a year-to-year basis does not allow the states to plan long-term. State 
agencies will be reluctant to fill positions, continue enforcement 
programs or engage in bold new initiatives if they cannot be confident 
that federal funds will come in a timely manner, at the approved 
levels.
                      International Harmonization
    Finally, CVSA encourages Congress to promote a higher level of 
collaboration between the U.S. and its North American neighbors. Many 
motor carriers who are headquartered in the U.S. also have operations 
in Canada and Mexico, and many foreign motor carriers have operations 
here in the U.S. Efficient, safe movement of people and goods between 
the three countries is critical to our economic success. Reciprocity 
and uniformity of commercial motor vehicle safety regulations among the 
three nations will help support this flow of people and goods. CVSA 
supports improved international coordination, with respect to 
commercial motor vehicle safety regulations, through increasing efforts 
between the U.S., Canada and Mexico to advance regulatory reciprocity 
and uniformity.
                               Conclusion
    As this committee considers the state of the trucking industry and 
begins development of the next surface transportation bill, we 
encourage you to give strong consideration to the role the enforcement 
community will play in any policy changes or new programs. As outlined 
in my testimony, the purpose of the Federal Motor Carrier Safety 
Regulations is to provide a regulatory framework for motor carriers to 
comply with and is designed to ensure the safety of those who travel 
alongside commercial motor vehicles on our nation's roads. As the 
trucking industry continues to advance and grow, it becomes more 
critical that industry and enforcement are provided with a clear set of 
requirements. Inconsistencies in the regulations lead to confusion 
among industry and enforcement and eventually works to erode the 
commercial motor vehicle community's trust in the regulatory process. 
FMCSA must be provided with the tools to meet its responsibility of 
maintaining the federal regulations, while also addressing evolution 
within the industry. We encourage Congress, the administration and our 
industry partners to work together to help shape a framework that 
prioritizes safety.

    Ms. Norton. Thank you very much, Deputy Chief Savage.
    Finally, Andy Young, truck safety advocate.
    Pleased to have you.
    Mr. Young. Good morning, Chair Norton, Ranking Member 
Davis, Chair DeFazio as well, and members of the subcommittee, 
and good morning to my own Member, Representative Bob Gibbs. I 
appreciate the warm welcome.
    I also want to recognize all staffers that are in the back 
of the room and standing along the sides of the room. Without 
your support, this country would have some difficulty. So I 
appreciate all of the effort that you put forth.
    My belief is that many of the initiatives that we discuss 
today will not only save lives, but also truck driver 
livelihood. I am here in the truck safety advocate capacity, 
and all in this room are here because of the jobs they chose or 
the choices they have made.
    Several people in this room are here not because of the job 
they chose, and they did not choose to be here, and they are 
the victims and survivors of truck crashes. I would like to 
recognize them.
    Christa Hammack lost her daughter, Erin Alexander. She is 
here with Abigayle.
    Marianne Karth lost her daughters AnnaLeah and Mary. Jerry 
Karth could not be here. Neither could Lois Durso, but they are 
here in spirit.
    Marianne Karth is here with her daughter Rebekah Chojnacki.
    I would like to recognize survivor Morgan Lake.
    Also Steve and Sue Owings, who lost their son, Cullum.
    I would also like to mention Laurie and Randy Higginbotham, 
who lost their son, Representative Cohen's own constituent, in 
an underride crash.
    I am here because I belong to the truth on the issue of 
underride. No matter how safe the car may actually be, the 
safety features of a car are only effective if there is a good 
structural interaction--vehicle crash compatibility--between 
collision partners.
    There must be a geometrical matchup of the crush structure 
of both the striking vehicle and the vehicle being struck. The 
bumpers must match up. Otherwise the lower profile car 
physically goes underneath the higher profile commercial motor 
vehicle. This is known as a truck underride.
    The first point of impact is beyond the hood and into the 
glass windshield. The second point of impact literally becomes 
the heads, faces, neck, spine, and chest of the lower profile 
car's occupants.
    The same holds true when the truck rear-ends a passenger 
car. Often the front bumper of the truck goes over the back 
bumper of the car. The truck then climbs on top of the car, 
crushing the back seat and the occupants.
    I would like to show a video to show side underride. Pay 
attention to the airbags and the seatbelts on how they are 
ineffective in the side underride crash.
    [Video.]
    This is at 35 miles an hour. The bottom one is with a 
guard. Airbags, seatbelts work with the guard. Without a guard, 
they do not.
    I submit to you if the car manufacturers came before you 
today and said, ``Hey, we want a car without airbags or 
seatbelts,'' this body would say, ``No way.''
    And in the same vein, we have crashes in situations where 
airbags and seatbelts do not work. Energy-absorbing bumpers, 
crumple zones, do not work. Next week I am scheduled to meet 
with a mother who lost her only child, a recent 18-year-old 
high school graduate. A week ago yesterday was her funeral. Her 
body, her head included, was covered at the funeral. These are 
the closed casket injuries. The only part of her exposed was 
her right hand for her mother to hold.
    Truck safety initiatives such as the Stop Underrides Act of 
2019, speed limiters and automatic emergency braking, all serve 
to allow better interaction between cars and trucks. It is 
adding equipment to these trucks that actually protect the 
truck driver, too.
    When the truck driver is at fault, he or she suffers with a 
career-ending criminal vehicular homicide charge, frequently 
resulting in jail time. The truck company then likely 
encounters a civil lawsuit. The fatalities and catastrophic 
injuries associated with underride crashes typically produce 
seven- to eight-figure verdicts, all exceeding minimum 
insurance coverage and requirements.
    The truck companies are thereafter saddled with paying 
judgments in excess of insurance coverage. Smaller truck 
companies must sell assets or file for bankruptcy. Everyone 
loses in an underride truck crash, the truck company and truck 
driver included.
    Just simply making the car bumpers match up with the 
truck's side, front, and rear is the only way for car safety 
features and all the data and science that goes into protecting 
the occupants. And the data and science exists, and I submit to 
you if we look at it from the right perspective, the underride 
guard is required, the costs also.
    We heard today as well about CSA and public scores. Chair 
Norton mentioned several groups of people who rely on those 
public scores. One group that was not mentioned was the truck 
driver. If the truck driver is applying for a job, they need to 
know that the company they are working for is safe. They need 
to have access to this data.
    We heard from C.H. Robinson talking about the data is 
confusing. The out-of-service percentage rates are not 
confusing; they are very clear. If the companies exceed the 
national averages in out-of-service percentages, then they 
should not be hired.
    The Federal Motor Carrier Safety Administration has 
performed an analysis that 10 percent of the motor carriers 
represent nearly 50 percent of the crashes. And it is those 10 
percent that are the bad apples that spoil the bunch for us.
    I love trucks, I love the trucking industry, and I 
particularly love the truck driver. I represent many truck 
drivers who are harmed in these crashes. But we need to make 
sure that these truck drivers are protected and have a job that 
is worth going to, and also have a job that can pay the rent 
and pay the mortgage.
    Both speed limiters and AEBs and underride guards will 
protect that truck driver. I have driven a truck with an 
underride guard; never felt more comfortable knowing that that 
guard was there. I want to look at how all these issues not 
only save lives but save truck driver livelihoods.
    And I thank the chair for the opportunity to testify before 
you today, and I am pleased to answer any questions, and the 
most challenging ones as well. Thank you.
    [The prepared statement of Mr. Young follows:]

                                 <F-dash>
        Prepared Statement of Andy Young, Truck Safety Advocate
                           Abbreviation Guide
AEB--Automatic Emergency Braking
ATA--American Trucking Associations
CMV--Commercial Motor Vehicle
FARS--Fatality Analysis Reporting System
FCAM--Forward Collision Avoidance Mitigation
FMCSA--Federal Motor Carrier Safety Administration
FMVSS--Federal Motor Vehicle Safety Standards
FUP--Front Underride Protection
GAO--Government Accountability Office
IIHS--Insurance Institute for Highway Safety
NHTSA--National Highway Traffic Safety Administration
NTSB--National Transportation Safety Board
OEM--Original Equipment Manufacturer
OOIDA--Owner-Operators Independent Drivers Association
PCI--Passenger Compartment Intrusion
RIG--Rear Impact Guard
SUG--Side Underride Guard
SUT--Single Unit Truck
TSC--Truck Safety Coalition
                Introduction and Biography of Andy Young
    Good morning Chairwoman Norton, Ranking Member Davis and Members of 
the Subcommittee and good morning to my own Representative Bob Gibbs 
(R-OH-7), also a Member of this Subcommittee.
    My name is Andy Young and I am a truck driver holding an active, 
interstate, Class A Commercial Driver's License and owner of an old 
classic Peterbilt 359 that regularly hauls a much newer 45-foot car 
hauler trailer. I am also an attorney and one of the founding partners 
of Young & McCarthy LLP, based in Northern Ohio. My law practice 
focuses on representing victims and survivors of truck crashes 
throughout the country. Many of my clients are truck drivers who have 
been hurt or killed by other unsafe truck drivers and truck companies. 
I have successfully represented people catastrophically injured in 
underride truck crashes as well. I have been published in numerous 
publications and I lecture throughout the country on truck safety, 
truck litigation, and trial tactics. The Insurance Institute for 
Highway Safety (IIHS), The Truck Safety Coalition, and AnnaLeah & Mary 
for Truck Safety invited me to serve as a moderator for two industry 
Truck Underride Roundtables hosted at the IIHS crash test facility in 
Ruckersville, Virginia. I also served on the Organizational Committee 
for these two events. I recently helped team-drive a 2016 International 
LoneStar and a 53-foot Hyundai trailer to Washington, D.C. for a DC 
Underride Crash Test. I also served as the event MC and moderator for a 
speaker panel at this event. I would like to thank Chairman DeFazio, 
Chairwoman Norton and Representative Cohen for sending Congressional 
Staff to this important event.
    As both a member of the Owner-Operators Independent Drivers 
Association (OOIDA) and a past-chair of the Ohio Association for 
Justice's Truck Safety Section, I have provided hearing testimony 
before the Ohio Senate Transportation Committee on truck size and 
weight legislation. I am currently the President of Ohio's Lorain 
County Bar Association and serve as an Executive Officer of the 
American Association for Justice's Truck Litigation Group. My volunteer 
work has resulted in awards in both organizations. I regularly consult 
with truck safety advocates and attorneys across the country on truck 
safety, trial, and truck crash litigation tactics. I also currently 
serve on the City of Cleveland's Vision Zero Task Force. I firmly 
believe that underride guards and the other truck safety topics to be 
discussed at this Hearing will keep drivers from facing possible 
jailtime due to vehicular homicide criminal charges and keep smaller 
motor carriers from 8-figure verdicts that could bankrupt them. I am 
here as a Truck Safety Advocate. I frequently volunteer my time for the 
Truck Safety Coalition and AnnaLeah & Mary for Truck Safety. My 
motivation for testifying is my belief that many of the initiatives 
discussed today will not only save lives, but also save truck driver 
livelihoods.
      A Truck Driver is ``Under Pressure'' Every Mile of Every Day
    Saving lives and truck driver livelihoods can be accomplished with 
the passage of many of the safety initiatives that will be discussed at 
today's Hearing ``Under Pressure: The State of Trucking in America.''
    As someone who drives a tractor-trailer and represents victims and 
survivors of truck crashes, I know all too well about the ``pressure'' 
that a truck driver must contend with daily. Much of the pressure comes 
straight from the customer (shipper / broker / receiver) demanding that 
their products arrive on time and without any damage. Often the 
customer does not realize the complexity and inherent dangers of 
driving a big rig. The customer does not understand this concept 
because the customer usually is not subject to the Federal Motor 
Carrier Safety Regulations and the industry safety standards that must 
be obeyed every mile of every run of every day. The customer can wield 
great power over truck safety by choosing to hire and pay for a safe 
and responsible truck company to haul the customer's goods. To give 
them (the broker or shipper) a pass on liability would only increase 
``pressure'' on ``the state of trucking in America.'' The shipper and 
broker should not and must not be allowed to hire a cheaper, less safe 
truck company, simply for the sake of transporting goods at the 
cheapest freight rates possible. Safety must not be sacrificed for 
cheaper freight rates.
    The most catastrophic consequences can result when an 80,000 pound 
CMV collides with a 4,000 pound car. The truck driver knows that 
protecting the motoring public is his or her responsibility. The 
trucking companies employing the truck drivers know this, too. Yet they 
are pressured by the conflict between the cost of safety and the desire 
to reduce operating costs and remain competitive. Gambling on unsafe 
practices can lead to increased wages for the driver (frequently paid 
by the mile) and increased revenues for the truck company--at least 
until a catastrophic crash occurs with its financially ruinous 
consequences. While there will always be this tension, this Committee 
can help level the playing field between the responsible truck 
companies and the irresponsible truck companies, and every one of us--
our families, friends, constituents--can benefit.
    Ironically, car passengers are not the only ones who are at risk. 
Even though their rigs are huge, truck drivers all know that their own 
lives are on the line at least in part because their truck company 
employers engage in unsafe practices and pressure their drivers into 
engaging in unsafe practices. Tragically, truck occupant deaths have 
increased to over 800 fatalities in 2017.\1\
---------------------------------------------------------------------------
    \1\ Truck driver fatalities increased in 2017 to the highest number 
since 2003 according to the Department of Labor's Bureau of Labor 
Statistics. NHTSA reported that there were 841 occupants of large 
trucks killed in crashes in 2017.
---------------------------------------------------------------------------
                Safety Initiatives Can Benefit Everyone
    Often when someone is injured by a truck driver or truck company 
error, society in some way or another picks up the pieces. This occurs 
through motor vehicle liability insurance spreading the risks of the 
loss among car and truck insurance companies. Liability insurance often 
is insufficient. Private and government health insurance programs fill 
the gaps, as do other government welfare programs for people who can no 
longer work as a result of their injuries at great societal expense. It 
is not right that all of these programs should pay all of these 
inordinate costs when the implementation of simple and relatively 
inexpensive safety initiatives can markedly reduce the risk of 
catastrophic injuries in the first place.
    Safety initiatives like Automatic Emergency Braking and Speed 
Limiters benefit the truck driver and everyone else on the road. Safety 
initiatives like Underride Guards can both save lives for pedestrian 
and automobile occupants and prevent criminal responsibility for truck 
drivers who make unfortunate mistakes. It is unlikely that a truck 
driver will be prosecuted for vehicular homicide when their mistakes do 
not lead to the death of someone else. Increasing Broker/Shipper 
Liability will encourage customers to choose safe motor carriers to 
transport their goods creating positive competition for good outcomes. 
Increasing Minimum Insurance Limits improve the quality of truck driver 
training and truck company operations. All of these initiatives 
together will help America's 3.4 million truck drivers do their jobs 
and reduce fatalities to the ``Vision Zero'' that is sought by all.
   Stop Underrides Act of 2019 (H.R. 1511/S. 655) and Vehicle Crash 
           Compatibility--Height Mismatches Result in Deaths
    Late in 2018, I gave a talk as the Keynote Speaker to the State Bar 
of Texas at their ``Prosecuting & Defending Truck and Auto Collision 
Cases'' seminar. My topic was ``Underride Guards for Trucks to Avoid 8-
Figure Jury Verdicts.'' Underride crashes are the most horrific of all 
highway crashes. Why? Because a car and its passengers fare much better 
hitting a concrete wall than hitting a commercial truck.
    No matter how safe the car may actually be, the safety features of 
a car are only effective if there is good structural interaction 
(vehicle crash compatibility) between collision partners. There must be 
a geometrical match up of the crush structure of both the striking 
vehicle and the vehicle being struck (the bumpers must match up). 
Otherwise, the lower profile passenger car physically goes underneath 
the higher profile commercial motor vehicle (``CMV''). This is known as 
a truck underride crash. The first point of impact is beyond the hood 
and into the glass windshield. The second point of impact then 
literally becomes the heads, faces, neck, spine, and chest of the lower 
profile vehicle's occupants. The same holds true when a truck rear ends 
a passenger car: often the front bumper of the truck goes over the back 
bumper of the car. The truck then climbs the backseat of the car, 
frequently crushing children in the back seat.
    Most people truly do not understand what is involved in an 
underride crash until they have suffered the loss of a loved one in one 
of these crashes or they have seen videos or photos of one of these 
crashes. I welcome all reading this testimony to go to www.youtube.com/
watch?v=jHNIhh8NsFs to watch crash tests performed by the IIHS on March 
30th and March 31st of 2017. The IIHS crashed cars into the side of a 
trailer both without an underride guard on the truck and with an 
underride guard on the truck to prove the safety differences. The 
results are truly remarkable and speak for themselves. I further 
recommend going to www.annaleahmary.com or www.stopunderrides.org to 
see the three crash tests performed right here in Washington, D.C., a 
few months ago, on March 26, 2019. All of these videos show crash tests 
at 35 mph or under. The video of those tests without an underride guard 
show the devastating consequences that must be addressed today and 
hopefully fixed by Subcommittee Members with the passage of the Stop 
Underrides Act of 2019.
    As can be seen in these videos, air bags do not deploy because the 
lower profile vehicle's bumpers and air bag sensors are not triggered. 
Energy absorbing bumpers and crumple zones, all designed to keep the 
passenger compartment intact, become irrelevant. The load path from the 
crash results in energy that does not initially strike the intended 
engineered crush structure of the passenger car. With no air bag and 
the vehicle traveling underneath the opposing vehicle, (even at low 
speeds), the occupant compartment is pierced, resulting in a passenger 
compartment intrusion (``PCI''). Literally, the car windows and then 
the heads of the occupants are smashed into the CMV.
Without Underride Guards--We Have Closed-Casket Fatalities
    With passenger compartment intrusion, the seatbelts restraining the 
occupants fail to prevent catastrophic injury or deadly consequences as 
the energy from the collision is absorbed directly by the human body. 
The car's occupants then suffer the most horrific crash consequences: 
death by blunt trauma; decapitation; open skull fractures; traumatic 
brain injuries; degloving of the face; spinal cord injuries; 
paraplegia; or quadriplegia. Those families who lose a loved one in an 
underride crash often suffer even further through a closed casket 
funeral because the faces of their loved ones are literally 
obliterated. This is reality and not mere conjecture or rhetoric. Just 
last week, I saw a picture of an 18-year-old recent high school 
graduate killed in a truck crash where her entire body was covered at 
the funeral with only her hand sticking out from underneath the 
blanket. This teenager was an only child and all her mother had to hold 
onto prior to her burial was her hand. The consequences of these 
crashes will continue if the Stop Underrides Act of 2019 is not passed. 
But, it does not stop with the victims or survivors. Why? Because the 
truck driver and truck company also become victims of an underride 
crash.
Truck Driver and Truck Companies Are Victims of Underride Crashes Too
    When the truck driver is at fault, he or she suffers with a career-
ending criminal vehicular homicide or felony vehicular assault criminal 
charges. These charges frequently result in jailtime. If the truck 
driver is the financial provider for his or her spouse and children, 
the economic consequences to the truck driver's family can lead to 
poverty and dependency.
    If the truck driver is lucky enough not to be found at fault, the 
truck driver still often suffers the mental health consequences and 
psychological trauma associated with being an integral part of such a 
horrific crash. This, too, may result in the end of a professional 
driving career for the truck driver with unfortunate economic 
consequences to the driver and family.
    The truck company then likely encounters a civil lawsuit. The 
fatalities and catastrophic injuries associated with underride crashes 
typically produce seven to eight figure verdicts, all exceeding minimum 
insurance requirements. Truck companies are thereafter saddled with 
paying judgments in excess of insurance coverage. Smaller truck 
companies must sell assets and/or file for bankruptcy. Everyone loses 
in an underride truck crash, the truck company and truck driver 
included.
    I would like to recognize and commend House Representative, 
Subcommittee Member, Steve Cohen (D-TN) for introducing the Stop 
Underrides Act on March 5, 2019 which has been assigned to this very 
important Committee and Subcommittee. I'd like to also recognize each 
of the co-sponsors and urge others to become a co-sponsor of this bill. 
I am equally grateful to Senators Kirsten Gillibrand (D-NY) and Marco 
Rubio (R-FL) for introducing the Senate version (S. 665). This bill 
will save lives and truck driver livelihoods. I am hopeful that the 
content of my written and oral testimony will open hearts and minds of 
trucking industry stakeholders allowing for a new perspective on why 
this bill makes common sense and is a simple fix to saving lives. This 
debate began over 60 years ago and arguably longer than that. This 
decades long problem deserves a fair and open discussion allowing for 
an end with passage of this bill.
Science and Data Exists to Support Passage of the Stop Underrides Act
    The ATA wrote a March 15, 2019 letter to this Committee about this 
bill stating that it is ``committed to the goal of accident and 
fatality-free highways.'' The ATA further states that this bill ``is 
not based on science, data or safety benefit.'' I submit to you that 
ATA is NOT accurate with this statement and fails to consider all of 
the science, data and safety benefit that underride guards provide. I 
welcome this particular topic as a point of debate during the panel 
question and answer session during this Hearing to truly explore all of 
the science, data, and safety not considered by the ATA's statement.
    Specifically, the goal of the Stop Underrides Act is to allow for 
``vehicle crash compatibility'' between cars and trucks. Again, vehicle 
crash compatibility is the academic speak that the bumpers of the two 
vehicles (car vs. truck or truck vs. car) must match up! Why? So that 
an ordinary car's energy absorbing bumpers and crumple zones can 
actually do the job that they were intended to do when original 
equipment manufacturers' engineers and design teams go to NHTSA or the 
IIHS to have the vehicles tested for crash worthiness. If we all pause 
to consider how much money has gone into the research and development 
of vehicle crash worthiness, including seatbelts and airbags, then we 
come to the clear conclusion that the science and data exists.
    Moreover, the true science and data that must be considered when 
discussing this bill is all of the science and data extracted from 
every single crash test performed weekly over the past decades. For 
instance, when the IIHS gives a ``good rating'' a ``top safety pick'' 
or determines a car has ``superior-rated front crash prevention'' it 
presumes one very important fact, that the bumpers match up. Most all 
of the crash tests performed are into a barrier or another car 
presuming the bumper will be the first point of impact. If we were to 
take each of the ``top rated'' safety picks for vehicles and performed 
crash tests of those same vehicles into the side of a commercial 
trailers, then we will all see that the science and data that has gone 
into protecting the occupants of the car will literally and 
figuratively go out the window producing gruesome results. I 
respectfully recommend that this Subcommittee invite all of the 
scientists and engineers that work for auto manufacturers to come here 
to discuss the millions, if not billions of dollars, cumulatively spent 
to design the safest passenger vehicles in the world. At that hearing 
you should ask how their safest vehicles will perform in a low-speed 
underride crash test into the side of a commercial trailer. I have no 
doubt that those scientists and engineers will tell you that the 
science and data does exist and mandates the passage of the Stop 
Underrides Act of 2019.
    Interestingly, the ATA issued a ``A Brief Look at the Far Horizon'' 
Technology & Maintenance Council report in 2002, seventeen years ago, 
predicting ``underride regulations for single-unit trucks (``SUTs'') by 
2005 and ``frontal aggressivity regulations and side underride 
regulations'' by 2006.\2\ Here we are now, in 2019 and SUTs are still 
under the woefully inadequate 1953 regulation and front and side 
underride regulations have not yet been realized (see further 
historical discussion below and Appendix A). In addition, the NTSB has 
recommended front, side, improved rear underride regulations for 
single-unit trucks as well as tractor trailers.\3\ In fact, Europe, 
Australia, Japan, India, and Saudi Arabia all have Front Underrun 
Protection (``FUP'') standards. Many U.S. truck manufacturers have an 
international presence--installing FUP on trucks purchased in other 
countries, but not in our country. Why is that?
---------------------------------------------------------------------------
    \2\ The American Trucking Associations, Technology & Maintenance 
Council (TMC), Future Truck Committee Information Report: 2002-1, A 
Brief Look at the Far Horizon--An Exploration of What's to Come for 
Trucking, Issued November 2002.
    \3\ National Transportation Safety Board, Office of Highway Safety, 
Heavy Truck Aggressivity, Office of Research and Engineering. https://
www.ntsb.gov/news/events/Documents/hampshire_il-
Heavy%20Truck%20Aggressivity.pdf
---------------------------------------------------------------------------
Twelve Million Unsafe Trailers
    In 2016, trailer OEMs reported that ``[n]ew trailer orders in the 
United States reached 315,000, the second-highest annual total'' and 
that orders were down in comparison to ``2014's record total'' of more 
than 356,000 new trailers.\4\ Trailer orders are projected to have a 
record-setting year for 324,000 trailers in 2019, up from 323,000 
trailers in 2018.\5\ All of these new commercial trailers were added to 
the 11.7 million registered trailers in existence as reported by the 
Federal Highway Administration in 2012.\6\ Combining all new trailer 
orders with currently registered trailers puts the total number of 
commercial trailers in the United States at well over 12 million.\7\ 
This represents over 12 million potential opportunities for an 
underride crash.
---------------------------------------------------------------------------
    \4\ The American Trucking Associations, Transport Topics, Trailer 
Shipments Set Record as 2015 Orders Stay Strong, by Roger W. Gilroy, 
Page 1, Week of February 1, 2016.
    \5\ FreightWaves, Truck Trailer Orders Down in February, but 
Analysists Predict Another Record Year, https://www.freightwaves.com/
news/trucking/trailer-orders-drop-for-third-straight-month
    \6\ https://www.fhwa.dot.gov/policyinformation/statistics/2012/
mv11.cfm See also the American Trucking Associations' February 5, 2016 
Comment on the pending NPRM Docket No. 2015-0118 Rear Impact Guards, 
Rear Impact Protection. Note: as referenced in the ATA comment, many of 
these trailers are not used on a regular basis.
    \7\ According to the U.S. Census, the State of Ohio has a 
population of 11,594,163. The State of Pennsylvania has a population of 
12,787,209. The population of these states provides a basis of 
comparison to show the magnitude of what the number of registered 
trailers in the United States truly represents.
---------------------------------------------------------------------------
    The Interstate Highway System is 46,875 miles long.\8\ When one 
calculates the number of registered trailers per mile of the Interstate 
Highway System, this equates to over 250 registered commercial trailers 
for every mile of Interstate Highway. Average daily truck volume 
reaches up to 50,000 trucks on much of the Interstate Highway System 
East of the Mississippi River.\9\
---------------------------------------------------------------------------
    \8\ https://www.fhwa.dot.gov/interstate/faq.cfm#question3
    \9\ U.S. Department of Transportation, Federal Highway 
Administration, Office of Freight Management and Operations, Freight 
Analysis Framework, ``Estimated Average Annual Daily Truck Traffic.'' 
https://ops.fhwa.dot.gov/freight/freight_analysis/nat_freight_stats/
docs/06factsfigures/index.htm
---------------------------------------------------------------------------
    With roughly 300,000 new trailers being produced annually and with 
12 million registered trailers in existence, this tells you the life of 
a trailer is inordinately long. Most in the industry will likely agree 
that the life of a new trailer can exceed 15 years. Each year we wait 
to mandate underride guards, the more the danger of catastrophic 
underride crashes will exist for decades to come.
    According to the recent study published by the U.S. Government 
Accountability Office, a truck underride crash likely happens more 
often than the Department of Transportation's data suggests.\10\ The 
GAO recommends, among other things, that NHTSA ``conduct additional 
research on side underride guards to better understand the overall 
effectiveness and cost associated with these guards, and if warranted, 
develop standards for their implementation.'' \11\ A simple analysis, 
as is performed below, demonstrates that indeed the costs are low and 
implementation is warranted.
---------------------------------------------------------------------------
    \10\ U.S. Government Accountability Office, ``Truck Underride 
Guards: Improved Data Collection, Inspections, and Research Needed.'' 
https://www.gao.gov/product/GAO-19-264, April 15, 2019.
    \11\ Id. at https://www.gao.gov/product_recommendations/GAO-19-264
---------------------------------------------------------------------------
Approximately 60 Cents/Day/Trailer Cost for Underride Protection
    The cost argument raised by the ATA, OOIDA and others in opposition 
to the Stop Underrides Act of 2019 must be taken into perspective. By 
way of example, an AngelWing Side Underride Guard, manufactured by 
AirFlow Deflector, costs about $2,900.00, which includes shipping 
anywhere in the US or Canada. The total cost of a new trailer is 
roughly $50,000.00. The new cost of a trailer with an underride guard, 
at the upper limit, is an additional 6% of the total cost of the 
trailer. I state that this cost is at the upper limit because this is 
the cost for an aftermarket underride guard. If the guard were mass 
produced with the trailer, the cost is likely a lot less. Keep in mind 
that depreciation tax incentives take care of the cost for the new 
equipment for the purchaser, too. Consider the cost offset with the 
savings brought with the fuel efficiency because the trailer guard also 
comes with a fuel-efficient skirt.\12\ Consider also the cost offset 
that insurance underwriters should credit to a truck company for having 
underride protection a trailer.
---------------------------------------------------------------------------
    \12\ We see fuel efficiency skirts on most trailers on the highway 
now. Make no mistake, there is no barrier or robust structure behind 
these fuel efficiency skirts. They are flimsy and a car can easily go 
without resistance through them, much as a dog goes through a dog door.
---------------------------------------------------------------------------
    We must consider the life of a trailer. As discussed above, the 
life of a trailer is at least 15 years. Consider the $2,900.00 cost of 
an aftermarket side guard and then divide it by 15 years, or 5,475 
days, representing the number of days the trailer is in operation. The 
result is a cost of less than 60 cents per day, per trailer.
Revenue/Mile Versus Cost Analysis
    To put this into further perspective, revenue generated while the 
trailer is hauling freight covers the cost of the Underride Guard in 
the first mile the trailer is hauling goods. This past week, I asked my 
neighbor who runs and owns a freight broker company, what is ``the 
cheapest'' rate to run freight from the East Coast to the West Coast? 
His response was a very low charge for a brokered ``van'' type trailer 
is $1.15 to $1.20 per mile. The average revenue for a brokered flatbed 
is $1.90 per mile. Keep in mind this is a broker rate, so the customer 
is likely paying more.
    A truck company with direct customer relationship (no broker or 
middle person) has revenue for vans of at least $2.00 per mile. A good 
day's revenue on a truck and trailer is between 400-500 miles of 
driving in one drive period. Regardless of the number of miles the 
trailer is driven in one drive period, the underride guard cost at 60 
cents a day pays for itself with the revenue earned in the first one-
half mile of driving each day. Essentially, the trailer guard is paid 
for on each daily run before it is conceivably driven from a shipper's 
doorstep to the nearest highway.
Revenue/Week Versus Cost Analysis
    If an underride guard costs 60 cents per day, that equates to $4.20 
per week. A truck company looks to earn revenue for a van type trailer 
of $3,500.00 per week. Doing the math further, the cost of an underride 
guard is 1/100th of 1% of the total weekly revenue for a trailer.
60 Cents vs. Another 60 Years Without an Underride Guard Mandate
    At one time, the public seemed oblivious to the dangers of 
underride truck crashes. Fortunately the IIHS crash test videos and 
videos from other underride crash tests have been utilized by 
television media and social media bringing greater public awareness to 
this issue. The threat of underride crashes to the public is now 
becoming known. For decades, government regulators, original equipment 
manufacturers and the trucking industry have remained idle on this 
issue without meaningfully addressing it. The websites of Marianne 
Karth and Lois Durso, which are dedicated to their daughters' memory, 
reflects the astonishment and disbelief that not much has been done to 
protect against the horrors associated with underride truck 
crashes.\13\ Their astonishment now turned into action here on Capitol 
Hill leading to this day and a consideration of all truck safety 
issues, including the Stop Underrides Act of 2019. Marianne Karth's 
efforts and Lois Durso and Jennifer Tierney and the memory of their 
loved ones, will hopefully be realized by an open understanding that 
this is a cheap and easy way to achieve the ``Vision Zero'' goal of 
reducing fatalities on our nation's roadways.
---------------------------------------------------------------------------
    \13\ https://www.annaleahmary.com
---------------------------------------------------------------------------
    In addition to legislative action by Members of this Congress, the 
National Highway Traffic Safety Administration (NHTSA) has the 
regulatory authority to mandate that adequate protective guards be 
installed by OEMs. NHTSA is well aware of the problems presented by 
vehicle crash incompatibility and the need to prevent underride crashes 
as evidenced by its study focused on occupant compartment deformation 
and occupant injury.\14\ However, NHTSA remains slow to enact 
meaningful regulation, whereas the European Union and many other 
nations (United Kingdom, Brazil, Japan, Australia, and China) have 
surpassed the U.S. in regulatory requirements for rear guards, front 
underride protection, and side underride guards.\15\
---------------------------------------------------------------------------
    \14\ Eigen, A.M.: Glassbrenner, D., Mathematical Analysis Division, 
National Center for Statistics and Analysis, U.S. Department of 
Transportation, National Highway Traffic Safety Administration. The 
Relationship Between Occupant Compartment Deformation and Occupant 
Injury, DOT HS 809 676, November, 2003.
    \15\ United Nations Economic Commission for Europe ECE Regulation 
No. 73, Lateral Protection; United Nations Economic Commission for 
Europe ECE Regulation No. 93, Front Underrun Protection; and United 
Nations Economic Commission for Europe ECE Regulation No. 58 for Rear 
Underrun Protection. http://www.unece.org/trans/main/wp29/wp29regs41-
60.html
---------------------------------------------------------------------------
    The U.S. first enacted rear underride guard standard on CMVs in 
1953. This standard mandated rear guards for trucks manufactured after 
December 31, 1952.\16\ This early standard required rear guards to have 
maximum ground clearance of 30 inches. Guards were not required if the 
rear axle/wheel setback was 24 inches or less from the rear of the 
CMV's cargo bed. This regulation mandated rear guards for both single-
unit trucks and combination tractor-trailers. This standard included no 
strength testing requirements for the rear guards. So, as a result, the 
rear bars simply existed visually and easily folded under in a crash 
without really preventing underride or PCI.
---------------------------------------------------------------------------
    \16\ Blower, D. Woodrooffe, J., Page, O., University of Michigan 
Transportation Research Institute; on behalf of the U.S. Department of 
Transportation, National Highway Traffic Safety Administration, Office 
of Applied Vehicle Safety, Analysis of Rear Underride in Fatal Crashes, 
2008, DOT HS 811 652, August, 2012.
---------------------------------------------------------------------------
    Single-unit trucks (``SUTs''), more commonly known as ``box 
trucks'' or ``straight trucks,'' likewise present the risk of an 
underride truck crash due to the higher vehicle profile. These trucks 
are not a ``combination'' of a tractor and a trailer with an 
articulating section that requires more space for turning and backing. 
SUTs are typically found in construction and/or urban settings because 
they are shorter and allow for tighter maneuverability. Urban settings 
also present more challenges, not only with greater vehicle congestion, 
but more bicycle and pedestrian traffic. 360 degree lower-profile 
protection / guards are necessary on all CMVs to protect bicyclist, 
motorcyclists, pedestrians and to prevent vehicle underride.
    Forty-five years after the 1953 rule, NHTSA promulgated an updated 
rear underride guard standard that became effective in 1998. The new 
rule required the following: rear guard ground clearance to be no more 
than 22 inches and strength testing requirements. Guards are not 
required if rear wheel setbacks are no more than 12 inches from the end 
of the cargo bed. The 1998 standard is for combination tractor-trailers 
only.\17\ Meaningful regulations have yet to become standard for SUTs 
which still operate under the 1953 standard. Please see Appendix A for 
a comprehensive historical chronology addressing the issues of truck 
underride regulation.\18\
---------------------------------------------------------------------------
    \17\ NHTSA, FMVSS: Rear Impact Protection; Final rule. Federal 
Register; Vol 61, p. 2004, January 24, 1996. Federal Motor Vehicle 
Safety Standards 223 and 224: 49 C.F.R. Section 571.223 Standard No. 
223; Rear impact guards. 49 C.F.R. Section 571.224 Standard No. 224; 
Rear impact protection.
    \18\ This historical chronology addressing Truck Underride from 
1953 to present was put together by Andrew R. Young (who served as a 
Moderator of the May 5, 2014 Underride Roundtable and as a Moderator of 
the August, 2017 Underride Roundtable II) in collaboration with IIHS 
representatives and the Executive Director of the Truck Safety 
Coalition.
---------------------------------------------------------------------------
                Repeated Calls for Underride Protection
    As can be seen in the decades long chronology for addressing truck 
underride, both the Insurance Institute for Highway Safety (``IIHS'') 
and the National Transportation Safety Board (``NTSB'') have repeatedly 
called upon NHTSA to implement better underride protection standards. 
In the past eight (8) years, a 2011 crash-test analysis by the IIHS 
demonstrated that underride guards on tractor-trailers continue to fail 
in low-speed crashes in spite of the 1998 regulatory standard.\19\ \20\ 
In 2011, IIHS petitioned NHTSA for improvements for underride 
protection.\21\
---------------------------------------------------------------------------
    \19\ The American Trucking Associations, Transport Topics, 
Insurance Group Cites Concerns on Underride Guards, March 1, 2011.
    \20\ Brumbelow, M.L. and Blanar, L., ``Evaluation of US Rear 
Underride Guard Regulation for Large Trucks Using Real-World Crashes.'' 
Stapp Car Crash Journal 54:119-131, 2010.
    \21\ Insurance Institute for Highway Safety, 2011, ``Petition for 
Rulemaking; 49 C.F.R. Section 571 Federal Motor Vehicle Safety 
Standards; Rear Impact Guards; Rear Impact Protection.'' Arlington, VA 
https://www.iihs.org/laws/petitions/pdf/petition_2011-02-28.pdf The 
petition requested, among other things, a lower guard clearance from 22 
inches and an inclusion of SUTs
---------------------------------------------------------------------------
    In a letter dated April 3, 2014, the NTSB urged NHTSA to take 
action by improving rear underride protection systems. The NTSB letter 
even went one step further, requesting that newly manufactured trailers 
be equipped with ``side underride protection systems that will reduce 
underride and injuries to passenger vehicle occupants.'' \22\
---------------------------------------------------------------------------
    \22\ Hersman, Deborah A.P., Chair, National Transportation Safety 
Board, Safety Recommendations, H-14-001 through -007, letter to the 
Honorable David J. Friedman, Acting Administrator, National Highway 
Traffic Safety Administration, page 14.
---------------------------------------------------------------------------
    On May 5, 2014, Marianne Karth and the Truck Safety Coalition 
(``TSC'') hand-delivered a petition for rule making which asked NHTSA 
to improve the safety of rear underride guards on trailers and SUTs. 
Marianne Karth and TSC also requested rulemaking to prevent side 
underride and front override truck collisions. On July 10, 2015, NHTSA 
granted, in part, the petition and planned on issuing two separate 
notices--``an advanced notice of proposed rulemaking pertaining to rear 
impact guards and other strategies for single unit trucks, and a notice 
of proposed rulemaking on rear impact guards on trailers and 
semitrailers.'' \23\
---------------------------------------------------------------------------
    \23\ Department of Transportation, National Highway Traffic Safety 
Administration, Grant of Petition of Rulemaking; 49 C.F.R. Section 571 
Federal Motor Vehicle Safety Standards: Rear Impact Guards; Rear Impact 
Protection, Federal Register Number 2014-16018. https://
www.regulations.gov/#!documentDetail;D=NHTSA-2014-0080-0001.
---------------------------------------------------------------------------
2015 Rulemaking for Single Unit Trucks
    On July 23, 2015, NHTSA issued the ``Advanced Notice of Proposed 
Rulemaking Underride Protection of Single Unit Trucks.'' \24\ The 
agency's summary confirms that this rulemaking would respond to 
Marianne Karth and the Truck Safety Coalition's petition and also, in 
part, respond to the earlier petition for rulemaking by the Insurance 
Institute for Highway Safety.\25\ A Google search of ``Docket ID: 
NHTSA-2015-0070'' can easily allow for a review of the rule and the 
seventy-three (proponent and opponent) comments made by various 
interested parties.
---------------------------------------------------------------------------
    \24\ Department of Transportation, National Highway Traffic Safety 
Administration, Docket No. NHTSA-2015-0070, Rear Impact Protection, 
Lamps, Reflective Devices, and Associated Equipment, Single Unit 
Trucks. https://www.regulations.gov/
#!docketBrowser;rpp=25;po=25;dct=PS;D=NHTSA-2015-0070
    \25\ Id.
---------------------------------------------------------------------------
    OEMs and several trade associations are among the strongest 
opponents, citing arguments that many SUTs need to have ``good off road 
mobility at construction sites'' or ``hitch connections'' and therefore 
cannot have rear impact protection. Specifically, a rear guard would 
interfere with the work the truck must perform.\26\ A review of the 
Federal Register suggests that NHTSA seems to adopt the opposition 
arguments that underride guards would not be cost effective on SUTs.
---------------------------------------------------------------------------
    \26\ Id.
---------------------------------------------------------------------------
    Based upon my own research and travel (twice) overseas to ``The 
Commercial Vehicle Show'' in Birmingham, England, opposition against 
rear underride guards on SUTs must be met with severe skepticism. In 
2015, I personally took photographs of many European CMVs that have 
rear underride guard protection on trucks like dump trucks and box 
trucks with lift gates. I am happy to share these photographs with 
Members at the conclusion of the Hearing. There was even a vendor at 
this trade show who displayed rear impact bars that allow for manual 
adjustment of the guard so that it can be moved up and down as needed. 
I also videoed this vendor demonstrating how one of the guards can be 
manipulated and locked into upward and downward positions. By manually 
adjusting the guard upward, it allows for a construction vehicle to 
encounter low ground clearances or lift the guard out of the way so 
that it does not interfere with a tow hitch when towing a trailer with 
equipment or materials. Likewise, other photos taken show how rear 
guards can easily be integrated with lift gates.
    The U.S. lags far behind other developed nations. Hopefully, this 
Congress and NHTSA are not too easily swayed by opposition to allow for 
meaningful regulations for rear impact protection on SUTs. I submitted 
the aforementioned photographs and many of the same arguments in a 
``public comment'' in support of the rulemaking.\27\ T3The agency just 
withdrew this regulatory action this month. This is confounding and 
unconscionable.
---------------------------------------------------------------------------
    \27\ The photographs I took can be found with my public comment to 
the rulemaking at this link, https://www.regulations.gov/
#!documentDetail;D=NHTSA-2015-0070-0075
---------------------------------------------------------------------------
2015 Rulemaking to Update Rear Guards on Tractor-Trailers
    On December 16, 2015, NHTSA issued the ``Notice of Proposed 
Rulemaking Upgrade Underride'' to enhance strength testing requirements 
of the 1998 standard to improve rear impact protection for trailers and 
semitrailers.\28\ Again, the agency's summary confirms that this 
rulemaking would respond, in part, to petitions filed by IIHS, the 
Truck Safety Coalition, and Marianne Karth.\29\ A Google search of 
``Docket ID: NHTSA-2015-0118'' will allow for a review of the rule and 
the thirty-four public comments, virtually all of which are in support.
---------------------------------------------------------------------------
    \28\Department of Transportation, National Highway Traffic Safety 
Administration, Docket No. NHTSA-2015-0118, NPRM Upgrade Underride. 
https://www.regulations.gov/#!docketBrowser;rpp=25;po=0;dct=PS;D=NHTSA-
2015-0118
    \29\Id.
---------------------------------------------------------------------------
    Within the rulemaking summary, the agency states that the new rule 
would upgrade the Federal Motor Vehicle Safety Standards that address 
rear underride protection in crashes into semitrailers.\30\ More 
specifically, the stated goal of this rulemaking is to harmonize the 
U.S. standard with the existing 2004 Canadian underride guard strength 
testing requirements (from 30mph crash protection to 35 mph crash 
protection).\31\
---------------------------------------------------------------------------
    \30\Department of Transportation, National Highway Traffic Safety 
Administration, Docket No. NHTSA-2015-0118, NPRM Upgrade Underride. 
https://www.regulations.gov/#!documentDetail;D=NHTSA-2015-0118-0001
    \31\Id.
---------------------------------------------------------------------------
    A review of the comments demonstrates very little opposition 
because OEMs already meet the 15-year-old Canadian standard. The lack 
of opposition highlights the fact that NHTSA is seemingly not 
interested in challenging OEMS to come up with a better and safer 
underride solution, such as a guard that protects against a 40 mph 
crash. The agency has taken no further regulatory action.
2016 Truck Underride Roundtable & the ``ToughGuard'' Award
    To help incentivize underride protection beyond regulatory 
minimums, the IIHS, TSC, and Anna Leah & Mary for Truck Safety hosted 
the first ever ``Truck Underride Roundtable'' on May 5, 2016. IIHS's 
Vehicle Research Center in Ruckersville, Virginia served as the host 
facility.
    The aftermath of the first Truck Underride Rountable motivated 
trailer manufacturers to offer improvements to rear guards. As of 
October 1, 2018, all eight (8) major trailer manufacturers have passed 
IIHS tests exceeding regulatory standards and passed the IIHS 30% 
overlap, 35mph test.\32\
---------------------------------------------------------------------------
    \32\ The test performed was a ``30% overlap, offset at 35mph'' 
crash test. 100% ``overlap'' no ``offset'' is when 100% of the car's 
bumper from the right side to the left side, interacts squarely with 
100% of the back of the rear guard, again from right to left. In a 
real-world crash, however, the driver often attempts to steer away from 
the truck at the last minute. Assuming the car driver steers left, then 
only 50% or 30% of the right side of the passenger car's bumper 
interacts (``overlaps'' or ``offsets'') with 50% of or 30% of the left 
portion of the rear guard. Past IIHS testing showed the majority of 
trailer manufacturers failed to prevent underride in offset crashes. 
Passenger compartment intrusion would occur along just one side of the 
car. Frequently, occupants not effected by the passenger compartment 
intrusion (particularly at lower speeds) can suffer no injury at all 
while those effected by the PCI can produce fatal consequences or 
catastrophic injuries. Trailer manufacturer engineers have worked 
toward preventing PCI even in these ``offset'' impacts.
---------------------------------------------------------------------------
    IIHS announced the ``ToughGuard'' award and presented this accolade 
to each trailer manufacturer that passed the test.\33\ The ``ToughGuard 
winners have rear guards that prevent underride of a midsize car in 
three test modes: full-width, 50 percent overlap and 30 percent 
overlap.'' \34\ Stoughton Trailers, LLC has taken it a step further and 
announced a retroactive kit that is now available for purchase and 
meets IIHS requirements. This aftermarket kit can be installed on its 
trailers dating back to 2007.\35\
---------------------------------------------------------------------------
    \33\ Press Release, Insurance Institute for Highway Safety, Highway 
Loss Data Institute, ``IIHS Recognizes Semitrailers with Good Underride 
Guards,'' by Russ Rader, Senior Vice President, http://www.iihs.org/
iihs/news/desktopnews/iihs-recognizes-semitrailers-with-good-underride-
guards
    \34\ Id.
    \35\ Stoughton's improved rear guard probably saved the life of 
Terry S. Rivet on March 2, 2017. The tractor trailer jackknifed on 
slippery conditions on Interstate 90, and his car hit the rear of the 
trailer when that happened, but it prevented passenger car intrusion 
and the head injuries and deaths that otherwise would have occurred. 
Stoughton is an American owned company that builds its trailers in 
America.
---------------------------------------------------------------------------
    Shortly after the announcement of the ``ToughGuard'' award, trailer 
manufacturers Hyundai Translead, Utility Trailer Manufacturing Co., and 
Strick Trailers, LLC approached the IIHS to set up crash tests to prove 
that their trailers likewise meet IIHS rear impact guard (``RIG'') 
standards. IIHS publicly announced on September 27, 2018 that Strick 
Trailers, LLC was the last of the three remaining trailer manufacturers 
to pass the IIHS RIG standards. All eight (8) major trailer 
manufacturers represent approximately 80% of the trailers on U.S. 
roadways.\36\
---------------------------------------------------------------------------
    \36\ Press Release, Insurance Institute for Highway Safety, Highway 
Loss Data Institute, ``All Major Trialer Makers Earn IIHS Award for 
Good Underride Protection,'' by Russ Rader, Senior Vice President, 
https://m.iihs.org/mobilenews/all-major-trailer-makers-earn-iihs-award-
for-good-underride-protection
---------------------------------------------------------------------------
2017 Truck Underride Roundtable 2 & the AngelWing SUG
    For the first time, on March 30, 2017, IIHS tested a Side Underride 
Guard (``SUG''). The SUG inventor is Perry Ponder, a mechanical 
engineer from Tallahassee, Florida. The SUG brand name is the 
AngelWing. The company promoting the AngelWing is AirFlow Deflector 
with its principal place of business in Montreal, Canada. The March 
30th 35 mph test with the SUG was a success. The very next day, on 
March 31, 2017, the IIHS performed a 35 mph test without the SUG. This 
test showed catastrophic results, sheering the top of the mid-size 
Chevy Malibu off the length of the vehicle all the way to the backseat. 
I personally attended both tests.\37\
---------------------------------------------------------------------------
    \37\ Please go to this link to watch these test https://
www.youtube.com/watch?v=jHNIhh8NsFs
---------------------------------------------------------------------------
    On August 29, 2017, ``Truck Underride Roundtable 2'' was held and 
sponsored by the same entities as the first Truck Underride Roundtable. 
Those in attendance witnessed a 40 mph test of the AngelWing SUG. The 
test was a success. I participated as a member of the organizing 
committee for both Truck Underride Roundtables and as a Moderator at 
both as well. The focus of this Underride Roundtable was on SUGs, 
instead of the previous year's focus on rear impact guards. It was 
hoped that information from this event and the results of the SUG crash 
test would similarly encourage trailer manufacturers in the direction 
of adding side SUGs to their trailers. Wabash did introduce a prototype 
trailer with a lighter weight and cheaper SUG, but it is unknown if 
this is available for consumer purchase. I hope that Wabash and others 
trailer manufacturers have approached the IIHS to test their SUGs. At 
worst, the entire trucking industry can no longer feign ignorance of 
the catastrophic consequences of a collision resulting in occupant 
compartment intrusion. If trailer manufacturers are so keen to go 
beyond minimum compliance to protect the rear of the trailer from an 
underride, then why not the sides too?
Conclusion on Comments on the Stop Underrides Act of 2019
    Truck drivers and truck companies should demand meaningful 
underride guards from trailer manufacturers. When the first point of 
impact is a car's windshield and thereafter the occupants' bodies 
inside, then the insurance minimums are incapable of protecting the 
truck company and truck drivers from potential exposure beyond 
insurance limits. Legislators must join safety advocates to encourage a 
demand for safer underride protection or help to push meaningful 
legislative or regulatory change that can finally put to rest the over 
60 years of inaction by the industry. Vehicle crash compatibility 
(making the car bumpers match up with the truck's side, front, and 
rear) is the only way for a car's safety features to protect occupants 
when that car collides with a heavy commercial motor vehicle. I urge 
all Subcommittee Members join in supporting the Stop Underrides Act of 
2019 to end 60 years of these preventable crashes.
      Truck Drivers Benefit from an Increase in Insurance Minimums
    The primary threat to a truck driver's life on the road is an 
unsafe or negligent truck driver. A 4,000 pound car hitting a truck 
will likely not cause the truck driver to lose his or her life. 
However, an 80,000 pound truck that causes a truck versus truck crash 
can cause the loss of a truck driver's life. As aforementioned, truck 
occupant deaths increased significantly over the last reported year. In 
fact, I just recently settled a case on behalf of a truck driver's 
family. The truck driver unfortunately burned alive and died in his 
truck cab because another truck driver was doing something incredibly 
and admittedly unsafe. Fortunately, the offending truck driver and 
truck company were from Canada and had enough insurance to net a $3.5 
Million U.S. Dollar result for my truck driver client's family. 
Increasing insurance minimums will protect the truck driver and his 
family because the limits from 1980 are truly not enough to protect 
those catastrophically killed or injured in a truck crash. Moreover, 
increasing insurance minimums will also protect the taxpayer. In the 8-
figure type catastrophic scenario, someone has to pick up the medical 
costs for anything beyond the insurance minimums. The negligent truck 
company's insurance should be that party, not the public, because that 
will directly incentivize safer trucking operations.
    Interestingly, the Owner-Operators Independent Drivers Association 
(``OOIDA'') represents members that belong to one of two groups. The 
majority of the membership are the true Owner-Operator, someone who 
simply owns a tractor only. This Owner-Operator cannot hold himself or 
herself out as a for-hire motor carrier without motor carrier 
authority. As such, the majority of OOIDA's members are leased-on to a 
larger motor carrier under FMCSR 376.12. It is the larger motor carrier 
that must provide the insurance when the leased-on Owner-Operator is 
hauling freight in either the motor carrier's own trailers or a 
customer's trailer. The Owner-Operator then benefits when he or she is 
leased-on to a motor carrier that has more than the minimum insurance. 
Not only is he or she protected, but his or her equipment is protected 
under the blanket of a larger insurance policy. Similarly, and not 
aforementioned, the Owner-Operator would also benefit if the leased-on 
motor carrier's trailer has underride guards. Both the costs of the 
underride guard and the increased insurance does not fall on the back 
of the Owner-Operator, but onto the motor carrier to whom he or she is 
leased-on.
    OOIDA's other group of members are smaller truck companies with 
motor carrier authority. These people are particularly vulnerable to 
civil liability verdicts that exceed insurance minimums because they 
are ``mom and pop'' type operations without deep pockets or significant 
assets. They typically do not have the ability to pay for catastrophic 
claims in the event that one of their drivers causes an underride 
crash, catastrophic injury, or fatality that exceeds minimum insurance. 
Increasing insurance minimums will further protect them from financial 
ruin. I doubt that we will hear OOIDA take this stance because OOIDA 
writes insurance policies typically just above the insurance minimum at 
$1,000,000.00. OOIDA also profits from writing these policies. OOIDA's 
insurance arm likely does not want increased insurance minimums. I am 
hopeful that Subcommittee Members will address this topic during the 
question answer session so that OOIDA's representative and I can have a 
friendly debate on this issue. I hope to persuade OOIDA to change their 
stance in opposition to insurance minimums and that Subcommittee 
Members will keep in mind the various hats that the OOIDA 
representative wears when providing testimony on this issue on behalf 
of its varied membership.
    The minimum insurance level set in 1980 for general freight motor 
carriers is $750,000.00 per accident. This insurance minimum, untouched 
since the Motor Carrier Act of 1980 was enacted by Congress, has never 
been adjusted to keep pace with inflation and is now completely 
inadequate. Had the $750,000 limit automatically increased each year 
for inflation, today minimum insurance coverage for trucking operations 
would be about $2,400,000.00.\38\ Most truck companies have not 
increased their insurance coverage with inflation and, instead, carry 
about $1,000,000.00 in coverage. That is not enough. While responsible 
companies and drivers carry much more than $1,000,000.00 in coverage, 
too many companies do not. The insurance minimum covers all persons 
injured in the crash, and the current $750,000.00 is woefully 
inadequate in cases involving serious medical injury. This is 
especially true in crashes involving multiple vehicles which can result 
in catastrophic injuries and even deaths.
---------------------------------------------------------------------------
    \38\ Determined using the Department of Labor, Bureau of Labor 
Statistics ``CPI Inflation Calculator'' at https://data.bls.gov/cgi-
bin/cpicalc.pl
---------------------------------------------------------------------------
    Take into consideration an unsafe truck driver that causes a multi-
vehicle crash that results in four (4) fatalities or more. The minimum 
insurance does very little for these innocent victims' families. In 
fact, broker/shippers then shoulder the burden of these multi-fatality 
crashes because the truck driver who killed these four people was 
presumably an unsafe driver or driving for an unsafe company that 
should not have been hired. Moreover, the public CSA data likely showed 
this company held Out-of-Service rates that exceeded national averages, 
so the broker/shipper had no business hiring such a truck company in 
the first place, unless they had an economic incentive to do so.
    In 2014, the FMCSA released a report to Congress that examined the 
adequacy of the current financial responsibility requirements for motor 
carriers. The conclusion was clear: today, the costs of injuries and 
fatalities arising from crashes far exceeds the minimum insurance 
levels interstate operators are required to carry. These costs are real 
and are often in the form of the cost of medical care, which in the 
case of a catastrophic injury is shifted from the negligent wrongdoer 
to the taxpayer funded programs such as Medicare or Social Security 
Disability. Worse yet, when there is insufficient compensation, 
families, including truck drivers, are forced to declare bankruptcy or 
rely on government programs after being financially drained.
    Lastly, raising the trucking insurance minimums will give insurance 
companies real incentives to enforce safety, with the effect of 
providing crash victims better compensation for their injuries. This 
includes truck drivers who I have repeatedly stated are victims of 
truck crashes too!
    I urge this Subcommittee to require the FMCSA to reinstate its 
Advanced Notice of Proposed Rulemaking (``ANPRM'') to increase the 
minimum financial responsibility requirements for motor carriers. Or, 
as an alternative, members of the Subcommittee can direct the Secretary 
of Transportation to take immediate action to index the minimum level 
to inflation, which can be accomplished without a rulemaking.
    A ``National Hiring Standard'' for Broker/Shippers is Misleading
    As the title of this Hearing indicates, truck drivers and the 
trucking industry are ``Under Pressure.'' In reality, while the 
proposed national hiring standard sounds like it is pro-safety, it is 
deceptive and dangerous and will neither enhance interstate commerce 
nor truly create a ``national hiring standard.'' It disguises the 
indemnification of broker/shippers as the creation of a national safety 
standard. The ``standards'' offered contain no safety performance data 
and restrict those who have been adversely impacted in a truck crash, 
including truck drivers.
    An increase in ``pressure on the State of Trucking in America'' 
would be to create a ``national hiring standard'' that further 
insulates broker/shippers from the responsibility of making sure their 
freight is shipped safely. A cheap motor carrier offers lower freight 
rates simply because they are skimping somewhere to keep their profit 
margins. Skimping anywhere usually implies safety is the first to be 
sacrificed. They use worn out equipment, undertrained drivers, and 
dangerous drivers. It is frequently the demands of the brokers/shippers 
to get freight to its destination ``on time'' that creates the 
pressures discussed at this Hearing. All of us in this room and all of 
the constituents represented by the Members of this Subcommittee are 
somewhat guilty of hitting the ``next day shipping'' button on the 
website vendor's payment and shipment page, further putting pressure on 
truck drivers and truck companies. Insulating broker/shippers from 
liability will increase the danger on the roads by allowing them to put 
further pressure on trucking companies to reduce costs and race to the 
delivery point in time without having any responsibility for choosing 
the cheapest, fastest carriers. This perpetuates the risks to the truck 
driver and the motoring public. Broker/shippers are not subject to the 
FMCSRs the same way as a truck driver and motor carrier. It is 
unfortunate as many truck drivers and truck companies violate the 
FMCSRs just to keep the relationship with the broker/shippers. In this 
scenario, ``the customer is always right'' does not apply. It is 
frequently the broker/shippers that ask, encourage, or coerce truck 
drivers and truck companies to violate safety policy. If the trucking 
company will not compromise its safety practices with cheaper 
equipment, cheaper drivers and faster driving, the broker/shipper just 
picks a competitor who will--which spirals safety on the roads downward 
and puts responsible trucking companies at an unfair competitive 
disadvantage. We cannot encourage broker/shippers by immunizing them 
from liability which would allow them to push truck drivers and truck 
companies even harder to haul freight unsafely.
    Broker/shippers are third-party intermediaries responsible for 
hiring the companies and the drivers who transport goods on our 
highways. The broker/shippers do not own the goods that are being 
transported, nor do they physically transport the goods. Instead, the 
broker/shipper facilitates and coordinates the shipment of goods in 
various capacities, including hiring the truckers providing transport. 
In many instances, the broker/shipper will choose the cheapest option, 
hiring independent contractors and fly-by-night companies with horrible 
safety records. These contractors frequently disappear or declare 
bankruptcy when a lawsuit is filed. Immunizing the third-party broker/
shipper, which is sometimes the only party that can be held responsible 
for any wrongdoing in the shipping process, shifts responsibility to 
the underinsured truckers and leaves motorists hurt or killed on the 
road without sufficient remedy or recovery. This arrangement shifts the 
burden of the loss onto the taxpayers through government programs or 
increased health insurance rates.
    The broker/shippers have been asking Congress to establish a so-
called ``national hiring standard.'' This would be a mistake, 
essentially providing immunity to the broker/shipper who meets a 
meaningless set of criteria with respect to hiring a trucking company. 
The criteria are meaningless because they are already required by law 
and because the safety fitness determination program is seemingly non-
existent. The ``national hiring standard'' proposal does not create any 
new standards to determine if trucks are safe, but instead uses the old 
FMCSA standards that are ``outdated'' to avoid liability.
    Indeed, no process exists right now for a safety determination 
rating because the FMCSA rulemaking that would have established the 
standard has been dropped. This makes the public information on the 
Compliance, Safety, Accountability/Safety Measurement System, FMCSA 
website, all the more relevant. Congress should not bury a motor 
carrier's safety score from public view. Instead, the public and 
broker/shippers should easily be able to see a motor carrier's true 
scores and make wise decisions based on them. Moreover, if a truck 
driver is intending to apply for a job with a motor carrier, he or she 
should also be able to see the public safety scores of the truck 
company he or she is applying to work for so he or she can make an 
informed choice to choose to work for a safe trucking company. The safe 
trucking companies, which are the majority, should also encourage CSA/
SMS scores to remain public for all of these same reasons.
    The so-called ``national hiring standard'' does not increase safety 
standards or ensure that trucks are safe. Instead it's an immunity 
provision that further erodes public safety.
            Speed Limiters Reduce Crash Risk and Saves Money
    Since truck drivers are typically paid by the mile, there is a 
strong incentive to drive too fast. In my home State of Ohio, 
Legislators are incorporating into the budget a possible increase of 
the speed on Ohio's highways to 75 mph. Of note, it has been reported 
that the Ohio Trucking Association is behind the push for the speed 
limit increase. Why? Because the new electronic logging device 
(``ELD'') mandate makes it harder to distort on hours-of-service 
(``HOS'') requirements. Per mile compensation always encouraged unsafe 
truck drivers to falsify logs and go farther and get the extra pay by 
mile. Now that it is harder to distort the HOS with the ELD mandate, 
unsafe truck drivers are incentivized to make up the difference by 
driving faster to achieve more miles and more pay.
    High speeds are a significant contributing factor to high fatality 
rates on our nation's roads. Consider the fact that NHTSA and the IIHS 
only crash test vehicles at 45 mph or less. The human body cannot 
sustain crashes at higher speeds. Just ask NHTSA and IIHS why they do 
not crash test at higher speeds? Their answer will likely be similar. 
An increase in speed limits on highways does not make any sense because 
even the safest vehicles will not protect occupants. Yet state by state 
speed limits are increasing throughout the country. With increased 
speeds on our nation's roadways, we have 80,000-pound trucks driving at 
increased speeds too. Unfortunately, I regularly see truck drivers 
tweet photographs onto social media platforms showing their truck's 
speedometer topping out above 80 mph. Not only is the truck driver 
speeding, he or she is recklessly taking photographs and tweeting about 
it too!
    My truck is an older, classic Peterbilt. I have it deliberately 
governed at a maximum speed that is less than the 70 mph Ohio's 
highways allow. I will tell you from a truck driver's perspective, 
there is no reason to go 70 mph or greater unless there is an economic 
incentive to do so. Unfortunately, that equates to a disincentive for 
the safety of the truck driver and the motoring public.
    On September 28, 2016, both the FMCSA and NHTSA filed an NPRM 
requiring the installation of speed limiting devices in heavy 
vehicles.\39\ A comment period elicited over 2,250 comments debating 
the merits of the proposal and to garner feedback as to whether speeds 
should be limited to 60, 65, or 68 mph.\40\ The rulemaking was a 
response to petitions from the ATA and Roadsafe America. It is 
estimated that limiting truck speeds will prevent 1,115 fatal truck 
crashes annually.\41\ Both agencies have taken no further regulatory 
action.
---------------------------------------------------------------------------
    \39\ Department of Transportation, National Highway Traffic Safety 
Administration, Docket No. NHTSA-2015-0188, https//www.regulations.gov/
docket?D=NHTSA.2016-0087
    \40\ ``Suggesting 60-68 mph, FMCSA, NHTSA propose truck speed 
limiters'' FleetOwner, August 26, 2016, www.//m.fleetowner.com/
regulations/suggesting-60-68-mph-fmcsa-nhtsa-propose-truck-speed-
limiters
    \41\ Department of Transportation, National Highway Traffic Safety 
Administration, Docket No. NHTSA-2015-0188, https://
www.regulations.gov/docket?D=NHTSA-2016-0087
---------------------------------------------------------------------------
    There is no cost to speed limit a truck. In fact, most larger truck 
companies have already figured out that a speed limited truck at a 
lower speed saves exponentially on fuel and adds to the bottom line. 
Speed limiters improve a truck company's profitability and safety. 
Please mandate speed limiters to protect truck drivers, particularly 
the younger and newer truck drivers, from going at speeds that will get 
them and likely others killed.
              Automatic Emergency Braking Will Save Lives
    The top three causes of truck crashes are rear end collisions, lane 
departures, and rollover accidents.\42\ OEMs continue to introduce 
safety technology to prevent each of the top three causes of crashes, 
including automatic emergency braking, lane departure warning, and 
electronic stability control systems, the latter of which is already 
mandated. Rear end collisions are listed as the top cause of truck 
crashes annually, accounting for approximately 33,000 or 23.1% of all 
truck wrecks.\43\ Automatic Emergency Braking (``AEB'') technology is 
proving to have great success at preventing rear-end collisions. It is 
anticipated that once this Subcommittee's Members mandate automatic 
emergency braking, rear end collisions will no longer top this list.
---------------------------------------------------------------------------
    \42\ James Hedlund and Daniel Blower, The Large Truck Crash 
Causation Study (LTCCS) Analysis Series: Using LTCCS Data for 
Statistical Analyses of Crash Risk, January 2006, Office of Information 
Management, Publication #: FMCSA-RI-05-037, ``Table 4--Estimated Number 
of Truck Crashes by Crash Type.''
    \43\ Id.
---------------------------------------------------------------------------
18 Years of Forward Collision Avoidance Technology
    Early collision warning systems have been in existence for well 
over a decade. Penske Logistics announced on September 18, 2001 (almost 
18 years ago) that it was installing collision warning system equipment 
on its entire tractor fleet.\44\ At that time, Penske Logistics' Vice 
President of Safety, Paul Pentazer, was quoted as stating, ``we feel so 
strongly about the benefits . . . we now include it as standard 
equipment on all new tractor orders.'' \45\ This older technology did 
not include automatic emergency braking. Forward collision warning 
technology (without automatic braking) simply emits an urgent audible 
alert with a driver display to warn the driver of an impending 
collision or that the driver's following distance is unsafe.
---------------------------------------------------------------------------
    \44\ ``Penske Logistics to Install Eaton Vorad Collision Warning 
System Throughout Tractor Fleet Following Successful Pilot Program with 
Whirlpool Corporation.'' Published September 18, 2001, https://
www.prnewswire.com/news-releases/penske-logistics-to-install-eatonr-
voradr-collision-warning-system-throughout-fleet-followign-successful-
pilot-program-with0-whirlpool-corporation-72060747.html Note to Reader: 
The Vorad from Eaton was acquired by Bendix Commercial Vehicle Systems, 
LLC (an Elyria, Ohio based company) in 2009.
    \45\ Id.
---------------------------------------------------------------------------
    Collision Warning/Mitigation encompasses three related 
technologies: 1) Forward Collision Warning/Alert Systems; 2) Adaptive 
Cruise Control; and, 3) Collision Mitigation Systems.\46\ Forward 
Collision Warning is the most basic, simply alerting drivers (both 
audibly and visually, on an in-cab display) that a rear end collision 
is imminent. Adaptive Cruise Control allows a truck to maintain a set 
time-gap between it and a vehicle in front of it, by automatically 
decelerating if the other vehicle slows down and re-accelerating (up to 
a set speed) if the other vehicle speeds up or switches lanes. The most 
advanced systems alert drivers to potential conflicts with objects and 
automatically initiate emergency braking to stop the commercial vehicle 
from causing a rear-end collision or, at a minimum, reduce the severity 
of the crash.
---------------------------------------------------------------------------
    \46\ 2014 Freightliner Cascadia's Driver's Manual, Publication 
Number STI-478-6 (2/13), Part Number STI 478, Page 6.1, Daimler Trucks 
North America, LLC
---------------------------------------------------------------------------
    On-board radar is mounted in the front bumper to detect vehicles up 
to 500 feet in front of the truck.\47\ Earlier radar systems could only 
track metallic vehicles and had a tendency to miss smaller vehicles 
such as motorcycles and bicycles. Radar systems were unable to detect 
pedestrians. Technology evolved allowing for camera-based systems with 
enhanced detection capabilities that will also detect pedestrians and 
bicyclists.\48\ Fleet acquisition managers now have the option to 
install both of these advanced technologies for the safest overall 
operation.\49\
---------------------------------------------------------------------------
    \47\ Meritor WABCO ``OnGuard'', http://www.meritorwabco.com/
Product, 2,15,2,OnGuard%e84%a2-Collision-Safety-Systems-.aspx; Bendix 
``Wingman Advance'', http://www.bendix.com/en/products/acb/
wingmanadvanced_1.jsp
    \48\ ``Development of a Camera-Based Forward Collision Alert 
System'' General Motors Company and Mobileeye Vision Technologies, 
Ltd.; http://www.mobileye.com/technology/applications/vehicledetection/
forward-collision-warning/.
    \49\ ``Freightliner Detroit Assurance Suite of Safety Systems'' 
https://freightliner.com/demand-detroit/detroit-assurance-suite-of-
safety-systems/
---------------------------------------------------------------------------
    Going too fast and not allowing for a safe stopping distance are 
primary causes of rear end collisions. In 2016, advanced camera-based 
technology was introduced that reads and compares the posted speed 
limit to the truck's real-time speed.\50\ An audible alert is issued to 
the truck driver when the truck is more than 5 mph over the posted 
speed limit. If the truck is more than 10 mph over the speed limit, the 
audible alert is accompanied with a one-second speed reduction 
(automated engine throttle reduction) to slow down the truck and 
refocus the driver's attention.\51\
---------------------------------------------------------------------------
    \50\ ``Bendix Takes Wingman Collision Avoidance Tech To Next Level, 
Includes Auto Slowdown for Speeding.'' Overdrive Magazine, http://
www.overdriveonline.com/bendix-takes-wingman-collision-avoidancetech-
to-next-level-includes-auto-slow-down-for-speeding/
    \51\ Id.
---------------------------------------------------------------------------
Choosing to Stop Short of a Collision with Automatic Emergency Braking
    The choices made by a truck company's fleet acquisition personnel 
demonstrate whether a truck company prioritizes crash avoidance. FCAM 
technology with AEB is currently available as a market option when 
purchasing equipment from an OEM. By choosing to install FCAM 
technology, a trucking company's purchasing decision can dramatically 
reduce the number of preventable rear end collisions or at the least, 
reduce crash severity, likely preventing a fatality.
    Bendix Wingman Advance and Meritor WABCO's OnGuard are the two 
leading FCAM options available to install on fleet equipment.
    According to Dean Newell, Vice President of Safety, Maverick USA, 
``we have seen a clear downward trend in rear end incidents since we 
started putting OnGuard systems on our trucks . . . our rear end 
accidents were at a rate of 0.09 per million miles in 2008, and they 
went down to 0.06 per million miles in 2011.'' \52\ Jim Boyd, manager 
of fleet technical services at Southwester Freight (a 3,000 unit motor 
carrier), utilizes both Bendix and Meritor WABCO collision avoidance 
systems, giving them a positive review. He has been quoted as saying 
the systems ``might not completely help you avoid a crash, but they 
certainly can take some of the speed out of a crash. We feel like our 
success with the systems has already made a positive impact on accident 
reduction.'' \53\ An FMCSA study found that between 8,597 and 18,013 
rear end crashes could be prevented annually with the use of Forward 
Collision Warning systems.\54\
---------------------------------------------------------------------------
    \52\ The American Trucking Associations, Transport Topics, Anti-
Crash Systems Proliferate as Fleets See Safety Benefits, January 23, 
2012.
    \53\ The American Trucking Associations, Transport Topics, 
Collision Avoidance Systems Succeed in NHTSA Field Test, page 23, June 
20, 2016.
    \54\ ``Benefit-Cost Analyses of Onboard Safety Systems,'' by Amy 
Houser (MC-RRT), February 2009, Federal Motor Safety Administration 
Office of Analysis, Research and Technology.
---------------------------------------------------------------------------
Automatic Emergency Braking Mandate Needed
    NHTSA along with the Virginia Tech Transportation Institute 
completed a year-long test of trucks equipped with collision avoidance 
systems. The test was a success and involved 150 trucks, more than 100 
drivers from 7 unidentified motor carriers traveling and producing 3 
million miles of data, with no rear end crashes.\55\ NHTSA reported 
that fleet safety managers should recommend crash avoidance system 
technology with new fleet acquisitions.\56\
---------------------------------------------------------------------------
    \55\ The United States Department of Transportation, National 
Highway Traffic Safety Administration, ``Field Study of Heavy-Vehicle 
Crash Avoidance Systems'' DOT HS 812 280, June 2016; The American 
Trucking Associations, Transport Topics, Collision Avoidance Systems 
Succeed in NHTSA Field Test,'' page 1, June 20, 2016.
    \56\ Id.
---------------------------------------------------------------------------
    On October 16, 2015, NHTSA granted a petition submitted by truck 
safety advocates ``to establish a safety standard to require automatic 
forward collision avoidance and mitigation systems on certain heavy 
vehicles.'' \57\ The ATA's former Director of Engineering publicly 
proclaimed that, ``ATA strongly believes that preventing rear-end 
crashes is a far better strategic goal than mitigating them and 
strongly recommends that all vehicles (light and heavy) be equipped 
with forward collision warning and mitigation braking technology.'' 
\58\
---------------------------------------------------------------------------
    \57\ The United States Department of Transportation, National 
Highway Traffic Safety Administration, Grant of Petition for 
Rulemaking, ``Federal Motor Vehicle Safety Standard; Automatic 
Emergency Braking.'' DOCKET NO.NHTSA-2015-0118. https://
www.regulations.gov/document?D=NHTSA-2015-0099.
    \58\ Ted Scott, Director of Engineering, American Trucking 
Associations, February 5, 2016 Public Comment on NHTSA Federal Motor 
Vehicle Safety Standards: FMVSS No. 223 and 224 Rear Impact Guards, 
Rear Impact Protection, DOCKET NO. NHTSA-2015-0118. https://
www.regulations.gov/document?D=NTHSA-2015-0118-0015 Please note that 
Ted Scott has since passed away, may he rest in peace.
---------------------------------------------------------------------------
    All too often the bad apple spoils the bunch and we hear about a 
truck driver who is drowsy, distracted, drunk or drugged causing a 
collision resulting in multiple fatalities. For example, on June 25, 
2015, truck driver Benjamin Brewer was reported to have been awake 55 
hours straight and on methamphetamine when he caused six fatalities 
after rear ending seven vehicles that had stopped in a construction 
zone.\59\ Truck driver John Wayne Johnson was charged with a rear-end 
crash that took the lives of five Georgia Southern University nursing 
students and severely injured two others in an April 2015 crash.\60\
---------------------------------------------------------------------------
    \59\ Shelly Bradbury and Alex Green, ``Death on the Highway: Six 
People Died When A Tractor-Trailer Slammed Into Traffic on June 25--But 
the Crash Was One of Many, And It Will Happen Again,'' Chattanooga 
Times Free Press, December 20, 2015.
    \60\ American Trucking Associations, Transport Topics, Driver, 
Company Indicted in 2015 Truck Crash That Killed Five, page 23, June 
20, 2016.
---------------------------------------------------------------------------
    AEB is a proven technology endorsed by many in the trucking 
industry. A mandate for AEB on all new trucks will clearly ease the 
pressure on ``the State of Trucking in America.'' Unfortunately, in 
spite of various studies, the granting of a petition, and the support 
of many in the industry, NHTSA has taken no further regulatory action 
on this issue. How many more people need to die before a mandate? It is 
imperative that Members require NHTSA to take immediate action on this 
issue. The European Union mandated all new trucks to be equipped with 
AEB beginning in 2015. We are now several years beyond that. Why is 
Europe protecting its motoring public and we are not?
                               Conclusion
    The fact that truck drivers are victims of crashes is an important 
point to consider. Not only are they on the receiving end of truck vs. 
truck crashes, but they suffer lifelong consequences when they are on 
the giving end. Speed Limiters are a simple fix, cost no money, and 
will protect truck drivers and the motoring public from harm. Speed 
limiters are supported by many in the industry as being cost effective, 
efficient, profitable and safe. AEB is also a simple fix. Mandating 
this technology will clearly reduce crashes and fatalities and is 
supported by many in the trucking industry.
    Nearly 40 years is too long to keep insurance minimums from 
increasing, especially considering the effect of inflation and the huge 
increase in truck volume and traffic. Victim truck drivers and the 
motoring public deserve to have their families protected with increased 
insurance minimums.
    Lastly, 60 years is far too long to ignore the very real problems 
of vehicle crash incompatibility. We need to have underride guards that 
allow the safety engineering of passenger cars to interact with safety 
features of trucks, so that all of those features can work together to 
protect vehicle occupants. The fact that many catastrophic injuries and 
deaths are easily and affordably preventable, yet nobody is doing 
anything to prevent them, is simply unconscionable.
    Each of the items discussed here will help achieve the ``Vision 
Zero'' initiatives all over the country. I hope Members of this 
Subcommittee sense and realize the urgency needed to fix these issues 
without further delay.
    I would like to recognize those in this room that are not here 
today because their choice in a job have led them to this Hearing. They 
are the family members of victims of truck crashes. Christa Hammack 
(lost her daughter, Erin Alexander in a side underride in Texas on May 
4, 2018) is here with her younger daughter, Abigayle. Marianne Karth 
(lost her daughters AnnaLeah and Mary in a rear underride in Georgia on 
May 4, 2013) is here with her daughter Rebekah Chojnacki (pronounced 
Hoy Not Ski). Unfortunately, her husband Jerry Karth could not be here, 
but needs recognition and thanks as well. Also, Lois Durso could not be 
here today, but has been tirelessly working with Marianne to raise 
underride awareness here in DC after losing her daughter Roya Sadigh in 
a side underride on November 24, 2004. These individuals, in 
particular, have more courage than anyone I have ever met and deserve 
thanks and recognition for their work to prevent others from 
experiencing the same grief they have felt since the fateful day their 
loved ones perished.
    ``Under Pressure: The State of Trucking in America'' needs to have 
the pressure relief valve released. These safety initiatives help. They 
help your constituents, the motoring public, and the truck driver. Help 
the truck drivers of America by co-sponsoring the Stop Underrides Act 
of 2019 and move forward these other initiatives! No longer can 
Congress, NHTSA, FMCSA, and the trucking industry sit idle on these 
important issues. Your decisive action is desperately needed to save 
lives and truck driver livelihoods. I thank you all for the opportunity 
to testify before you today and I welcome any and all questions, even 
the most challenging ones. Thank you again!
                               APPENDIX A
                  truck underride prevention attempts
                         historical chronology
1953 First federal standard requires underride guards for both 
            combination tractor-trailers and single-unit trucks, but 
            includes no strength testing requirements.

1967 Actress Jayne Mansfield dies in a rear underride truck crash.

1969 National Highway Safety Bureau (precursor to NHTSA) proposes 
            guards on combination tractor-trailers and single-unit 
            trucks with 18-inch max clearance; predicts side guards 
            will be added after further research.

1971 NHTSA abandons 1069 rulemaking.

1972 NTSB recommends NHTSA require energy-absorbing underride and 
            override barriers.

1976 IIHS crashes Ford Granada into tractor-trailer with improved, 
            prototype guard that prevents underride. Same test with 
            federally compliant guard results in severe underride.

1977 IIHS petitions NHTSA for a new rear underride standard.

1981 NHTSA issues proposal to upgrade underride protection requirement.

1986 IIHS study shows rear guards designed to prevent underride work 
            well on British rigs.

1996 NHTSA issues new standard effective 1998, covering combination 
            tractor-trailers and requiring 22-inch max clearance and 
            strength testing. The standard does not affect single-unit 
            trucks. They remain under the 1953 standard.

2004 Transport Canada issues standard after crash tests show U.S. 
            standards is insufficient. Canadian rule approximately 
            double strength requirements.

2010-12 IISH testing shows guards can fail in 35 mph impacts. Guards on 
            Manac trailers are the only one from the 8 largest 
            manufacturers to prevent severe underride in 30% overlap 
            test.

2011 IIHS petitions NHTSA for improvements to standard for rear 
            underride protection.

2013 NHTSA releases study, ``Heavy-vehicle crash data collection and 
            analysis to characterize rear and side underride and front 
            override in fatal truck crashes.''

April 3, 2013 NTSB urges NHTSA to take action to improve underride 
            guards, including side underride guards.

May 5, 2014 Marianne Karth and the Truck Safety Coalition submit their 
            own petition for underride rulemaking.

July 23, 2015 In an advanced notice of proposed rulemaking, NHTSA 
            suggests rear underride guards would not be cost effective 
            on single-unit trucks.

Dec. 16, 2015 NHTSA proposes adopting Canadian underride guard 
            requirements for combination tractor-trailers only.

May 5, 2016 IIHS, AnnaLeah & Mary for Truck Safety, and Truck Safety 
            Coalition host industry-wide, Underride Roundtable to 
            identify solutions to this six decade long concern.

March 1, 2017 IIHS announces and presents its ToughGuard Award to five 
            (5) national trailer manufacturers. Trailers that qualify 
            for the ToughGuard Award have rear guards that prevent 
            underride of a midsize car in three test modes--full-width, 
            50 percent overlap, and 30 percent overlap at 35 mph

Mar. 30, 2017 IIHS performs a successful 35 mph crash test of a Chevy 
            Malibu into the side of a semi-trailer with an aftermarket 
            side guard crash attenuator named AngelWing Underride 
            Protection. The test was performed with the AngelWing 
            inventor, Perry Ponder, and Robert Martineau, CEO of 
            AirFlow, a Side Guard Manufacturer.

Mar. 31, 2017 IIHS performs a similar test as the day before, however 
            this test was performed without the Side Guard 
            demonstrating the catastrophic and fatal consequences of 
            underride truck crashes.

Aug. 29, 2017 IIHS, AnnaLeah & Mary for Truck Safety, and the Truck 
            Safety Coalition host the 2nd Underride Roundtable to 
            further identify solutions to the issues associated with 
            side underride and passenger compartment intrusion. IIHS 
            performed a successful 40 mph crash test of a Chevy Malibu 
            into the side of a semi-trailer with an aftermarket 
            AngelWing Underride Protection side guard.

Dec. 12, 2017 ``Stop Underrides Act of 2017'' was introduced into both 
            the House and Senate.

Sept. 29, 2018 IIHS announces all eight (8) major trailer manufacturers 
            have earned the ToughGuard Award for rear underride guards, 
            exceeding FMVSS standards.

March 5, 2019 ``Stop Underrides Act of 2019'' was introduced into both 
            the House and Senate.

Mar. 26, 2019 AnnaLeah & Mary for Truck Safety host in Washington, D.C. 
            three (3) grassroots crash tests into the sides of 
            trailers, two with side underride guards, and one without a 
            side underride guard.

June 2019 NHTSA withdraws the advanced notice of proposed rulemaking to 
            amend the FMVSS to single-unit trucks to be equipped with 
            improved rear guards.

June 12, 2019 The House Committee on Transportation and 
            Infrastructure's Subcommittee on Highways and Transit hold 
            a hearing titled, ``Under Pressure: The State of Trucking 
            America'' to allow for testimony on safety initiatives 
            including the Stop Underrides Act of 2019.

    Ms. Norton. Thank you very much, Mr. Young. We want to 
proceed now with questions from Members. Each Member will have 
5 minutes. And I will begin by recognizing myself.
    Just leading off, Mr. Young, where you left us, let me 
again thank those who are here who have had loved ones lost in 
crashes of various kinds. This hearing is first and foremost 
about finding answers. I heard your testimony about underride 
guards, Mr. Young.
    Let me ask Mr. Spear because prior to being at ATA, he was 
with Hyundai. And I would be very interested in your response, 
whether you think vehicle crash compatibility is an issue and 
requires additional considerations on the part of the 
companies, and how you would respond.
    Mr. Spear. Thank you, Madam Chair. This is a real issue. 
The opportunity to meet with a number of the advocates of the 
side underride legislation--not Mr. Young, unfortunately, yet--
but a number of the others in the room, and I admire them for 
their passion and opening up this debate. I do think we have a 
difference of opinion on how best to improve safety. And I 
think----
    Ms. Norton. Your view is what on that.
    Mr. Spear. I think compatibility between cars and trucks is 
possible. I think Hyundai is a good example. I am not longer on 
the payroll, so I think I can say this candidly. They are the 
only OEM that actually manufactures cars and truck trailers. So 
they are unique. I do not know of any other OEM in the world 
that does both.
    And I am very well aware that they are doing connectivity 
tests that can utilize automated emergency braking in the 
vehicle. Two-thirds of the accidents that involve trucks are 
caused by passenger vehicles, largely from speeding and 
texting. People are paying less attention to what they are 
doing on the road, and they are hitting the truck. It is a 
fact.
    And I think technology has a role to play. Connectivity----
    Ms. Norton. So the truck must be prepared to defend itself.
    Mr. Spear. Well, I think connectivity could solve a lot of 
the problem. If the brakes are applied, even if the driver is 
not aware, the car will not hit the trailer. This legislation 
assumes that an accident is going to happen. The equipment that 
was shown in the videos at 35 miles an hour, it is my 
understanding it is not effective beyond 35 miles an hour.
    Studies at GAO even recommended to you that more study 
needs to be done on this. The added weight, the structural 
integrity of the trailer, is it compromised? These are valid 
questions that I think need to be fleshed out before you 
proceed with something like this and apply it to all trailers, 
as proposed in the testimony.
    Ms. Norton. Thank you very much. It was important to hear 
from somebody from the industry.
    I have to ask this question. Ms. Chase, of course, 
testified about--she said a dozen people would be killed before 
the end of the day. Now, what bothers me is I am used to--I am 
an American. I am used to things getting better, not worse.
    I said in my opening testimony that there was a 10-percent 
increase in 1 year, between 2016 and 2017, and a 40-percent 
increase in 10 years, in truck crash fatalities. We have got to 
understand why this is happening in order to get to a remedy.
    And so I need some feedback from those of you on the panel. 
Why are we going the wrong way, and what can be done about it?
    Mr. Spear. I think you would get a number of answers from 
this panel. I will begin in brief. I think there are a lot of 
factors that contribute to the increase. We do not deny it. It 
is happening. The overall trend over several years, it is going 
down, but this recent uptick is very alarming.
    Ms. Norton. It is 10 years.
    Mr. Spear. Yes. I am going back further, the overall. But I 
will say the uptick is alarming. I think it is caused because 
the economy is strong. There are more people at work. There are 
more people commuting. And quite frankly, the Federal 
Government is not investing in infrastructure. There is less 
room. There are a lot more accidents out there happening as a 
result of the lack of infrastructure investment in this 
country.
    And we are still out there moving freight. Seventy-one 
percent of the domestic freight in this country is moved by 
truck. Those demands do not go away, so we have to find ways to 
be safer, given the current decaying infrastructure that we are 
being dealt.
    Ms. Norton. Anybody else? Yes, sir?
    Mr. Spencer. Yes. I would jump in on this. Realistically, 
what looking at the data shows is there is a disconnect between 
compliance with the regulations and improved safety outcomes. 
See, most of the regulations that are in force that make up CSA 
do not have anything to do with safety. But that has been the 
entire focus.
    The operating environment for drivers, truck drivers, has 
become much, much more stressful. The one thing the ELD did was 
make drivers feel like they are constantly under pressure, 
being watched every minute. It exacerbated the shortages of 
places to park, for truckers to park, that we have had for 20 
years.
    Those are the kinds of things that are essential to 
actually improving commercial vehicle safety. You have to have 
experience, knowledgeable drivers. The other net effect of many 
of the regulations is more and more drivers have suddenly said, 
``There are other things that I could do.'' They have retired. 
They have left our industry. They will be replaced with some 
level of new people that will be less skilled and more likely 
to be involved in crashes.
    Ms. Norton. That is for sure. No specific time yet behind 
the wheel to get a CDL license.
    Thank you very much. My time is expired. I go to our 
ranking member, Mr. Davis.
    Mr. Davis. Thank you, Madam Chair. Thank you again to the 
witnesses. Mr. Craig, thank you for your hospitality for a 
couple of tours of your facilities up in the Chicagoland area. 
Please offer my best to the team at C.H. Robinson.
    Mr. Spear, I am going to come to first. But I do want to 
note, this subcommittee has 56 Members on it. It is probably 
the most geographically diverse committee or subcommittee in 
this entire Congress. While I can appreciate the urban needs of 
Chairwoman Norton, my district is mostly rural. My district has 
many rural roads where many of your carriers are moving freight 
all around.
    As a matter of fact, I have got about 7,750 farms producing 
almost $450 million in grain exports every single year. These 
farmers obviously rely upon our Nation's infrastructure and 
rely upon our transportation to get their commodities to the 
marketplace and get them out into the global marketplace.
    My question is: What can we as policymakers do to ensure 
our farmers continue to have access to the markets that they 
need? So that being said, I want to drill it down a little bit 
further.
    Mr. Spear, I notice that ATA's priorities for a surface 
reauthorization bill, that in your priorities you believe motor 
carriers should be allowed to conduct marijuana testing of 
operators. In Illinois, the State legislature just recently 
signed into law the legal use of recreational marijuana. So 
there is no doubt that this is a concern for the industry and a 
concern for this committee.
    Can you expand on the intersection of marijuana consumption 
and the trucking industry, and what we can do at the Federal 
level to improve safety?
    Mr. Spear. We fall under the Federal requirements for drug 
testing, not States. And obviously, the use of marijuana, 
impairment from marijuana, opioids, these are all concerns to 
our industry and are added headwind in terms of attracting 
talent in.
    And nine States plus the District, as well as Canada, now 
legalizing recreational marijuana is going to put added strain, 
added pressure, on the industry and its ability to hire people 
that are drug-free. We simply cannot have that in this 
industry. You cannot have people that are using controlled 
substances, that are impaired, operating 80,000-pound 
equipment, or tanks full of chemicals or petrol. OK? It is a 
problem that the States, we do not believe, are taking into 
consideration.
    And there is no technology out there that allows you, an 
officer, to pull someone over and test for an impairment of 
marijuana as they do for alcohol. You can do a breathalyzer, 
instantaneously.
    Mr. Davis. Are you aware of any----
    Mr. Spear. That technology does not exist yet for 
marijuana.
    Mr. Davis. So you are not aware of anyone testing any 
technology that would be able to do that, like a breathalyzer 
does for alcohol?
    Mr. Spear. I think it is coming. It probably may be 3, 5 
years out, from what I am told. But the best we can do right 
now is on the front-end screening, when hiring, hair testing 
should be a viable means in lieu of urinalysis. It gives you a 
better picture to see if that individual is a user.
    And that conversation should happen before that driver is 
hired. And it is something that you all put into the FAST Act. 
It has been sitting over at HHS for 3 years. They have not 
kicked out their requirements so that DOT can move forward.
    DOT is ready to move forward on this. It is an alternate. 
It is not a mandate. You can do either/or. And I think as we 
move in this direction where we are legalizing recreational 
marijuana, we have got opioid use in every community in the 
country, it seems. Our industry has to operate safe, and we 
need the tools to do it.
    So we put it back on you to help us with that. Get on HHS. 
Get this thing done and out. We will work with innovators to 
come up with immediate ways to test. This is a problem that is 
not going away.
    Mr. Davis. Are you seeing in the States that have already 
legalized recreational use of marijuana even more of a shortage 
of drivers being willing to take some of the opportunities that 
are available in the industry?
    Mr. Spear. Absolutely. We have several carrier members that 
pay the extra expense to do hair testing in addition to the 
urinalysis, and when the driver comes in and applies and they 
know they are going to have to take a hair test, a lot of them 
just walk right out the door. They are using marijuana. They do 
not even go forward with the test. So we know this is a 
problem.
    Mr. Davis. Well, thank you. I just want to also note 
something. I do not expect anybody to be able to have to answer 
this. But earlier this week I had a constituent in my office. 
He is a civil engineer. He conducts friction tests on pavement 
in the Chicagoland area up along the tollways.
    And to complete these tests, he has to drive his Ford F-350 
with a trailer, about 1,200 pounds, 3 hours to get to the 
Chicago area, sits around for about 7 hours waiting for traffic 
to die down, and by the time he gets out onto the workplace, he 
has only got about 4 hours, because of the hours-of-service 
rules, that he can actually do his job.
    I do not think the rules that we pass in this committee, 
the bills that we pass and sign into law, ever intended for 
somebody like that to be impacted the way he is. I think it is 
something that this committee and subcommittee needs to take a 
look at in the future, and I certainly hope that the panelists 
would agree.
    Thank you very much. I yield back no time because I have 
none, Madam Chair.
    Ms. Norton. Thank you, Mr. Davis.
    I recognize the chair of the full committee, Mr. DeFazio.
    Mr. DeFazio. Thanks, Madam Chair. I would just like to 
delve into whether or not we have a shortage of truck drivers 
or people willing to undertake truck driving. Or is it problems 
within the industry that are causing tremendous turnover, which 
make it appear that we have a shortage?
    So as I understand, the Teamsters in their master agreement 
have essentially detention time?
    Mr. Byrd. Yes. Yes, we do.
    Mr. DeFazio. OK. So what kind of turnover do you have?
    Mr. Byrd. We have--and thank you for the question. We have 
very low turnover, certainly less than 10 percent. I think it 
is largely related to compensation and having very good working 
conditions relative to the industry.
    Mr. DeFazio. OK. Mr. Spencer, would you comment on the 
independent truck driver's experience with detention time and 
whether or not that is causing a problem for entrants or people 
moving out of the industry?
    Mr. Spencer. It is a monstrous problem that has actually 
cost trucking specifically as much as $3 billion a year and 
society over $5 billion. But the way it plays out is it means 
driver workweeks are always going to be 70 to 80 hours and 
sometimes longer.
    Now, they are not always working all of those hours. But 
their time is being controlled by others, and the biggest 
bandits on that deal are going to be shippers and receivers. 
And I should point out that these folks even now in some 
instances have the gall to actually charge drivers for late 
deliveries.
    Mr. DeFazio. And how tightly are they scheduling people? 
That is the first time I have heard about that.
    Mr. Spencer. Well, actually, Walmart started doing it more 
than a year ago. Made quite a noise doing it. Having said that, 
the dilemma that drivers have, they are asked to work around 
everyone else's schedules. They voluntarily choose to try to 
stay out of traffic congestion as much as they possibly can to 
accommodate everyone. They do not have their time. The rigidity 
of the regulations sometimes forces them to do things that they 
do not want to do.
    Mr. DeFazio. All right.
    Ms. Chase. Mr. Chairman?
    Mr. DeFazio. Yes.
    Mr. Young. Can I jump----
    Mr. DeFazio. Yes. Go ahead.
    Mr. Young. The detention time is really key. The shippers 
and the receivers are not regulated like the truck driver. So 
ultimately, the shippers and receivers can abuse the entire 
Federal Motor Carrier safety regulatory code and then 
ultimately try to escape liability, which would not be a good 
thing because they are the ones that have put the pressure on 
these poor truck drivers.
    And it is really important that the shippers and receivers 
hold onto some of that responsibility, and it starts with 
detention time. We need to eliminate some of these late fees 
with just-in-time shipping, eliminate detention time. With 
ELDs, we should know and be able to figure out which are the 
major abusers. Thank you for the time.
    Ms. Chase. Mr. Chairman?
    Mr. DeFazio. OK. Yes?
    Ms. Chase. May I add a comment to that? It struck me as I 
went on the ride-along that I mentioned earlier that while we 
were sitting there waiting for the load both to arrive and to 
be loaded, that I was getting paid but the truck driver was 
not, which there was some irony in that.
    I also just wanted to mention--and ask for your permission, 
Madam Chairwoman--for this study to be submitted to the record.
    Ms. Norton. So ordered.
    [The study referred to follows:]

                                 <F-dash>
  Stephen V. Burks and Kristen Monaco, ``Is the U.S. labor market for 
  truck drivers broken?,'' Monthly Labor Review, U.S. Bureau of Labor 
    Statistics, March 2019, Submitted for the Record by Hon. Norton
    The report is retained in committee files and is available online 
at https://doi.org/10.21916/mlr.2019.5.

    Ms. Chase. Thank you. There is a study from March of 2019 
from the Bureau of Labor Statistics. And Advocates does not 
have an independent economist, but we rely on the studies of 
everyone else. And I just wanted to mention this quote:
    ``While we do use ATA data to identify one segment of the 
trucking labor market, long-distance truck load motor freight, 
that has experienced high and persistent turnover rates for 
decades, the overall picture is consistent with a market in 
which labor supply responds to increasing labor demand over 
time, and a deeper look does not find evidence of a secular 
shortage.''
    So I found that study to be completely telling.
    Mr. DeFazio. Thank you.
    To the Pepsi testimony on the 102,000-pound truck, I think, 
in Canada, that truck, I do not believe, even with six axles, 
would meet our bridge formula in the U.S. Do they have 
different bridges?
    Mr. Noble. Correct. In our proposal, we are only proposing 
the 91,000-pound, not the 102,500-pound. Now----
    Mr. DeFazio. OK. What would be the comparison of a stopping 
distance of a 91,000-pound, six-axle truck to an 80,000-pound, 
five-axle truck?
    Mr. Noble. When we looked, the study shows that with adding 
the extra axle adds the extra brake. It is a 1-foot-shorter 
stopping distance on that vehicle.
    Mr. DeFazio. OK. Now, of course, one issue here is reaction 
time, and without automated braking. Do you support the idea 
that we should move to automated systems to get the braking 
going faster?
    Mr. Noble. At PepsiCo, obviously, all the safety features 
that we have--safety is paramount. So it is not just in 
conjunction of just reaction, but we have got to do more, and 
we have done more, to add to our trucks all the different 
safety features, just like the collision mitigations, the lane 
departures, blind spot, the headlights, backup cameras, 
antilock brakes, traction control, stability control, and 
driver training.
    So I think all of that in conjunction enables a safer 
fleet. But it cannot be just one or the other.
    Mr. DeFazio. OK. Thank you, Madam Chair. My time is 
expired.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Gibbs.
    Mr. Gibbs. Thank you, Madam Chair.
    Mr. Spencer, the FAST Act required that, regarding the 
analysis of violations and other safety data under the 
Compliance, Safety, Accountability, the CSA, program be removed 
from public view until the deficiencies identified by the 
National Academy of Sciences study were addressed.
    To your knowledge, have the recommendations of the National 
Academy of Sciences been fully implemented, the report? Can you 
comment what is the status, Mr. Spencer?
    Mr. Spencer. I understand that those issues are being 
addressed and tweaked now. As I said in my earlier comments, 
what we see is the big connect between relying on these 
particular regulations and actually safety. The regulations 
track compliance but they do not really measure or actually 
identify safe/unsafe, and that has been mentioned several times 
here today.
    We are optimistic it can get a little bit better, but we 
think there needs to be a different focus on what we enforce. 
And again, about the last thing that we want to be doing is 
causing experienced drivers to leave trucking, and we have that 
right now for lots of reasons.
    Mr. Gibbs. No. I agree with you. I do not think they should 
be made public until we have fixed that system or changed it or 
whatever because I think it has not been fair to the drivers. 
And you concur at that. Right? It should not be made public, no 
doubt?
    Mr. Spencer. All the way along, no one can rely on that 
data, that information, as an indicator of safety. In fact, 
early on some of the basics were compared with crashes, and 
FMCSA identified those that had more violations had fewer 
crashes. That has not been fixed.
    Mr. Gibbs. Yes. Mr. Young, you noted in your testimony 
regarding the motor carrier selection standard, that it is 
really pointless. And you are concerned about providing cover 
to the brokers and shippers. Can you expound a little bit on 
that?
    Because my understanding is we have got 1,700 or so brokers 
and shippers and 3 to 4 million carriers. And what this 
legislation would do is it would require that--to make sure 
that when the brokers are hiring carriers that they meet some 
minimum standards, like they have insurance, they have a good 
safety record. And in your testimony, you said it was 
pointless. So can you expound on that so I understand that a 
little bit better?
    Mr. Young. Yes. You missed the comments earlier. But I want 
to thank you for your warm welcome. Again, I am proud to be one 
of your constituents.
    Very briefly, the way that the current system is set up is 
that the brokers and shippers need to be looking at the 
driver's scores and the motor carrier's scores, and 
particularly the out-of-service percentages, in my opinion, not 
just simply the basics, the behavioral analysis, safety 
improvement categories, and those 640 infractions that are part 
of those categories.
    But if the out-of-service percentages are exceeding the 
national averages, the brokers should not be allowed to hire 
those particular folks or escape liability from hiring those 
particular folks when they are involved in a crash.
    As I indicated also in my oral testimony, 10 percent of the 
motor carriers represent close to 50 percent of all the 
crashes. So the brokers and the public needs to know what these 
scores are in these safety scores in order to avoid those 10 
percent bad apples so that they do not hire them.
    And if they do not have a rating because, as we heard from 
Chair Norton, about 86 percent do not have ratings, or if the 
ratings do not exist or there is not enough information 
available, then the brokers and shippers should take it upon 
themselves.
    C.H. Robinson used to have a safety questionnaire and audit 
that was included as part of their survey in order to get a 
motor carrier to sign on with them. It is my understanding that 
that is no longer part of their overall system. So it is really 
important that the brokers and shippers are not hiring these 10 
percent bad apples spoiling the bunch or creating multiple 
fatality situations.
    Mr. Gibbs. Now, this data you refer to, is this separate 
from the CSA? Or----
    Mr. Young. Yes. It is both, quite frankly. So the brokers 
and shippers were trying to escape liability in this last 
Congress, in the session, and it is anticipated that it is 
going to come up again. And it is important to not allow 
shippers and brokers to escape liability, particularly when 
they are the ones perpetuating cheaper freight rates. So safety 
must not be sacrificed for cheaper freight rates.
    So really, it is these 10 percent of bad apples and motor 
carriers that the broker and shipper needs to be aware of. And 
quite frankly, it is the broker and shipper that puts the 
pressure on the industry. So if the broker and shipper----
    Mr. Gibbs. I have only got 10 seconds, but I was just 
concerned----
    Mr. Young. Oh, my apologies.
    Mr. Gibbs. That is fine. On the CSA, where do you come down 
on that? Is that a broken system? Has it been unfair? Has it 
been fair? What do you see in that?
    Mr. Young. I think it is a good system from the standpoint 
that it helps provide something as opposed to nothing.
    Mr. Gibbs. My time is up and I yield back. Thank you.
    Mr. Young. Thank you.
    Ms. Norton. Thank you very much.
    Mr. Cohen.
    Mr. Cohen. Thank you, Madam Chair. I appreciate you and 
Ranking Member Davis holding this important hearing, and thank 
the witnesses for being here.
    One important issue that I have worked on, and would like 
to return to--I know it has been discussed--is truck underride 
crashes, circumstances wherein all the passenger safety 
mechanisms placed in passenger vehicles are effectively 
rendered null and void when striking the rear, side, or front 
of a semi-truck tractor-trailer.
    Sadly, in 2014, Randy and Laurie Higginbotham of my 
community lost their 33-year-old son Michael to an accident of 
this type, as thousands of others have. And it was unnecessary. 
Unfortunately, this is an issue that has been on the industry's 
radar for decades, yet little action has been taken. Policies 
to prevent this are long overdue.
    Ms. Chase, I know you discussed this earlier. You mentioned 
in your testimony in 2017 large truck crash fatalities took 
4,761 lives, a 9-percent increase from the previous year, and 
an increase of 41 percent since 2009. That same year, 2017, 
there were 148,000 individuals injured in large truck crashes. 
Of those injuries, some of the most debilitating came because 
of truck underride crashes.
    Can you expound on your testimony and suggest what Congress 
can do to effectively cure this problem?
    Ms. Chase. Yes. Thank you for your question, Congressman. 
And thank you also for your leadership on the underride issue. 
We are very grateful that you have introduced legislation to 
help eradicate this horrific and violent type of crash.
    I think that the video that Mr. Young showed was very 
telling. There is just no escaping the laws of gravity and of 
physics. And when there is a proven solution such as an 
underride guard, we would really encourage Congress to require 
the Department of Transportation to issue a final rule, a 
performance standard, that would require this problem to be 
solved. We have the solutions. We just need the leadership to 
make it happen.
    In addition, I also outlined a couple of other technologies 
that are proven and on the roads today, such as automatic 
emergency braking; a few of the other witnesses also mentioned 
it. That should be standard technology in all cars.
    Mr. Cohen. Thank you so much. And I appreciate your mention 
of my ``leadership.'' It is unfortunate that I have that 
leadership. It is not because of any particular study or 
knowledge. It is because constituents had their lives changed 
when their son was killed. And it could have happened to 
anybody in this committee. And if it would have happened to 
anybody in this committee, they would be in favor of changing 
this law as well. It just has to come home.
    Mr. Young, based on your unique experience as an Owner-
Operator Independent Drivers Association member and an 
attorney, do you believe the industry will voluntarily self-
regulate for the sake of safety on this matter, or do you 
believe they need to be brought to the table?
    Mr. Young. I believe there needs to be a mandate. This has 
been a 60-year-old problem that began in 1953, and it still has 
not been solved. While the industry protects the back of a 
semi-trailer, why not the sides as well? We have the entire 
open sides, and we are talking about crumple zones, airbags, 
energy-absorbing bumpers, and seatbelts.
    There is a ton of safety and data that has gone into the 
crashworthiness of cars and protecting those occupants. But the 
bumpers have to match up in order for that to work. I do not 
see the industry doing this without a mandate.
    Mr. Cohen. Thank you, sir.
    An additional issue I have worked on and would like to 
bring to the attention and ask some questions is about double-
deck livestock trailers that transport horses in interstate 
commerce. This remains largely legal in this country. Double-
deck trailers with horses crammed inside have tipped over and 
been implicated in accidents, in part because the animals 
cannot retain their balance--they have enough trouble at Santa 
Anita when they are running--and leading to dangerous 
situations on the road.
    In one particularly gruesome accident in Illinois, 59 
horses were being transported in a double-deck trailer. It 
crashed. Numerous horses were left dead while authorities 
worked for hours to rescue surviving animals from the wreckage. 
Simply no reason to put the safety of other drivers and 
passengers on the road at risk, as well as the welfare of the 
horses being transported in these conditions, when trailers are 
specifically designed for and can accommodate horses.
    Mr. Young, once again, based on your experience--attorney, 
owner-operator group--do you think this is a worthy issue for 
inclusion in the highway safety and transportation laws?
    Mr. Young. I believe it is a worthy issue because we are 
talking about the high center of gravity. My truck company used 
to run scrap-hauling boxes with a power takeoff unit, and those 
scrap-hauling boxes have such a high center of gravity that 
when I went to OI to ask for insurance on it, they said, 
``Well, we do not even insure high-center-of-gravity boxes like 
that, or the power takeoff unit for those scrap-hauling 
boxes.''
    So when you are talking about something with a high center 
of gravity like the horse trailers, then that is definitely a 
safety initiative. And if our goal is to get to Vision Zero and 
truly get to Vision Zero, then yes, it needs to be included.
    Mr. Cohen. Thank you. Appreciate the panel, and I yield 
back the balance of my time.
    Ms. Norton. Thank you very much, Mr. Cohen.
    Mr. Massie.
    Mr. Massie. Madam Chair, I yield my time to the gentleman 
from Florida, Mr. Webster.
    Ms. Norton. Mr. Webster is recognized for 5 minutes.
    Mr. Webster. Thank you, Madam Chair. Thank you, Mr. Massie, 
for yielding.
    Let's see. Mr. Noble, were you the one with the slide that 
showed the trailers with their weight?
    Mr. Noble. Yes, sir.
    Mr. Webster. Does the weight, the 80,000 pounds, does that 
include the weight of the trailer and the cargo?
    Mr. Noble. Yes, it does.
    Mr. Webster. OK. So Mr. Noble--well, no, Mr. Spear. Let me 
ask you, is there anyone in your arena--I know you also cover 
the trailer manufacturers--are they working on anything that 
would make a lighter trailer? I have done a lot of study for 
resilient construction dealing with composites, but it did not 
have to do necessarily with building trailers. It had to do 
more with possibly using them for I-beams on bridges and so 
forth.
    But if you had a lighter trailer, you could carry more 
weight. Is that correct? And still have the same weight?
    Mr. Spear. The weight of the vehicle, generally, as the 
rules are written, discount the weight of the trailer and 
truck. So that is not counted against the capacity. When it is 
80,000 pounds, it is 80,000 pounds of what you are carrying. 
There are always investments in the trailer to make it 
stronger, lighter. There are limits to that, obviously; you do 
not want to compromise the integrity of the trailer either. 
There are standards that it has to uphold to, that it has to 
meet.
    Mr. Webster. Yes. Whether the same size I-beam, that's a 
composite, is stronger than steel. So that would not be the 
problem.
    So would that not, though, be a case for proving that if 
you had a lighter trailer, it seems like the idea of trailer 
weight and so forth, if it is not included, then the cargo 
itself could be more even though you are going beyond the 
capacity. You would not be adding anything to the weight on the 
road. Is that correct?
    Mr. Spear. Yes.
    Mr. Webster. Is there any thought of that?
    Mr. Spear. Well, certainly. Obviously, size and weight, 
length and weight, have not been changed federally since 1982. 
So you have a mix-match now since that time of States that have 
been given exemptions, so you have a various degree of weight 
and length configurations throughout the country. It is just a 
quilt of limits that are permitted.
    So if you are a manufacturer, you have got to meet a 
Federal limit. Obviously, we are interstate commerce, so we are 
jumping State to State all the time. So if you go from one 
State that allows it to another that does not, that equipment 
is not going to be as useful to the carrier.
    So they are generally designing standards that are 
interstate-based unless you are running regional. Like in the 
West, you can run a number of configurations to weight as well 
as length. You have got Rocky Mountain doubles. You have got 
triples. Triple 28s. Those are not uncommon equipment used in 
various States.
    So you have to take into account the patchwork of 
configurations that State laws now permit. The manufacturer now 
has to work with the carrier to design equipment that meets 
their customer needs. Does that make sense?
    Mr. Webster. Yes, that makes sense. However, we do not do 
State to State. We do give waivers, I assume. But the point is, 
if the trailer and the cargo weight were combined, which it 
probably should be if you are talking about what is going to 
tear up the roads or be unsafe or whatever, it seems like those 
two combinations should add up to really what weight we allow 
on the roads.
    And the point is, if you did much investment possibly in a 
lighter trailer with composite material, you could get to a 
point where you would be able to have more cargo, really the 
same impact on the road, though. Do you think that is true?
    Mr. Spear. Yes. I think there is evidence to show that, 
without compromising safety. I think the stoppage distance is 
exhibited in previous answers to questions. It is well 
documented. It is well tested.
    Mr. Webster. I mean, the stoppage distance is going to be 
governed by the overall weight no matter what. Even if we do 
not count that as the weight of the trailer, as part of the 
weight that you can carry on the road, still when you come to 
stopping you have got to include that into whatever calculation 
you are making in whatever time you can stop.
    Do you know what the weight of a trailer is? I do not know. 
Do you?
    Mr. Spear. It varies. There are so many configurations--28s 
to 48s to 53s. You got tank. Flatbed. It depends on what you 
are hauling.
    Mr. Webster. OK. Well, if you are not hauling anything, it 
is just--do you know?
    Mr. Noble. Yes. If I may, we have been working on 
lightweight trailers because, obviously, our products with 
Pepsi are heavy. So we have been lightweighting our trailers 
for many years so trailers around that 15,000 pounds. So any 
more cargo--but we still have empty space on the trailer.
    So one of the ideas that we have proposed in the SHIP 
Coalition is by putting more cargo, allowing more weight on 
that single trailer--we are not asking for length, more length 
on the trailer, but on that single trailer--then we can move 
more product with less miles, less accidents.
    So when we look at the weight--and still be bridge-
compliant. So all the efforts that you are talking about, 
lightweighting trailers to increase the cargo space and move it 
safely, is what we are looking to do.
    Mr. Webster. Thank you very much. I yield back.
    Ms. Norton. Thank you very much, Mr. Webster.
    Mr. Johnson.
    Mr. Johnson. Thank you, Madam Chair, and thank you, Ranking 
Member Davis, for hosting this very salient hearing today. And 
thank you to the witnesses for your testimony.
    The American trucking industry is rapidly evolving and 
complex. As this Congress looks to pass sweeping surface 
transportation legislation and a robust infrastructure package, 
we are tasked with considering both the effects of trucking on 
our roads, jobs, economy, and more, as well as Federal and 
regulatory input on the trucking industry.
    More than ever, as our trucks are getting larger and 
heavier, more technologically advanced, and seek to travel 
further distances, we must ensure that those behind the wheel 
and those who share the road are optimally safe. I look forward 
to engaging the bevy of transportation professionals here today 
to achieve safer roads and regulations for all.
    Mr. Spencer, your testimony illuminates the concern that 
heavy regulation on truck drivers may color the trucking 
industry, that it could get an undeserved reputation as a field 
with unappealing and unsafe work. With retention rates already 
under threat, there is valid concern that entry to the trucking 
workforce may be hindered.
    How can we improve working conditions to attract and retain 
drivers in a rapidly evolving industry?
    Mr. Spencer. The reason drivers stay is because of pay, 
benefits, and working conditions. The reasons they leave are 
for the lack thereof. Many of the regulations that are on the 
books today hold drivers accountable for everything that could 
possibly go wrong, but none of those really address the 
frustrations and the lost time that drivers will spend in 
shipping and receiving facilities.
    Again, we are talking about anywhere from 10 to as much as 
45 hours a week, every week. That puts a workweek for a truck 
driver at 80, sometimes more, hours per week. When somebody is 
considering an occupation, a career, do they take one that 
involves work 40 or 45 hours a week where you are home, or one 
that is 80 hours or more and you are away from home and you do 
not make more money?
    I do not think that is a real tough decision. People are 
going to make the decision that works best for them, and who 
can blame them? We have to address the economic issues for 
drivers, how they are paid, and the quirks that allow them to 
actually work unlimited hours without any kind of overtime 
compensation.
    The market cannot fix that kind of stuff if drivers are 
paid nothing for their time and the vast majority are paid 
nothing for their time right now.
    Mr. Johnson. Are you seeing any indication that younger 
drivers are eager to enter the trucking workforce?
    Mr. Spencer. Actually, I have never really seen instances 
in my career in trucking where this was immediately attractive 
to young people. And trucking is not--I entered trucking in my 
mid-20s. I became a truck owner at 26. Generally, people that 
enter trucking today are doing it because of issues with 
another job, another career they had. They look for something 
better.
    In theory, a trucking career is appealing because it is all 
about productivity, and if you are willing to work, you 
should--a reasonable person would assume they will get ahead. 
What too many figure out really, really quick is that everybody 
is working their tails off and they are not getting ahead and 
it does not look like it is ever going to change.
    Mr. Johnson. Would you say that there are specific 
protections that should be put in place for 18- to 21-year-old 
drivers?
    Mr. Spencer. I am not a--we, our organization, is not a 
proponent of lowering the permissible driving age for 
commercial drivers below 21. And everything about this 
committee is about safety. When we look at the numbers of 
crashes, of where crashes take place, and the drivers, you do 
not take that age down. You take it up. You take it up to at 
least 25, which is largely what it was back in the 1970s when I 
entered trucking.
    Mr. Johnson. Let me ask Mr. Byrd this. Would you agree with 
that?
    Mr. Byrd. I would agree that we do not support lowering the 
age for drivers in commercial trucking. One of the approaches 
that we have used to attract young workers to the trucking 
industry is establishing an apprenticeship program. So we 
recruit candidates who are 18, 19 years old, and we teach them 
about the trucking industry, the transportation industry, 
working on the dock, and working various other aspects of the 
trucking industry--shifting, working in the yard.
    And as they approach 21 years old, we have by that time 
given them significant seat time on ranges and taught them how 
to properly drive and prepare them for working in the industry. 
So that has been our approach.
    Mr. Johnson. All right. Mr. Spear, you are raising your 
hand?
    Mr. Spear. I would like to give, if time permits, Madam 
Chair, just an alternative view to this question. Eighteen- to 
twenty-one-year-olds are already legally allowed to drive a 
class 8 in 48 States. OK? It is current law. I would love to 
know where the opponents on this panel were when those 48 
States passed those laws. I did not hear anything from them. 
But they are quick to point out that federally, we should not 
do it. We should not do it.
    Bottom line, the DRIVE-Safe Act, the reason one-quarter of 
the House and Senate, bipartisan, Members like Ms. Jackson Lee, 
understands why cosponsoring this matters--because it is safer. 
Four hundred hours of apprenticeship-based training, of which 
240 of those hours have to have an experienced driver in the 
cab with the 18- to 21-year-old.
    It has to have speed governors, cameras, anticollision 
mitigation systems. None of the 48 States have any of that 
currently. This is a step towards safety, not away. And I would 
love to know where the Members and the opponents of this bill, 
18- to 21-year-olds, are on our military. I was just on the 
Abraham Lincoln. It is over in the gulf now. Over 5,000 sailors 
on that aircraft carrier, Madam Chair, and the average age is 
19.
    When I was up on the captain's deck, he gave an order for a 
20 degree right rudder. And I heard a 19-year-old female sailor 
at the helm take that order, ``Right degree, aye, sir.'' 
Nineteen years old she was, steering a $4 billion aircraft 
carrier. Ninety aircraft were $30 million apiece. Two nuclear 
reactors. And 104,000 tons of displacement.
    I think if we can teach somebody to steer an aircraft 
carrier, I am pretty sure we can teach them how to cross State 
lines in a class 8.
    Mr. Johnson. Thank you. I yield back.
    Ms. Norton. Thank you very much. Your time is expired. I 
should note that a military pilot test is going on as I speak. 
I appreciate your raising that, and your note about 48 States 
or 47 States should indicate that they can only drive in the 
State. And the issue for us is across the States, where we 
still have work to do.
    Mr. Babin. Put on your microphone, please.
    Dr. Babin. I am sorry. OK. Thank you, Madam Chair.
    Under the Trump administration, FMCSA has rightfully 
withdrawn rulemakings related to sleep apnea, safety fitness 
determination, and minimum insurance limits. The agency has 
also categorized the speed limit or mandate as a long-term 
action, which essentially places it on the back burner.
    I wanted to ask you the first question, Mr. Spencer. Do you 
and your members support these types of actions, and are there 
additional regulatory--or, rather, deregulatory--actions that 
the Federal Government could take to help make trucking a more 
viable career without jeopardizing safety, such as modernizing 
today's rigid and convoluted hours-of-service requirements?
    Mr. Spencer. Thank you, Congressman. I can tell you that 
our members, small business truckers, the small business 
trucker industry, really embraces the idea of regulatory 
reform. Most of the--as I mentioned in my testimony earlier, we 
see a tremendous disconnect between the regulations and actual 
safety.
    But the focus is on enforcing regulations, and some of 
those are clearly counterproductive. You mentioned sleep apnea 
specifically, and I know some are focused on that as the big 
bugaboo now. But it does not cause drivers to crash trucks. And 
what happened when we had increased focus, increased 
enforcement--and this was all economically driven--we put a lot 
of those guys out of trucking. And as a result, we believe that 
is a contributor to fatalities on the road going up.
    We, our organization, would like to see a wholesale review 
of all of the truck safety regulations. And if there is not a 
connection to crashes, why are we wasting time, money, and 
effort on enforcing it? Focus on those things that do have 
something to do with crashes. We will get a better bang for our 
buck. And we are tickled the administration is pursuing that.
    Dr. Babin. OK. Well, thank you very much.
    And then secondly, Mr. Spear had mentioned veterans and 
Active Duty personnel. In my district, a truck driver that does 
not have a transportation worker identification credential, or 
a TWIC card, is essentially no truck driver at all. Drivers 
need this card to gain access to the Port of Houston, which I 
represent, and all of the petrochemical facilities that I 
represent, the highest concentration in the United States.
    As we face a nationwide truck driver shortage, any backlog 
and delay in the TWIC card approval process is only 
exacerbating the problem. And I am introducing a bill this very 
day to allow TSA to provide provisional temporary TWIC cards 
within a day or so of application to honorably discharged 
veterans while their background checks are being processed so 
that they do not have to wait potentially months before they 
can drive.
    Surely if these veterans recently passed rigorous security 
screening so they could drive trucks on bases in Afghanistan, 
they should not be waiting months for approval for a TWIC card. 
Now, these are veterans who have had driver experience.
    And I would ask if anyone on the panel today thinks that it 
is a dangerous or bad idea for an honorably discharged veteran 
with truck-driving experience to qualify to get a provisional 
TWIC card on the day they apply. And does anyone believe that 
this idea will help address driver shortages and veteran 
unemployment rates, among other issues?
    I guess, Mr. Spear, I am going to ask you first.
    Mr. Spear. Well, thank you for dropping the bill. I can 
tell you right now, from your description, we would be first in 
line to support it. I have testified on this issue before in 
the Senate. It has been 18 years since 9/11. Eighteen years. 
And our own TSA cannot produce a common access card like DoD 
has.
    DoD recognizes the TWIC card. If you are a driver with a 
TWIC card, you can get on any military base in the country.
    Dr. Babin. That is right.
    Mr. Spear. But you go to any other facility that is 
hazardous, it is not recognizable because TSA has not come out 
with a standard. They keep changing the rules. Administration 
to administration, I could point fingers at both sides of this. 
It is absolutely certain. The burden that comes back to our 
drivers to have to obtain a TWIC card, the cost associated with 
it, the time associated with it, it is ridiculous.
    I testified in the Senate. I served in a couple war zones, 
Iraq included. And I am amazed that in the Green Zone in 
Baghdad, the Iraqi Government can come up with an ID that is 
almost identical to the DoD common access card. Now, Iraq is 
not known as a bastion of efficiency. But if these guys can 
come up with a common access card and our own TSA cannot do it 
in 18 years' time, what does that say? I applaud you for the 
bill.
    Dr. Babin. Thank you. Thank you very much. And I see my 
time is expired, but I will----
    Mr. Young. Representative Babin, I would like to chime in 
on the speed limiters and sleep apnea issue. My Peterbilt 359 
actually has a speed limiter. It is under the 70 mile an hour 
in the State of Ohio.
    My physique required my medical card physician to require 
me to take a sleep test. Fortunately, I passed it. I do not 
need to have it. It is really not sleep apnea that causes the 
accidents. It is the fact that sleep apnea causes folks to be 
drowsy and not get enough sleep to remain alert behind the 
wheel.
    There is a lot of medicine behind this and medical doctors 
that support it, including my own doctor who said, ``Hey, if 
you have sleep apnea, it is better for your heart condition to 
make sure that you have a CPAP, et cetera.'' And I think the 
drivers that have CPAPs subscribe to it, like it, and agree 
that it makes them more alert behind the wheel. So thank you.
    Ms. Norton. Thank you very much. Mr. Babin's time has 
expired.
    Mr. Garcia.
    Mr. Garcia. Thank you, Chair Norton and Ranking Member 
Davis, for organizing this hearing.
    Two thousand seventeen was a record for Chicago and the 
Nation for roadway fatalities. I want to ask a question about 
emergency braking, but I would like to preface it with some 
statistics. According to the Federal crash data from the 
National Highway Traffic Safety Administration, from 2009 to 
2017 truck crashes in which a truck rear-ended a passenger 
vehicle increased by 50 percent, despite the availability of 
new safety technologies like forward collision warning systems 
and automatic emergency braking that help prevent such crashes.
    For example, Schneider National saw a 68-percent decrease 
in rear-end crashes and a 95-percent reduction in rear-end 
collision claims since it began equipping collision mitigation 
systems in 2012. Another company, Conway, conducted an internal 
study, which reviewed AEB electronic stability control and lane 
departure warning. They found a 71-percent reduction in rear-
end collisions and a 63-percent decrease in unsafe following 
behaviors with the safety features.
    In fact, some of the most popular truck models, like Volvo 
VNL 760, the Peterbilt 579, the Freightliner Cascadia, the Mack 
Anthem, and every new international truck, now include AEB as 
standard. Mr. Young and Ms. Chase, briefly, please, do the 
Truck Safety Coalition or the Advocates for Highway and Auto 
Safety support requiring original equipment manufacturers to 
manufacture new trucks with AEB technology?
    Ms. Chase. Thank you for the question, Congressman. Yes, we 
absolutely support automatic emergency braking as standard 
equipment. In fact, in 2015, Advocates, together with the Truck 
Safety Coalition and some organizations, petitioned the 
Department of Transportation to conduct a rulemaking that would 
require FCAM, also now known as AEB, in all trucks. This is 
technology that has been proven to be successful, and there is 
no reason that it should not be in all trucks today.
    Mr. Garcia. Mr. Young?
    Mr. Young. Yes. While the manufacturers indicate that they 
have made them standard, there is a delete credit. So if a 
dealer tells the motor carrier who is purchasing a vehicle, 
``Hey, I can make it cheaper for you just to delete the AEB,'' 
that is why we need an AEB mandate. Because the original 
equipment manufacturers have made it standard does not mean it 
is getting on these trucks. And these will truly prevent 
crashes along with speed limiters and many of the other issues 
we are talking about.
    Mr. Garcia. And again, to both of you, would your 
organization support legislation that would require all motor 
carriers to require their trucks be equipped with AEB to use 
this crash prevention and mitigation technology?
    Mr. Young. Absolutely, because of the fact that you have 
this front override or front underride, this, and along with 
the underride bill, will prevent these crashes. So it is an 
``and both'' type of a scenario.
    Mr. Garcia. Thank you. Ms. Chase?
    Ms. Chase. Yes. Absolutely, we would support that.
    Mr. Garcia. OK. Thank you.
    Changing gears to trucking insurance minimums, to both of 
you again, the cost of medical care and other expenses has 
increased in the last 40 years, as has inflation. Still, no 
change in four decades has been made to trucking insurance 
minimums since 1980, and the current insurance cap is $750,000. 
Is that correct?
    And do you think that the current level of insurance is 
sufficient to fully compensate families and ensure safety in 
the event of a crash involving a truck? And would your 
organizations support adjusting truck insurance minimums?
    Mr. Young. Thank you for the question. The insurance 
minimums are grossly inadequate. As you indicated, it has been 
nearly 40 years, so it was originally set in 1980. If we 
adjusted to inflation, the minimum insurance should be $2.4 
million.
    In addition to that, the money that is the premium is for 
the first million dollars, or the lower level. It is not a 
double in the coverage in order to get double the coverage. So 
you do not have to pay double the premium to get double the 
coverage.
    So an increase in insurance minimum will protect families 
in particular, even truck drivers who are killed by other 
negligent truck drivers. And then when you have a situation 
where there are multiple fatalities, which we hear about on a 
regular basis, there is not enough insurance for all the folks 
there. So then the taxpayer gets saddled with having to take 
care of these people through Medicare or Medicaid and Social 
Security disability if there are injuries.
    Mr. Garcia. Thank you. Ms. Chase, very briefly?
    Ms. Chase. As our board is comprised half of insurance 
companies, we do not take a position on this issue.
    Mr. Garcia. OK. Thank you.
    And lastly, Mr. Byrd from the Teamsters, in your statement 
you mentioned that the potential expansion of the short-haul 
exemption from 12 hours to 14 hours is a problem. Can you tell 
us why expanding it would be bad for workers?
    Mr. Byrd. Thank you for question. Well, drivers, CDL-
qualified drivers, they are driving larger trucks. They are 
delivering more freight. They are delivering heavier freight 
than, say, for short-haul operators that are driving vehicles 
that weigh less than 25,001 pounds.
    So what that is going to result in, we believe, is that 
these drivers will work longer hours. They will handle more 
freight. They will handle heavier freight, and it will put them 
at increased risk of experiencing musculoskeletal disorders, 
for example.
    And one of our big concerns is that along with that, we 
have an aging driver workforce among our membership. So you 
have got older drivers who would be called upon to do more 
work, to do heavy work, and we are concerned that it could have 
an adverse impact in terms of them experiencing injuries.
    Ms. Norton. Thank you.
    Mr. Garcia. Thank you. I yield back, Madam Chair.
    Ms. Norton. Mr. Garcia's time has expired.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Madam Chair.
    I got a lot of car drivers that want to ask me this one 
here. Does California have a specific 55.1 mile-per-hour speed 
limiter when trucks are on the four-lane freeway passing each 
other doing those 4-mile-long turtle races? You do not have to 
answer that, but there is a lot of frustrated car drivers 
getting behind those turtle races when they are going 55.1 for 
about 4 miles.
    Anyway, what I am going to jump to here is the FET tax and 
a repeal we are working on. The FET on new trucks is 12 
percent, which is higher than alcohol and tobacco sin taxes in 
most States. This tax has been around 100 years. It was in 
place to help pay for World War I. It does not really generate 
that much money, and it adds about $20,000 in costs to new 
trucks.
    And so when we are trying to incentivize people to get 
newer, cleaner burning, more safe trucks, that seems like that 
is an opposite effect. It is really going to be huge for jobs 
and for injecting more into the truck builders economy as well 
as putting safer and nicer rigs on the highway.
    So Mr. Noble and Mr. Spear, do you think repealing this tax 
would lead to an increase in purchases of these cleaner, safer, 
nicer trucks?
    Mr. Noble. I do not necessarily have an opinion on if the 
tax is repealed, how that would affect. Again, from a PepsiCo 
standpoint, emissions, it is not about necessarily the expense 
of the equipment. It is the right thing to do from an emission 
reduction and investing in the technology for the right 
business reasons.
    Mr. LaMalfa. All right. No opinion?
    Mr. Noble. No opinion.
    Mr. LaMalfa. OK.
    Mr. Spear. Yes. We would favor repealing it. As you said, 
it is from 1917. And of those taxes that were put forward at 
that time for World War I funding, this is the only one that 
still stands as law. All the others went away. I do not know 
what the history is behind that and why ours is the only one 
that still remains intact. But it is not just and it is an 
inhibitor of buying new, safer, more environmentally friendly 
equipment. And it is a serious number. If you are purchasing a 
truck brandnew, this is an issue.
    So we would strongly recommend that it be repealed. We also 
understand that you are working under requirements to offset. 
We get the budgetary restraints that Congress is under. We 
would also work with you when funding an infrastructure bill to 
find ways to do that because I think this would be a really 
good step forward.
    Mr. LaMalfa. Yes. We are certainly looking at offsets on 
that, too. But Congress, over the decades, has kind of turned 
it on and off over time.
    But, Ms. Chase and Mr. Spencer, based on what you know 
about these newer trucks, do you think they are safer and more 
efficient for our network?
    Ms. Chase. I do think that newer trucks have the capability 
to be safer. And most certainly they should be equipped with 
the technologies that I mentioned earlier, such as speed 
limiters, automatic emergency braking, lane departure warning. 
And when I just did a ride-along last week, I experienced 
firsthand how safe a truck can be.
    And so I think that all trucks should be required to be as 
safe as the one I was in.
    Mr. LaMalfa. Yes, the laws--the speed limiter is not stuck 
on 55.1 on California freeways, right?
    [Laughter.]
    Mr. LaMalfa. Mr. Spencer?
    Mr. Spencer. Specific to California, you know, the point 
that you make over and over and over is speed-limited trucks, 
whether they are speed limited through technology or through 
artificially low speed limits, simply serve as impediments, 
barriers to other people trying to drive down the road.
    And I think it is really, really interesting, too, that we 
have proponents for making tougher, rear-end underride 
equipment on trailers when we have policies that actually have 
the net effect of causing more cars to rear-end trucks. I think 
it is somewhat ironic that we do that.
    Your question is specifically to the Federal excise tax. 
That is money right now that goes into the Highway Trust Fund 
that has been short for a number of years. As small-business 
truckers, we would like to see the Highway Trust Fund fully 
funded through user fees. Simply picking off the user fees that 
go into the--now we think it's sort of shortsighted public 
policy.
    We are optimistic that at some point Congress will make the 
decision----
    Mr. LaMalfa. Yes, I got you.
    Mr. Spencer [continuing]. To fully fund it.
    Mr. LaMalfa. So, you know, I appreciate that. Well, let's 
shift real quick, Mr. Spencer, to ELDs, and flexibility that 
people are looking for on that.
    Do you think they are really improving the safety of 
trucks? You kind of alluded to that before. Are they really 
improving safety, or is the flexibility actually making people 
do strange things on ELDs?
    Mr. Spencer. Again, my background is trucking. I did it 
myself. When I drove, I drove when I felt like driving. I drove 
to accommodate--whether I drove to accommodate shippers and 
receivers. And it wasn't always in blocks of 10 or 11 or 14.
    Again, what ELDs have done has created the stress level for 
drivers. But what they have pointed out is the problems that we 
have with existing hours-of-service regulations, which there is 
broad agreements that we need to modify them to provide 
drivers' flexibility.
    Mr. LaMalfa. Yes, especially with livestock or hazardous 
materials. The way I see it, if you got--you know, you need to 
get that extra hour, or you need to get this material somewhere 
it isn't--oh, got to take a break, I am in the middle of I-80, 
between San Francisco and wherever. It doesn't seem to provide 
sensible flexibility.
    Ms. Norton. Thank you, Mr.----
    Mr. LaMalfa. Thank you, ma'am.
    Ms. Norton [continuing]. LaMalfa. Your time has expired.
    Ms. Davids?
    Ms. Davids. Thank you, Chairwoman, Ranking Member, and to 
all of the witnesses who are here today. I represent the Third 
Congressional District in Kansas, which is the Kansas side of 
the Kansas City metro area. And I am sure some of you know that 
KC is the largest--the second largest intermodal shipping hub 
in the United States. And a lot of that is because of the 
agricultural commodities that we transfer from rural parts of 
Kansas all over the country.
    And these are, actually, the very rural areas that Ranking 
Member Davis was speaking about earlier, which--you know, I 
would like to suggest that the urban-rural divide is maybe not 
as vast as we might think it is. And when rural Kansas does 
well, urban Kansas does well, and the entire country benefits.
    So I spent a little bit of time at DOT, and I had the 
chance to work on autonomous vehicle policy while I was there. 
And the development of the various types of technologies is 
something that is really interesting to me. The safety of 
drivers and of passengers is always of primary concern, as many 
of you have stated today.
    I am also really concerned about making sure that folks 
aren't being left out of the conversation about automation, 
that people are still able to make a living. And so I would 
like to ask some of our witnesses today if you can talk to me a 
little bit about what you think intentional implementation of 
autonomous systems looks like, whether that be the braking 
systems, or other types of autonomous implementation.
    So I would like to ask Mr. Spear, Spencer, Byrd, or Mr. 
Noble, depending on the time, all of you, what does that look 
like to you? What does intentional autonomous vehicle policy 
look like, so that we are taking care of everyone?
    Mr. Spear. Well, I think--and I have served on the Federal 
Advisory Committee at DOT on this issue, and representing 
trucking interests--and I am glad for that, because I felt for 
the longest time--and I have worn the auto hat, as well, at 
Hyundai--that trucking was not included in this discussion. And 
I think we need to be.
    We are moving 71 percent of the freight, we are paying half 
the tab into the trust fund. We have got skin in this game. And 
nothing to slight my friends in the autos, but we are not going 
to hand the whole playbook to them and the DOT to write. We 
have to be at the table to accommodate what the future is going 
to look like.
    Now, that really gets to the heart of it, because I think 
levels 2, 3, driver-assist technology, it is here, it is going 
to continue to grow. But to go to level 5 with no steering 
wheel, no pedals, driverless, I get really bullish on this, 
because I see people reporting on it all the time, that we are 
going to go driverless. And if you are trying to recruit 
somebody into this industry, if they think their job is going 
to be gone in 5 years, they are probably going to move on to 
something else.
    First of all, it ain't happening. We are not going 
driverless tomorrow, not 5, not probably even 50 years out. It 
will come someday. But we have pilots in planes for a reason. I 
kind of like that. But not just passenger planes. We have 
pilots in cargo planes. So you are going to have drivers in 
trucks for a long time. They are hauling 80,000 pounds. A lot 
of them are hauling petrol, chemicals. In this secure 
environment, I don't think you want that driverless.
    I think you are going to see cars evolve quicker, and they 
should; two-thirds of the accidents that involve trucks are 
caused by passenger vehicles speeding and texting. And that is 
where AEB coming online.
    And connectivity, that 5.9 gigahertz the National Safety 
Council and ATA are advocating at FCC, you connect the truck 
and the trailer with the car, the brake hits, you are not going 
to be hit in the trailer. It is a different way to get at the 
side underguards and the rear guards. I would like to take an 
approach where the accident doesn't happen at all. That 
technology assumes you are going to hit the trailer. So 
connectivity, I think, could solve a lot of the problem, and 
lower the fatality rate in getting us to zero.
    Mr. Spencer. My perspective of small-business truckers, or 
at least certainly of our organization, is that we recognize 
the potential for automated systems to tremendously improve 
highway safety, the potential. But we struggle to separate 
reality from what are simply marketing claims.
    And I heard some statistics thrown out a while ago for a 
big carrier that reports marvelous results with the use of 
different technologies. Well, I had heard that stuff before, 
and I have had our fellows look at the safety data that gets 
reported at FMCSA, and we don't see any difference in real road 
safety.
    So we would like for small business to be in a position 
where you have confidence that you can invest in technology 
that actually really will work.
    Ms. Davids. Thank you. And can I ask that you submit 
additional comments to the record for our review? Because my 
time has expired. But I just want to--I love you bringing up 
that truckers have not been at the table for the conversations, 
because everyone should be included in the conversation about 
this.
    Thank you, I yield back.
    Ms. Norton. Thank you, Ms. Davids.
    Mr. Westerman?
    Mr. Westerman. Thank you, Madam Chair.
    I would also like to thank all the witnesses for being here 
today. As I listen to your testimony, and talking about the 
vastness of the trucking industry, how it touches all parts of 
our country, I couldn't help but think about all of our 
transportation systems here, and how they are so interwoven. 
And I know with rail and waterways and ships and trucks and 
planes, we have it all in this country, and it, overall, I 
think works quite well, probably better than any place else in 
the world.
    And you know, with the vastness of it, and just in trucking 
by itself, I think it is great to have all of the different 
views at the table. And as a matter of fact, as you all gave 
your testimonies, I started taking notes of where there seemed 
to be disagreement on issues.
    You know, I wrote down there is a driver shortage, there is 
not a driver shortage; ELDs have improved safety, ELDs have 
worsened safety; automated and autonomous technologies are 
good, automated and autonomous technologies are bad; we need 
more flexibility in hours of service, flexibility in hours of 
service is unfair and unsafe; we have an aging driver 
workforce, and we are forcing experienced drivers out, yet we 
shouldn't allow younger drivers or apprenticeship programs; we 
have too many regulations, we need more regulations; making 
site-specific or industry-specific weight exemptions are 
increasing truck volume, but not weight, would reduce the 
number of trucks on the road, improving safety and reducing 
emissions. Increasing weights and volumes or making any 
exceptions damages infrastructure and decreases safety.
    So there is no--and I could have taken a lot more notes. 
There is no end of competing ideas at the table today.
    And just talking about the reality of the world outside of 
DC, and how we sometimes see things here, I know I can take you 
to Arkadelphia, Arkansas, in my district. It has got a little 
two-lane road running right between two college campuses. And 
they get several hundred log trucks that go down that road 
because they can't get out on the interstate for just a little 
ways to get around the town. Now, to me, that is a safety 
issue. But if there is no room for exemptions or common sense, 
then we will continue running the log trucks down a two-lane 
road between two college campuses.
    So my question--and this is open to anyone who would dare 
take it--can any of you suggest a safety regulation, a policy 
change, or an initiative that would improve safety that you 
think everyone else at the table today would agree with?
    Mr. Craig. I can certainly take that question. I think 
establishing a motor carrier selection standard would.
    Mr. Young's suggestion that we use out-of-service rules, 
and eliminate--and not use everybody who is more than 50 
percent above the national average indicates the confusion in 
that area. Right?
    If that is true, then we wouldn't be able to use 50 percent 
of the truckers out there. I don't think anybody agrees with 
that. But the question is the confusion--because there is no 
selection standard--is that--where do we draw the line? Is it 
20? Do we eliminate 25 percent of the carriers? Do we not hire 
5 percent? Do we not hire 8 percent?
    If Congress established a motor carrier selection standard, 
the rules that are enforced now would be enforced across the 
network, across the transportation freight network by shippers 
and brokers evenly, and exactly like FMCSA and CVSA intended. 
We would be able to take those carriers off the road.
    Mr. Young. Mr. Craig confuses the testimony that was given. 
Ten percent of the motor carriers, just 10 percent of all motor 
carriers, make up a near 50 percent of the crashes. And if you 
look at the out-of-service percentage ratings, which are very 
clear, if the out-of-service percentage ratings exceed national 
averages, then you need to look at that carrier a lot closer. 
You got to give them the strict scrutiny.
    So you are not accidentally hiring one of these 10 percent 
bad apples that ultimately cause these multifatality crashes, 
that these folks can't be compensated because minimum 
insurances are inadequate, or because we don't have vehicle 
crash compatibility with the underride guards.
    So he did not point out one that we don't--we disagree on 
this issue.
    Mr. Craig. I think it shows the confusion in this area, and 
establishing a standard would help, because right now you don't 
have to check anything.
    Mr. Young. As long as the standard does not take away or 
create an immunity for brokers or shippers, because they are 
the ones that are really pressuring the truck drivers. They are 
the ones that are putting the late penalties and fines on these 
folks. The just-in-time shipping, they are the ones not 
regulated, where the truck driver is accountable. The brokers 
and shippers need to remain accountable if they are hiring 
those bad apples. Because cheaper freight should not sacrifice 
safety.
    Mr. Craig. And there is a coercion rule already in place 
for exactly what Mr. Young is talking about. And the 
insinuation that cheaper rates equal less safety, 2018 should 
have been the most safe year on record, because rates were at 
their absolute highest.
    Mr. Westerman. I am out of time, Madam Chair.
    Ms. Norton. Thank you, Mr. Westerman.
    Mr. Spencer. I----
    Ms. Norton. The witness may answer.
    Mr. Spencer. I think there would be broad consensus that 
improved driver training would have a positive outcome, and I 
think there would be broad consensus on this panel that that 
could be positive.
    Ms. Norton. Thank you. The gentleman's time has expired.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair. I have some 
concerns that are not being covered yet with the growing 
problem, the misclassification of port truck drivers, 
especially in my two biggest ports in the area, in Los Angeles 
and Long Beach, where hundreds of drivers are being forced by 
unscrupulous trucking companies into working as independent 
operators as a way for the companies to pay drivers below 
minimum wage, and then they deny them benefits, creating an 
unlivable wage for them and their families.
    These truck drivers are forced to lease trucks at prices 
they can't afford. A common example is a truck driver being 
paid $200 a day, but having to pay lease fees of $190 a day, 
leaving $10 a day. Some of the drivers are actually making less 
than the leasing costs, and they are in debt. And if a truck 
driver misses one payment, that truck is appropriated, taken 
from them.
    It is unthinkable that companies continue to get away with 
a scheme to underpay truck drivers, who are hardworking people, 
who--and so, consequently, when there is a shortage of truck 
drivers, you wonder why they leave the type of employment and 
go somewhere else to get a better coverage for their families.
    Mr. Spear, what is the American Trucking Associations doing 
to stop these bad actors?
    Mr. Spear. I appreciate the question, Congresswoman. You 
and I discussed this at length previously. I promised you I was 
going to go to the Port of L.A. I did that. I visited all seven 
terminals, spent a lot of time there, looking at the situation.
    We have also canvassed our members on this issue. I am 
unaware of any of our members that are abusing that. I do not 
deny, however, that it is happening.
    And I think, for any bad actor that is pressuring drivers 
into a situation that is not sustainable, that they can't 
afford the equipment, they are pigeon-holed into it, and they 
can't get out, that is a situation that needs to be remedied. 
How widespread it is, I honestly, from that visit and those 
discussions, still do not have a conclusive idea of how 
widespread this problem is.
    I think it is fairly isolated. Nonetheless, it is a 
problem. If it is existing, it needs to be dealt with. And I 
think working with our Federal regulators, as well as State, 
definitely need to coordinate this and understand how it could 
be remedied.
    Mrs. Napolitano. It is not----
    Mr. Young. Representative, every lease-purchase program is 
that bad situation. It is not just in California. Every time a 
truck driver gets roped into one of these lease-purchase 
programs, where they are promised, ``Hey, we are going to give 
you keys to a truck, come drive for our company,'' the next 
thing you know all of the money they earned goes into the 
equity of that truck, and these poor people, these poor truck 
drivers, are then saddled with not being able to take any money 
home to pay their mortgage or their families.
    I would love to get ATA on record saying that they are 
against the lease-purchase programs for the entire industry. I 
would love to get that right now.
    Mrs. Napolitano. Or hopefully get banks or--to purchase for 
them the trucks without having to pay big interest rates.
    Mr. Noble, Mr. Craig, what are the business community and 
the broker community doing in your industries to not contract 
with the trucking companies that use abusive labor practices 
and misclassify their workers?
    Mr. Noble. Obviously, at PepsiCo, we have our own private 
fleet. So we try to put as much of our freight on our own 
private fleet, but we know the actors. We know the safety 
records. We know we have the control.
    But as you mention, 50 percent of our freight moves with 
carriers. And we do contract with our friends at C.H. Robinson 
on that. And so we do depend--and we make sure that we are 
picking the right partner, carrier partner, that is selecting 
the right carrier to move our freight safely.
    Mrs. Napolitano. Mr. Craig?
    Mr. Craig. Yes, I would actually point to the new 
California rule around checking if a carrier has had a judgment 
against them on an employment law. That is a great example of 
how good regulation will work to have the effects on the 
industry that you are talking about. We check the list that the 
Department of Labor of California publishes frequently, to make 
sure that we are not hiring those carriers. So----
    Mrs. Napolitano. We have a good enforcement attorney 
general, Mr. Becerra.
    Mr. Craig. But the key there is the clear indication of who 
to hire and who not, and to be able to reinforce the decisions 
of the California Department of Labor. Absolutely.
    Mrs. Napolitano. Mr. Byrd, do you have any comment, concern 
over this misclassification?
    Mr. Byrd. Yes. I know that we have a port division that 
works tirelessly to work closely with drivers to ensure that 
they are properly classified. And it is my understanding that 
there may have been some litigation and other activities 
surrounding properly classifying drivers.
    Mrs. Napolitano. Mr. Spear----
    Ms. Norton. I thank you very much. Mrs. Napolitano's time 
has expired.
    I want to call on Mr. Gallagher. A vote has been called. I 
ask Mr. Gallagher for 5 minutes.
    Mr. Gallagher. Thank you. I appreciate that. And I know we 
have had some talk about six axles, and I know this is bound up 
in a broader debate we are having about just how to fix funding 
issues of the Highway Maintenance Trust Fund, to fix our roads 
and bridges.
    I would highlight the fact that the Minnesota Department of 
Transportation found that the addition of a six-axle reduces 
wear and tear on roads by 37 percent. This allows for an 
increase in truck weight at the same time--at the same overall 
dimension as current trucks.
    USDOT has said they don't have enough information to know 
the impact of increased truck weight with a six-axle on our 
roads, which is why I joined with many of my colleagues in 
asking for Congress to authorize a pilot program, so we can 
simply get that information.
    But a question for Mr. Noble. In Canada I understand that 
PepsiCo is already safely operating 91,000-pound, six-axle 
trucks. Have there been any safety concerns with operating that 
truck configuration?
    Mr. Noble. Thanks for the question. When we look at Canada 
we are hauling over the 91,000 that we are proposing with the 
SHIP Coalition in Canada. Obviously, with that six-axle does 
come with the extra braking power that allows it to stop with 
that six-axle.
    We also run that configuration in other countries, as well. 
And most of the developed markets have higher weight limits 
than what we have, that were established in 1983 here in the 
U.S.
    Mr. Gallagher. So just to follow up on that, we do have a 
comprehensive size and weight study from USDOT that says a 
91,000-pound, six-axle truck would have a 1.2 billion reduction 
in annual vehicle miles traveled on U.S. roads. How would that 
reduction--I mean, if you believe that analysis--in vehicle 
miles traveled impact PepsiCo?
    Mr. Noble. Any miles that we can save by filling up the 
capacity on our vehicles--not just at PepsiCo--but any capacity 
that is wasted--we have talked about driver shortage, or driver 
retention, or whatever. If we can eliminate the miles, then we 
can retain--and a better safety record by eliminating that 
mile.
    But when you look at the proposal, that--again, when we--we 
want the--the States have heavier weight limits in most States. 
What we are asking for is allow the 91,000-pound to get off of 
those local and State roads, and put them on the access of the 
interstate, where they are designed more to do. And that way 
you--obviously, you are running in much more--you are not 
running the route miles when you are running State roads and 
highways, and you are not bypassing the colleges the other 
congressman was talking about. You are putting them on the 
safer roads, bypassing the State and local roads, and allowing 
it to be more safer, less miles.
    Mr. Gallagher. Sure. In addition to safety, I think one of 
the promising positive externalities of this approach would be 
the reduction of greenhouse gas emissions, as someone who is 
concerned about climate change. And so I just would hope that 
we could move forward with the pilot program, with the idea 
that it would result in safer roads, and also a healthier 
climate.
    I know that my colleague, Mr. Westerman, talked about the 
ability to allow logging trucks, in particular, access to 
Federal highways so that they don't have to go on roundabouts 
and local roads, which itself presents a safety concern. I have 
a bill that would authorize such a program, and I just would 
encourage my colleagues on the committee to consider that. I 
know it is not a silver bullet to our problems, but I think it 
is one small way where we can authorize pilot programs like 
this. And giving those logging trucks the ability to navigate 
on safer routes, I think, would again increase safety and also 
result in a more efficient use of fuel for that truck.
    Mr. Noble. That is a perfect example of what we are trying 
to accomplish with the coalition, with other members like Home 
Depot, Tyson, that are members of the coalition. Because, 
again, if you can take those heavier-weight trucks onto the 
interstate, where they belong, and where it is designed more 
for, then you can do that.
    Every mile you reduce--talking about emissions, every mile 
is a reduction, and it saves 2.5 pounds of carbon. You know, so 
obviously, with our emissions that we are trying to save at 
PepsiCo, not just with electric, but also going to alternative 
fuels--CNG in our tractors--but also it comes down--the best 
mile to drive is the miles you don't have to. And eliminating 
the miles is the best way.
    Mr. Gallagher. Well, I am out of time. Thank you.
    Ms. Norton. Thank you very much, Mr. Gallagher.
    We have a vote on. We understand there is one vote, so we 
are recessing this committee and asking Members to return 
immediately after that vote.
    This hearing is recessed.
    [Recess.]
    Mr. Lowenthal [presiding]. Good, we are going to reconvene 
the hearing. Unfortunately, there has been another motion on 
the floor that we are going to have to leave. So I am going to 
ask one question, and then we are going to recess again, 
adjourn the hearing again. And so I thank the panel for putting 
up with us. But we are not doing too well, you know? So--but 
let me begin.
    At our April hearing I raised the issue of obstructive 
sleep apnea, and the critical importance of combating driver 
fatigue. As Members know, as we all know, the NTSB has for 
years recommended that the FMCSA issue clear guidelines to 
screen for sleep apnea. But the Administration withdrew the 
rulemaking in 2017 to improve this screening.
    So the first question I have is for Ms. Chase. Can you talk 
about the risks posed to highway users by untreated sleep 
apnea?
    Ms. Chase. Yes, thank you for the question. Fatigue is one 
of the largest problems facing the trucking industry right now. 
In fact, the National Transportation Safety Board has 
repeatedly included it on its Most Wanted List, addressing the 
issue of driver fatigue. And it is particularly troublesome 
when there are ways to combat it, such as, to your point, the 
diagnosis of sleep apnea, and then the treatment.
    And the fact that the Administration withdrew that 
rulemaking is problematic, and we would encourage this 
subcommittee to move forward with legislation that would direct 
a final rule on the issue.
    It is not that we don't want truck drivers with this 
infliction driving, it is just that we want it treated, and 
especially when there are ways to treat it.
    Mr. Lowenthal. Thank you. And I raise the issue because one 
night, my wife awakened me and said, ``You are not breathing.''
    I said, ``What are you talking about, I am not breathing? I 
am breathing. I am fine.'' And it turns out--I then went to GW 
Hospital, did all the tests, and I found out that I have 
serious sleep apnea, which I was completely unaware of. I had 
some fatigue during the day, but I just attributed that to the 
normal aging process. I think that--I was treated, and I am 
doing quite well.
    And it is not a major treatment, but it is--but I also 
don't want to create extra out-of-pocket expenses for truck 
drivers. I appreciate that this can be somewhat of an expense. 
Now, I am lucky, I have both my own insurance, and I am covered 
here by being part of the health insurance that is offered to 
Members, in terms of our attending physician. But drivers, I 
think--people in many places, when their employers don't pick 
it up, are stretched to the limit.
    So the question really is how do we screen--if anybody has 
any ideas: How do we screen for sleep apnea, without creating 
additional costs for the drivers? What are we going to do about 
this now, given the fact that some--you know, I can only say, 
``Well, we really need''--making sure that everybody's health 
insurance covers all of this, and we don't have that now with--
we are in a battle right now.
    The courts--actually, there is cases before the courts to 
get rid of all of the Affordable Care Act.
    So I am just kind of asking why we haven't done it. And is 
there something that Congress needs to do about ensuring that 
truck drivers do not have to be burdened with additional costs? 
So any thoughts about this? Because I think it is a serious 
issue.
    Mr. Spencer?
    Mr. Spencer. I will speak on behalf of truck drivers, in 
that sleep apnea is a medical condition----
    Mr. Lowenthal. Yes.
    Mr. Spencer [continuing]. That we believe drivers--if 
anyone has it, if it is a concern to you, you should seek 
treatment for that.
    And also--but looking at the crash data, I would take 
considerable issue with those that claim that sleep apnea is 
causing crashes, because all sleep apnea is is something that 
causes you not to get the quality of sleep that you may need. 
Whether or not you crash a vehicle, whether it is a car or a 
truck, has to do with driving when you are sleepy, driving when 
you are drowsy, something that no driver should do.
    But, you know, one of the key things, one of the key 
dilemmas that professional truck drivers have, is that they 
don't have places to park to get off the road, where they 
actually can get--it might be a break or it might be a long 8- 
or 10-hour restorative sleep. But, I mean, that is the biggest 
challenge that virtually all in trucking deal with right now, 
and it is not a new challenge. It has been an issue for 20 
years.
    And we talk about infrastructure. We talk about safety. The 
environment that drivers in transportation have prided in has 
to come with some way for people to get off the road when they 
need it. So I hope that can be a focus, an ongoing focus, going 
forward, because it is certainly sorely needed.
    Mr. Lowenthal. Thank you. I am going to yield back.
    Shall we continue? We have only, I believe, 6 minutes and 
46 seconds left to go and vote. What a crazy system this is.
    So does Mr. Lipinski not want--fine.
    Then we are going to recess this hearing one more time. 
This hearing has been recessed.
    [Recess.]
    Ms. Norton [presiding]. We are going to have to proceed, 
notwithstanding this mischief from the other side, or else we 
will never get this done. And I am pleased that Mr. Pence is 
here. And I am going to recognize Mr. Pence for 5 minutes.
    Mr. Pence. All right. I am going to sit here and still 
sweat.
    Thank you, Madam Chair, Ranking Member Davis, thank you all 
for being here. I was a perpetual truck owner, started 
companies, sold companies, so I really like the trucking 
business.
    In the interest of your time, I am going to ask two quick 
questions. And if each of you can, just give me a quick answer.
    And the first, you know, driver safety is paramount to me. 
Running trucking companies, making money, was number two. 
Turnover was always the most expensive thing.
    And I think, as you mentioned, Mr. Spencer, new drivers are 
the most dangerous. And I am not quite quoting you exactly.
    And Mr. Spear, you mentioned that the economy, it is 
booming, and there is a greater demand.
    So, number one, what can we do about driver turnover? What 
is the number-one thing you--each of you think we can do about 
driver turnover? Take----
    Ms. Chase. Thank you for the question. Oh, should--I am 
sorry.
    Mr. Young. I didn't know which end we were going to start 
from.
    Ms. Chase. Should I go?
    Mr. Pence. Yes, ma'am.
    Ms. Chase. OK, thank you for the question. I think one of 
the things that we should do, from a safety perspective, is 
make the job safer. Right now truck driving is one of the most 
dangerous professions. And if you include the equipment that I 
mentioned earlier such as speed limiters, automatic emergency 
braking, and lane departure warning, just to name a few, that 
would make the turnover rate decrease.
    Mr. Pence. They would feel safer. Thank you.
    Ms. Chase. Yes.
    Mr. Spear. For turnover, I would say pay. It is going up. 
It should go up.
    Mr. Pence. It is. I have got, in my district, some 125,000 
propane haulers, 95,000 Fortune 500 day deliveries, and they 
have driver shortages. Do you think we are just going to keep 
going up?
    Mr. Spear. No, I think it will plateau at some point. It is 
not sustainable, you know, to continue to go up. But I think it 
has to go up to a certain level, but I also think, to earlier 
comments to questions, it is a combination of things. It is the 
work environment. Are you doing long-haul versus, you know, 
local, regional. There are different conditions that drive 
someone's decision to be in trucking.
    And so it has to fit each person's lifestyle. It is added 
pay, it is added benefits. These things culminate into a reason 
for being in trucking.
    Mr. Pence. Thank you.
    Mr. Spencer. Actually, the easy--the quick one is pay, 
benefits, working conditions.
    Having said that, there is actually more to it in that most 
people that enter trucking as a career really have no idea what 
the lifestyle is, what the job is.
    And again, I lamented about the lack of any real meaningful 
driver training, from the standpoint of safety. But, you know, 
realistically, we turn people loose and we expect them to know 
how to do all kinds of really, really important things, 
including descending mountains with loaded trucks, and they are 
not prepared, and they are not comfortable, and they don't 
stick around.
    Mr. Pence. Thank you.
    Mr. Byrd. I thank you for the question. I think, again, 
compensation, including benefits, improving working conditions. 
I think improving the infrastructure that would allow drivers 
to not encounter so much congestion, so that they are better 
able to complete their runs efficiently, I think, would--are 
things that would--also could help----
    Mr. Pence. Thank you.
    Mr. Craig. The one aspect I would add is truck parking. We 
routinely hear about a lack of truck parking and inadequate 
truck parking from our carriers----
    Mr. Pence. Thank you.
    Mr. Noble. I agree with the--you know, what we have done 
with the equipment, adding the safety features, and the 
ergonomics in the tractors, I think, has done a lot for the 
drivers, as well as I agree with--and I am a shipper, and we 
need to do more to continue to generate velocity and not tie up 
the driver's time at the dock, versus driving.
    And I think that gets to a lot of respect that we need to 
have for drivers.
    Mr. Pence. All right, thank you.
    Mr. Savage. Thank you for the question, sir. I think a lot 
of drivers, when I talk to them, they are concerned about the 
safety aspects of trucking. And so I think making regulations 
clear, concise, easily understandable is going to save lives on 
our----
    Mr. Pence. This was mentioned, yes. Thank you.
    Mr. Young. Safer trucks, including underride guards, having 
those drivers know that no car is going to ever get underneath 
that trailer, and they are not going to deal with a fatality, 
or have to deal with potential jail time.
    Mr. Spear mentioned earlier that that was a 35-mile-an-hour 
test. IIHS did test at 40 miles per hour, the angel wing, and 
the inventor of that test tested at 47 miles per hour.
    Pay, driving conditions, and I was going to talk about 
truck driver parking. Mr. Craig and I agree on that----
    Mr. Pence. All right, thank you. One, yes or no--time to 
look at a third dedicated truck lane? Yes or no? Right down the 
way.
    Ms. Chase. I don't have a comment on that one.
    Mr. Spear. It is not free and it is not cheap.
    [Laughter.]
    Mr. Spencer. No, not dedicated just truck.
    Mr. Byrd. No, not just truck.
    Mr. Craig. I would defer to my experts on the equipment 
side on this.
    Mr. Noble. No opinion.
    Mr. Savage. No, due to speed differences between the two.
    Mr. Young. No, the infrastructure should go to truck driver 
parking.
    Mr. Pence. Thank you.
    Thank you, Madam Chair.
    Ms. Norton. And thank you, Mr. Pence.
    Mr. Lipinski for 5 minutes.
    Mr. Lipinski. Thank you, Madam Chair. Mr. Byrd, I want to 
start off--can you elaborate on your testimony that Mexican 
carriers are taking advantage of loopholes in the enterprise 
carrier program that allows Mexican-owned but U.S.-domiciled 
carriers to game the system? How is this harming American 
workers?
    Mr. Byrd. Well, many Mexican long-haul carriers--primarily 
the enterprise and certificate carriers--were supposed to meet 
a November 2003 deadline to renew their operating authority for 
long-haul operations beyond the commercial zone.
    It is our understanding that a lot of carriers didn't do 
that, and that, although the Federal Motor Carrier Safety 
Administration has authority to take their operating authority 
away, that was not enforced, due to, I think, some staffing 
issues and some budget issues.
    Mr. Lipinski. Thank you. I am going to move on to a 
question that I want to have Mr. Byrd and also Mr. Spear speak 
to.
    I know, Mr. Byrd, in your testimony you mentioned that you 
believe the trucking industry will have the need for skilled 
drivers for decades to come, even though autonomous trucks are 
being developed right now.
    And Mr. Spear, your testimony agrees, and you make the 
parallel to the aviation industry, which still has pilots 50 
years after automation of the cockpit.
    So I want to ask both of you. I guess let me start with Mr. 
Spear.
    What role do you foresee drivers will play in the future of 
increasingly automated driving?
    Mr. Spear. I am a bit bullish on this. I think it is 
driver-assist, not driverless. I think technology has a role to 
play. I think you are going to see more of it in trucks. I 
think there is going to be more connectivity between trucks, 
trailers, and cars. Just the 5.9 gigahertz that I mentioned, I 
think if FCC were to give seven channels of that to safety, you 
could really dramatically reduce the number of fatalities each 
year. That AEB kicks in, the car is going to see it based on 
the frequency, even if the driver doesn't.
    So I think driver-assist is a huge catalyst in the safety 
debate, and we need to embrace it, not be afraid of it. But I 
am very bullish against this idea that we are going to be 
driverless. I mean you will see it in cars before you see it in 
trucks, for the same reasons we have pilots in planes. So I am 
just not buying it.
    I also think, though, that the tech element of the industry 
is going to evolve, and you are going to see not only drivers, 
but technicians have more of a technology background. They are 
going to have more of a software headset. And I think a lot of 
that could attract a younger generation of talent into the 
industry that is more tech-savvy. And we are seeing it on new 
equipment. It is very prevalent. I have toured several OEMs, 
and I have seen in multiple cubicles 25-, 30-year-olds writing 
software for the OEMs. I mean this is where we are going. And 
it is coming, I just don't view it as driverless.
    I think it is a way to equip the driver to make them safer, 
more productive, better rested. There are a lot of good 
takeaways from this that I think are worthy of our attention.
    Mr. Lipinski. Yes, Mr. Byrd, how do you see----
    Mr. Byrd. Yes, I would echo many of Mr. Spear's comments. I 
will focus, however, on--I do agree, I think it will be driver-
assist. It is the last mile.
    I think that there will be quite a bit of autonomous 
vehicles, that type of technology, operating on our highways. 
But once we get to that last mile, that delivery in that urban 
type environment, I see the drivers still playing quite a 
significant role, as far as that is concerned.
    Mr. Lipinski. And Mr. Spear, you agree with that? Is that 
the way you envision it?
    Mr. Spear. I do. I think you look at the dynamic of each 
sector of the industry, and you probably see long-haul where 
there are less cars around the truck. Concepts like platooning 
are certainly being tested. But we are seeing a lot of 
technology enter in that makes that driver better rested, 
better equipped, could multitask.
    We have seen testing out on our highways in various States 
and localities that is proving fruitful. But I think in an 
urban environment, particularly, you are going to need that 
driver. I mean there are so many variables that, you know, no 
algorithm that we see can----
    Mr. Lipinski. Let me----
    Mr. Spear [continuing]. Can handle all that.
    Mr. Lipinski. Let me ask in the brief time, Mr. Byrd, what 
do you see as workforce investments that we are going to need 
to make in drivers, so that they can--for this new situation.
    Mr. Byrd. In terms of--I am sorry?
    Mr. Lipinski. Workforce investments, such as training, that 
we are going to have to do.
    Mr. Byrd. I think this is absolutely important that we have 
training, very robust training for drivers, especially as we 
move forward with adding technologies into the vehicles.
    And as I have noted in my testimony, we have an aging 
driver workforce, so we anticipate that there will be younger 
drivers entering the workforce. So it will be necessary for 
them to get proper training and seat time to operate safely.
    Mr. Spear. Ours is multipronged. But, really quickly, we 
need to take care of our own, those that are in the workforce. 
Cessation programs, wellness programs, really taking care of 
those that want to drive for a long period of time. You know, 
companies have to step up to the plate and take care of their 
workforce.
    We need more urban hiring, minorities, women. That 
workforce is out there, and we need to leverage our Federal, 
State, and local resources to attract that talent into the 
industry that may not even be aware that our industry exists. 
Veterans, exiting service people from the military that have 
that skill set.
    And as we have talked at length, 18- to 21-year-olds. It is 
legal in 48 States. That works pretty good from Redding, 
California, to San Diego, not so good from Providence, Rhode 
Island. I can be at the border in 20 minutes. So that kind of 
logic doesn't make any sense.
    And there is no training, there is no technology 
requirements in any of those 48 States. That is why this bill 
is so powerful and bipartisan in both chambers, is because it 
makes sense. It is grounded in training and technology, 
something that doesn't exist in those 48 States.
    I think you have to do all of those things simultaneously 
to address our next steps toward growth, as an industry.
    Ms. Norton. Thank you. And Mr. Lipinski's time has expired.
    Mr. Stanton?
    Mr. Stanton. Thank you very much, Madam Chair, for holding 
this hearing. I want to thank our distinguished witnesses for 
your great testimony here today, and your patience, as we took 
a short break to vote on a couple of adjournment motions.
    The movement of freight and goods is key to our country's 
economic future and maintaining our global competitiveness, 
growth over the last 20 years. Improvements in the 
manufacturing process and new technology are placing an ever-
greater strain on the capacity to move goods. And this growth 
is only expected to continue increasing.
    In fact, USDOT estimates that freight volumes will increase 
45 percent by 2045. With more than 80 percent of the U.S. 
communities relying exclusively on trucks for their freight 
transportation needs, it is important for this Congress to make 
the investments needed to ensure a well-maintained and reliable 
road network in order to reduce congestion and improve safety.
    I know all of the members of the panel agree. My first set 
of questions are for Mr. Craig from C.H. Robinson.
    Thank you for being here today, and I really enjoyed my 
visit to C.H. Robinson's facility in the Phoenix area, back in 
April.
    When a shipper or broker like C.H. Robinson hires a 
carrier, the Federal Motor Carrier Safety Administration has 
regulations in place to guide that process. What does the 
agency currently require a shipper or broker to assure before 
they hire a motor carrier?
    Mr. Craig. So right now there is technically no standard. 
But FMCSA does have a series of licenses and authorizations. 
Some of those include--CVSA has published that in chapter 4 of 
their out-of-service guide. Those include having a valid 
authority, not being placed out of service, not being declared 
an imminent hazard, things like that. And again, they are 
compiled in chapter 4 of the out-of-service guide.
    Mr. Stanton. And can you elaborate more on some of the 
issues that C.H. Robinson has encountered when utilizing 
information from the agency to hire a motor carrier?
    Mr. Craig. Sure. While I mentioned in my testimony that we 
have got a qualification process, that often gets challenged. 
Folks can take any data that is published out there, and make a 
carrier look poorly. I have included appendix B, which is a 
screenshot of the CSA website. And this carrier, you can poke 
holes in various different parts of the data here to make this 
carrier look bad.
    So a variety of different data is used to say that our 
decision was--could have been negligent.
    Mr. Stanton. And you advocate for the establishment and 
implementation of a motor carrier selection standard. In your 
view, how would the establishment of such a standard impact 
safety on our roads? Obviously, every panelist has talked about 
the importance of safety, and I do want to hear comments from 
Mr. Byrd, Mr. Young on the same topic. Please.
    Mr. Craig. Sure. As I demonstrated in the testimony, the--a 
great example was in 2017 CVSA added the inactive USDOT number 
to their out-of-service criteria. However, because there is no 
standard right now, and nothing that people can rely on, 
oftentimes people overlook this. Many in the industry were 
completely unaware of that.
    So the carriers that did have an inactive DOT number, they 
were allowed to get freight from other brokers. That is one 
thing that we do check now. But I know many in the industry 
don't check that on a regular basis.
    Mr. Stanton. Thank you very much.
    Mr. Young, Mr. Byrd?
    Mr. Young. Yes, please. What C.H. Robinson is proposing, 
or--and what the legislation proposes is the bare minimum. Even 
a chameleon carrier can change its stripes and switch from a 
bad company into a new DOT number, and then ultimately be 
qualified under that criteria.
    The criteria that should be used is the third-party 
Intermediaries Association's published criteria that is 
currently--I don't know if it is currently published, but we 
certainly have it. It is a three-page criteria that has a 
laundry list of issues and items that are available. I don't 
believe you were here when I indicated before 10 percent of the 
motor carriers represent near 50 percent of all crashes. The 
idea is to identify these 10 percent. Out-of-service percentage 
ratings, all the detail and the information on CSA allows some 
of that information to be there.
    To go the extreme to the bare minimum would just be 
detrimental, and then ultimately allow selecting carriers based 
on unsafe ratings, and ultimately create a bigger problem in a 
bigger pool of these bad apples that are going to create more 
crashes.
    Mr. Stanton. Thank you so much.
    Mr. Byrd?
    Mr. Byrd. Yes, we would agree. We have great concern that 
allowing shippers to waive any liability would be a huge 
concern. We believe that all players in the transportation 
supply chain should share in a liability, and that carriers 
that are hired should have good safety records.
    Mr. Stanton. Thank you very much.
    Mr. Craig? Please.
    Mr. Craig. Can I make one quick point, that a motor carrier 
standard, establishing that, would not allow any broker to 
waive liability? In fact, if you didn't adhere to the standard, 
you would almost be negligent by--you know, by default.
    Mr. Stanton. All right. Thank you very much. I am out of 
time, so I will not be able to ask Mr. Spear about the big, 
bold infrastructure package, but will at a future time.
    I yield back.
    Ms. Norton. Thank you very much, Mr. Stanton. There being 
no other Members here, I want to thank all of you for giving 
what has been very, very helpful testimony, making the 
subcommittee understand the dilemmas in which we find 
ourselves, and I hope we will unravel in the 2020 bill we are 
in the process of preparing.
    I thank all the Members who attended and asked such 
challenging questions.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing. Feel free to submit further information as you see 
fit.
    And without objection, so ordered.
    Thank you very much for attending. The subcommittee stands 
adjourned.
    [Whereupon, at 1:32 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    Thank you, Chairwoman Norton and thank you to our witnesses for 
being here today.
    I also want to welcome Mr. Todd Spencer--a fellow Missourian who's 
testifying on behalf of the Owner-Operator Independent Drivers 
Association. Todd's been advocating--passionately, I might add--for 
small business truckers for over 40 years. I'm glad to see him back 
before the Committee again.
    Enacting a long-term surface transportation reauthorization bill is 
a top priority of mine.
    In order to be successful, we must work together to develop a bill 
that has robust bipartisan support as well as strong stakeholder 
support.
    Today's hearing is an intregal part of our process to develop that 
bill.
    The trucking industry is important to our Nation.
    It creates jobs and helps spur economic growth by serving as a 
vital mode of transportation for American products.
    It is particularly important to rural America.
    According to the USDA, trucks carry 70 percent of agricultural 
products, helping our farmers to compete in the global marketplace.
    A few of my objectives in this area for the bill are:
    <bullet>  Ensuring that we have the necessary infrastructure to 
move our goods domestically and internationally;
    <bullet>  Incorporating technological advancements into our system 
to improve safety and efficiency; and
    <bullet>  Providing a regulatory environment that addresses safety 
needs and allows U.S. businesses to thrive.
    I look forward to hearing from today's witnesses and the important 
discussion that follows.
    I yield the balance of my time.

                                 <F-dash>
 Prepared Statement of Hon. Eddie Bernice Johnson, a Representative in 
                    Congress from the State of Texas
    Thank you, Madam Chairwoman.
    I am pleased that the Chairwoman is holding this hearing today, as 
it allows us to examine the current priorities and issues within the 
trucking industry in our nation. I am eager to hear from the 
stakeholders serving on the panel today about the challenges faced by 
motor carriers, truck drivers, shippers, and brokers--and how these 
challenges impact the safety, operations, jobs, and movement of goods 
in this industry. Regarding the current state of trucking, my interests 
are specific to how we as a legislative body can adequately address the 
promotion of road safety; the development, deployment, and impact of 
autonomous vehicles on the transportation workforce; and the necessity 
of investment in workforce advancement.
    My district is a major hub for trucking and is a site of noteworthy 
innovations in transportation. With the significance of this industry 
in my district, I am dedicated to addressing trucking's imminent and 
long-term concerns.
    According to the National Highway Traffic Safety Administration, 
large truck crashes claimed 4,761 lives in 2017--this number of 
fatalities has followed an upward trend for crashes involving large 
trucks and buses since 2009. This is of significant concern to me, as 
the Federal Motor Carrier Safety Administration has disclosed that 
Texas has one of the highest averages in the nation of fatal large 
truck and bus crashes between 2014 and 2016. I welcome the panel's 
comments on how our legislative body can best support the wellbeing of 
our trucking workforce and protect the safety of our constituents.
    In my home state of Texas, the Permian Basin is experiencing 
tremendous growth in the energy sector. This growth has had a 
significant impact on our roads and bridges, as oversized and 
overweight trucks are facing difficulty in clearing bridges and are 
prematurely wearing out highway pavement. The Texas Department of 
Transportation (TxDOT) is working to improve freight infrastructure 
design, improve grade separation, and widen two-lane roads. Last year, 
Texas was awarded two BUILD grants to improve the infrastructure in the 
Permian Basin used to address some of these issues. A greater 
commitment is needed at the national and state levels to improve 
highway infrastructure. As the cost of construction is rising and 
infrastructure continues to deteriorate, funding sources must be 
identified and allocated to expand and improve highway infrastructure.
    The importance of the truck driving industry in the delivery of 
goods cannot be overstated, therefore drivers must have access to 
adequate parking to comply with federally mandated regulations, 
including hours-of-service (HOS) compliance. If no available parking 
location is nearby as drivers are running out of HOS, this places the 
driver in a difficult situation. In the North Central Texas region, as 
in other large metropolitan areas across the nation, the lack of 
available truck parking is a significant issue. TxDOT is working on a 
study to assess and address truck parking needs with practical, 
innovative, and cost-effective strategies through partnerships with the 
private sector. The goal is to improve safety on the roadways and 
mitigate community impacts associated with truck parking.
    For my district, the development and deployment of autonomous 
vehicle technologies has quickly emerged as a prominent and complex 
issue. This expansion in the various technologies across different 
levels of automation will undoubtedly have tremendous effects on our 
nation's surface transportation system and our workforce. This is 
already evident in Dallas, where a pilot program has been completed 
this year which engaged self-driving trucks to deliver mail between 
distribution centers in two different states.
    These developments in autonomous vehicles have significant 
implications for the trucking workforce, as displacement is a 
substantial concern. It is due to these specific concerns that I have 
previously introduced and am currently updating the Transportation 
Workforce Modernization Act. My legislation will direct the Secretary 
of Transportation to establish a program to provide grants to retrain 
transportation workers. It will also commission a study by the 
Comptroller General of the United States to identify the impact of 
driverless vehicle adoption on our nation's workforce; trucking, 
freight, and personal transportation industries; wages; job losses; and 
creation of new jobs. With my legislation, I join the efforts of this 
Congress to meaningfully address the contemporary concerns and 
priorities of our nation's trucking industry.
    Thank you. I yield back.

                                 <F-dash>
    Prepared Statement of Hon. Carol D. Miller, a Representative in 
                Congress from the State of West Virginia
    My district of Southern West Virginia is the cross roads of 
transportation for trade and trucking, connecting the eastern seaboard 
and inland America. The highways of West Virginia are essential for our 
nation's goods and products to reach consumers and to be exported 
around the world. West Virginia produces some of the finest natural 
resources and manufactured goods. Unfortunately, our highway system 
does not meet that same standard. In the past, we have faced crumbling 
infrastructure and uncompleted highways, such as the King Coal Highway 
and Tulsa Highway, but this is starting to change. For example, the 
road connecting my district's famous ``Bridge to Nowhere'' to the 
airport is finally under construction. West Virginia is getting back on 
track. Finishing these projects could cut travel times in half, boost 
economic output, improve driver safety, and save lives, just as many on 
our panel today have highlighted in their testimony. It is one of my 
main priorities to connect West Virginia with the rest the country, by 
focusing on our infrastructure and promoting economic development.
                                 <F-dash>
Statement of Lane Kidd, Managing Director, Alliance for Driver Safety & 
  Security (The Trucking Alliance), Submitted for the Record by Hon. 
                                 Norton
                         the trucking alliance
    The Alliance for Driver Safety & Security, commonly known as the 
Trucking Alliance, is a coalition of interstate freight transportation 
and logistics companies. A select number of insurance and technology 
businesses also support the work of the Trucking Alliance.
    The Trucking Alliance is solely focused on advancing safety reforms 
to:
    <bullet>  Improve the safety and security of commercial drivers;
    <bullet>  Reduce the number of large truck accidents; and
    <bullet>  Eliminate all large truck crash fatalities.
    This statement reflects the unanimous position of the Trucking 
Alliance Board of Directors.
                            member companies
    Trucking Alliance carriers affiliate by invitation. Companies agree 
to adopt specific safety and operating standards that exceed federal 
regulations.
    Two member carriers are in the top five largest trucking and 
logistics companies in the United States. The other member carriers are 
among the 200 largest US trucking firms. These companies collectively 
employ 82,000 professional drivers and logistics personnel. Thousands 
of independent owner-operators are contracted to these companies. 
Collectively, Trucking Alliance member companies own and operate 70,000 
large tractors, and more than 220,000 semitrailers and intermodal 
containers, to serve supply chain networks, both domestically and 
internationally. More information about the Trucking Alliance can be 
found here [https://truckingalliance.org/].
         the trucking industry must reduce large truck crashes
    The subject of the House T&I Subcommittee hearing is ``Under 
Pressure--The State of Trucking in America.'' There should be no 
greater pressure on the trucking industry than to reduce large truck 
crash fatalities and injuries.
    In the last reportable year (2017), there were more than 415,000 
large truck accidents on our nation's highways. These large truck 
crashes tragically killed 4,761 people, including more than 600 truck 
drivers. Another 148,000 people were injured. These statistics should 
alarm every trucking company employer, whose drivers share the road 
with millions of motorists every day.
             large truck crash fatalities can be eliminated
    Steve Williams, Chairman and CEO of Maverick USA in Little Rock, 
Arkansas, is a co-founder of the Trucking Alliance and serves as the 
coalition's president. Williams is a former chairman of the American 
Trucking Associations and has served on numerous industry stakeholder 
boards and commissions, including the Transportation Research 
Board.``The trucking industry is indispensable to the US economy,'' 
Williams recently said. ``But the industry has too many accidents. More 
truck drivers lost their lives in 2017, than in any year in the 
previous 10 years. We must aggressively address these tragic figures.'' 
Williams believes a first step is to reverse the industry priorities. 
``Support progressive safety reforms that make sense for our country 
and citizens first, our industry second, and our companies third.''
    Yet several trucking-specific bills before the House Transportation 
& Infrastructure Committee would propose the opposite--legislation to 
benefit companies first, the trucking industry second, and our country 
and citizens, third. This committee must adopt safety reforms to reduce 
large truck crashes and reject legislation that would appease special 
interests but sacrifice public safety in the process.
    The trucking industry should strive to achieve the same safety 
performance record as the US airline industry. For example, the 
Trucking Alliance fully supports the work of the Road to Zero 
Coalition. Announced in October 2016, this coalition has more than 900 
cities, corporations, and government agencies. The Trucking Alliance 
serves as one of 21 organizations on the Road to Zero Steering Group, 
the only stakeholder from the trucking industry.
    The Road to Zero Coalition plans to fully eliminate all highway 
accident fatalities within 30 years. If progressive safety reforms and 
emerging technologies are adopted, the trucking industry can eliminate 
all large truck crash fatalities much sooner. This subcommittee can 
have an integral role in achieving these objectives.
    The House T&I Subcommittee on Highways and Transit should consider 
the following safety priorities, to reduce large truck crashes, 
injuries and fatalities:
1. No Industry Segment Should Be Exempt from Installing Electronic 
        Logging Devices (ELDs)
    In 2012, Congress required all interstate commercial trucks to 
install an ELD, as part of the ``Moving Ahead for Progress in the 21st 
Century Act.''
    ELDs are recording devices. The devices are engaged to the truck's 
engine. ELDs verify when and for how many hours a truck driver operates 
a commercial vehicle. ELDs verify if a truck driver exceeds the maximum 
number of on-duty hours allowed by law, thereby reducing truck driver 
fatigue, a major factor in large truck crashes.
    Rather than embrace ELDs for the safety benefits they will achieve, 
certain industry segments want an exemption from ELDs. H.R. 1673 and 
H.R. 1698 would allow thousands of truck drivers to operate `off the 
grid' and without a reliable way to verify whether they are in 
compliance with on-duty regulations. These bills would compromise 
public safety. The T&I Subcommittee should reject these two bills, 
outright.
    Another bill, H.R. 1697, would allow any motor carrier that 
operates 10 or fewer trucks to operate without an ELD. Hundreds of 
thousands of truck drivers could operate their trucks without an ELD, 
and presumably, utilize the paper logs that ELDs replaced. Paper log 
books are easily falsified. H.R. 1697 should be rejected.
    ELDs should be required in all large commercial trucks, regardless 
of how many trucks are owned, the commodity being hauled, length of 
trip, or whether the truck driver operates in interstate or intrastate 
commerce.
2. Thousands of Commercial Truck Drivers are Illicit Drug Users
    The Omnibus Transportation Employee Testing Act of 1991 requires 
drug and alcohol testing of ``safety-sensitive'' transportation worker 
occupations. These occupations require performance in the public 
sector. Drug use is strictly prohibited. Truck driving is considered a 
safety sensitive occupation, along with other transportation workers in 
aviation, rail, pipeline, transit, and other transportation modes.
    The US Department of Transportation (USDOT) administers the 1991 
law, incorporating drug test guidelines approved by the US Department 
of Health and Human Services (HHS). USDOT currently recognizes one drug 
test method--a urinalysis. USDOT allows employers to require additional 
drug test methods, as part of the employer's hiring practices.
    A growing number of trucking company employers, including Trucking 
Alliance carriers, require a second drug test, a hair analysis, as part 
of their pre-employment truck driver hiring policies. The Trucking 
Alliance recently submitted data to USDOT, showing compelling evidence 
that thousands of habitual drug users are manipulating federal drug 
test protocols and obtaining jobs as commercial truck drivers.
    This survey data compared the pre-employment drug test results of 
151,662 truck driver applicants, who were asked to submit to two drug 
tests--a urinalysis and a hair analysis. Almost all applicants held an 
active commercial driver license. Ninety-four percent (94%) of the 
truck driver applicants tested drug-free. However, thousands of 
applicants failed either or both drug tests.
    Alarmingly, the urinalysis, the only method recognized by USDOT, 
and relied on by almost all trucking company employers, actually failed 
to identify most drug abusers. The urinalysis detected drugs in 949 
applicants, about 1% of the population. However, 8.6%, or 8,878 truck 
driver applicants, either failed or refused the hair test. Put another 
way, the urinalysis missed 9 out of 10 actual illicit drug users. The 
most prevalent drug was cocaine, followed by opioids and marijuana. 
Applicants who failed or refused the hair test were disqualified for 
employment at these companies, but likely obtained the same job 
elsewhere, at companies that administer only a urinalysis.
    This survey is the first of its kind in the trucking industry. The 
results represent a statistically valid sample. According to the 
American Trucking Associations, there are 3.5 million commercial truck 
drivers. The survey can project with a 99% confidence level, and a 
margin of error of <1%, that 301,000 commercial truck drivers would 
fail or refuse a hair analysis today, for illegal drug use.
    The survey results are compelling evidence that thousands of 
habitual drug users are skirting a system designed to prohibit drug use 
in transportation. Thousands of drug abusers are obtaining jobs as 
truck drivers, despite their drug use.
    The T&I Subcommittee can intervene to mitigate this problem. Urge 
HHS to expeditiously complete its hair test guidelines, so USDOT can 
quickly recognize hair testing for DOT pre-employment and random drug 
test protocols. Further, until USDOT recognizes a hair analysis, no 
employer will be allowed to submit hair test failures into the pending 
USDOT Drug and Alcohol Clearinghouse. This will make it virtually 
impossible for another employer to know if a person applying for a 
truck driver job has previously failed a drug test.
    Drug use in the trucking industry is a public safety crisis. This 
survey can project as many as 301,000 commercial drivers would fail or 
refuse a hair test. These illicit drug users must be identified and 
taken out of commercial trucks and off the nation's highways. The 
trucking industry has no greater safety issue, than to aggressively 
address illegal drug use among commercial truck drivers.
3. Truck Drivers Should Be 21 Years or Older to Operate Commercial 
        Trucks in Interstate Commerce
    Federal regulations require a person to be at least 21 years of age 
before operating a commercial vehicle in interstate commerce. The 
Trucking Alliance supports this age restriction.
    Most states allow teenagers between the ages of 18-21 to operate 
commercial trucks within their state boundary. While statistics are 
lacking, anecdotal evidence suggests these teenage truck drivers 
operate lighter weight, short trucks, such as delivery vans and 
straight or panel trucks.
    Few teenagers actually operate Class 8 tractor-trailer combinations 
within their state. These big rigs carry a laden weight of 80,000 
pounds. These are the tractor trailers used in interstate commerce. 
Operating these tractor trailer combinations requires elevated skills, 
considerable experience, maturity and self-discipline.
    State restrictions that allow teenagers to operate some types of 
trucks in intrastate commerce, can serve as the proper framework for 
gaining experience. These teenagers are essentially in an 
apprenticeship. They operate smaller trucks, make local deliveries, 
return to their place of work each day. They are always under close, 
constant, and daily supervision, unlike the working environment 
experienced by long-haul commercial drivers.
    Supporters of teenage truck drivers in interstate commerce use the 
analogy that 18-21 years old kids are allowed to serve in the military. 
But teenagers serving in the military are also under daily, highly 
regulated, constant, and strict supervision. There are many job 
occupations, for which serving in the military doesn't provide an 
automatic qualification. Current state restrictions offer teenagers an 
opportunity to gain a limited, highly supervised introduction to the 
trucking industry.
    Statistics are lacking on the overall safety performance of local 
teenage truck drivers. But the industry's property and liability 
insurance rates, for incurring the additional risk of teenage truck 
drivers in interstate commerce, would assuredly go up.
    For these reasons, the House T&I Committee should reject H.R. 1374. 
This legislation would allow teenagers to operate Class 8 tractor 
trailer combinations in an unsupervised environment and in interstate 
commerce, after only 10 weeks of training. The nation's public highways 
should not be used as a proving ground to determine if teenagers can 
operate Class 8 tractor trailer combinations safely. Current 
restrictive state provisions allow teenagers an apprenticeship to the 
industry. H.R.1374 could compromise public safety and should be 
rejected.
4. Large Trucks Should Adhere to a Reasonable Maximum Speed of 65-mph
    The Trucking Alliance supports a new federal safety standard that 
would require all large commercial trucks to maintain a maximum speed 
limit of 65 mph on the nation's highways.
    According to NHTSA, in 2017, speeding was one of the factors for 
almost 27% of motor vehicle crash deaths. The World Health 
Organization's ``Report on Road Safety'' estimates that for every 1% 
increase in mean speed, there is a 4% increase in the fatal crash risk 
and a 3% increase in the serious crash risk. The top speed of large 
tractor trailer combinations should be limited.
    The trucking industry has historically supported truck speed 
limiters. Most trucking companies already utilize truck speed limiters, 
usually setting the trucks to operate at maximum speeds between 62 and 
68 mph. As far back as 2006, the American Trucking Associations 
submitted a petition to NHTSA, requesting that truck manufacturers 
install truck speed limiting devices. The National Transportation 
Safety Board (NTSB) estimates that setting a truck speed limiter at 65 
mph, could save as many as 214 lives and prevent approximately 4,500 
injuries from large truck crashes each year.
    Slowing the top speed of tractor trailers will greatly reduce the 
number of fatalities and the severity of injuries from large truck 
crashes. Congress should support legislation that would direct the 
Secretary of Transportation to issue a final rule requiring truck speed 
limiting devices and for those commercial vehicles currently equipped 
with the technology to engage the devices.
5. Collision Mitigation Systems Should Be Required on New Commercial 
        Trucks
    Collision mitigation systems installed in commercial trucks can 
reduce large truck crashes.
    The Trucking Alliance supports the conclusions of a 2017 study by 
the AAA Foundation for Traffic Study. The study, entitled ``Leveraging 
Large Truck Technology and Engineering to Realize Safety Gains'', 
researched four truck safety technologies, all of which can greatly 
reduce injuries and fatalities in large truck crashes:
    1.  Lane Departure Warning Systems, which detect when the vehicle 
drifts out of its lane and warns the driver;
    2.  Video-based Onboard Safety Monitoring, which utilizes in-
vehicle video cameras and sensors;
    3.  Automatic Emergency Braking Systems, which detect when the 
truck is in danger of striking the vehicle in front of it and brakes 
automatically, if needed; and
    4.  Air Disc Brakes, which will eventually be superior to 
traditional drum brakes, as these systems are continually improved.
    The Trucking Alliance supports the deployment of these Advanced 
Safety Technologies (ASTs) and other technologies in new commercial 
trucks. ASTs are not limited however, to the four technologies in the 
AAA Foundation report. In fact, the Trucking Alliance endorses a wide 
variety of ASTs that are now deployable or under development for large 
trucks.
    These ASTs include, but are not limited to:
    <bullet>  Forward Collision Warning Systems
    <bullet>  Adaptive Cruise Controls
    <bullet>  Automatic Emergency Braking Systems
    <bullet>  Lane Departure Warning Systems
    <bullet>  ``Blind Spot'' Warning Systems
    <bullet>  Electronic Stability Control
    <bullet>  Roll Stability Control
    <bullet>  Speed Limiters
    <bullet>  Video-based Onboard Safety Monitoring systems
    <bullet>  Kinematic-based Onboard Safety Monitoring Systems
    <bullet>  Vehicle-to-vehicle Communication
    <bullet>  Air Disc Brakes (ADB)
    <bullet>  Brake Stroke Monitoring Systems; and others.
    Some ASTs, such as Roll Stability Control Systems, have been in 
operation by fleets for a decade. Other technologies, such as video and 
kinematic-based onboard safety monitoring systems and ``Blind Spot'' 
mirror replacement systems are newer technologies that carriers are 
testing in the field.
    For these reasons, the Trucking Alliance endorses ASTs and its 
member carriers have agreed to pursue the testing and deployment of 
these ASTs, as they are more fully developed, tested, and the safety 
benefits are confirmed through these field tests.
    In the meantime, the Trucking Alliance urges Congress to require 
NHTSA to set a minimum performance standard and issue a final rule 
requiring that commercial motor vehicles are equipped with automatic 
emergency braking systems, as standard equipment.
                               conclusion
    Thank you for the opportunity to submit this statement before the 
Subcommittee and its hearing on the state of trucking in America.

                                 <F-dash>
   Letter from Cian Cashin, Director of Government Affairs, American 
 Association of Motor Vehicle Administrators, Submitted for the Record 
                             by Hon. Norton
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure. U.S. House of Representatives, Washington, DC.
    Dear Chairman Holmes Norton and Ranking Member Davis:
    The American Association of Motor Vehicle Administrators (AAMVA) 
thanks you for holding its June 12th hearing entitled, ``Under 
Pressure: The State of Trucking in America.'' AAMVA supports the role 
of the Subcommittee in its oversight of commercial vehicle safety and 
its important role in facilitating interstate commerce.
    As part of that hearing, AAMVA noted the testimony of trucking 
industry officials with respect to commercial driver testing. AAMVA 
takes this opportunity to go on record regarding state safety 
olbigations with respect to motor vehicles and the states' previous and 
ongoing efforts to facilitate driver availability.
    AAMVA supports the role of its industry partners, but finds recent 
proposals related to commercial driver's license (CDL) testing 
problematic. With the understanding that Congress may see the proposal 
again, AAMVA specifically cites legislation introduced in the last 
Congress (HR 4719) as the basis for potentially problematic changes to 
the commercial testing system. On behalf of our members, we hope the 
following describes some of these challenges, and illustrates the 
proactive steps the association is taking to mitigate the issues 
communicated by industry--without the need for additional legislation.
                               background
    AAMVA appreciates HR 4719's intent to expand the labor pool for an 
in-demand, economically beneficial labor force. It is critical that 
these new drivers are prepared to safely operate large commercial 
vehicles. For their safety and the safety of the entire motoring 
public, state motor vehicle officials must only provide qualified 
drivers with a CDL. State authorities' core mission lies in public 
safety, not in applicant volume and private certification graduation 
rates. One of the key issues facing CDL skills test wait times is the 
repeated testing of the same applicant. In many of those cases, rather 
than prepare for a one-time, successful test, individuals are 
repeatedly taking a time-consuming test to ``learn what they don't 
know'' so that they can fill those knowledge gaps between scheduled 
retesting. Whether the applicant passes the test or not, state (and 
third-party) CDL skills testing administrators must allocate each 
applicant the entire amount of time predicated upon successful 
completion of the full test.
    AAMVA cites that numerous steps are currently underway to improve 
the success of first-time applicants. This includes FMCSA's work on an 
``Entry-Level Driver Training'' program as established through a final 
rule published in December, 2016 (81 FR 88732). This program will 
establish new minimum training standards for certain individuals 
applying for their commercial driver's license for the first time; an 
upgrade of their CDL; or a hazardous materials (H), passenger (P), or 
school bus (S) endorsement for the first time. These individuals are 
subject to the entry-level driver training (ELDT) requirements and must 
complete a prescribed program of instruction. AAMVA fully believes this 
course of action will assist in uniform curriculum delivery and 
limiting the instances of unprepared applicants repeatedly monopolizing 
the CDL skills testing schedule.
    AAMVA members have proactively addressed the issue by reviewing all 
aspects of the CDL testing process for improvement of the testing 
model. The objective of this effort is to better align CDL testing 
procedures with current industry practices and the CMVs being 
developed. Utilizing metrics such as common crash causation and CVSA 
and citation data, our goal is to align testing practice with the 
modern commercial environment. The effort includes:
    <bullet>  Modifications to the Vehicle Inspection (VI) portions of 
the skills test which has contributed to high failure rates
      <bullet>  This includes a significant reduction in the number of 
vehicle inspection items required as part of the skills test
    <bullet>  Revisions to the CDL Skills Test score card
    <bullet>  Review and evaluation of the road test for modernization 
based on CMV crash causation factors and evolving equipment 
technologies
    <bullet>  Modernization of the knowledge test item pool based on 
updates to the CDL Test System
    <bullet>  Modernizing the test system to accommodate rapidly 
evolving technologies
    AAMVA is currently field testing the modified testing method to 
ensure it keeps pace with new technology, industry standards, training 
practices, jurisdictional needs and driver competencies. Testing 
results will be collected and analyzed by an independent third party to 
ensure the proposed changes are valid and reliable.
    Specific to HR 4719, AAMVA cites the following concerns with the 
legislation:

The legislation mandates sanctions on states without providing any 
            potential solution.
        While this legislation cites adherence to ``program 
        requirements,'' the legislation provides no effective solution 
        other than mandating submission of report data with respect to 
        the status of skills testing for individuals applying for a 
        CDL. The mandated reporting data includes wait time, the number 
        of qualified CDL examiners, and the number of available CDL 
        skills testing sites in the states. AAMVA stresses that the 
        Federal Motor Carrier Safety Administration (FMCSA) has already 
        been mandated by Congress to conduct a report on this exact 
        same data through Section 5506 of the Fixing America's Surface 
        Transportation Act (P.L. 114-94). This previously mandated 
        report should effectively serve as a survey of the national CDL 
        skills testing environment. Potentially sanctioning state 
        governments over redundant reporting is excessive and 
        unnecessary.

The legislation represents the potential for forced or coerced 
            privatization of state agency resources.
        This legislation's amendments to 49 USC 31305 includes the 
        stipulation that compliance with ``the program'' is dependent 
        on whether or not a ``State prohibit s or currently does not 
        authorize public and private commercial driving schools, or 
        independent CDL testing facilities, from offering a CDL skills 
        test as a third- party tester.'' However, any skills testing 
        issues in a State that currently authorizes third-party testing 
        environments are essentially exempt from sanctions even if they 
        result in skills testing delays. Potential sanctions are 
        therefore not based on the performance of the state, but 
        instead are applicable only to those states that do not 
        privatize their agency functions to third parties. Any 
        preconception that the states have not already considered 
        third-party testing as a viable safety alternative are 
        erroneous. All states have considered this option at one time 
        or another, and to force or coerce privatization of state 
        authorities without direct knowledge of the exact legal and 
        resource issues they face is presumptuous.

The legislation commandeers priority national safety systems for simple 
            reporting transactions.
        Amended Section (e)(3) would mandate the United States 
        Department of Transportation add appropriate data fields 
        concerning a CDL skills test location for the purpose of 
        reporting CDL skills test information. The systems cited for 
        reporting data include the Commercial Driver's License 
        Information System (CDLIS) and the Performance and Registration 
        Information Systems Management (PRISM) program. AAMVA can 
        advise, as operator of CDLIS on U.S. DOT's behalf, that 
        modification of national safety systems to carry simple 
        reporting data is unnecessary and excessively expensive. CDLIS 
        is a national networking system, which means that modification 
        of CDLIS to carry any additional data would require 
        modification of every single state's motor vehicle records 
        system. The reporting data mandated by this Act will have 
        nothing to do with active safety records of any individual 
        driver, but will be used exclusively to analyze the current 
        status of testing. Further, the provisions would require 
        extensive expansion of the number of inconsequential records 
        associated with these systems--both at the state and federal 
        level. Each applicant, whether they are ultimately awarded a 
        CDL or not, would require a record be created to carry their 
        testing wait times--not their driver safety record. Costs for 
        modifying every single state's base system of records and the 
        CDLIS central site is prohibitive and the legislation's 
        proposal to modify these systems to carry simple reporting data 
        is misplaced. AAMVA also emphasisizes that the Commercial 
        Skills Test Information Management System (CSTIMS) has already 
        been established for this purpose.

The definition of ``skills test delay'' is problematic.
        The legislative definition of ``skills test delay'' is based on 
        the period ``beginning on the date an individual is certified 
        by a training provider to sit for the CDL skills test and 
        ending on the date the individual completes the test.'' 
        Verification of the ``date an individual is certified by a 
        training provider to sit for the CDL skills test'' will be 
        difficult (if not impossible) to verify without defining who 
        constitutes a ``training provider'' and how certification can 
        be recognized. Further, defining ``delay'' as the inability to 
        schedule and retest within a period of 7 days from the date of 
        certification or the failure of a previous test seems 
        unreasonable for any type of professional license. Even in 
        terms of non-commercial license retesting, many states mandate 
        a required remedial wait time between tests so that the 
        applicant can further practice in a safe, controlled 
        environment and further study the rules of the road before 
        subjecting the public to an unproven driver in a unfamiliar 
        vehicle.

    AAMVA believes the ultimate solution to any perceived issues with 
the commercial licensing testing model is best resolved without 
legislation. The states have been proactive in realizing the changing 
environment of commercial transport and have actively engaged various 
stakeholders (including industry) in developing solutions.
    As partners in protecting the national interest, AAMVA thanks the 
Committee for its continued emphasis on safety, and looks forward to 
continued collaboration as this and other issues arise.
        Respectfully,
                                                Cian Cashin
                               AAMVA Director of Government Affairs

                                 <F-dash>
 Letter of June 17, 2019, from Cal Dooley, President and CEO, American 
       Chemistry Council, Submitted for the Record by Hon. Norton
                                                     June 17, 2019.
Hon. Eleanor Holmes Norton
Chair
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.

RE: June 12 Hearing, ``Under Pressure: The State of Trucking in 
America.''

    Dear Chairman Norton and Ranking Member Davis,
    The American Chemistry Council (ACC) is pleased to submit this 
statement for the record of the Subcommittee's June 12, 2019, hearing, 
``Under Pressure: The State of Trucking in America.'' We appreciate the 
Subcommittee's focus on improving truck safety while addressing 
transportation challenges that impact U.S. manufacturers and consumers 
alike.
    ACC represents the leading companies in the business of chemistry. 
ACC members provide innovative products and services that make people's 
lives better, healthier and safer. As a $526 billion enterprise, the 
business of chemistry is a key element in the nation's economy and a 
large customer of the U.S. trucking system. The U.S. chemical industry 
is growing, and is increasingly reliant on the U.S. trucking system. A 
recent analysis conducted by PwC shows that with more than $200 billion 
in announced new capital investments, an estimated 60 million metric 
tons of additional chemical and plastics production capacity is 
expected to come online by 2022. This will require over 900K additional 
truck shipments each year. ACC is are concerned that constraints in the 
trucking industry may hinder our future growth and investments in the 
U.S. economy.
    A recent survey of ACC members revealed that 81% of companies have 
experienced significant challenges due to constraints in the trucking 
industry. These challenges include service deterioration, delays, and 
missed shipments, resulting reduced productivity, increased 
transportation costs, and lost business. The United States needs smart 
transportation and infrastructure policies to confront these 
challenges.
    ACC supports several specific policy proposals discussed by 
witnesses during the hearing. In particular:
    <bullet>  We support the DRIVE Safe Act that would create an 
apprenticeship program for commercial drivers under the age of 21. This 
would provide much needed relief for the nation's truck driver 
shortage, while imposing appropriate requirements on drivers and 
employers to protect public safety.
    <bullet>  We support efforts to safely modernize America's truck 
weight limit on Interstate Highways. This includes allowing trucks with 
a 6-axle, 91,000 lbs. configuration, thereby reducing road congestion, 
fuel consumption, emissions, and infrastructure costs.
    Thank you for your consideration of this submission to the hearing 
record.
        Sincerely,
                                                 Cal Dooley
                                                    President & CEO

cc: The Honorable Peter DeFazio
The Honorable Sam Graves
                                 <F-dash>
 Statement of the Associated General Contractors of America, Submitted 
                     for the Record by Hon. Norton
    AGC believes the current hours of service rules should not apply to 
construction industry drivers and recommends a broad construction 
industry exemption from current hours of service rules. Congress and 
the Federal Motor Carrier Safety Administration have recognized the 
unique and safe driving conditions that construction industry drivers 
operate by providing a variety of exemptions to construction drivers 
from various parts of the regulations. AGC believes a broad exemption 
to the hours of service rules for construction industry drivers is 
necessary and justified based on the record of safe operation that the 
industry has demonstrated under the exemptions already provided.
   Construction Industry Drivers are Faced with Unique Circumstances
    Construction industry truck drivers operate in unique circumstances 
that make the hours of service restrictions particularly onerous. 
Consider the following:
    A road cannot be built on frozen ground. And, in many states across 
the country the construction season is limited to spring and summer 
months. Similarly, because roads cannot be constructed during rain 
events, there is an extremely limited period in which road construction 
projects can be completed. Further complicating the situation, the 
daily window for road construction and maintenance services is tight 
because state transportation agencies (DOTs) must balance the 
convenience of the motoring public with the ability to construct or 
maintain a roadway. Generally, active road construction activities may 
last for up to 12 or 14 hours per day.
    As a result, construction companies must utilize every minute of 
every day available to complete these projects. Unnecessary 
restrictions placed on CMV drivers associated with construction 
projects chew into those precious available hours during this fixed 
season.
    Drivers in the construction industry transport perishable materials 
such as concrete and asphalt. These products must be transported and 
applied within tight time limits or are unusable and wasted.
    Typically, construction industry drivers spend much of their time 
not actually driving but waiting to pick-up or deliver materials or 
load/unload equipment.
    Construction companies must obtain permits and pre-approved routes 
to operate longer trailers that can transport asphalt drums and silos, 
for example. These tractor-trailers can be up to 120 feet long, 16 feet 
wide and weigh over 240,000 lbs. While transporting these pieces of 
large construction equipment short distances, drivers are not allowed 
to deviate from the pre-approved routes identified to avoid low bridges 
and weight restricted areas. The permitted routes can easily increase 
what would normally be a 75-mile drive to 200 miles--often triggering a 
30-minute break requirement. Complying with the current 30-minute break 
requirement would be unsafe and difficult or impossible to accomplish 
considering the load size. Finding a location and releasing a driver 
from all on-duty responsibilities associated with that type of 
construction material load is impractical, inefficient, and creates 
additional safety problems.
    Many companies who operate in multiple adjoining states run a 
central equipment shop and dispatch center to more efficiently move 
equipment, materials, and employees to various projects throughout 
their area of operation-saving time and precious daylight hours. Under 
the current construction exemptions, companies that operate in these 
areas frequently travel more than 50 or 100 air-miles and are ``on-
duty,'' although not driving for periods of time. Nonetheless, the 30-
minute break requirements are triggered, and they are disqualified from 
the 24-hour restart exemption.
    Example: A truck driver drives 55 air miles from the work reporting 
location to Site A to deliver a piece of equipment, immediately 
excluding the construction exemption for a 24-hour restart. Once the 
driver employee arrives at Site A, the equipment is unloaded, and the 
driver employee begins to perform work-related duties (on-duty but not 
driving). After a few hours, the employee drives the empty truck 
another 50 air-miles, away from its start location, to pick up another 
piece of equipment at Site B. At Site B, the driver works (on-duty but 
not driving) and loads the equipment onto the truck before returning to 
his work reporting location and unloading the equipment. Because the 
driver has exceeded the 100 air-mile radius, the short haul exemption 
is similarly voided, and the driver is required to take a 30-minute 
break prior to any 8 hours on duty--even though those hours were not 
continuously spent driving behind the windshield.
                       Limited Exemptions Granted
    Congress and the FMCSA have both recognized these characteristics 
of construction industry driving practices as different from long haul 
drivers and therefore should be provided some relief from HOS 
restrictions. Currently there are a variety of exemptions and 
exceptions, as follows:
    Construction industry drivers transporting construction materials 
and equipment that drive within a 75 air-mile radius from their work 
reporting location are allowed a 24-hour reset/restart to the driver's 
70 hour/8 day on duty clock.
    Short haul construction industry drivers that stay within a 100-
mile radius of their normal work reporting location are exempt from 
requirements to maintain a log, including ELD requirements. Under this 
short haul exemption ready-mix concrete truck drivers and asphalt 
delivery drivers have a 14 hour on-duty allowance to still stay within 
the short haul exemption. However, the ready-mix exemption only 
includes trucks that have a mixer drum agitator and does not include 
dump trucks and other trucks critical to concrete paving operations. 
While the asphalt exemption includes the delivery truck, water truck, 
tack distributor, equipment hauler, pickup sweeper and attenuator 
truck, other trucks are not included.
    Ready mix and asphalt delivery drivers can also count time waiting 
to deliver their product to meet the 30-minute rest period during an 
eight-hour shift. Additionally, while the definition of asphalt 
includes ``related materials and equipment,'' it is not clear if this 
definition would include aggregates, sand and other trucks used in 
asphalt paving.
                         Safety Record in Tact
    The construction industry has welcomed this relief and demonstrated 
strong compliance with the hours of service regulations in the past. 
The record shows that the Congressionally mandated 24 hour reset 
provision has not been detrimental to public safety nor has it had 
adverse effects on driver health. AGC also believes this provision has 
benefitted the nation by allowing the delivery of vitally needed 
infrastructure in a timely and cost-effective manner.
    In providing this exception in 1995, Congress recognized that the 
hours-of-service regulations were too restrictive on several 
industries, including the construction industry. In granting this 
exception in the National Highway System Designation Act of 1995 
(section 345) Congress also directed the Secretary of Transportation to 
ensure that granting the construction industry exemption would be in 
the public interest and would not have a significant adverse impact on 
the safety of commercial motor vehicles. If at any time the Secretary 
determined that this was not the case, the Secretary could ``prevent 
the exemption from going into effect, modify the exemption, or revoke 
the exemption.'' Now, more than twenty years after the rules' 
implementation, no specific adverse impact has been identified.
          Uniform Construction Industry Exemption Makes Sense
    While the exemptions that have been granted to the construction 
industry are helpful, they are limited, do not address all the 
industry's needs and are confusing to administer and enforce. On any 
given construction site, some trucks and products are exempt from some 
HOS requirements while others are not. The fundamental reasoning behind 
granting the existing exemptions applies more broadly across all 
construction industry trucking operations. Asphalt and paving 
operations do not occur with only the vehicles that are delivering 
those specific materials to the jobsite. Aggregate must be placed on 
the road bed before either concrete or asphalt can be placed. Water and 
oil must be applied, attenuators put in place to protect workers, 
debris removed, equipment transported, and an array of other operations 
that are essential to completion of a road, bridge, runway and other 
transportation facilities. For these reasons, AGC believes it is 
essential to provide a uniform construction industry exemption.
    The simplest and most straightforward approach would be an 
exemption from all of the provisions of 49 CFR Part 395 for drivers of 
vehicles in the construction industry, similar to the exemptions for 
drivers of USVs as defined in 49 CFR Sec.  395.2 and transporters of 
agricultural commodities in 49 CFR Sec.  395.1(k).
    A wide variety of trucks and materials involved in transportation 
construction include: liquid asphalt, hot mix, concrete, aggregates, 
clay, water, oil, various types on construction equipment (pavers, 
excavators, backhoes, compactors, etc.), striping, and numerous others. 
It is not feasible for FMCSA to identify which of these construction 
trucking operations or material deliveries should be covered and which 
should not. Therefore, a broad exemption is necessary.
    In addition to transport of materials, the exemption should also 
clarify that vehicles owned or operated by a company under contract for 
the construction or reconstruction of a highway or other transportation 
facility when operated within the immediate construction project as 
described in the contract.
    A construction exemption would recognize local nature of these 
operations and the fact that non-uniform requirements and piecemeal 
exemptions increase the risk of crashes by increasing exposure.
                          Alternative Approach
    If a full construction exemption is not granted, AGC supports the 
changes that would mitigate some of the impacts of HOS restrictions on 
construction industry drivers, as follows:
                      expand short haul exemption
    Since many construction operations are local in nature, the short 
haul exemption has been helpful but limited. Expansion of the short 
haul to 150 miles would significantly reduce the impact of HOS on the 
construction industry.
    The short haul exemption should allow for an additional 2 hours of 
on-duty time. These additional 2 hours are crucial due to the seasonal 
nature of construction, and the fact that drivers in this industry are 
so frequently waiting at a jobsite--which we classify as ``on duty not 
driving''.
    AGC supports providing one set of HOS rules for short-haul 
operations, wherein a CDL driver would be exempt from the requirements 
if the driver operates within 150 air-miles of the work reporting 
location and completes the work day within 14 hours. Expanding the rule 
to a uniform 150 air-mile standard would make the rule uniform for all 
CMV drivers and give additional flexibility to CDL drivers.
    In addition, since drivers in the construction industry are so 
frequently either loading materials, waiting to be loaded, unloading, 
or waiting to unload, the 30-minute rest break just is not necessary. 
Drivers operating under the short-haul exemption and transporting 
construction materials and equipment should be allowed to count this 
waiting time as an alternative to a 30-minute rest break.
  eliminate the return to work reporting location requirement for the 
                            short-haul rule
    The current short-haul exceptions require the driver, whether in a 
CDL or non-CDL vehicle, to return to the driver's normal work reporting 
location and be relieved from duty with 12 hours to be eligible for the 
exemptions in 49 CFR Sec.  395.1(e)(1) or (2). AGC supports the 
Coalition proposal that FMCSA revise the rule to eliminate the 
requirement that a driver must return to the normal work reporting 
location and be relieved from duty within the time limit to be eligible 
for the exemption.
    There is nothing magical about a normal work reporting location. 
Going back to the same origin point every day does not necessarily 
promote safer driving habits. Many drivers begin their duty period from 
home, or from different jobsites, or motels on the road. Construction 
operations can be mobile. The construction job location is always 
changing. With modern telecommunications between drivers and 
management, it is not necessary for the driver to be physically present 
at a work reporting location to be relieved from duty in person. 
Drivers often now communicate with dispatchers and managers 
electronically daily, often exclusively, with no diminution in safety.
    AGC supports the Coalition suggestion that the rule simply require 
the driver to establish the origin point for that duty period, using 
GPS or some equivalent means, and be relieved from duty within 14 
hours. Drivers can notate their origin for the day in order to 
establish the 150 air-miles radius. If they are relieved from duty by 
the end of the 14-hour duty period, they would be exempt under Sec.  
395.1(e)(1) or (2).
                       adverse driving conditions
    AGC calls for expanding the exception in 49 CFR Sec.  395.1(b)(1) 
to allow drivers to drive for an additional two hours beyond the 14 
hour daily on-duty limit in addition to the 11-hour driving limit. This 
approach would provide an additional margin of safety for drivers. For 
example, in rare instances drivers get caught in inclement weather in 
which they must stop and put chains on their vehicles. Because these 
drivers do not drive more than a few hours per day on average, 
providing an exception to the 11-hour driving limit does not offer any 
relief. But allowing them an extra two hours beyond the 14-hour daily 
driving window would provide some additional relief and give them an 
opportunity to return to a safe haven within the regulations.
                       sleeper berth flexibility
    Finally, AGC calls for additional flexibility for drivers using the 
sleeper berth rules to divide the minimum 10 hours off duty into two 
separate periods. Presently, drivers must take at least 8 consecutive 
hours of the 10-hour off duty period in the sleeper berth as required 
by 49 CFR Sec.  395.1(g)((1)(ii)(A)(1). Yet the consensus among motor 
carriers using this provision that few, if any, drivers, can generate 
sufficient rest with 8 consecutive hours of more confined in the 
sleeper berth compartment. The Coalition supports an approach that 
would allow drivers to take two periods of fewer than 8 consecutive 
hours in the sleeper berth while still accumulating 10 hours off duty.
    This flexibility is important for construction industry drivers for 
scheduling time critical operations. It is especially important 
particularly in rural areas or remote projects. Liquid asphalt delivery 
is an example of how this flexibility is necessary. In many areas 
asphalt terminals can be long distances away from the project location. 
In some states there may be only one liquid asphalt terminal. For the 
liquid asphalt to be delivered on a time critical schedule a driver may 
need to pick up product the evening before and drive to the project 
location and be ready to deliver the next morning. A sensible split 
sleeper berth rule, instead of the current requirements for splitting 
the required 10 hours off duty, could resolve many of the scheduling 
problems. AGC urges FMCSA to revert to the previous sleeper berth 
rules.

                                 <F-dash>
  Letter of June 12, 2019, from Shailen P. Bhatt, President and CEO, 
Intelligent Transportation Society of America, Submitted for the Record 
                             by Hon. Norton
                                                     June 12, 2019.
Hon. Eleanor Holmes Norton
Chair
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
    Dear Chair Holmes Norton and Ranking Member Davis:
    In anticipation of the Subcommittee on Highways and Transit 
upcoming hearing entitled ``Under Pressure: The State of Trucking in 
America,'' the Intelligent Transportation Society of America (ITS 
America) writes to underscore how new and developing Vehicle-to-
Everything (V2X) technology that depends on the 5.9 GHz band can 
dramatically reduce truck fatalities and crashes. Vehicle-to-Vehicle 
(V2V), Vehicle-to-Infrastructure (V2I), and Vehicle-to-Pedestrian 
(V2P)--collectively referred to as V2X--have incredible potential to 
dramatically improve the safety, accessibility, and operational 
performance of our roads and truck safety.
    According to the U.S. Department of Transportation's National 
Highway Traffic Safety Administration (NHTSA), 70% of crashes involving 
trucks happened in situations that could be addressed by V2V systems. 
V2V deployments available today include systems that provide emergency 
braking. Another benefit of connected vehicles is their ability to be 
the ``eyes and ears'' of other vehicles. Non-Line-of-Sight awareness 
means that drivers and vehicles will be able to see around corners and 
receive information about hazards in the roadway, even if they cannot 
see the hazard. V2V communications help move traffic more efficiently 
with demand responsive traffic signaling and allow emergency response 
vehicles to preempt signals.
    The concept of V2I is to provide the vehicle and the driver 
information about infrastructure operations--weather and pavement 
condition, how signals are directing traffic, and even the location of 
potential hazards at intersections and other critical road safety 
hotspots. V2I applications include red light violation warnings, 
reduced speed zone warnings, curve speed warnings, and spot weather 
impact warnings. V2I soon will support other applications that will 
disseminate the condition of the infrastructure, such as bridge 
integrity, and may even collect data from vehicles that describe 
pavement condition. According to NHTSA, V2I technology helps drivers 
safely negotiate intersections and could help prevent 41 to 55 percent 
of intersection crashes. Another connected vehicle safety application 
that helps drivers with left turns at intersections could help prevent 
36 to 62 percent of left-turn crashes, according to NHTSA.
    Public sector agencies can also reap the benefits of V2X. Tens of 
millions have already been invested in this effort, including 
incorporating connected vehicle (CV) technologies into infrastructure. 
Through the combined efforts of the public and private sectors, 
hundreds of millions have been invested in development, rigorous 
testing, and deployment of today's V2X solutions. A majority of states 
and dozens of cities are deploying or planning to deploy CV technology. 
Wyoming Department of Transportation (WYDOT) is deploying CV technology 
along the 402 miles of I-80 where winter wind speeds and gusts result 
in trucks blowing over and often lead to road closures. WYDOT's CV 
pilot focuses on commercial vehicle operators by developing 
applications to support advisories, including roadside alerts, parking 
notifications, and dynamic travel guidance. WYDOT is equipping 400 
vehicles, a combination of fleet vehicles and commercial trucks with 
on-board units (OBUs). Of the 400 vehicles, at least 150 would be heavy 
trucks that are expected to be regular users of I-80. In addition, of 
the 400 equipped-vehicles, 100 WYDOT fleet vehicles, snowplows, and 
highway patrol vehicles will be equipped with OBUs and mobile weather 
sensors.
    Driver-assistive truck platooning enabled by V2V and Vehicle-to-
Cloud (V2C) communications links the active safety systems, braking, 
and acceleration between pairs of trucks. Using connected vehicle 
technology, trucks and their drivers benefit from shared safety and 
awareness, and the trucks can safely operate at closer distances to 
form a `platoon.' This kind of connected ``cooperative'' automation 
improves safety and driver teamwork as well as fuel efficiency and 
emissions. Since 2018, a number of truck OEMs and technology companies 
have been running commercial trials of truck platooning, working with 
major trucking fleets. These systems combine best-available truck 
safety systems with V2V, making trucks much safer in both individual 
operation and when paired in platoons. Truck platooning systems using 
V2V have been developed in the U.S. by companies such as Kenworth, 
Peterbilt, Volvo Trucks, Navistar, and Peloton Technology. In addition, 
in the E.U., all six European truck OEMs have developed truck 
platooning systems enabled by V2V and the same is true for top OEMs in 
Asia. Currently, truck platooning systems using V2V continue to move 
freight on a daily basis in the U.S. as part of ongoing fleet activity, 
setting the stage for growing commercial use of platooning.
    V2X will enable us to deploy safety solutions that protect 
vulnerable users of the system, which will be transformational. V2P is 
an important component of communications. In Colorado, where the 
largest increase was in vulnerable users of the system, fatalities 
increased from 484 in 2014 to nearly 700 in 2017. By allowing vehicles 
to communicate with these users through sensors or vehicle to device 
communication, we can significantly reduce the number of pedestrians 
killed on our roadways.
    V2X technologies can also enhance automated driving systems, which 
can provide numerous economic, environmental, and societal benefits, 
such as decreased congestion and fuel consumption, and increased access 
for older adults and people with disabilities.
    However, V2X communications are by no means guaranteed. The 5.9 GHz 
band for V2X is being targeted by cable companies and their supporters 
who are seeking additional spectrum for WiFi and are aggressively 
pressuring the FCC to force V2X to share that spectrum with unlicensed 
consumer broadband devices. Under this threat to the V2X band, wisely 
reserved by the FCC to allow for common-standard, cooperative vehicle 
safety that the marketplace cannot provide on its own, now is the time 
for national leadership to put public safety ahead of entertainment--
particularly given that cable/WiFi solutions can expand into other 
areas of available spectrum.
    Speed matters when safety information is involved. Sharing the band 
could compromise the speed and put lives at risk. What if a driver 
knew, in fractions of a second, that an airbag deployed in a vehicle in 
front of him/her? Alternatively, that the vehicle in front, around the 
next curve, was sliding on black ice? Or a pedestrian is around the 
next corner? Thanks to V2X technology, that driver would react--and 
avoid a crash. It is crucial to note that V2X can do things that are 
impossible for the best active safety systems or even automated 
vehicles: V2X enables vehicles and their drivers to see around corners, 
over hills, and perceive the status, non-visible characteristics and 
operational intent of surrounding vehicles. This allows for cooperative 
safety applications that cannot be achieved in other ways--dramatically 
improving safety for all vehicles and roadway users. Notably, V2X 
provides solutions that will allow for safer interaction between 
vehicles operating at all levels of automation--from traditional human-
driven to driverless. Deploying life-saving technologies that allow 
cars, buses, trucks, bicycles, pedestrians, motorcycles, streetlights, 
and other infrastructure to talk to each other will ensure more people 
arrive home safely. With roadway fatalities and injuries growing each 
year, even while individual vehicles themselves have been made safer 
than ever before, it is clear we are facing a major national health 
crisis. Given the unique safety solutions that can only be provided by 
V2X and which will strongly complement future advanced vehicle safety 
systems and automation, it would be a tremendous mistake by the U.S. 
Government if the 5.9 GHz band, which it wisely reserved for 
transportation safety, is not firmly preserved and protected.
    ITS America supports prioritizing the entire 5.9 GHz band for 
existing, new, and developing V2X technologies. We want to make sure 
all three phases of testing for the 5.9 GHz band are complete in a 
timely manner before the FCC rules on whether the spectrum can be 
shared between V2X operations and unlicensed devices like WiFi. Any 
unlicensed use in the band should be done without harmful interference 
to the incumbent technology or other intelligent transportation systems 
technologies. Furthermore, any protocols and solutions that are allowed 
to make use of the 5.9 band must adhere to common-sense fundamentals 
that allow for effective operations of V2X safety solutions across the 
nation: allowing for interoperability and backward-compatibility with 
systems already deployed today on vehicles and infrastructure.
    Building on extensive government-industry collaboration over the 
past years, V2X deployment has been underway and is growing. As a key 
part of taking on the national health crisis of growing fatalities and 
injuries on our roads, now is the time to move past the current period 
of damaging regulatory uncertainty and accelerate the deployment of 
life-saving V2X transportation technologies.
        Sincerely,
                                           Shailen P. Bhatt
   President and CEO, Intelligent Transportation Society of America

cc: House Subcommittee on Highways and Transit
Ron Thaniel, ITS America Vice President of Legislative Affairs

                                 <F-dash>
Statement of Phil Hunt, Executive Vice President, Uline, Submitted for 
                       the Record by Hon. Norton
             fostering innovation in the trucking industry
    On behalf of Uline, I wish to submit to the Committee written 
testimony as related to the adoption of Twin 33-foot trailers and 
addressing the commercial vehicle driver shortage.
    Uline is a family owned business leading the nation in selling and 
distributing shipping, industrial and packaging materials. We have 
seven distribution centers across the United States, spanning from 
coast to coast and 6,000 employees. Our business model is based on 
guaranteeing next day delivery of any of our 34,000 plus inventory 
items if ordered by 6 PM.
    For years, the infrastructure in the United States has steadily 
deteriorated and Congress has failed to pass a comprehensive 
infrastructure package to improve our roadways and foster innovation 
within the trucking industry. At the same time, the trucking industry 
has continued to grow as our nation's population and subsequent 
consumer demand for shipping increases. The adoption of Twin 33, (T-33) 
trucks will allow the trucking industry to meet consumer demands while 
reducing the number of trucks on the road, safety concerns, CO2 
emission, fuel consumption and road wear and tear per ton of freight. 
Additionally, the adoption of T-33 trucks will help alleviate the 
ongoing issue of driver shortages within the trucking industry. The 
industry must continue to adapt and adopt innovative changes to ensure 
efficient and safe shipping throughout the nation and facilitate our 
nation's economic growth.
                            twin 33 trailers
    A modest five-foot increase to twin 28, trailers maintains the same 
maximum total vehicle weight while increasing cargo volume capacity by 
almost 20 percent, which subsequently reduces the number of required 
trips and vehicles on the road. T-33s would be used to facilitate Less-
than-Truckload (LTL) operations, which include cargo packages and 
relatively small shipments. LTL operations heavily rely on twin 
trailers.
    Twin 33s in Action: Currently, T-33s are permitted to operate on 
certain highways in up to 20 states--the trucks are prohibited from 
local roads, as are twin 28, trucks. To date, there have been no 
reports of crashes related to the use of T-33s.
                         fuel & co 2 emissions
    According to the EPA, Carbon Dioxide (CO2) emissions via 
transportation sources account for around 34 percent of total ``human 
activity caused'' CO2 emissions. Increases in CO2 emissions over the 
past twenty years from fossil fuel combustion are influenced by many 
factors including population growth and economic growth--which are 
among the same factors that have increased shipping needs and demands. 
The most effective way to reduce CO2 emissions is to reduce the 
consumption of fossil fuels.
    Less trips results in less fuel consumption and in turn less CO2 
emissions. The utilization of T-33s could reduce trucking fuel 
consumption by around 200 million gallons per year which would result 
in a reduction of about 4.4 billion carbon emissions.
                  infrastructure & roadway congestion
    According to a 2018 study by transportation consulting firm, INRIX, 
congestion cost our nation billions of dollars in 2017 alone. This 
figure, among other factors, reflects lost productivity, increased 
costs of delivery via transportation due to congested roads, and wasted 
fuel. Our nation's roads and bridges have many structural issues that 
are exacerbated by continuous vehicle congestion.
    Due to T-33s increased cargo volume capacity, less trips are 
required. If T-33s were adopted nationally the number of vehicles that 
are on the road would be reduced providing some relief from the 
constant strain on the roadways and the burdens of delayed traveling. 
The Department of Transportation has estimated that a shift to T-33s 
would have reduced traffic delays by more than 50 million vehicle-hours 
in 2011.
                         lowered shipping costs
    Consumer demand continues to grow, especially with the booming 
online shopping market. An estimated 96 percent of Americans now shop 
online--requiring an increased number of packages that must be 
delivered by truck. This trend is only going to increase as a reported 
23 percent of Americans say they shopped more online in 2018, and 11 
percent say they plan to increase their online shopping in 2019. No 
longer does a consumer expect to wait a week for delivery, they want 
their products as quickly as possible. For example, our successful 
business model is based on guaranteeing next day delivery of any of our 
34,000 plus inventory items if ordered by 6 PM.
    Now more than ever, the trucking industry must employ innovative 
means of shipping to reduce shipping costs for both retailers and 
consumers and meet consumer needs. T-33s require less trips, less 
drivers and less fuel, which in turn reduces helps keep shipping costs 
down for the retailer and consumer while also reducing roadway 
congestion.
    According to Americans for Modern Transportation (AMT), T-33s would 
lower costs for carriers if more freight can be carried per truckload 
resulting in about $2.6 billions dollars saved in shipping costs.
                                 safety
    While some opponents of T-33s have claimed that the larger the 
truck the more likely accidents will occur, according to AMT by 
increasing the length of the trailers, the truck's high-speed dynamics 
are improved which results in less roll-overs and jackknifes. Moreover, 
the less trucks on the roadways reduces the likelihood of a crash or 
malfunction.
    Notably, as stated by the Coalition for Efficient and Responsible 
Trucking (CERT), the increased length limit on twin trailers for LTL 
shipment does not increase the overall maximum weight limit nor the 
axle or bridge formula limits.
    According to AMT:
    Several significant dynamic safety performance characteristics are 
improved by increasing twin trailer lengths from 28, to 33, while 
keeping vehicle weight constant:

        Rearward Amplification is the increased side force or lateral 
        acceleration acting on the rear trailer because of rapid 
        steering in articulated vehicles. Rearward amplification 
        increases the risk of trailer rollover. A controlled comparison 
        shows that rearward amplification under controlled conditions 
        is reduced by 20 percent in T-33 configurations.

        Load Transfer Ratio is the proportion of load on one side of a 
        vehicle transferred to the other side during a transient 
        maneuver. When load transfer ratio reaches a value of one, 
        rollover occurs. Lower values are better. Controlled 
        simulations show an 11 percent lower load transfer ratio for T-
        33s compared to T-28s.

        High-Speed Transient Offtracking occurs when rear wheels track 
        outside the front wheels during an avoidance maneuver. T-33s 
        offtrack 13 percent less than T-28s during the same avoidance 
        maneuver, making lane edge excursions and associated incidents 
        less likely.

    As mentioned earlier, there have been no reports of crashes related 
to the use of T-33s. Safety is and should always be of top priority and 
T-33s are capable of improving trucking operations while keeping 
everyone on the roadways safe.
                            driver shortage
    Commercial Motor Vehicle driver shortages are an ongoing and 
critical issue for the trucking industry and affects the entire supply 
chain, resulting in more frequent shipping delays and higher inventory 
carrying costs. According to AMT, if the current industry trends 
continue, the trucking industry could be short 174,000 drivers by 2026. 
This is a major issue for both private carriers including Uline whose 
customers rely on our next day delivery guarantee, and particularly for 
over-the-road or long-haul for-hire truckload segments who face the 
highest rate of shortages.
    Permitting the use of T-33s nationally would increase route 
efficiency requiring less delivery trips for drivers. This will help 
reduce the growing issue of driver shortages and the coupled issue of 
driver burn out and the issue of ``churning'' which results in the 
frequent route and job changes by drivers.
    Additionally, it is important to note that shortage rates continue 
to increase, in part, due to the existing barriers-to-entry for new 
drivers, including age requirements. While there are many industry-wide 
changes that must be made in order to drastically reduce driver 
shortages, lowering the driving age requirement and expanding the pool 
of potential drivers will be a critical part of the ultimate shortage 
solution. Currently, 48 states allow drivers to obtain a commercial 
driver's license (CDL) at age 18 years old to transport freight for 
intrastate purposes but are then prohibited from driving in interstate 
commerce until they are 21 years old. The FMCSA's pilot program aimed 
at recruiting and training younger drivers may help alleviate the 
ongoing issue of CMV driver shortages by introducing an entire new 
population--upwards of 13 million--of potential drivers to the industry 
that has been inaccessible until now.
    In order for the pilot program to be successful, FMCSA must ensure 
that adequate safety measures are taking during the testing and 
training process. Uline supports the program requiring an entry-level 
driver training (ELDT) course prior to the (CDL) skills exam and an 
additional apprenticeship program prior to being qualified as a CMV 
interstate driver.
    The apprenticeship program will allow drivers 18-21 years old to 
ease into the industry safely by mastering the skills acquired through 
then ELDT course and CDL skills exam alongside an experienced driver. 
The apprenticeship program should require at least 400 hours of ``on 
duty'' time, which should include at least 240 hours of actual driving 
time. The ``on duty'' requirement should only be viewed as a minimum 
requirement and performance benchmarks should be established throughout 
the apprenticeship prior to graduating from the program.
    In an effort to further reduce any potential safety concerns, the 
trucks that will be used in the program should be equipped with the 
latest safety technology. As proposed in the DRIVE-Safe Act, the trucks 
used in the program should be outfitted with active braking collision 
avoidance systems, forward-facing event recording cameras, speed 
limiters set at 65 miles per hour or less and automatic or automatic 
manual transmissions. This technology, coupled with the supervision of 
an experienced driver, will instill upon the young driver a level of 
safety that is not currently required by CDL interstate drivers above 
the age of 21. This pilot program will establish a safe and consistent 
driving record from an early age.
                     support the adoption of t-33s
    On behalf of Uline, I respectfully urge Congress to adopt the use 
of T-33s nationwide.
    Uline, like many others in the industry, are eager to reduce 
congestion, CO2 emissions, fuel consumption, driver shortages and 
shipping costs while increasing safety and delivery capabilities.
    Shipping demands do not remain stagnant and neither should the 
industry's means of delivery.
                                 <F-dash>
Letter of June 25, 2019, from Heidi K. McAuliffe, Esq., Vice President, 
 Government Affairs, American Coatings Association, Submitted for the 
                   Record by Hon. Graves of Missouri
                                                     June 25, 2019.
Hon. Eleanor Holmes Norton
Chairwoman
House Subcommittee on Highways and Transit, Washington, DC.
Hon. Rodney Davis
Ranking Member
House Subcommittee on Highways and Transit, Washington, DC.

RE: June 12 Hearing, ``Under Pressure: The State of Trucking in 
America.''

    Dear Chairwoman Norton and Ranking Member Davis,
    The American Coatings Association (ACA) is pleased to submit this 
statement for the record of the Subcommittee's June 12, 2019, hearing, 
``Under Pressure: The State of Trucking in America.'' On behalf of the 
paint and coatings industry and the professionals who work in it, I 
write to you to express our strong support for the Drive Safe Act (H.R. 
1374 & S. 569).
    The ACA is the premier trade association for manufacturers of 
paints and coatings and their raw material suppliers. The majority of 
our raw materials and finished goods are transported via highway and 
America's trucking industry, joining the nearly 71% of total freight 
the industry is responsible for moving in the United States. Not only 
is the trucking industry imperative to America's economic stability and 
growth, but it is vital for our members, their manufacturing needs, and 
consumer satisfaction. The Drive Safe Act will not only provide relief 
from the severe driver shortage the coatings industry is facing, but it 
will also effectuate safer roads and highways.
    The Drive Safe Act would create an apprenticeship program for 
commercial drivers under the age of 21 and thereby rid the trucking 
industry of arbitrary regulations that prevent it from fully utilizing 
the drivers it can already hire. Currently, 48 states allow 18-21-year-
olds to procure a commercial driver's license and operate a commercial 
vehicle in intrastate commerce after simply passing a written exam and 
a driver's test. Thereafter, an 18-year-old Texas driver would be able 
to drive over 700 miles from Houston to El Paso to deliver raw 
materials to a coatings manufacturer, but it would be illegal for an 
18-year-old Virginia driver to drive 14 miles from Springfield to 
Washington D.C. to move paint between two retail suppliers. The Drive 
Safe Act will not only allow the trucking industry to fully utilize a 
demographic it can already hire, but it will rid the industry of 
arbitrary regulations that confine a national industry with state 
borders.
    The Drive Safe Act implements a rigorous 400-hour apprenticeship 
program that requires a minimum of 240 hours be spent driving with an 
experienced commercial driver. This extensive training will not only 
actively teach the apprentice safe truck operation techniques but will 
also guarantee the apprentice is prepared to safely perform all aspects 
of a trip, including fueling, weighing loads, and other procedures. 
This universal training will better support safe roads and highways 
when compared to the minimum amount of testing that is currently used.
    As the trucking industry continues to embrace vehicle automation, 
telematics, and other technological advances that are beneficial to our 
manufacturers and their suppliers, full use of the 18-21-year-old 
demographic takes advantage of a key talent pool and also helps 
alleviate the driver shortage. Properly trained drivers should not be 
confined by state borders and arbitrary regulations. The Drive Safe Act 
will provide for safer, better educated, and better equipped apprentice 
drivers, as well as provide an additional pool of drivers for the 
coatings industry to transport finished products and raw materials.
    The American Coatings Association looks forward to working with 
Congress to advance this important legislation.
        With Kind Regards,
                                   Heidi K. McAuliffe, Esq.
                                 Vice President, Government Affairs
                                 
                                 <F-dash>
    Letter of June 27, 2019, from Chris Spear, President and Chief 
 Executive Officer, American Trucking Associations, Submitted for the 
                   Record by Hon. Graves of Missouri
                                                     June 27, 2019.
Hon. Daniel Webster
U.S. House of Representatives, Washington, DC.
    Dear Representative Webster:
    During the June 12 hearing before the Subcommittee on Highways and 
Transit you asked me a question on the subject of truck weights. I 
would like to take this opportunity to clarify my response to your 
question in order to make sure that you have complete and accurate 
information. I would also like to request that this letter be made part 
of the hearing record.
    Your question pertained to the potential for increasing the payload 
of a truck by reducing the weight of the equipment (i.e. the tare 
weight). My response implied that the tare weight of the vehicle is not 
counted when determining whether the truck is in compliance with the 
80,000 pound federal gross weight limit. In fact, the combined load and 
weight of the equipment is counted against the weight limit. I regret 
any confusion my initial response may have caused; and trust the 
additional information provided here more fully answers your question.
    Thank you for the opportunity to correct the record and I look 
forward to working with you to improve the safety and mobility of our 
Nation's roadways. If you have further questions please do not hesitate 
to contact me or my staff.
        Sincerely,
                                                Chris Spear
                    President & CEO, American Trucking Associations

cc: Chair Eleanor Holmes Norton
Ranking Member Rodney Davis

                                 <F-dash>
 Letter of June 10, 2019, from Randy Mullett, Executive Director, The 
Americans for Modern Transportation Coalition, Submitted for the Record 
                       by Hon. Graves of Missouri
                                                     June 10, 2019.
Hon. Eleanor Holmes Norton
Chair
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
Hon. Rodney Davis
Ranking Member
Subcommittee on Highways and Transit, Committee on Transportation and 
        Infrastructure, U.S. House of Representatives, Washington, DC.
    Dear Chair Norton and Ranking Member Davis:
    Thank you for your leadership in the effort to improve our nation's 
infrastructure and safety on roadways. As you examine the pressure the 
trucking industry faces, we hope you will consider the benefits 
identified by The Americans for Modern Transportation Coalition. Our 
solution will reduce congestion with no cost to the taxpayer, increase 
safety, maximize efficiency and increase environmental gains by 
updating an outdated rule to allow a modest five-foot increase to twin 
28, trailers. Increasing the national twin trailer standard from 28 
feet to 33 feet will bring immediate and meaningful improvements to our 
nation to reduce some of the pressures the industry currently faces:
    <bullet>  Improved Safety on Our Roads--The reduction in the number 
of trucks on our roads would have tangible safety benefits. 
Additionally, Twin 33, trailers perform better than many other truck 
configurations on four critical safety measures, including stability 
and rollover. Research shows that the adoption of Twin 33, trailers 
would result in 4,500 fewer truck accidents annually, and 53.2 million 
hours saved due to less congestion. Furthermore, the following 
additional safety features on Twin 33s will enhance safety as they 
travel on the existing national highway network in a Twin 33 
configuration:
      <bullet>  Automatic emergency braking system
      <bullet>  A speed limiting device capped at 68 miles per hour
      <bullet>  Electronic stability control
      <bullet>  On-board safety video recorder
    <bullet>  Economic Benefits--Twin 33, trailers can move the same 
amount of freight with 18% fewer truck trips, allowing consumers and 
businesses to realize $2.6 billion annually in lower shipping costs and 
quicker delivery times. As times are good for the economy; freight 
movement also is increased and drives private investment.
    <bullet>  Longer Life Cycle for Our Roads and Bridges--The 
implementation of Twin 33, trailers will result in 3.1 billion fewer 
truck miles traveled each year, greatly reducing the impact on roads 
and bridges with less congestion at no cost to taxpayers.
    <bullet>  Environmental Gains--The efficiency gains from the 
adoption of Twin 33, trailers would equate to 255 million fewer gallons 
of fuel and 2.9 million fewer tons of CO2 emissions.
    The private sector continues to make investments in our workforce, 
new technologies, and existing equipment to ensure that our fleets are 
as safe, efficient and sustainable as possible. We need the same 
forward-looking effort from our partners in federal, state and local 
governments so that all Americans have access to the full promise 
enabled by a modern transportation system.
    As we know, investments today will have residual future benefits. 
The 116th Congress has a unique opportunity to lay the foundation for a 
modern American infrastructure system, and we are encouraged that the 
House Committee on Transportation & Infrastructure has been full steam 
ahead on debating solutions. Infrastructure reform requires smart 
investments, consistent with the fundamental federal role, and 
leveraging resources from all levels of government and the private 
sector. We urge the Committee to support the types of investments and 
commonsense policies that will enhance safety as well as spur economic 
growth and job creation.
    We look forward to continuing to work with the House Transportation 
and Infrastructure Committee to seize this opportunity to usher the 
country into a new era of safety and infrastructure investment.
        Sincerely,
                                              Randy Mullett
       Executive Director, The Americans for Modern Transportation 
                                                          Coalition

cc: Chairman, Ranking Member and Members of the U.S. House Committee on 
Transportation and Infrastructure

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>
Letter of June 12, 2019, from Marc Scribner, Senior Fellow, Competitive 
   Enterprise Institute, Submitted for the Record by Hon. Graves of 
                                Missouri
                                                     June 12, 2019.
    Dear Chair Norton, Ranking Member Davis, and members of the 
Subcommittee,
    Thank you for the opportunity to supplement the record of your 
hearing with our views on trucking policy. Broadly, we encourage 
members of the Subcommittee to focus on technologies, practices, and 
policies that show the most promise in improving the safety and 
performance of trucking in the United States.
    As freight volume continues to grow at a faster rate than highway 
lane-miles, Congress should examine solutions that can improve 
operations without costly additional physical capacity expansions. One 
proposal that deserves serious consideration is permitting the 
operation of twin 33-foot trailers throughout the Interstate Highway 
System and National Network.
    Today, space in truck trailers is often underutilized. Due to the 
geometry of 28-foot trailers and the freight they carry, 28-foot twin 
trailers generally ``cube out'' before they ``weigh out''--that is, 
become filled to practical capacity well before reaching highway gross 
vehicle weight limits.
    Allowing twin-33s in all 50 states would allow fewer vehicles to 
transport the same volume of freight. This would save fuel and time, 
but would also save lives by reducing the number of trucks on the road 
and thereby reducing the probability of dangerous truck-car 
interactions. A smaller commercial motor vehicle fleet would also be 
easier and cheaper to outfit with the latest safety technologies.
    In a constrained infrastructure funding environment with great 
uncertainty surrounding the future of motor vehicle technology, 
Congress should focus on low-cost, ``no regrets'' policies that can 
deliver more bang for the buck by making better use of existing 
infrastructure and other resources. Allowing twin-33s to operate 
nationwide would be a positive step in that direction.
        Sincerely,
                                              Marc Scribner
                    Senior Fellow, Competitive Enterprise Institute

                                 <F-dash>
  Appendix to Prepared Statement of Chris Spear, President and Chief 
           Executive Officer, American Trucking Associations
       the american trucking associations priorities for surface 
                     transportation reauthorization

                              May 16, 2019

    PREAMBLE--The American Trucking Associations supports a federal 
surface transportation program that makes our highways safer, reduces 
fossil fuel use and lowers emissions, and helps the trucking industry 
to become more productive. In order to meet these goals, the next 
reauthorization bill should provide the resources necessary to bring 
the highway system to a state of good repair and address severe and 
growing highway congestion. Through a combination of regulatory 
flexibility and financial incentives, the legislation should promote 
the use of safer, cleaner, more cost-effective and more energy-
efficient commercial trucks.
 ATA supports the following reforms to the federal-aid highway program:
I. PREVENT THE HIGHWAY TRUST FUND FROM GOING BANKRUPT AND ENSURE THAT 
        THE FUND HAS THE SUFFICIENT, SUSTAINABLE REVENUE NECESSARY TO 
        ADDRESS SURFACE TRANSPORTATION SYSTEM DEFICIENCIES
    <bullet>  Funding
        <bullet>  Increase the federal fuel tax by 20 cents per gallon, 
        to be phased in over four years. The fee will be indexed to 
        both inflation and improvements in fuel efficiency, with a five 
        percent annual cap.
        <bullet>  Establish a new fee on electric vehicles in order to 
        ensure that all who benefit from transportation investments 
        contribute their fair share.
        <bullet>  Establish a glide-path for a new user fee based 
        revenue source for the Highway Trust Fund to supplement and 
        ultimately replace the fuel tax over the next decade.
    <bullet>  Expenditures
        <bullet>  The first tranche of revenue generated by the new fee 
        will be transferred to the HTF. Using a FY 2020 baseline, 
        existing HTF programs will be funded at authorized levels 
        sufficient to prevent a reduction in distributed funds, plus an 
        annual increase to account for inflation.
        <bullet>  $5 billion will be dedicated to a new National 
        Priorities Program (NPP) administered by the U.S. Department of 
        Transportation. The NPP is a grant program designed to address 
        the most critical highway bottlenecks.
        <bullet>  All remaining revenue will be placed into a Local 
        Priorities Program (LPP) and distributed by formula to the 
        states. Project eligibility is the same as the eligibility 
        under the National Highway Freight Program or National Highway 
        Performance Program, for highway projects only.
II. ENSURE THAT THE FREIGHT PROGRAMS CREATED UNDER THE FAST ACT 
        EFFECTIVELY ADDRESS THE MOST CRITICAL FREIGHT DEFICIENCIES
    With the creation of two new freight funding programs, the 2015 
FAST Act legislation recognized the critical role that the federal 
government plays in facilitating the efficient movement of freight in 
interstate commerce, a role memorialized by the U.S. Constitution. Both 
the Nationally Significant Freight and Highway Projects Program (AKA 
INFRA) and the National Highway Freight Program provided dedicated 
funds for projects that improved traffic flow and safety on 
transportation facilities with significant freight volumes. These 
programs should be continued. In addition, ATA recommends the following 
reforms:
Nationally Significant Freight and Highway Projects Program (AKA INFRA)
    <bullet>  Maintain 10 percent cap on non-highway projects. Trucks 
move 70 percent of freight tonnage and are key to the efficient 
movement of intermodal freight. Furthermore, trucks are the only 
freight mode that contribute directly to the Highway Trust Fund and 
should not be forced to further subsidize modes that do not contribute.
    <bullet>  Maintain 10 percent cap for lower cost projects. Federal 
funding should focus as much as possible on those high-cost projects 
that state and local governments have difficulty funding, yet are 
crucial to interstate freight mobility.
    <bullet>  Increase funding to ensure federal prioritization of 
freight mobility (i.e. interstate commerce).
    <bullet>  Maintain current eligibilities. Expanding eligibility 
would create a loss of focus on the most important parts of the freight 
transportation network.
    <bullet>  Prohibit USDOT from making either the state/local match 
or the use of private financing a criteria for project selection.
    <bullet>  Give priority to projects that address freight 
bottlenecks identified under 49 USC 70102(b) (4).
                    National Highway Freight Program
    <bullet>  Maintain 10 percent cap on non-highway projects.
    <bullet>  Increase funding to ensure federal prioritization of 
freight mobility (i.e. interstate commerce).
    <bullet>  Eliminate 50 percent transferability to other apportioned 
programs in order to ensure that all available resources are used for 
their intended purpose.
III. REFORM FEDERAL INTERSTATE TOLLING AUTHORITY
    While restrictions on the authority to toll Interstate highways 
have been imposed since the inception of the Interstate Highway System 
in 1956, over the years a patchwork of exceptions has been created. 
Federal law governing where, how and under what circumstances a state 
may toll existing, general-purpose lanes of the Interstate system is 
now a confusing, contradictory mess that serves neither state or local 
transportation agencies nor highway users very well.
    ATA believes that Interstate tolls are highly inefficient compared 
with many other funding options and the diversion created by tolls 
causes needless safety, congestion, environmental and quality of life 
problems. However, we recognize that many in Congress would like to 
maintain some level of tolling flexibility. On the other hand, we 
believe it is important to have a tolling regime that is easily 
understood and is tied to federal policy considerations that take into 
account fairness and equity for highway users, safety, interstate 
commerce and the environment, as well as states' desire to use tolls as 
a tool to address congestion and fill their transportation funding 
gaps.
    Currently, there are three options for states to toll existing 
general purpose lanes on the Interstate System:
    <bullet>  Tolling a replacement or reconstructed bridge or tunnel;
    <bullet>  The Interstate System Reconstruction & Rehabilitation 
Pilot Program, which allows up to three states to toll a single 
Interstate highway; and
    <bullet>  The Value Pricing Pilot Program, which allows up to 15 
jurisdictions (generally states) to toll an unlimited number of 
Interstate miles as part of a demonstration of the concept of 
congestion pricing.
    We believe that Congress desires to maintain tolling flexibility 
for the states to address congestion through pricing of highways and to 
fund very costly bridge and tunnel projects. However, the interests of 
highway users must also be protected. Therefore, ATA proposes replacing 
the current three options above with the following:
    States may toll existing, general purpose lanes of the Interstate 
System if they meet the following criteria through application to the 
Secretary of Transportation:
    <bullet>  Congestion Pricing--States must demonstrate that the 
pricing of highways (not the projects funded by tolls) by themselves 
significantly alleviate congestion and improve air quality in a highway 
corridor, including on alternative routes.
    <bullet>  Bridge/Tunnel reconstruction or replacement--Eligible 
projects are those with a total project cost of at least $2 billion. 
These are single facility costs, not network costs.
    General requirements:
    <bullet>  A state must conduct an Environmental Impact Statement 
for each project.
    <bullet>  When conducting an EIS for a network of tolls, an EIS 
must determine the effects of both individual toll locations and the 
collective network effects of a proposal.
    <bullet>  Revenue generated by the tolls can only be used for 
financing costs and project costs related to the facility or Title 23 
eligible highway or transit projects that directly benefit the users of 
the tolled facility. This requirement should apply to existing tolls on 
Interstate highways as well. Revenue from the lease or sale of an 
Interstate toll facility should also be subject to this requirement.
    <bullet>  The maximum toll rate for any vehicle class may not 
exceed any other toll rate by more than five times.
    <bullet>  Any toll discounts must be offered to all users, 
regardless of residency or the state a transponder was purchased from. 
This requirement should apply to existing tolls on Interstate highways 
as well.
    <bullet>  At a minimum, the State's application, either through an 
EIS or separate documentation, should demonstrate the following:
        <bullet>  There is a net congestion reduction, taking into 
        consideration mobility on both the tolled route and any routes 
        to which traffic diverts. There is also a net reduction in 
        vehicle emissions on these routes.
        <bullet>  The number and severity of crashes is not likely to 
        increase.
        <bullet>  If additional maintenance or capacity improvements on 
        diversion routes are anticipated, the state must document these 
        improvements and include a plan to implement them within a 
        reasonable timeframe.
        <bullet>  Environmental justice impacts of tolls and mitigation 
        measures.
        <bullet>  A cost-benefit analysis that includes the impacts of 
        tolls on roadside businesses, commercial vehicle operators, and 
        the impacts on businesses and consumers affected by tolls, both 
        inside and outside the states where the tolls are located.
        <bullet>  A determination with regard to whether the location 
        of tolls or the toll rate structure discriminates against 
        interstate commerce.
    <bullet>  The state is required to submit a report to the Secretary 
every five years with an analysis of the above, and the Secretary is to 
determine whether the state continues to meet the requirements.
IV. PROVIDE DEDICATED FUNDING FOR FREIGHT INTERMODAL CONNECTORS
    Freight intermodal connectors--those roads that connect ports, rail 
yards, airports and other intermodal facilities to the National Highway 
System--are publicly owned. While they are an essential part of the 
freight distribution system, many are neglected and are not given the 
attention they deserve given their importance to the nation's economy. 
Just nine percent of connectors are in good or very good condition, 19 
percent are in mediocre condition, and 37 percent are in poor 
condition.\1\ Not only do poor roads damage both vehicles and the 
freight they carry, but the Federal Highway Administration (FHWA) found 
a correlation between poor roads and vehicle speed. Average speed on a 
connector in poor condition was 22 percent lower than on connectors in 
fair or better condition.\2\ FHWA further found that congestion on 
freight intermodal connectors causes 1,059,238 hours of truck delay 
annually and 12,181,234 hours of automobile delay.\3\ Congestion on 
freight intermodal connectors adds nearly $71 million to freight 
transportation costs each year.\4\
---------------------------------------------------------------------------
    \1\ Freight Intermodal Connectors Study. Federal Highway 
Administration, April 2017.
    \2\ Ibid.
    \3\ Ibid.
    \4\ An Analysis of the Operational Costs of Trucking: 2018 Update. 
American Transportation Research Institute, Oct. 2018. Estimates 
average truck operational cost of $66.65 per hour.
---------------------------------------------------------------------------
    One possible reason connectors are neglected is that the vast 
majority of these roads--70 percent--are under the jurisdiction of a 
local or county government.\5\ Yet, these roads are serving critical 
regional or national needs well beyond the geographic boundaries of the 
jurisdictions that have responsibility for them, and these broader 
benefits may not be factored into the local jurisdictions' spending 
decisions. While connectors are eligible for federal funding, it is 
clear that this is simply not good enough. Congress should set aside 
adequate funding for freight intermodal connectors identified by FHWA 
to ensure that these critical arteries are given the attention and 
resources they deserve. Furthermore, FHWA should add connectors to 
major military installations to the list of eligible roads in order to 
address deficiencies on arteries that are critical to national defense.
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
V. ADDRESS THE SHORTAGE OF PARKING FOR TRUCK DRIVERS
    Research and feedback from carriers and drivers suggest there is a 
significant shortage of available parking for truck drivers in certain 
parts of the country. Given the projected growth in demand for trucking 
services, this problem will likely worsen. There are significant safety 
benefits from investing in truck parking to ensure that trucks are not 
parking in unsafe areas due to lack of space.
    Funding for truck parking is available to states under the current 
federal-aid highway program, but has not been a priority given a 
shortage of funds for essential highway projects. Therefore, we support 
the creation of a new discretionary grant program with dedicated 
funding from the federal-aid highway program for truck parking capital 
projects. ATA recommends that FHWA conduct a nationwide study, with 
biennial updates, to determine specific locations with the most 
critical truck parking shortages. Congress should set aside at least 
$100 million per year for a FHWA administered grant program to address 
the truck parking shortage, with preference given to projects that 
address the shortages identified by FHWA. Eligibility should be the 
same as for Sec. 1401 of MAP-21 (i.e. Jason's Law).
VI. ELIMINATE THE FEDERAL EXCISE TAX ON TRUCKING EQUIPMENT
    Repeal the federal excise tax (FET) on trucking equipment, provided 
the revenue it generates for the HTF is replaced. This antiquated 12 
percent sales tax, which was adopted in 1917 to defray the costs of 
World War I, is a barrier to investment in the cleanest, safest trucks 
available on the market. In fact, when the FET was first adopted, it 
was applied to all vehicles, and now is imposed only on heavy trucks.
    Income from the FET has varied widely, mostly in response to 
economic conditions. Over the past decade revenue has ranged between 
$1.5 billion during the recession year of 2008 and $4.6 billion in 
2015. This variability contributes to mismatches between federal-aid 
money authorized and revenue available for appropriation. In fact, the 
first bail-out of the HTF, in 2008, was necessitated largely by an 
unanticipated drop in FET revenue. Based on Congressional Budget Office 
projections, approximately $5 billion per year will be required for 
replacement.
VII. REINSTITUTE THE VEHICLE INVENTORY AND USE SURVEY
    The Census Bureau and the Department Transportation should 
reinstitute a Vehicle Inventory and Use Survey (VIUS). The latest VIUS 
data is from 2002, which is extremely outdated. The VIUS gathered 
information on the physical and operational characteristics of trucks 
as part of the U.S. Economic Census conducted every five years, in 
years ending in 2 and 7. The 2002 report surveyed about 136,000 trucks 
and collected data on features such as make, model, and age; miles per 
gallon, distance traveled and area of operation; trailer configuration; 
and goods hauled by weight, commodity, and presence of hazardous 
material.
    There is no alternate source for most of the data the VIUS 
provided. It is the only source of physical and operational 
characteristics of heavy-duty trucks, including fuel use. Sound 
policies to address energy use and environmental impacts of trucks need 
to reflect the distribution of trucks among weight classes, body types, 
and usage patterns.
    VIUS data is also fundamental to understanding how we use and 
manage our highways, including issues such as highway cost allocation 
and roadway safety. In addition, as the Census Bureau states in its 
summary of the 2002 VIUS data release: ``The Department of 
Transportation uses the data for analysis of cost allocation, safety 
issues, proposed investments in new roads and technology, and user 
fees. The Environmental Protection Agency uses the data to determine 
per mile vehicle emission estimates, vehicle performance and fuel 
economy, and fuel conservation practices of the trucking industry. The 
Bureau of Economic Analysis uses the data as a part of the framework 
for the national investment and personal consumption expenditures 
component of the Gross Domestic Product.'' Census also wrote: ``Tire 
manufacturers use the data to calculate the longevity of products and 
to determine the usage, vocation, and applications of their products. 
Heavy machinery manufacturers use the data to track the importance of 
various parts distribution and service networks. Truck manufacturers 
use the data to determine the impact of certain types of equipment on 
fuel efficiency.''
    VIUS data is essential to industry, policymakers, and researchers 
and should be reinstated as a regular part of the economic census.
VIII. SUPPORT LIMITED, COMMON-SENSE REFORMS TO FEDERAL TRUCK SIZE AND 
        WEIGHT LAWS
1. Give automobile transporters a 5 percent increase in gross and axle 
weight limits on Interstate highways and reasonable access routes. This 
is necessary to accommodate the significant increase in heavier light 
trucks and hybrid/electric vehicles. It would substantially reduce the 
number of trucks on the road.

            Legislative language:
    OPERATION OF CERTAIN SPECIALIZED HAULING VEHICLES ON THE 
INTERSTATE.--
    ``(1) IN GENERAL.--A State may not prohibit the operation of an 
automobile transporter with a gross weight of 84,000 pounds or less 
on--
    ``(A) Any segment of the Interstate System (except a segment 
exempted under section 31111(f) of title 49); or
    ``(B) those classes of qualifying Federal aid primary highways 
designated by the Secretary under section 31111 (e) of title 49.
    ``(2) REASONABLE ACCESS.--A state may not enact or enforce a law 
denying reasonable access to automobile transporters, to and from 
highways described in paragraph (1), to loading or unloading points or 
facilities for food, fuel, repair, or rest.
    ``(3) AXLE WEIGHT TOLERANCE.--A State shall allow an automobile 
transporter a tolerance of no more than 5 percent on axle weight 
limitations set forth in subsection (a).
    ``(4) AUTOMOBILE TRANSPORTER DEFINED.--In this subsection, the term 
`automobile transporter' has the meaning given that term in section 
31111(a) of title 49.''

2. Authorize the operation of triple-trailer trucks in Washington State

    Triple-trailer trucks (i.e. three 286" trailers) have operated 
safely throughout the western U.S. and on certain eastern routes for 
decades. Washington State is surrounded by states that allow triples, 
including Oregon, Idaho and Montana. Authorizing the use of triples in 
Washington would close an important gap in the Pacific Northwest truck 
freight network, creating greater efficiencies throughout the region. 
Triples would reduce truck vehicle miles traveled, reducing crash risk 
and lowering truck emissions output.

3. Eliminate overall length limits for triple-trailer trucks without 
increasing trailer length

    The 1991 ISTEA freeze on longer combination vehicles (LCVs) froze 
not only the length, weight and routes of operation for LCVs, but also 
any other state regulations pertaining to LCVs. The comprehensive 
nature of the freeze gives states almost no flexibility to make 
changes, even when they make sense and are consistent with Congress' 
larger objective of ensuring that LCVs do not operate beyond their 
current dimensional, weight or geographic limits.
    The legal length limits for Montana and Oregon, as codified under 
23 CFR 658, Appendix C, place an overall length limit on triples (i.e. 
from the front of the tractor to the rear of the last trailer). For 
Montana the limit is 110 for a conventional tractor and 105 for a 
cabover. In Oregon, the overall length limit is 105. Federal law also 
imposes overall length limits in South Dakota and Ohio.
    In Oregon's case, the length limit forces carriers to use cabover 
tractors, which are not sold in the U.S. and have to be special ordered 
from other countries. Length limits prevent the use of the most modern, 
driver-friendly equipment.
    ATA supports an exemption to federal law that allows states, at 
their option, to eliminate overall length limits while retaining 
current trailer length limits.
            Legislative language:
    ``If a State statute or regulation in effect on or before June 1, 
1991 placed a limitation on a vehicle's overall length, nothing under 
Section 1023(b) of P.L. 102-240 would prevent a state from authorizing 
the use of a longer tractor, even if such change results in an increase 
in the vehicle's overall length, provided the State does not also 
authorize an increase in the cargo-carrying length of the vehicle.''

4. Increase weight limits on the Massachusetts Turnpike to match the 
New York Thruway; modernize trailer length limits for LCV doubles

    Interstate 90 is an important freight artery serving Upstate New 
York and Massachusetts. Both routes (the New York Thruway and 
Massachusetts Turnpike) have for decades allowed the operation of twin 
48 foot trailer trucks under permit. However, federal weight limits in 
each state differ, creating costly inefficiencies for carriers and 
their customers. In Massachusetts, the gross weight limit for these 
vehicles is 127,400 pounds, while the limit in New York is 143,000 
pounds for a 9-axle truck and 138,400 pounds for an 8-axle truck. 
Federal law should be amended to authorize Massachusetts to increase 
its weight limit for tandem trailer trucks to match New York limits. 
Furthermore, federal law should be amended to allow both New York and 
Massachusetts to authorize the use of 53 foot trailers in tandem 
operations, to reflect modern equipment specifications and state law 
governing trailer length limits for single trailer operations.

5. Allow Kansas to modify its Interstate highway weight limit to match 
weight limits on non-Interstate highways

    Kansas law allows heavier trucks to operate off Interstate than is 
allowed under federal law to operate on the Interstate system. This 
proposal would allow Kansas to create uniform limits for all highways. 
Specifically, it would authorize the following weight limits on the 
state's Interstate system:
    <bullet>  Any truck may operate on the Kansas Interstate system at 
a maximum gross weight of up to 85,500 pounds, provided it complies 
with the federal bridge formula. No permit is required.
    <bullet>  A truck carrying agricultural commodities may operate on 
the Kansas Interstate system at a maximum gross weight of 85,501-90,000 
pounds, provided it is equipped with 6 axles and complies with the 
bridge formula. A permit is required.

6. Allow Wyoming to modify its Interstate highway weight limit for LCVs 
to match weight limits on non-Interstate highways

    Wyoming law allows heavier LCVs to operate off Interstate than is 
allowed under federal law to operate on the Interstate system. This 
proposal would allow Wyoming to create uniform limits for all highways. 
Furthermore, surrounding states allow heavier Interstate weight limits, 
creating regional inefficiencies. Specifically, the proposal would 
allow LCVs in Wyoming to operate on Interstates above the current 
117,000 pound gross weight cap, provided they meet axle and bridge 
formula requirements.
IX. PROVIDE GRANTS FOR THE ADOPTION AND UPGRADE OF AUTOMATED SIZE AND 
        WEIGHT PERMITTING SYSTEMS
    Some commercial motor vehicles and some military vehicles exceed 
standard size and weight limitations for operating on public highways 
and must apply for and receive oversize/overweight (OS/OW) permits from 
the states in which they need to operate. These types of vehicles are 
uniquely and vitally important to expeditious military and emergency 
relief operations. However, timely issuance of OS/OW permits across 
multiple states is inconsistent, even during normal business hours. 
Reliability of timely permit issuance is particularly concerning during 
nights, weekends and holidays when states' offices issuing the permits 
are generally not open. This results in trucks having to park on the 
state border, greatly increased cost of service, and adds hundreds of 
unnecessary miles and critical hours getting to destination with 
urgently needed supplies.
    Some states have successfully addressed this issue by automating 
their permit-issuing system for OS/OW loads traversing highways that 
are appropriate for those vehicles. The Federal Highway Administration 
issued a report, Best Practices in Permitting Oversized and Overweight 
Vehicles, demonstrating that states that automate their OS/OW 
permitting systems improved highway safety, protected infrastructure, 
reduced overhead, and increased state revenues. However, mostly due to 
budget constraints, several states do not have these systems, or their 
systems are inadequate.
    ATA recommends providing federal grants of up to $2 million per 
state for the purpose of creating or upgrading automated permitting 
systems. While these expenses are eligible under FMCSA's High Priority 
Innovative Technology Deployment (ITD) Program, this program is over 
subscribed. ATA and the Specialized Carriers and Rigging Association 
propose to set aside funds from the ITD program for automated 
permitting systems, provided it receives sufficient additional funds to 
ensure that funding for other important programs is not affected.
    ATA supports the following reforms to improve the safety of the 
                           trucking industry:
I. ENSURE THE INCLUSION OF ORAL FLUID TESTING AND ANY ADDITIONAL 
        ALTERNATIVE TESTING SPECIMENS INTO TESTING PROGRAMS FOR 
        OPERATORS OF COMMERCIAL MOTOR VEHICLES
    In the FAST Act, Congress expanded the Secretary of 
Transportation's authority on the use of hair testing as an acceptable 
alternative to urine drug testing. ATA would like to ensure that the 
use of alternative specimens, such as oral fluid, outlined in HHS 
federal workforce testing programs, be deemed acceptable for use in 
testing programs for operators of CMVs.
            Legislative Language:
    Amend 49 U.S.C. 31306(b)(1)(B) to read:
    (iii) to use any alternative specimen for testing outlined by 
Department of Health and Human Services scientific and technical 
guidelines.
II. ENSURE THAT MOTOR CARRIERS, IN THE INTEREST OF SAFETY, ARE 
        PERMITTED TO TEST FOR MARIJUANA
    In 1987, 16 people died and 164 people were injured in an Amtrak 
train collision outside the Chase community in eastern Baltimore 
County, Maryland. That day, the locomotive crew violated several signal 
and operating rules, and marijuana use was deemed a contributing factor 
in the crash. In 1991, prompted in large part by the 1987 Amtrak crash, 
Congress authorized mandatory drug testing for employees in safety-
sensitive positions in transportation modes regulated by the U.S. 
Department of Transportation. ATA believes that in the interest of 
safety, to prevent crashes like the 1987 Amtrak crash, motor carriers 
should be allowed to conduct testing of commercial motor vehicle 
operators for the use of marijuana.
            Legislative Language:
    Add to 49 U.S.C. 31306(b)(1)(B):
    (iv) to conduct preemployment, reasonable suspicion, random, and 
post-accident testing of commercial motor vehicle operators for the use 
of marihuana.
    Amend 49 U.S.C. 31306(b)(1)(C) to read:
    (C) When the Secretary of Transportation considers it appropriate 
in the interest of safety, the Secretary may prescribe regulations for 
conducting periodic recurring testing of operators of commercial motor 
vehicles for the use of alcohol, marihuana, or a controlled substance 
in violation of law or a Government regulation.
III. ENSURE THAT EMPLOYERS OF EMPLOYEES INVOLVED IN MAINTAINING HIGHWAY 
        SAFETY ARE ALLOWED TO PROHIBIT MARIJUANA USE AS A CONDITION OF 
        EMPLOYMENT
    Many states prohibit employers from discriminating against 
prospective employees solely for medical marijuana use. Additionally, 
many states are looking to adopt similar employment protections for 
recreational use and some are looking to eliminate an employer's 
ability to conduct pre-employment drug tests for marijuana as a 
condition of employment. However, ATA believes that employers have an 
obligation to ensure all employees are in a safe working environment 
free from hazards. Employers understand that to maintain a safe working 
environment they must maintain a drug-free environment. Due to 
marijuana's unique metabolic process, the ability to maintain a drug-
free working environment for employees involved in maintaining highway 
safety often includes pre-employment and random drug testing to deter 
use. ATA supports federal preemption of state laws that prohibit 
testing for marijuana use in employees involved in maintaining highway 
safety.
IV. SUPPORT A FEDERAL MANDATE FOR ELECTRONIC CRASH REPORT DATA 
        COLLECTION
    In states that have adopted electronic collection of crash reports, 
many have seen the ability to provide more timely and accurate 
information to stakeholders. ``Real-time'' data allows law enforcement 
and transportation safety professionals to respond more quickly to 
escalating trends and ``hot spots'' and helps ensure limited resources 
are allocated to areas with greatest need. ATA supports federal funding 
for states to adopt electronic crash report data collection, along with 
funding support to upgrade existing systems, implement NHTSA's MMUCC 
data fields and training of staff on new systems.
V. SUPPORT THE DEVELOPMENT OF NEW LARGE TRUCK CRASHWORTHINESS STANDARDS
    ATA supports NHTSA, along with the support of FMCSA, to develop 
ways to improve crashworthiness standards for newly manufactured class 
7 and 8 trucks, and a relative scale against which to measure a truck's 
crashworthiness.
VI. SUPPORT CREATION OF A NATIONAL EMPLOYER NOTIFICATION SYSTEM
    An employer notification system (ENS) is a term for programs that 
allow trucking companies to register their drivers with state licensing 
agencies which, in turn, notify the trucking company when a truck 
driver receives a traffic violation, conviction or change in commercial 
driver's license status. This notification process allows trucking 
companies to take timely action to address unsafe driving behaviors. 
Currently, over 16 states have separate and distinct ENS-type programs, 
in addition to third-party, for-profit companies that offer an ENS 
program service for motor carriers to enroll in. The Federal Motor 
Carrier Safety Administration has previously conducted an ENS pilot 
program and needs statutory authority and direction to establish a 
national ENS. ATA supports a standardized ENS approach and is 
advocating a national ENS system.
VII. ENSURE A UNIFIED NATIONAL FRAMEWORK TO FACILITATE THE DEVELOPMENT, 
        TESTING, AND DEPLOYMENT OF AUTOMATED VEHICLES
    ATA shares DOT's perspective that the integration of automation 
across the transportation system holds great potential for improving 
safety, enhancing mobility and facilitating the movement of freight. 
ATA supports the development and deployment of automated vehicle 
technology for all vehicle types. The U.S. transportation industry is 
in an era of technological evolution that promises increased safety and 
efficiency for highway vehicles and a safer environment for vulnerable 
road users. Automated driving systems are peaking in research and 
development, and are guided through regulatory activities in driving 
market utilization. It is important to recognize that roads are shared 
with commercial vehicles and should be included in laws that govern 
transportation safety and national travel. Bills and regulatory actions 
that govern the deployment of vehicle technology or fund technology 
research should not exclude commercial vehicles.
VIII. SUPPORT A NATIONAL STANDARD FOR SURFACE TRANSPORTATION CONNECTED 
        VEHICLE SAFETY COMMUNICATIONS AND DEPLOYMENT OF TRUCK 
        PLATOONING
    Much work has been done by the federal government, state 
governments, research institutions, technical standards organizations, 
technology companies and vehicle manufacturers to develop national 
Vehicle-to-Vehicle (V2V) protocols and applications that ensure 
interoperability for on-road vehicles. NHTSA has estimated that just 
four V2V applications--which communicate on the 5.9 GHz spectrum--could 
avoid or mitigate 89 percent of vehicle crashes, and this will have 
benefits for all road users. Also, truck platooning that can utilize 
V2V has increased fuel economy benefits by decreasing the distance of 
following trucks for improved aerodynamics. Currently, the 5.9 GHz band 
is reserved for vehicle safety communications, but pending FCC action 
could result in degradation of V2V technology deployment. ATA supports 
adoption of V2V and Vehicle-to-Infrastructure (V2I) technology--
collectively known as Vehicle-to-Everything (V2X)--for the purpose of 
improving traffic safety. ATA recommends that Congress should take 
action to preserve the entire 5.9 GHz spectrum for connected vehicle 
safety communications for the improvement of transportation safety and 
efficiency.
IX. INSTRUCT DOT TO GRANT ATA'S PETITION ON AMENDING NATURAL GAS 
        CONTAINER INSPECTION INTERVALS
    Current safety standards require a visual inspection of natural gas 
containers on motor vehicles every 36,000 miles or 36 months, whichever 
comes first. ATA submitted a petition to NHTSA on April 13, 2016, 
recommending that the requirement be revised to once every 36 months, 
with no mileage interval. Commercial vehicles were not considered in 
this standard and already require an annual inspection to meet DOT 
compliance, exceeding the time inspection interval. The inspection is 
extremely burdensome, taking natural gas commercial vehicles out of 
service for an average of four days a year at an annual cost up to 
$2,500 per vehicle, affecting up to 175,000 vehicles, according to NGV 
America. Natural gas vehicles produce cleaner emissions and can be less 
expensive on fuel costs. Congress has an opportunity to relieve this 
costly and unnecessary burden by instructing USDOT to initiate a 
rulemaking.
X. SUPPORT AN INCENTIVE PROGRAM TO EXPEDITE ADVANCED VEHICLE SAFETY 
        SYSTEMS
    Vehicle safety systems have improved greatly and are increasingly 
being developed beyond regulatory requirements. For example, vehicle 
manufacturers have voluntarily committed to making automated emergency 
braking (AEB) standard on virtually all automobiles by 2022. ATA 
supports extending this voluntary commitment to all new vehicles, 
including trucks, and commends commercial vehicle fleets for choosing 
to equip collision avoidance systems (CAS), like AEB, improving on-road 
traffic safety. The FAST Act (Section 5222) requested a Beyond 
Compliance Program that would reward motor carriers in these areas, 
which has not been enacted. ATA seeks the deployment of a Beyond 
Compliance Program and stands ready to work with DOT to create a 
carrier-based incentive program to expedite CAS technology adoption, 
and encourages Congress to support enhancing traffic safety in such 
way.
XI. IMPROVE DISTRACTED DRIVING LAWS AND ENFORCEMENT
    Congress should adopt federal distracted driving laws for all 
vehicles that mirror FMCSA's regulations for commercial drivers. ATA 
also supports increased funding for law enforcement and detection 
systems to reduce distracted driving in all vehicles.
XII. SUPPORT THE SWIFT ADOPTION OF FEDERAL GUIDELINES FOR HAIR TESTING
    ATA strongly supports the recognition of hair testing as a 
federally-accepted drug testing method. Hair testing is a validated, 
proven, effective method for detecting illegal drug use that has been 
widely embraced by private industry and many governments worldwide. 
Development of standards by the Department of Health & Human Services 
(HHS) will pave the way for regulated employers to use this testing 
method and allow them to identify a greater number of safety-sensitive 
employees who violate Federal drug testing regulations. Additionally, 
having hair testing as a recognized alternative drug testing method 
would give motor carriers the ability to report positive hair test 
results to drivers' subsequent prospective employers through FMCSA's 
Commercial Driver's License drug and alcohol clearinghouse.
    In 2015, Congress mandated that HHS must develop scientific and 
technical guidelines for hair testing within one year. HHS missed this 
deadline and continues to ignore the Congressional mandate. ATA urges 
Congress to put further pressure on HHS to pave the way toward adoption 
of this important safety initiative.
XIII. REDUCE THE REQUIREMENT FOR CDL DRIVERS TO INCLUDE 10 YEARS OF 
        EMPLOYMENT HISTORY TO 3 YEARS IN APPLICATIONS FOR EMPLOYMENT
    Under statute, motor carriers are required to verify 10 years of 
employment history for CDL drivers seeking employment. However, motor 
carriers are only required to verify CDL violations, accident history 
and drug testing violations from the applicant's previous employers 
going back three years. This is because this information is often 
irretrievable after three years. Motor carriers that wish to verify 
employment status beyond the required three years should be allowed to 
do so, but, given the dearth of information available and the 
inefficiency of gathering it, this should not be required.
            Legislative Language:
    Amend 49 U.S.C. 31303(c)(2) to read:
    (2) The Secretary of Transportation shall prescribe by 
regulation the period for which notice of previous employment 
must be given under paragraph (1) of this subsection. However, 
the period may not be less than the 10 [3]-year period ending 
on the date of the application.
XIV. RECOMMENDED RESEARCH
    1.  New Large Truck Crash Causation Study (LTCCS)--The Motor 
Carrier Safety Improvement Act of 1999 (MCSIA) mandated a study to 
determine the cause of, and contributing factors to, crashes involving 
commercial motor vehicles. In 2006, FMCSA published a report 
identifying areas that need to be addressed by effective crash 
countermeasures. With significant improvements made to the FMCSRs, ATA 
believes that initiating a new LTCCS would be an effective tool in 
understanding the increase in large truck involved crashes.
    2.  Study on Single Vehicle Large Truck Crashes--In 2017, single-
vehicle crashes made up 20 percent of all fatal large truck crashes. 
However, they accounted for 59 percent of large truck driver 
fatalities. ATA recommends that FMCSA look at the causes of single-
vehicle crashes and develop recommendations to reduce the severity.
    3.  Study on Adaptive Speed Control systems for CMVs--In FMCSA's 
Large Truck Crash Causation Study from 2006, ``traveling too fast for 
conditions'' was cited as the critical pre-crash event 18 percent of 
the time (weighted estimate). This was the single most frequently cited 
factor in crashes where trucks were assigned a critical reason. With 
new technology being adopted on adaptive speed controls, ATA recommends 
that FMCSA review the potential safety benefits of adaptive speed 
control systems.
    4.  GAO Report on FMCSA's Driver Medical Exemption Program for 
Vision, Hearing, and Seizure standards--FMCSA issues hundreds of driver 
exemption for vision, hearing, and seizures annually. ATA would like 
GAO to review FMCSA's exemption program to investigate the safety of 
drivers that are unable to meet the minimum medical qualifications in 
Sec. 391.41 but have been given an exemption by FMCSA.
    5.  Study on Automated Detections Systems for Distracted Driving 
Prohibitions--In 2017, 3,166 people were killed in motor vehicle 
crashes involving distracted drivers reported by NHTSA. Additionally, 
NHTSA has reported that it estimates at any given time about 5 percent 
of drivers are either visibly holding a device to their ear or visibly 
manipulating a handheld device. ATA believes that automated detection 
systems similar to speed or red-light cameras could be deployed 
nationwide to reduce distracted driving crashes.
    6.  Study Looking at Operational Factors of Non-internal Combustion 
Engine Commercial Motor Vehicles--Non-internal combustion engine 
commercial motor vehicles (NICE CMVs) pose unique challenges to highway 
safety. ATA would like to recommend a study to look at what safety 
standards and regulations are unnecessary for NICE CMVs; what 
challenges for first responders in identifying and controlling NICE CMV 
incidences, and how lower levels of NICE CMV sound impact drivers and 
the surrounding environment
    7.  GAO Report on State Highway Safety Data and Traffic Record 
Systems--Federal statute requires states certify that ``an assessment 
of the State's highway safety data and traffic records system was 
conducted or updated during the preceding 5 years'' to qualify for a 
State traffic safety information system improvements grant, per. 23 
U.S.C. Sec. 405(c). ATA recommends GAO assess whether state traffic 
records system are complete, accurate, and timely traffic safety data 
is collected, analyzed, and made available. Additionally, GAO should 
review the process for states self-certifying their programs.
 ATA supports the following reforms to reduce the trucking industry's 
                        environmental footprint:
I. ESTABLISH FINANCIAL INCENTIVES FOR INSTALLATION OF EMISSIONS/FUEL 
        REDUCTION EQUIPMENT
    ATA strongly supports the goal of reducing carbon emissions, 
achieving cleaner air by reducing idling, and promoting energy 
conservation technologies for heavy-duty on-road diesel vehicles. The 
trucking industry consumed 39.2 and 15.7 billion gallons of of diesel 
and gasoline respectively in 2017. To expedite the purchase and 
integration of all energy conservation technologies, ATA supports 
measures to make such equipment affordable to all fleets in the way of 
tax credits and the elimination of federal excise taxes on such 
purchases.
II. ALTERNATIVE FUEL INFRASTRUCTURE BUILD-OUT INCENTIVES
    In order to expand the nation's alternative fueling infrastructure 
build-out for the use of cleaner-burning fuels, ATA supports federal 
tax incentives for this infrastructure to help expedite the 
introduction and deployment of new truck engine technologies.
III. ALTERNATIVE-FUELED VEHICLE PURCHASE INCENTIVES
    The development and deployment of zero and near-zero emission 
trucks have the potential to significantly reduce the industry's carbon 
footprint and overall emissions profile. However, these new vehicles 
can be significantly more expensive to purchase. To help expedite the 
introduction of these next-generation vehicles, ATA supports federal 
tax credits and other innovative funding mechanisms to help transform 
the future of goods movement in the trucking sector.
IV. SUPPORT REAUTHORIZATION AND ADDITIONAL FUNDING FOR THE DIESEL 
        EMISSIONS REDUCTION ACT
    The Diesel Emissions Reduction Act (DERA) provides grants and 
rebates to incentivize equipment and vehicle owners to install retrofit 
technologies on existing heavy-duty diesel vehicles and engines, or 
replace engines and equipment, reducing emissions, often by more than 
90 percent. EPA has estimated that from 2009 to 2013 the program 
upgraded nearly 73,000 vehicles or pieces of equipment and saved over 
450 million gallons of fuel. This reduced total lifetime emission 
reductions by 14,700 tons of particulate matter (PM) and 335,200 tons 
of oxides of nitrogen (NOx) and yielded up to $12.6 billion in 
estimated health benefits.
    Because of the long-lived nature of diesel vehicles and equipment, 
particularly heavy-duty off-road equipment, more than two-thirds of the 
legacy fleet in the U.S. still does not meet the most current emission 
reduction standards adopted in 2010 or later, even though they met the 
standards in effect when the equipment was sold. Since implementation, 
DERA has become one of the most cost-effective federal clean air 
programs. EPA's most recent estimates are that every $1 in federal 
assistance is met with another $3 in non-federal matching funds, 
including significant investments from the private sector, and every 
federal dollar generates between $5 to $21 in health and economic 
benefits. ATA seeks reauthorization of DERA through 2024 and requests 
annual funding levels of $100 million, in order to to continue the 
significant health and environmental gains achieved under this program.
            Legislative language: See S. 747
 ATA supports the following reforms to address the trucking industry's 
                     shortage of qualified drivers:
I. GIVE YOUNGER DRIVERS THE OPPORTUNITY TO CHOOSE A CAREER IN TRUCKING
    ATA supports lowering the minimum age requirement for interstate 
truck driving from 21 to 18--but only for qualified apprentices that 
satisfy the 400 hours of supervised training and vehicle safety 
technology requirements spelled out in the DRIVE Safe Act, as well as 
the new training requirements of the Entry-Level Driver Training Rule 
that will take effect in 2020. Driver training and vehicle safety 
technologies have advanced by several orders of magnitude since the 
current minimum age requirement was promulgated decades ago. Meanwhile, 
6.4 million Opportunity Youth in this country are neither employed nor 
in school, even as the nation is short 50,000 truck drivers. An update 
to the minimum age requirement is well over-due.
            Legislative Language: See DRIVE Safe Act: S. 569, H.R. 1374
II.ELIMINATE UNNECESSARY BARRIERS FOR OUT-OF-STATE DRIVER CANDIDATES
    ATA supports an increase in the CDL Improvement Grant Program by an 
amount necessary for states to implement changes to their IT systems so 
that states can better serve the growing number of driver candidates 
who receive training outside their state of domicile. This will allow 
drivers to (1) complete all training; (2) take all necessary tests; and 
(3) obtain all necessary credentials in one state--without having to 
travel back to their home state. Currently, out-of-state trainees have 
to travel back to their home state every time they pass either the CDL 
knowledge test or the CDL skills test just to obtain the basic 
occupational licenses necessary to launch their trucking careers. This 
imposes unnecessary financial burdens on those who can least afford it 
and exposes them to skills degradation.
III. ELIMINATE SKILLS TEST DELAYS FOR CDL APPLICANTS
    ATA supports incentivizing states to administer the CDL skills test 
within 7 days of application or utilizing 3rd party testers. A low 
unemployment rate and the stigma surrounding blue-collar work makes it 
difficult enough to recruit drivers into the trucking industry. States 
that make applicants wait up to two months to take their skills test 
contributes to this problem by discouraging applicants from following 
through. It also invites skills erosion.
IV.SUPPORT RESEARCH ON THE WORKFORCE IMPACTS OF AUTOMATED VEHICLES
    Automated and connected vehicle technologies have the potential to 
dramatically impact nearly all aspects of the trucking industry. These 
technologies can bring benefits in the areas of safety, environment, 
productivity, efficiency, and driver health and wellness. Automated 
driving technology is the next step in the evolution of the safety 
technology currently available, and will help to further improve driver 
safety and productivity, as well as the safety of other motorists and 
road users. Automated technology comes in many levels that will assist 
the driver and in some cases, handle the driving task. The application 
of automated and connected vehicle technology in the trucking industry 
will center on solutions in which there remains a role for drivers, 
recognizing the duties and requirements drivers have beyond operating 
the vehicle.
    For these reasons, ATA supports the commonsense adoption of 
automated vehicle technology and data-driven efforts to better 
understand and optimize the potential benefits of this technology for 
the American workforce. While we recognize that the widespread adoption 
of these technologies is at least 25 to 30 years away, ATA supports 
increased research that will better equip policymakers and regulators 
with more data to prepare the next generation of American workers for 
the future of work in trucking and transportation.
                           Additional Issues:
I. ORDER A GAO STUDY TO ASSESS COMPETITIVE CONDITIONS AT PORTS AND THE 
        EFFECTS ON INTERMODAL CHASSIS
    ATA is concerned about commercial activities around ports that 
impact American workers, companies and the families and businesses 
supplied by global trade. Foreign shipping companies that move 
containers between foreign and US ports operate with limited antitrust 
immunity to allow for the smooth flows of trade in a complex, 
multimodal operation. There are many examples of unreasonable 
commercial behavior by some of these foreign shipping companies, 
dictating equipment and non-negotiable pricing of equipment and 
activities to American trucking companies who haul containers from 
ports that employ thousands of workers. In some ports, there are 
reports of some foreign shipping companies forcing American trucking 
companies to use a designated chassis provider at a non-negotiable cost 
and non-negotiable interchange terms. This example of a lack of 
competitive market also reduces the incentive for chassis leasing 
companies to maintain the most safe and roadworthy equipment for the 
motor carriers that are forced to lease it at a price they can't 
negotiate.
    ATA urges Congress to order a General Accountability Office study 
of competitive conditions in ports and the fees charged to American 
trucking companies for chassis used to move foreign shipping company 
containers. It should include analysis of the market for chassis, 
``street turns,'' per diem fees, and demurrage. This example of a lack 
of competitive market not only arbitrarily raises supply chain costs 
with no offsetting benefits, but also reduces the incentive to equip 
the chassis with the latest safety technology including radial tires, 
LED lights, and anti-lock brakes. This report should be made to 
Congress within 180 days of enactment.''
II. IMPROVE INFRASTRUCTURE AT PORTS OF ENTRY
    Land Ports of Entry (POEs) along the northern and southern borders 
are in dire need of repair, upgrades, and additional infrastructure to 
accommodate increasing commercial traffic between the U.S., Mexico, and 
Canada. Since the enactment of the North American Free Trade Agreement 
(NAFTA), border crossings have increased dramatically, and in 2018, 
there were nearly 12.2 million truck entries combined on the Canadian 
and Mexican borders. Moreover, trucks haul 84 percent of all surface 
trade with Mexico and 67 percent of all surface trade with Canada. 
Existing POEs are, on average, over 40 years old and were not 
constructed with the foresight to support and facilitate this 
significant amount of cross-border traffic. Moreover, most POEs along 
the U.S. land border with Mexico and Canada were built to support the 
distinct and independent operations of pre-Department of Homeland 
Security components, such as the Customs Service; the Animal and Plant 
Health Inspection Service; and the Immigration and Naturalization 
Service. As a result, many POEs feature insufficient or outdated 
infrastructure that make it difficult for U.S. Customs and Border 
Protection (CBP) to deploy necessary, modern security technology or to 
deploy sufficient personnel to move people and goods in a timely 
manner.
    Improvements are desperately needed at POES along our northern and 
southern land borders to enhance trade facilitation and to reduce wait 
times. Examples of necessary enhancements include:
    <bullet>  Construction of additional commercial lanes (HTF)
    <bullet>  Renovations for aging bridges that support commercial 
motor vehicles (HTF)
    <bullet>  Redesigning existing commercial lanes to improve 
efficiency (HTF)
    <bullet>  Construction of bypass roads to reduce commercial traffic 
(HTF)
    <bullet>  Infrastructure modifications to ensure the accessibility 
of Free and Secure Trade (FAST) lanes for Customs-Trade Partnership 
Against Terrorism (C-TPAT) participants (HTF)
    <bullet>  Infrastructure to connect highways with POEs (HTF)
    <bullet>  Technology that can be adapted to handle more volume, 
increase efficiency, and improve accuracy of detection efforts (GF)
    <bullet>  Construction of additional facilities to enable Customs 
and Border Protection (CBP) and other Partner Government Agencies 
(PGAs) to carry out the functions of commercial operations, including 
accepting entries of merchandise, collecting duties, and enforcing the 
customs, immigration, and trade laws of the United States (GF)

    HTF: Funded from the Highway Trust Fund
    GF: Funded from the federal General Fund

    While SAFETEA-LU set aside money for many of these types of 
projects, Section 1437 of the FAST Act simply made border 
infrastructure an eligible expense under the Surface Transportation 
Block Grant program. Given the clear needs and federal interest in 
ensuring the efficient flow of people and goods across our land 
borders, ATA recommends restoring a dedicated funding program, with 
money apportioned among the northern and southern border states.
           ATA opposes the inclusion of the following items:
    1.  Language creating a mandatory vehicle miles traveled (VMT) fee 
or truck-only VMT fee. These types of fees require substantially more 
testing before they can be implemented on a widespread basis.
    2.  Expanding the authority to toll Interstate highways. Tolling 
existing Interstate highways causes significant problems related to 
traffic diversion to alternative routes, including greater crash risk, 
congestion and additional maintenance costs. It also has significant 
negative consequences related to environmental justice.
    3.  Incentives to encourage highway asset recycling (i.e. the lease 
or sale of public highways and bridges). Asset recycling is an abusive 
practice that forces motorists on the affected highway to subsidize 
projects and programs from which they derive little or no benefit.
    4.  Devolution of federal responsibility for highway funding. The 
federal government provides an average of 50 percent of states' highway 
capital budget, and this revenue cannot be easily replaced. The federal 
government has a constitutional and practical duty to ensure that 
highways, which are the conveyor belts for 70 percent of the nation's 
freight, effectively meet the country's interstate commerce 
requirements.
    5.  Expanding the eligibility of Highway Trust Fund funded programs 
to additional non-highway projects. The vast majority of both people 
and freight move on the highway system and pay federal highway user 
fees for that privilege. The user pays, user benefits concept should 
not be degraded by siphoning HTF revenue for additional non-highway 
purposes. Furthermore, the percentage of HTF revenue that is dedicated 
to non-highway projects or programs should not increase.
    6.  Rolling back weight and dimensional limits. Reducing the 
capacity of trucks would increase the number of trucks on the road. 
This would create additional crash exposure, increase congestion and 
emissions, and make everything shipped by trucks more expensive.
    7.  Underride Guard industry-wide mandate (See STOP Underrides 
Act). Underride guard mandates seek to address a certain type of truck-
involved accident through a highly prescriptive industry-wide mandate, 
ignoring the diversity of our industry and potential technical issues, 
as well as the other technologies that exist for addressing these and 
other crashes, such as automatic emergency braking, camera monitoring 
systems, and adaptive turning assist.
    8.  ELD Exemption Language (See Small Carrier ELD Exemption Act, Ag 
Business ELD Exemption Act). Electronic Logging Devices (ELDs) have not 
changed the hours-of-service (HOS) rules that have been in place since 
the early 2000's. The requirements for how long a driver may operate a 
commercial vehicle, or the minimum amount of time a driver must be off-
duty, have not changed, nor have the requirements for when a driver 
must rest. The argument that an ELD does not allow a driver to rest 
when tired is simply false, as the device is merely a recordkeeping 
method to ensure the accuracy of a driver's HOS.
    9.  Changes to HOS not grounded in safety and data (See TLAASA). 
HOS changes should be based on safety data that demonstrates the change 
will create a level of safety that is equal to or greater than the 
level of safety that currently exists. Changes that lack the proper 
data supporting a safety benefit should not be considered.
    10.  Removal of new trailer fuel consumption requirements under the 
December 2016 EPA/NHTSA Phase 2 Greenhouse Gas Emissions and Fuel 
Efficiency Standards (Phase 2). USDOT determined that trailers pulled 
by combination tractors are part of a vehicle and are within its 
authority to regulate for fuel consumption. Beginning in 2021, new 
trailers will be subject to NHTSA standards for fuel consumption for 
the very first time and see increased stringency levels in both 2024 
and 2027. ATA member fleets assisted in the development of the Phase 2 
trailer standards and seek to ensure full implementation of such 
requirements.


                                Appendix

                              ----------                              


    Questions from Hon. Eleanor Holmes Norton for Catherine Chase, 
            President, Advocates for Highway and Auto Safety

    Question 1. Ms. Chase, the Federal Motor Carrier Safety 
Administration announced last month its intent to pursue a pilot 
program to allow drivers ages 18-21 to operate commercial vehicles 
interstate. This is in addition to a pilot program that Congress 
authorized in the FAST Act for drivers under 21 with military driver 
training--which is not yet operational. Congress specifically 
authorized this pilot with requirements for the agency to report back 
on the findings and results, including safety impacts.
    Do you believe it would be irresponsible for Congress to make any 
permanent changes in statute to the driver age before these pilot 
programs have concluded and the agency and Congress have evaluated the 
results?
    Answer. Lowering the age for interstate trucking operations is not 
only irresponsible but would also severely jeopardize public safety. In 
fact, data shows that commercial motor vehicle (CMV) drivers aged 18 to 
20 are four to six times more likely to be involved in fatal crashes 
compared to CMV drivers 21 and older. Generally, young drivers lack 
experience and skills as well as tend to take greater risks and as such 
are more likely to be involved in fatal crashes. Moreover, brain 
development in the region vital to decision making, the pre-frontal 
cortex, may not be fully reached until one's mid-20s.
    Recognizing that the safety performance of younger drivers was not 
on par with, or even close to, that of older drivers, the Federal Motor 
Carrier Safety Administration (FMCSA) has previously declined to lower 
the minimum age for drivers to obtain an unrestricted commercial 
driver's license (CDL). Furthermore, in response to the petition to 
lower the age, the public overwhelming rejected the idea with 96 
percent of individuals opposing the proposal along with 88 percent of 
truck drivers and 86 percent of motor carriers commenting.
    Also during the hearing, a point was raised that members of the 
military who are of teenage years are permitted to be at the helm of a 
naval aircraft carrier and thus, should be allowed to operate a truck 
in interstate commerce. This assertion is an apples to oranges 
comparison. First, a young person at the helm would have had a 
significant amount of naval training that would include at least eight 
weeks of intensive boot camp and six weeks of boatswains mate school. 
In sharp contrast, proposed legislation (DRIVE-Safe Act, H.R. 1374) 
requires a potential teen truck driver to undergo approximately three 
weeks of behind the wheel training. Second, a young person on an 
aircraft carrier would be under the supervision and direction of a 
Captain. Not only are orders such as turning a vessel directed by the 
Captain, the Captain's decision to instruct such a maneuver would be 
supported by a chain of command of officers and enlisted men and women 
involved in navigation of the ship through radar, sonar and numerous 
other functions. Moreover, trucks are not equipped with highly 
sophisticated radar and other navigational systems, are not staffed 
with specialists to monitor each system, and do not have the movements 
of the driver directed by a team of support staff constantly overseeing 
operations. Third and fourth, ships operate most often in open waters 
and at speeds not exceeding 30 knots (less than 35 miles per hour), 
which stands in stark contrast to densely traveled highways and roads 
where trucks can operate at speeds up to 80 mph.
    Advocates has opposed the establishment of the pilot program 
authorized in the FAST Act as well as the additional program announced 
by FMCSA in May due to the significant safety concerns associated with 
the high crash rates of younger drivers as noted above. Nonetheless, 
Advocates has urged FMCSA to establish the programs in such a manner as 
to protect public safety as well as capture enough relevant and useful 
data on participating drivers.

    Questions from Hon. Angie Craig for Catherine Chase, President, 
                 Advocates for Highway and Auto Safety

Driving Training Standards
    Question 2. Do you support the current training standards for the 
ELDT 2020 training program?
    Answer. Advocates for Highway and Auto Safety (Advocates) supports 
many provisions of the entry-level driver training (ELDT) 2020 rule, 
including the requirements that trainers register with the Federal 
Motor Carrier Safety Administration (FMCSA) and the establishment of 
uniform curriculum for students. However, Advocates strongly opposes 
the failure to include a requirement that candidates receive a minimum 
number of hours of behind-the-wheel (BTW) training in the final rule 
issued in December 2016.
    In 2015, FMCSA convened the Entry-Level Driver Training Advisory 
Committee (ELDTAC) to draft federal training requirements for 
candidates seeking a commercial driver's license (CDL). The ELDTAC 
reached a consensus that would have required candidates seeking a class 
A CDL receive 30 hours of BTW training and candidates receiving a class 
B license receive 15 hours BTW training. There is ample support for the 
consensus reached by the ELDTAC on this important safety issue. The 
leading CDL training schools as well as many states already require 
that students complete a minimum number of hours of BTW training. In 
addition, numerous experts including a majority of FMCSA's Motor 
Carrier Safety Advisory Committee (MCSAC) have recommended that CDL 
candidates receive a minimum number of hours of BTW training. Mandating 
that candidates complete a minimum number of hours to enter a 
profession is a widely accepted practice throughout transportation 
modes including commercial airline pilots. States require entrants of 
other occupations such as plumbers, electricians and barbers gain 
practical experience before earning a license. Despite the abundance of 
evidence of the benefits of requiring a mandatory number of BTW hours 
training, FMCSA failed to include such a provision in the final rule. 
This egregious error should be corrected by Congress.

    Question 3. Do you support current standards that do not require a 
minimum BTW (Behind The Wheel) time?
    Answer. Advocates does not support current standards that do not 
require a minimum number of hours of BTW training for the reasons 
stated above. During the ELDTAC negotiations, diverse stakeholders 
including members of the Committee representing safety groups, training 
schools, law enforcement, the motorcoach industry and individual 
drivers all supported requiring a minimum number of BTW hours.
    Relatedly, Advocates has long supported graduated driver licensing 
(GDL) laws for novice drivers of motor vehicles that include a minimum 
number of hours of supervised driving behind-the-wheel before s/he can 
earn a full or unrestricted license. Motor vehicle crashes are the 
number one killer of American teens. The Insurance Institute for 
Highway Safety (IIHS) notes that ``teenagers' lack of experience behind 
the wheel makes it difficult for them to recognize and respond to 
hazards.'' As such, nearly every state and the District of Columbia 
have enacted these laws which reduce overall crashes among teen drivers 
of about ten to thirty percent, according to IIHS.

    Question 4. Do you believe that truck drivers should demonstrate 
their driving capabilities on the streets and highways rather than in 
parking lots?
    Answer. Yes. During the work of the ELDTAC, Advocates strongly 
supported a requirement that part of the BTW training include a minimum 
number of hours spent operating a truck on public roads. Such a 
requirement was included in the consensus reached by the committee. 
Ensuring that a candidate spends time operating a CMV on public roads 
with an experienced instructor encountering safety critical, real-world 
situations is essential to enhancing the ability of an inexperienced 
driver to operate a truck safely and to avoid crashes.

    Questions from Hon. Rob Woodall for Catherine Chase, President, 
                 Advocates for Highway and Auto Safety

    Question 5. While you gave your opening remarks, I was keeping tabs 
on each of the issues that you, on behalf of the Advocates for Highway 
and Auto Safety, both support and oppose. For example, I've noted that 
you support the use of speed limiters, automatic emergency braking, 
underride guards, and driver training improvements, just to name a few, 
while you oppose increasing truck weight and size, allowing younger 
truckers to operate commercial motor vehicles in interstate commerce, 
and increasing flexibility in Hours of Service (HOS) regulations. Now, 
while I certainly recognize that there are issues out there that the 
trucking industry itself remains divided on, I'm curious to learn more 
about whether you believe opportunities exist for the trucking industry 
and safety advocates to work together on moving the needle forward in 
the name of achieving both safety and efficiency.
    If so, could you please provide a list of issues that could 
potentially be paired together?

    Question 5.a. Such pairings might not get either party all of what 
they'd like to achieve, but could instead be a step in the right 
direction for both parties. I look forward to learning more about 
whether you believe opportunities exist, along with some examples, and 
if you believe they do not, I would ask that you please elaborate as to 
why that might be the case. I ask this question because I would be more 
than happy to work with you on any such proposals that could stand to 
benefit both parties, and I do hope we can find some common ground to 
work together on tackling these big issues.
    Answer. Advocates for Highway and Auto Safety (Advocates) has a 
long and successful history of working with members of the trucking 
industry on important safety advances. Notably, in the Moving Ahead for 
Progress in the 21st Century Act (MAP-21, Pub. L. 112-141), Advocates 
joined with several industry stakeholders to advance the requirement 
that trucks be equipped with an electronic means to ensure compliance 
with hours of service rules (now known as electronic logging devices or 
``ELDs''). This important safety victory, which took effect in December 
2017, is helping ensure that ``tired truckers'' are kept off the roads 
as evidenced by the 53 percent reduction in the percentage of driver 
inspections with an hours of service violation. We have also joined 
forces with industry groups in our efforts to oppose exemptions to this 
lifesaving rule as well as any legislative or regulatory proposals that 
would further rollback or weaken hours of services rules. Advocates has 
partnered with many of these same representatives to advance much-
needed safety technology such as speed limiting devices and collision 
avoidance systems.
    Furthermore, we are aligned with a number of companies and industry 
stakeholders in our staunch opposition to truck size and weight 
increases. Bigger trucks are broadly opposed by not only Advocates and 
other safety groups but also many of the Nation's largest trucking 
companies, truck drivers and independent operators.
    Additionally, we remain committed to defeating any proposals that 
would lower the age to obtain an interstate commercial driver's license 
(CDL) from 21 to 18. Our position is shared by a number of industry 
stakeholders including those that represent truck drivers, owner 
independent operators and large motor carriers. Advocates also shares 
the concerns of many in the trucking industry that the entry level 
driver training to obtain a CDL is severely lacking. It is our hope 
that we can come together in support of a proposal to improve training 
and give drivers the experience they need to ensure they are safe when 
they hit the road.
    Advocates' sole mission is advancing safety by reducing crashes, 
deaths, injuries and associated costs on our roads. Thank you for your 
question and we welcome the opportunity to work with you and to 
collaborate with anyone who shares that goal including continuing our 
long-standing relationships with our trucking industry allies.

    Question 6. Thinking more specifically about regulations and 
compliance, I, too, want as many people covered by such regulations to 
be operating in accordance with them. But unfortunately, we all know 
too well that definitions used to apply regulations don't always keep 
pace with industry. And unfortunately, the turfgrass industry in my 
state has found themselves in such a scenario where the state 
recognizes turfgrass in a different manner than does the Federal Motor 
Carrier Safety Administration (FMCSA). To complicate things even 
further, the FMCSA recognizes ``agricultural commodities'' differently 
than does the U.S. Department of Agriculture, the Environmental 
Protection Agency, and numerous other federal and state agencies, which 
all recognize horticultural and aquaculture products as an agricultural 
commodity. To fix this discrepancy, I'm the cosponsor of a bill, H.R. 
1673, the ``Agricultural Trucking Relief Act,'' which would provide 
clarity for the definition of an ``agricultural commodity'' as it 
relates to transportation policy and compliance with new Electronic 
Logging Device (ELD) and HOS rules and regulations. Again, I absolutely 
believe that we must work to ensure that our regulations are clear and 
concise so that individuals are able to easily comply with them, and 
I'd hope that you'd agree with me on that goal.
    But in the process of working to ensure that our shared goal is 
achieved, do you find that you are opposed to efforts that work to 
update and harmonize definitions so that operators can ensure 
compliance rather than having to second guess?
    Answer. Advocates remains opposed to legislative proposals that 
would result in additional carve-outs for certain industries, sectors 
or states from truck safety rules. Under current federal law (49 U.S.C. 
31136 (note)), drivers transporting agricultural commodities from the 
source of the agricultural commodities to a location within a 150 air-
mile radius from the source during planting and harvest periods (as 
determined by each state) are already exempt from hours of service 
(HOS) regulations. For the purpose of this exemption, agricultural 
commodities are currently defined as any agricultural commodity, non-
processed food, feed, fiber, or livestock and insects. This exemption 
already provides a significant amount of flexibility for drivers. 
Moreover, given that the term ``agricultural commodities'' is being 
used as an umbrella for exemptions to truck safety rules, we have 
already seen a number of other attempts by certain segments to be 
included in the definition and have serious concerns about such 
proposals.
    Aquacultural products can include such varied materials as fish, 
crustaceans, molluscs, aquatic plants, algae, and other organisms. 
Horticultural work encompasses the growing of flowers as well as of 
plants for ornament and fancy. Floricultural activities involve the 
cultivation of flowering and ornamental plants for the floral industry. 
None of the materials listed above would fall under the well-defined, 
commonsense definition of an agricultural commodity included in the 
current regulation. The items that could fall under this new definition 
are seemingly limitless as anyone could attempt to make a case that 
their product is sensitive to temperature or climate and at some risk 
of perishing in transit simply to seek the exemption from HOS rules. 
Drastically expanding the exemption to include these additional non-
agricultural industries will result in an untold number of commercial 
motor vehicle (CMV) drivers not having to comply with the HOS 
regulations at a time when fatigue is a major safety issue in the 
trucking industry.
    The National Transportation Safety Board (NTSB) has repeatedly 
cited fatigue as a major contributor to truck crashes and included 
reducing fatigue related crashes in every edition of its Most Wanted 
List of safety changes since 2016. Additionally, self-reports of 
fatigue, which almost always underestimate the problem, document that 
fatigue in truck operations is a significant issue. In a 2006 driver 
survey prepared for the Federal Motor Carrier Safety Administration 
(FMCSA), ``65 percent [of drivers] reported that they often or 
sometimes felt drowsy while driving'' and almost half (47.6 percent) of 
drivers said they had fallen asleep while driving in the previous year. 
Many of the recent efforts to weaken the HOS rules by expanding 
exemptions to the regulation result from the implementation of the 
electronic logging device (ELD) rule that went into effect in December 
2017. The ELD rule in no way altered or changed the HOS regulations. In 
addition, since the implementation of the ELD rule, driver inspections 
with an HOS violation have decreased by 53 percent, thereby 
demonstrating its effectiveness.

  Questions from Hon. Peter A. DeFazio for Chris Spear, President and 
        Chief Executive Officer, American Trucking Associations

    Question 1. Mr. Spear, in your testimony, you specifically mention 
H.R. 487, the ``Transporting Livestock Across America Safely Act'', 
which provides additional exemptions from hours of service rules for 
livestock haulers. You call the bill a ``dangerous overreach, more than 
doubling the number hours currently deemed safe'' that will 
``needlessly and recklessly threaten the safety of people traveling on 
our highways'' and that it ``should be rejected outright''. Livestock 
haulers currently can operate without an Electronic Logging Device to 
track their hours, and their drivers can already operate far longer 
than other industries based on recent US DOT guidance.
    Can you elaborate on why you oppose this bill?
    Answer. The ATA believes H.R. 487, the Transporting Livestock 
Across America Safely Act, is dangerously mistitled, as the bill would 
not create an environment where livestock is transported ``safely''. 
This legislation, if enacted, would undermine the safety of our roads 
and bridges, providing an environment where commercial motor vehicle 
(CMV) drivers could operate more than 24 hours straight, without rest, 
for the purpose of transporting livestock and insects. While ATA 
understands and appreciates that livestock and agricultural haulers are 
a unique sector of the industry, facing distinctive hours-of-service 
(HOS) challenges that should be reviewed and carefully addressed, this 
bill would not safely do so. Currently, Federal Motor Carrier Safety 
Administration (FMCSA) regulations allow a driver a maximum of 11 hours 
driving before requiring a 10 hour off-duty break. If enacted, this 
legislation would provide a driver with the ability to drive more than 
24 hours straight, over double the current regulation. Driving 24 hours 
straight in any vehicle, let alone a commercial vehicle weighing 40 
tons, is not a safe practice.
    ATA previously outlined these, and other concerns in a letter to 
members of the U.S. Senate Committee on Commerce, Science and 
Transportation and U.S. House Committee on Transportation and 
Infrastructure.
    https://www.trucking.org/ATA%20Docs/What%20We%20Do/Hill%20Report/
ATA%20letter%20opposing%20TLAASA%205.2.19.pdf

 Questions from Hon. Eleanor Holmes Norton for Chris Spear, President 
      and Chief Executive Officer, American Trucking Associations

    Question 2. Mr. Spear, certain proposals to attract younger drivers 
to the industry call for more robust training, and advanced safety 
technologies such as collision mitigation and speed limiters, but only 
for teenage drivers and only during their initial probationary period.
    Does ATA support enhanced training and safety technologies for all 
new drivers to the industry, not just younger drivers?
    Answer. It is important to note that the DRIVE Safe Act's training 
and technology requirements do not apply ``only for teenage drivers.'' 
Rather, under the bill, professional apprentices who have reached the 
age of 20--and are no longer in their teens--are covered by the same 
training and technology requirements that apply to professional 
apprentices aged 18 and 19. In addition, those requirements of the bill 
do not apply ``only during their initial probationary period.'' Rather, 
those requirements apply for the entire duration of the 
apprenticeship--across two probationary periods--which consists of a 
minimum of 400-hours of training.
    Having clarified the training and technology requirements of the 
DRIVE Safe Act, the ATA also wishes to make clear our support of the 
following enhanced training and safety technology requirements that 
have already been mandated by Congress and by FMCSA:
    <bullet>  The Entry Level Driver Training (ELDT) Final Rule: \1\ 
Mandated by MAP-21 and finalized in December 2016 during the Obama 
Administration, the ELDT Final Rule was the result of a negotiated 
rule-making process that involved a compromise achieved among a broad 
array of stakeholders from labor, safety advocates, truck driver 
training schools and industry, including: \2\
---------------------------------------------------------------------------
    \1\ 81 Fed. Reg. 88732 (Dec. 8, 2016) https://www.govinfo.gov/
content/pkg/FR-2016-12-08/
pdf/2016-28012.pdf.
    \2\ 80 Fed. Reg. 7814, 7814-7815 (Feb. 12, 2015) https://
www.federalregister.gov/
documents/2015/02/12/2015-02967/minimum-training-requirements-for-
entry-level-
drivers-of-commercial-motor-vehicles-negotiated.
---------------------------------------------------------------------------
      <bullet>  Advocates for Highway and Auto Safety
      <bullet>  Truck Safety Coalition
      <bullet>  Citizens for Reliable and Safe Highways
      <bullet>  International Brotherhood of Teamsters
      <bullet>  AFL-CIO (Amalgamated Transit Union)
      <bullet>  AFL-CIO (American Federation of Teachers)
      <bullet>  AAMVA
      <bullet>  CVSA
      <bullet>  NAPFTDS
      <bullet>  CVTA
      <bullet>  ATA
    <bullet>  Electronic Logging Devices (ELDs): \3\ Initially proposed 
as an agency rule in 2007, finalized in 2020, and finally effectuated 
by bipartisan Congressional action in MAP-21, ELDs have been 
legislated, promulgated, and litigated--with Congress voting three 
times from 2012 to 2017 in favor of this requirement and a federal 
court rejecting a challenge to the rule. ATA fully supports the 
replacement of decades-old, burdensome paper logs that consume 
countless hours and are susceptible to fraud. ELDs put the safety of 
all motorists first, and the benefits of the rule exceed the costs by 
more than $1 billion, making it a rule that ATA can firmly support and 
easily adopt.
---------------------------------------------------------------------------
    \3\ ATA Hails Arrival of ELD Mandate Effective Date, Dec. 18, 2017, 
https://www.trucking.org/
article/ATA-Hails-Arrival-of-ELD-Mandate-Effective-Date.
---------------------------------------------------------------------------
    With respect to other vehicle safety technologies, ATA supports the 
development and testing of cost-effective onboard systems for all motor 
vehicles in an effort to enhance the safety of all roadway users and 
the use of those systems which have a proven significant safety 
benefit. However, ATA believes incentives should be provided to 
encourage their adoption. In this regard, enactment of the DRIVE Safe 
Act would be an effective incentive that would result in the increased 
adoption of safety technologies in fleets, as carriers are granted 
access to a broader pool of potentially qualified, safe, and 
professional interstate drivers aged 18, 19, and 20.

 Questions from Hon. Angie Craig for Chris Spear, President and Chief 
           Executive Officer, American Trucking Associations

    Question 3. It's graduation season right now and students are 
weighing their options for various careers and trades. Facilitating a 
path forward to a career in trucking is a worthy pursuit, but we must 
also ensure that truck driving will be a good job, as the industry 
undergoes rapid transformation.
    You represent a spectrum of trucking operations. How can we improve 
industry conditions in order to ensure good-paying, sustainable careers 
for the next generation of drivers?
    Answer. 18,350 trucking companies are located in Minnesota; 
primarily small, locally owned businesses, served by a wide range of 
supporting businesses. With 137,530 trucking industry jobs in Minnesota 
as of 2017, trucking accounted for 1 in 18 jobs within the state. Total 
trucking industry wages paid in Minnesota during 2017 exceeded $7.0 
billion, with an average annual trucking industry salary of $50,627.
    Nationally, according to USA Today, ``truck-driver'' was one of the 
most in-demand jobs in the country with the biggest pay hikes in 
2018.\4\ According to an ATA study, private fleet drivers saw their pay 
rise to more than $86,000 from $73,000--or a gain of nearly 18%--from 
2014 to 2017.\5\ Over the same period, the median salary for a 
truckload driver working a national, irregular route increased to over 
$53,000--for an increase of $7,000 or 15%.\6\ These significant bumps 
in pay are in addition to the thousands of dollars in signing bonuses, 
health insurance, and retirement benefits that most carriers offer to 
recruit and retain drivers.\7\
---------------------------------------------------------------------------
    \4\ Paul Davidson, The most in demand jobs in 2018 with biggest pay 
hikes include cashier, truck driver, USA Today, May 22, 2018, https://
www.usatoday.com/story/
money/careers/2018/05/22/jobs-biggest-pay-hikes-cashier-delivery-
driver/630728002/.
    \5\ American Trucking Associations, UPDATED: New Survey Data 
Reveals Increases in Driver Compensation, March 27, 2018, https://
www.trucking.org/article/New-Survey-
Data-Reveals-Increases-in-Driver-Compensation.
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    For many 18-year-old Minnesotans, the ability to activate one's 
earning capacity immediately upon high school graduation while 
receiving health and retirement benefits offers a better pathway to the 
middle class than the student-debt-laden-four-year-college route, 
particularly since nearly half of all students who begin college do not 
graduate in six years.\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Education, Fact Sheet: Focusing Higher 
Education on Student Success, July 27, 2015, https://www.ed.gov/news/
press-releases/fact-sheet-focusing-higher-
education-student-success.
---------------------------------------------------------------------------
    Unfortunately, blue-collar professions are still stigmatized in our 
society and culture that place a disproportionate emphasis on four-
year-degree colleges at the expense of vocational schools or the 
skilled trades. Unlike other blue-collar professions, however, the 
trucking industry faces yet another barrier to entry in FMCSA's 
regulations that require an individual to be at least 21 years old in 
order to operate a CMV in interstate commerce. This means that other 
blue collar industries essentially get at least a three year head start 
in advance of the trucking industry in the ability to recruit, hire, 
and train straight out of school the already-limited subset of students 
who for a variety of reasons decide to forego a four-year-degree.
    What is more, unlike other blue-collar professions, there are many 
barriers to entry for new truck drivers beyond the minimum age 
requirement, such as CDL testing standards, strict drug and alcohol 
testing regimes, and safe and clean driving records. If motor carriers 
could reach potential truck driver candidates straight out of high 
school, the trucking industry would be in a better position to help 
develop candidates develop skills, habits, and attitudes necessary for 
a long and satisfying career in the trucking industry. Specifically, 
connecting young professionals to trucking careers earlier would help 
divert individuals away from the path of controlled substances--which, 
once taken, would render that individual practically unemployable for 
our industry. Reaching these individuals earlier and acculturating them 
through the hiring and training process would lower the risk of that 
person ever taking drugs.
    Significantly, even though the minimum age for interstate driving 
is 21, the reality is that the average age of entry-level drivers 
enrolling at private truck driver training schools is actually 35.\9\ 
This means that many drivers entering our industry may be on the back 
end of their second, third, or fourth careers. They may also be at a 
point in their lives where they have accumulated unsafe driving habits 
as drivers of passenger vehicles. Mid-30's is also when many 
individuals start families and have young children at home, but, truck 
drivers--unlike other blue collar professions--are often away from home 
for long stretches as part of the job. The away-from-home aspects of 
the job may be easier to deal with for drivers aged 18, 19, and 20, 
rather than someone who is 35 years old.
---------------------------------------------------------------------------
    \9\ Commercial Vehicle Training Association, 2018 Legislative 
Agenda, https://cvta.org/
wp-content/uploads/CVTA-Legislative-Agenda-2018.pdf, at 3.
---------------------------------------------------------------------------
    For these reasons, to better connect Minnesotans and Americans to 
middle-class jobs in the trucking industry and to improve industry 
conditions in order to ensure good-paying, sustainable careers for the 
next generation of drivers, ATA supports the following reforms:
I. GIVE YOUNGER PROFESSIONALS THE OPPORTUNITY TO CHOOSE A CAREER IN 
        TRUCKING
    ATA supports lowering the minimum age requirement for interstate 
truck driving from 21 to 18--but only for qualified apprentices that 
satisfy the 400 hours of supervised training and vehicle safety 
technology requirements spelled out in the DRIVE Safe Act, as well as 
the new training requirements of the Entry-Level Driver Training Rule 
(EDLT) Final Rule that will take effect in 2020. Driver training and 
vehicle safety technologies have advanced by several orders of 
magnitude since the current minimum age requirement of 21 was 
promulgated decades ago.
    48 states and the District of Columbia allow 18, 19, and 20-year-
olds to operate CMVs in intrastate commerce, and many of these drivers 
already achieve safety levels equivalent to, if not greater than, that 
of their 21, 22, 23, and 24-year-old counterparts--even without the 
benefit of having trained under the enhanced training standards of the 
ELDT Final Rule, without the minimum 400 hours of training required by 
the DRIVE Safe Act, and without the safety technology requirements of 
the DRIVE Safe Act. Despite this level of safety performance, however, 
18, 19, and 20 year old truck drivers are somehow prohibited from 
driving 1.5 miles from Texarkana, TX into Texarkana, AR--even though 
they can drive hundreds of miles throughout Texas.
    In addition, our nation's military currently allows 18, 19, and 20-
year-old service members to operate heavy duty machinery, equipment, 
and vehicles--demonstrating that properly-designed training can enable 
U.S. sailors (whose average age is younger than 20 years old) to 
operate a $4 billion aircraft carrier.\10\ Further, according to the 
Council on Foreign Relations, 20 percent of the Marine Corps is under 
21, while 10 to 15 percent of the 1.29 million active duty members of 
the U.S. military overall is also under 21.\11\
---------------------------------------------------------------------------
    \10\ National U.S. Navy Aircraft Carrier Month, 2018 Talking 
Points, https://aircraftcarrier.com/
wp-content/uploads/2018/10/Talking-Points-2018.pdf, at 5.
    \11\ Council of Foreign Relations, Demographics of the U.S. 
Military, https://www.cfr.org/
article/demographics-us-military.
---------------------------------------------------------------------------
    Meanwhile, 6.4 million Opportunity Youth in this country are 
neither employed nor in school, even as the nation is short 50,000 
truck drivers. The DRIVE Safe Act would allow trucking industry 
employers to connect these young professionals-in-waiting to jobs that 
pay a national median salary of $54,585, in addition to offering 
potentially thousands of dollars in signing bonuses, health insurance, 
and retirement benefits.
    Additionally, connecting young professionals to trucking careers 
earlier would help divert individuals away from the path of controlled 
substances--which, once taken, would render that individual practically 
unemployable for our industry. Reaching these individuals earlier and 
acculturating them through the hiring and training process would lower 
the risk of that person ever taking drugs.
    An update to the minimum age requirement is well over-due.
    Legislative Language: See DRIVE Safe Act: S. 569 [https://
www.congress.gov/
bill/116th-congress/senate-bill/569/text], H.R. 1374 [https://
www.congress.gov/
bill/116th-congress/house-bill/1374/text]
II. ELIMINATE UNNECESSARY BARRIERS FOR OUT-OF-STATE DRIVER CANDIDATES
    ATA supports an increase in the CDL Improvement Grant Program by an 
amount necessary for states to implement changes to their IT systems so 
that states can better serve the growing number of driver candidates 
who receive training outside their state of domicile. This will allow 
drivers to (1) complete all training; (2) take all necessary tests; and 
(3) obtain all necessary credentials in one state--without having to 
travel back to their home state. Currently, out-of-state trainees have 
to travel back to their home state every time they pass either the CDL 
knowledge test or the CDL skills test just to obtain the basic 
occupational licenses necessary to launch their trucking careers. This 
imposes unnecessary financial burdens on those who can least afford it 
and exposes them to skills degradation.
III. ELIMINATE SKILLS TEST DELAYS FOR CDL APPLICANTS
    ATA supports incentivizing states to administer the CDL skills test 
within 7 days of application or utilizing 3rd party testers. A low 
unemployment rate and the stigma surrounding blue-collar work makes it 
difficult enough to recruit drivers into the trucking industry. States 
that make applicants wait up to two months to take their skills test 
contributes to this problem by discouraging applicants from following 
through. It also invites skills erosion.
IV. SUPPORT RESEARCH ON THE WORKFORCE IMPACTS OF AUTOMATED VEHICLES
    Automated and connected vehicle technologies have the potential to 
dramatically impact nearly all aspects of the trucking industry. These 
technologies can bring benefits in the areas of safety, environment, 
productivity, efficiency, and driver health and wellness. Automated 
driving technology is the next step in the evolution of the safety 
technology currently available, and will help to further improve driver 
safety and productivity, as well as the safety of other motorists and 
road users. Automated technology comes in many levels that will assist 
the driver and in some cases, handle the driving task. The application 
of automated and connected vehicle technology in the trucking industry 
will center on solutions in which there remains a role for drivers, 
recognizing the duties and requirements drivers have beyond operating 
the vehicle.
    For these reasons, ATA supports the commonsense adoption of 
automated vehicle technology and data-driven efforts to better 
understand and optimize the potential benefits of this technology for 
the American workforce. While we recognize that the widespread adoption 
of these technologies is at least 25 to 30 years away, ATA supports 
increased research that will better equip policymakers and regulators 
with more data to prepare the next generation of American workers for 
the future of work in trucking and transportation.

    Question 4. Have you given thought to how we can equip drivers with 
additional certifications (such as mechanical aptitude) that could 
increase their pay meanwhile driving down overall costs in the supply 
chain?
    Answer. ATA has been evaluating a number of proposals involving 
industry-recognized, nationally-portable certifications and would 
welcome the opportunity to explore ideas like this further with you and 
your staff.

Our Roads Our Safety
    Question 5. Are you supportive of FMCSA's program Our Roads Our 
Safety?
    Answer. ATA is a proud founding member of the Our Roads, Our Safety 
program alongside FMCSA, the American Bus Association and AAA. As the 
first trucking industry representative in the Our Roads, Our Safety 
partnership, ATA contributed time and resources to the program's first 
effort, which was a three-part animated video series on wide right 
turns, blind spots, and long stopping distances. Over the past three 
years, ATA has advised FMCSA on safety messages, shared Our Roads, Our 
Safety content with our membership digitally and at ATA conferences, 
solicited new association coalition members, hosted Our Roads, Our 
Safety meetings at the ATA office, served as judges for the Road Safety 
Art Contest, and worked closely with FMCSA to execute campaign 
projects. Most recently, Our Roads, Our Safety released a truck safety 
video featuring former ATA Chairman Kevin Burch as an advocate for 
highway safety. ATA continues to support Our Roads, Our Safety in order 
to promote highway safety related to large trucks and buses to the 
trucking industry as well as the motoring public.

    Question 6. How can this program be expanded to help truck drivers 
and the public to understand how to operate around large trucks and 
buses?
    Answer. ATA believes the Our Roads, Our Safety team at FMCSA has 
done a tremendous job of targeting messages to specific audiences in 
states and cities that have disproportionate rates of large-truck 
involved crashes. Moreover, we believe the program should continue to 
use innovative digital media advertising practices on YouTube and other 
social media platforms to spread safety messages to the general public. 
Additionally, using outdoor advertising opportunities like well-placed 
bikeshare dock ads, billboards in high-traffic areas, and 
advertisements at professional sporting events have all proven to be 
effective mediums to reach the right audiences. Our Roads, Our Safety 
should continue to have a presence at major trucking industry trade 
shows like the Great American Truck Show, Mid-America Trucking Show, 
ATA's MCE annual meeting, and the National Truck Driving Championships, 
as well as other large, industry-centric events.
    ATA also believes FMCSA and commercial motor vehicle industry 
stakeholders must continue to think beyond standard marketing practices 
to engage new audiences, specifically young, emerging passenger-vehicle 
drivers. ATA's Share the Road program visits dozens of high schools 
each year to perform truck safety demonstrations for tens of thousands 
of students. The program uses professional truck drivers as authentic 
safety advocates to establish credibility among an increasingly 
distracted demographic and allows students to receive hands-on 
experience with tractor-trailers. Other Our Roads, Our Safety partner 
organizations have similar outreach programs in order to educate young 
drivers. Our Roads, Our Safety can support such efforts by compiling 
best practices among truck safety advocates like ATA to produce 
curricula or guidelines for other industry stakeholders, state trucking 
associations or community groups looking to implement similar programs 
at a grassroots level. Our Roads, Our Safety could serve as an 
intermediary between schools looking for highway safety demonstrations 
and OROS partner organizations who have the trucks, professional 
drivers and resources to perform such demonstrations.

 Questions from Hon. Sam Graves of Missouri for Chris Spear, President 
      and Chief Executive Officer, American Trucking Associations

    Question 7. During the hearing, the article entitled ``Is the U.S. 
labor market for truck drivers broken?'', by Stephen V. Burks and 
Kristen Monaco, which appeared in the March 2019 issue of the Monthly 
Labor Review, U.S. Bureau of Labor Statistics, was referenced.
    What is ATA's position on the conclusions reached by the authors?
    Answer. ATA does not agree with the conclusions reached by Mr. 
Burke and Ms. Monaco that there is no systemic driver shortage. But 
before correcting the authors clear misunderstandings about the 
trucking industry, ATA would like to address statements made by other 
witnesses regarding the Monthly Labor Review article in submitted 
written testimony and during the hearing as well. In both written 
testimony and answers provided during the question and answer portion 
of the hearing, the article was characterized as an official Department 
of Labor (DOL) publication, and Bureau of Labor Statistics (BLS) study. 
In fact, the article written by Mr. Burke and Ms. Monaco is not an 
official opinion, study or report from BLS or DOL, but instead the sole 
opinion of the authors. Acting BLS Commissioner Bill Wiatrowski 
confirmed as much to ATA Chief Economist Bob Costello in an email this 
past March, stating that ``the opinions in all articles, including the 
recent trucking article, do not represent official positions of the BLS 
or the DOL,'' and that ``any opinions are strictly those of the 
authors.'' Claims that this article is an official study or position is 
patently false and incredibly misleading.
    With respect to the article written by Mr. Burks and Ms. Monaco, as 
noted above, it demonstrates some basic misunderstandings about the 
trucking industry generally, and how we at ATA and in the industry 
discuss the driver shortage. First, the trucking industry is large and 
diverse--with many types of carriers, services, jobs and career paths 
for drivers. ATA has long recognized this when we discuss the driver 
shortage--repeatedly emphasizing that the shortage is generally 
contained to one segment of our industry: the over-the-road or long-
haul for-hire truckload segment. The authors go out of their way to say 
their data could not tell the difference between drivers in this 
segment and other drivers--this error is compounded by the fact that 
some of the data utilized in the analysis is nearly two decades old.
    Second, this work ignores ATA's long-standing contention that at 
the heart of the shortage is the need for qualified drivers. Unlike 
other ``blue collar'' jobs the authors compare truck drivers to--motor 
carriers cannot simply hire anyone to do the job. There are many 
barriers to entry for new drivers: age requirements, CDL testing 
standards, strict drug and alcohol testing regimes and, perhaps most 
importantly for many fleets, safe and clean driving records.
    Carriers repeatedly say it isn't that they don't have enough 
applicants for their open positions--they do. What they do not have is 
enough applicants who meet the demanding qualifications to be hired. In 
some cases, carriers must reject 90% of applicants out of hand because 
they fail to meet at least one of the prerequisites to drive in 
interstate commerce.
    Finally, the authors ignore the most critical difference between 
driving a truck and other ``blue collar'' jobs: unlike their blue 
collar brethren, truck drivers are often away from home for long 
stretches as part of the job. Not adjusting their conclusions for 
something as important as work-life balance leads the authors to make 
some ill-founded claims.
    In addition to this clear misunderstandings about trucking, the 
authors' own concession that wages are going up significantly, as motor 
carriers are unable to hire quality drivers, undercuts their own 
conclusions. This alone suggests there is a systemic issue with getting 
enough labor in the for-hire truckload driver market.

Safety
    Question 8. What is ATA's position on H.R. 1511, the ``Stop 
Underrides Act''?
    Answer. ATA remains opposed to H.R. 1511, the ``Stop Underrides 
Act''. The Stop Underrides Act is not based on sufficient science, data 
or demonstrated overall effectiveness. Moreover, it disregards the 
significant technical issues a mandate of this nature raises, as well 
as the other proven technologies that exist for addressing these and 
other crashes, such as automatic emergency braking, camera monitoring 
systems, and adaptive turning assist. The bill also ignores the 
diversity of our industry, failing to take into account that trucking 
is not a one size fits all industry, and that investments in certain 
technologies that one company makes may not make sense, or be safe, for 
another. Standards for both new and in-service truck equipment should 
be based on sound economic and engineering principles that enhance 
safety, take into account real-world operations, and weigh possible 
unintended consequences.
    The need for sufficient data and research is not only ATA's 
positions, but also a recommendation made by The Government 
Accountability Office (GAO). At the request of members of Congress, the 
GAO published a report reviewing the topic of underride crashes. 
Through a yearlong investigation, including numerous interviews with 
State and Federal Government, Local Police Departments, Foreign 
Governments, and over 29 industry groups, including those supportive of 
this mandate, GAO concluded that more study should be conducted by DOT 
on this issue--study that can examine the possibilities of unintended 
consequences that no parties involved with this issue wants to see. ATA 
agrees with GAO's findings and recommendation for additional research 
on side underride guards. Our industry's unwavering commitment to 
safety should not be impeded by hastily mandating a technology that 
government experts report requires greater study.
    GAO's recommended study can further investigate the real-world 
outcomes of crashes with trailers equipped with side underride guards. 
Study that should analyze the crash outcomes beyond testing that has 
previously been conducted on closed courses. To date, ATA is only aware 
of testing that has been completed on a closed course, at well below 
highway speeds of 35 and 40 M.P.H., during perpendicular side impact 
crashes into a stationary trailer. With national highway speed limits 
of 65 and 70 M.P.H. on the rise, we do not know what may happen in a 
crash during a realistic highway scenario--at highway speeds, with a 
moving truck and trailer, and with other traffic present. Beyond the 
unknown effects of highway crashes, concerns still remain as to the 
long-term structural integrity of trailers if side underride guards 
were added to trailers. In comments filed with the National Highway 
Traffic Safety Administration (NHTSA) in May 2016, the Truck Trailer 
Manufacturers Association (TTMA) noted a European trailer 
manufacturer's experience with trailer failures due to the increased 
rigidity in the trailer structure from added frame supports for side 
underride guards. The trailers were less flexible when operated over 
uneven road surfaces or on surfaces that produced twisting forces, 
which led to the trailers becoming disabled during highway use and 
thereby creating a safety hazard for other motorists. To promulgate 
legislation or rulemaking without knowing these safety impacts would be 
irresponsible and would go against the goal of all stakeholders 
involved in highway safety.
    Furthermore, a mandate of this nature would indisputably divert 
industry safety resources away from crash avoidance technologies with 
wide-ranging benefits in all types of crashes to focus on a narrow type 
of crash and very specific countermeasure unproven in real-world 
applications. In the written testimony provided by Andy Young, a fellow 
witness at June 12, 2019 ``State of Trucking In America'', Mr. Young 
states that there are 11.7 million registered trailers in existence, as 
reported by the Federal Highway Administration in 2012. The testimony 
further states that trailer orders, in 2019, are projected to reach 
324,000 trailers. By these projections, the testimony concludes that 
``combining all new trailer orders with currently registered trailers 
puts the total number of commercial trailers in the United States at 
well over 12 million.'' Equipping the estimated 12 million trailers 
with a side underride guard, identified in Mr. Young's testimony as 
costing approximately $2,900 including shipping, would equate to 
approximately $34.8 billion spent on underride guards. That staggering 
figure would result in what is likely the largest unfunded mandate on a 
private sector industry in U.S. history. Furthermore, when combined 
with the expected cost of labor in installing these guards, which would 
need to take into account the time a trailer is out of service while 
installation takes place, would exceed the industry's annual net 
revenue, essentially putting trucking out of business, and grinding our 
economy to a screeching halt.
    Additional information regarding ATA's opposition to the ``Stop 
Underrides Act'' can be found here:
    <bullet> https://medium.com/@TRUCKINGdotORG/side-underride-guards-
what-we-know-
about-them-and-what-we-have-yet-to-learn-e54dbcb0afd2
    <bullet> https://www.trucking.org/ATA%20Docs/
ATA%20Stop%20Underrides%20Act
%20Follow%20Up%20Opposition%20Letter%206.19.19.pdf
    <bullet> https://www.trucking.org/ATA%20Docs/
ATA%20letter%20Opposing
%20the%20Stop%20Underrides%20Act.pdf

    Question 9. What policy proposals should Congress consider to 
ensure the safety of the Nation's roadways and prevent the types of 
crashes that are the focus of this legislation?
    Answer. ATA continues to believe that the most effective 
improvements to road safety should be directed at preventing the crash 
from happening in the first place. The Stop Underrides Act focuses on 
mitigation after the crash has already taken place. Our focus should be 
on crash avoidance that can be achieved by enhancing vehicle-to-vehicle 
(V2V) connectivity. As such, ATA has been a leading member of the 
Safety Spectrum Coalition, which includes the National Safety Council, 
in the effort to preserve the 5.9 GHZ spectrum for vehicle safety use, 
which will have significant implications for connectivity crash 
avoidance. In NHTSA's January 2017, V2V Notice of Proposed Rulemaking 
for light-duty vehicles, the Agency estimates that four safety 
applications enabled by the proposed rule could avoid or mitigate 89% 
of light-duty vehicle crashes. NHTSA is currently also conducting 
research on V2V for heavy vehicles, and estimates that 70% of crashes 
involving trucks occurred in scenarios that could be addressed by V2V 
systems.
    Specifically related to ``underride crashes'', ATA has long 
supported efforts to strengthen rear underride guards, based on data 
from years of study by NHTSA and the experiences of our members. 
Because NHTSA is currently examining the potential benefits and 
problems with side underride guards, ATA believes the agency should be 
allowed to proceed with its efforts to improve underride guards without 
having the outcome predetermined by legislation.

Questions from Hon. Troy Balderson for Chris Spear, President and Chief 
           Executive Officer, American Trucking Associations

    Question 10. There are proposals to lower the minimum age 
requirement for interstate truck drivers from 21 to 18. Congressman 
Hollingsworth's DRIVE-Safe Act (H.R. 1374) allows for this change, if 
candidates who already have a CDL complete an approved 400-hour 
apprenticeship program that includes in-truck training and experience. 
The candidates must be accompanied by an experienced CDL holder during 
this apprenticeship program.
    Do you believe that the 400 hours of additional training is enough 
time to ensure younger drivers will be capable and responsible on the 
roads?
    Answer. As with all entry-level drivers, individuals aged 18, 19 
and 20 will vary in the number of hours each needs to master the skills 
necessary to operate a CMV safely in interstate commerce. This is why 
the training requirements of the DRIVE Safe Act was designed to require 
the satisfaction of 10 performance benchmarks, along with a minimum of 
400 hours of training. In other words, under the bill, apprentices must 
train until they can demonstrate competencies and skills enumerated in 
each of those 10 specific benchmarks, even if it takes longer than 400 
hours of training to do so.
    Significantly, the bill defines an apprentice as an individual 
under the age of 21 who holds a CDL. This means that all of the 
training and technology requirements of the bill are post-CDL 
requirements. Accordingly--because the bill would not be effective 
until one year after enactment--even if the bill became law today, all 
of the training and technology requirements of the DRIVE Safe Act would 
be required on top of the Entry Level Driver Training (ELDT) Final Rule 
going into effect in February 2020, which are all pre-CDL requirements.
    Beginning on February 7, 2020, all entry level drivers--including 
those age 18, 19, and 20--seeking to obtain a Class A CDL must first 
obtain training from a provider approved and certified by FMCSA in its 
training registry. Specifically they must complete a Class A CDL 
curriculum that covers a minimum of 49 topics specifically enumerated 
in Appendix A of the Final Rule: 30 specifically enumerated topics as 
part of the Theory Instruction portion of the curriculum and 19 
specifically enumerated topics as part of the Behind-the-Wheel portion 
of the curriculum.
    The combined effect of the ELDT Final Rule and the DRIVE Safe Act, 
if enacted, would mean that 18, 19, and 20 year olds seeking to become 
interstate drivers would have to do the following:
    a)  Complete a curriculum of CDL Class A Training with an FMCSA 
approved training provider that covers a minimum of 30 topics as part 
of the Theory Instruction portion of training;
    b)  Pass the CDL Knowledge test; obtain a Commercial Learner's 
Permit (CLP);
    c)  Complete a curriculum of CDL Class A Training with an FMCSA 
approved training provider that covers a minimum of 19 topics as part 
of the Behind the Wheel portion of training.
    d)  Hold a CLP for a minimum of 14 days;
    e)  Pass the CDL skills test;
    f)  Obtain a CDL; and
    g)  Complete a minimum of 400 hours of supervised training across 
two probationary periods (including 240 hours of driving time with an 
experienced driver seated in the cab of the truck) and satisfy 10 
performance benchmarks outlined in the DRIVE Safe Act, before being 
permitted to operate CMVs solo in interstate commerce.

    Question 11. Can you expand on the importance of being able to 
provide good job opportunities to 18-year-olds upon graduating high 
school?
    Answer. According to USA Today, ``truck-driver'' was one of the 
most in-demand jobs in the country with the biggest pay hikes in 
2018.\12\ According to an ATA study, private fleet drivers saw their 
pay rise to more than $86,000 from $73,000--or a gain of nearly 18%--
from 2014 to 2017.\13\ Over the same period, the median salary for a 
truckload driver working a national, irregular route increased to over 
$53,000--for an increase of $7,000 or 15%.\14\ These significant bumps 
in pay are in addition to the thousands of dollars in signing bonuses, 
health insurance, and retirement benefits that most carriers offer to 
recruit and retain drivers.\15\
---------------------------------------------------------------------------
    \12\ Paul Davidson, The most in demand jobs in 2018 with biggest 
pay hikes include cashier, truck driver, USA Today, May 22, 2018, 
https://www.usatoday.com/story/money/
careers/2018/05/22/jobs-biggest-pay-hikes-cashier-delivery-driver/
630728002/.
    \13\ American Trucking Associations, UPDATED: New Survey Data 
Reveals Increases in Driver Compensation, March 27, 2018, https://
www.trucking.org/article/New-Survey-Data-Reveals-
Increases-in-Driver-Compensation.
    \14\ Id.
    \15\ Id.
---------------------------------------------------------------------------
    For many 18-year-olds, the ability to activate one's earning 
capacity immediately upon high school graduation while receiving health 
and retirement benefits offers a better pathway to the middle class 
than the student-debt-laden-four-year-college route, particularly since 
nearly half of all students who begin college do not graduate in six 
years.\16\ In addition, connecting young professionals to trucking 
careers earlier would help divert individuals away from the path of 
controlled substances--which, once taken, would render that individual 
practically unemployable for our industry. Reaching these individuals 
earlier and acculturating them through the hiring and training process 
would lower the risk of that person ever taking drugs.
---------------------------------------------------------------------------
    \16\ U.S. Department of Education, Fact Sheet: Focusing Higher 
Education on Student Success, July 27, 2015, https://www.ed.gov/news/
press-releases/fact-sheet-focusing-higher-education-
student-success.
---------------------------------------------------------------------------
    From an industry perspective, younger drivers are sorely needed to 
not only address the truck driver shortage which reached a record high 
of 50,000 by the end of 2017, but also to replenish the industry's 
aging workforce.\17\ As you may be aware, the median age of an over-
the-road truck driver is 49--7 years older than the average U.S. 
worker--whereas the median age of private fleet drivers is even higher 
at 52.\18\ In addition, 55% of the trucking workforce is over the age 
of 45.\19\ Only 4 percent is between the ages of 20 and 24.\20\
---------------------------------------------------------------------------
    \17\ American Trucking Associations, Truck Driver Shortage Analysis 
2017, http://progressive1.acs.playstream.com/truckline/progressive/
ATAs%20Driver%20Shortage%20
Report%202017.pdf.
    \18\ Id.
    \19\ Id.
    \20\ Id.
---------------------------------------------------------------------------
    In addition, please see the response to Question 12, below.

    Question 12. What are some of the difficulties you face in trying 
to recruit new truck drivers to the profession when they have been out 
of high school for 3 years?
    Answer. With the nation's unemployment rate hovering at historic 
lows, employers across the country are having enormous difficulty 
recruiting new workers. On top of this difficulty, blue-collar 
professions are still stigmatized in our society and culture that place 
a disproportionate emphasis on four-year-degree colleges at the expense 
of vocational schools or the skilled trades. Unlike other blue-collar 
professions, however, the trucking industry faces yet another barrier 
to entry in FMCSA's regulations that require an individual to be at 
least 21 years old in order to operate a CMV in interstate commerce. 
This means that other blue collar industries essentially get at least a 
three-year head start in advance of the trucking industry in the 
ability to recruit, hire, and train straight out of school the already-
limited subset of students who for a variety of reasons decide to 
forego a four-year-degree.
    What is more, unlike other blue-collar professions, there are many 
barriers to entry for new truck drivers beyond the minimum age 
requirement, such as CDL testing standards, strict drug and alcohol 
testing regimes, and safe and clean driving records. If motor carriers 
could reach potential truck driver candidates straight out of high 
school, the trucking industry would be in a better position to help 
develop candidates develop skills, habits, and attitudes necessary for 
a long and satisfying career in the trucking industry. Specifically, 
connecting young professionals to trucking careers earlier would help 
divert individuals away from the path of controlled substances--which, 
once taken, would render that individual practically unemployable for 
our industry. Reaching these individuals earlier and acculturating them 
through the hiring and training process would lower the risk of that 
person ever taking drugs.
    Significantly, even though the minimum age for interstate driving 
is 21, the reality is that the average age of entry-level drivers 
enrolling at private truck driver training schools is actually 35.\21\ 
This means that many drivers entering our industry may be on the back 
end of their second, third, or fourth careers. They may also be at a 
point in their lives where they have accumulated unsafe driving habits 
as drivers of passenger vehicles. Mid-30's is also when many 
individuals start families and have young children at home, but, truck 
drivers--unlike other blue collar professions--are often away from home 
for long stretches as part of the job. The away-from-home aspects of 
the job may be easier to deal with for drivers aged 18, 19, and 20, 
rather than someone who is 35 years old.
---------------------------------------------------------------------------
    \21\ Commercial Vehicle Training Association, 2018 Legislative 
Agenda, https://cvta.org/
wp-content/uploads/CVTA-Legislative-Agenda-2018.pdf, at 3.
---------------------------------------------------------------------------
    Responsibly lowering the minimum age requirement to 18 for 
qualified apprentices who satisfy the requirements of the DRIVE Safe 
Act would allow the industry to access and build up a pipeline of 
younger workers necessary to replenish the industry's aging workforce. 
As you may be aware, the median age of an over-the-road truck driver is 
49--7 years older than the average U.S. worker--whereas the median age 
of private fleet drivers is even higher at 52.\22\ In addition, 55% of 
the trucking workforce is over the age of 45.\23\ Only 4% is between 
the ages of 20 and 24.\24\
---------------------------------------------------------------------------
    \22\ American Trucking Associations, Truck Driver Shortage Analysis 
2017, http://progressive1.acs.playstream.com/truckline/progressive/
ATAs%20Driver%20Shortage%20
Report%202017.pdf.
    \23\ Id.
    \24\ Id.
---------------------------------------------------------------------------

  Questions from Hon. Carol D. Miller for Chris Spear, President and 
        Chief Executive Officer, American Trucking Associations

    Question 13. My district of southern West Virginia was one of the 
hardest hit by the recession and is still recovering from the war on 
coal, which caused so many to lose their jobs.
    How has the trucking industry tried to recruit new drivers and what 
can Congress to do to promote hard working Americans to become truck 
drivers?
    Answer. According to USA Today, ``truck-driver'' was one of the 
most in-demand jobs in the country with the biggest pay hikes in 
2018.\25\ According to an ATA study, private fleet drivers saw their 
pay rise to more than $86,000 from $73,000--or a gain of nearly 18%--
from 2014 to 2017.\26\ Over the same period, the median salary for a 
truckload driver working a national, irregular route increased to over 
$53,000--for an increase of $7,000 or 15%.\27\ These significant bumps 
in pay are in addition to the thousands of dollars in signing bonuses, 
health insurance, and retirement benefits that most carriers offer to 
recruit and retain drivers.\28\
---------------------------------------------------------------------------
    \25\ Paul Davidson, The most in demand jobs in 2018 with biggest 
pay hikes include cashier, truck driver, USA Today, May 22, 2018, 
https://www.usatoday.com/story/money/
careers/2018/05/22/jobs-biggest-pay-hikes-cashier-delivery-driver/
630728002/.
    \26\ American Trucking Associations, UPDATED: New Survey Data 
Reveals Increases in Driver Compensation, March 27, 2018, https://
www.trucking.org/article/New-Survey-
Data-Reveals-Increases-in-Driver-Compensation.
    \27\ Id.
    \28\ Id.
---------------------------------------------------------------------------
    With 35,810 trucking industry jobs in West Virginia as of 2017, 
trucking employs 1 in 15 jobs within the state. 5,420 trucking 
companies are located in the state--primarily small, locally owned 
businesses. The average annual trucking industry salary in West 
Virginia in 2017 was $43,749. For many West Virginians, trucking could 
offer a pathway to the middle class as the demand for freight 
transportation grows in our e-commerce economy.
    To better connect West Virginians and Americans to jobs like these, 
Congress could do the following:
V. GIVE YOUNGER PROFESSIONALS THE OPPORTUNITY TO CHOOSE A CAREER IN 
        TRUCKING
    ATA supports lowering the minimum age requirement for interstate 
truck driving from 21 to 18--but only for qualified apprentices that 
satisfy the 400 hours of supervised training and vehicle safety 
technology requirements spelled out in the DRIVE Safe Act, as well as 
the new training requirements of the Entry-Level Driver Training Rule 
(EDLT) Final Rule that will take effect in 2020. Driver training and 
vehicle safety technologies have advanced by several orders of 
magnitude since the current minimum age requirement of 21 was 
promulgated decades ago.
    48 states and the District of Columbia allow 18, 19, and 20-year-
olds to operate CMVs in intrastate commerce, and many of these drivers 
already achieve safety levels equivalent to, if not greater than, that 
of their 21, 22, 23, and 24-year-old counterparts--even without the 
benefit of having trained under the enhanced training standards of the 
ELDT Final Rule, without the minimum 400 hours of training required by 
the DRIVE Safe Act, and without the safety technology requirements of 
the DRIVE Safe Act. Despite this level of safety performance, however, 
18, 19, and 20 year old truck drivers are somehow prohibited from 
driving 1.5 miles from Texarkana, TX into Texarkana, AR--even though 
they can drive hundreds of miles throughout Texas.
    In addition, our nation's military currently allows 18, 19, and 20-
year-old service members to operate heavy duty machinery, equipment, 
and vehicles--demonstrating that properly-designed training can enable 
U.S. sailors (whose average age is younger than 20 years old) to 
operate a $4 billion aircraft carrier.\29\ Further, according to the 
Council on Foreign Relations, 20 percent of the Marine Corps is under 
21, while 10 to 15 percent of the 1.29 million active duty members of 
the U.S. military overall is also under 21.\30\
---------------------------------------------------------------------------
    \29\ National U.S. Navy Aircraft Carrier Month, 2018 Talking 
Points, https://aircraftcarrier.com/
wp-content/uploads/2018/10/Talking-Points-2018.pdf, at 5.
    \30\ Council of Foreign Relations, Demographics of the U.S. 
Military, https://www.cfr.org/
article/demographics-us-military.
---------------------------------------------------------------------------
    Meanwhile, 6.4 million Opportunity Youth in this country are 
neither employed nor in school, even as the nation is short 50,000 
truck drivers. The DRIVE Safe Act would allow trucking industry 
employers to connect these young professionals-in-waiting to jobs that 
pay a national median salary of $54,585, in addition to offering 
potentially thousands of dollars in signing bonuses, health insurance, 
and retirement benefits.
    Additionally, connecting young professionals to trucking careers 
earlier would help divert individuals away from the path of controlled 
substances--which, once taken, would render that individual practically 
unemployable for our industry. Reaching these individuals earlier and 
acculturating them through the hiring and training process would lower 
the risk of that person ever taking drugs.
I. ELIMINATE UNNECESSARY BARRIERS FOR OUT-OF-STATE DRIVER CANDIDATES
    ATA supports an increase in the CDL Improvement Grant Program by an 
amount necessary for states to implement changes to their IT systems so 
that states can better serve the growing number of driver candidates 
who receive training outside their state of domicile. This will allow 
drivers to (1) complete all training; (2) take all necessary tests; and 
(3) obtain all necessary credentials in one state--without having to 
travel back to their home state. Currently, out-of-state trainees have 
to travel back to their home state every time they pass either the CDL 
knowledge test or the CDL skills test just to obtain the basic 
occupational licenses necessary to launch their trucking careers. This 
imposes unnecessary financial burdens on those who can least afford it 
and exposes them to skills degradation.
II. ELIMINATE SKILLS TEST DELAYS FOR CDL APPLICANTS
    ATA supports incentivizing states to administer the CDL skills test 
within 7 days of application or utilizing 3rd party testers. A low 
unemployment rate and the stigma surrounding blue-collar work makes it 
difficult enough to recruit drivers into the trucking industry. States 
that make applicants wait up to two months to take their skills test 
contributes to this problem by discouraging applicants from following 
through. It also invites skills erosion.
III. SUPPORT RESEARCH ON THE WORKFORCE IMPACTS OF AUTOMATED VEHICLES
    Automated and connected vehicle technologies have the potential to 
dramatically impact nearly all aspects of the trucking industry. These 
technologies can bring benefits in the areas of safety, environment, 
productivity, efficiency, and driver health and wellness. Automated 
driving technology is the next step in the evolution of the safety 
technology currently available, and will help to further improve driver 
safety and productivity, as well as the safety of other motorists and 
road users. Automated technology comes in many levels that will assist 
the driver and in some cases, handle the driving task. The application 
of automated and connected vehicle technology in the trucking industry 
will center on solutions in which there remains a role for drivers, 
recognizing the duties and requirements drivers have beyond operating 
the vehicle.
    For these reasons, ATA supports the commonsense adoption of 
automated vehicle technology and data-driven efforts to better 
understand and optimize the potential benefits of this technology for 
the American workforce. While we recognize that the widespread adoption 
of these technologies is at least 25 to 30 years away, ATA supports 
increased research that will better equip policymakers and regulators 
with more data to prepare the next generation of American workers for 
the future of work in trucking and transportation.

    Question 14. In your testimony, you highlight the difficulties that 
our Customs and Border Patrol Officers face on the Southern Border, and 
the dire economic impact this crisis is causing the trucking industry.
    What steps does the ATA support to help facilitate important 
international trade?
    Answer. U.S. Customs and Border Protection is responsible for a 
variety of functions at and between ports of entry, including customs, 
immigration, border security, and agricultural protection. All of these 
responsibilities are crucial to facilitate the legitimate flow of 
international trade and travel. However, the crisis along the southern 
border has forced CBP to redistribute resources to accommodate for the 
unprecedented influx of migrants at and between ports of entry (POEs). 
This reallocation of resources has severely impacted the trucking 
industry, as approximately 33,000 truck crossings occur every day along 
our northern and southern borders.
    To date, CBP has reassigned 731 Officers--245 from POEs along the 
southern border; and 486 from airports, sea ports, and POEs along the 
northern border--to assist the Border Patrol with migrant processing 
and asylum seekers. When CBP reallocates resources and personnel, it is 
important to recognize that the Officers are being removed from posts 
that are critically important for trade facilitation, such as cargo 
processing and agricultural inspections. The resulting personnel 
deficit has had a direct impact on commercial wait times at the border, 
with wait times reaching 7-10 hours for commercial trucks at the peak 
of the crisis. Every single day, trucks haul more than $2 billion worth 
of goods across our northern and southern borders, and increased wait 
times and irregular POE operations take a toll on the vitality of our 
industry as well as the U.S. economy. As such, ATA supports initiatives 
that help CBP address both economic security as well as physical 
security at POEs. We kindly ask that you consider the following 
suggestions:
    a)  Construction of additional commercial lanes (HTF)
    b)  Renovations for aging bridges that support commercial motor 
vehicles (HTF)
    c)  Redesigning existing commercial lanes to improve efficiency 
(HTF)
    d)  Construction of bypass roads to reduce commercial traffic (HTF)
    e)  Infrastructure modifications to ensure the accessibility of 
Free and Secure Trade (FAST) lanes for Customs-Trade Partnership 
Against Terrorism (C-TPAT) participants (HTF)
    f)  Infrastructure to connect highways with POEs (HTF)
    g)  Technology that can be adapted to handle more volume, increase 
efficiency, and improve accuracy of detection efforts (GF)
    h)  Construction of additional facilities to enable Customs and 
Border Protection (CBP) and other Partner Government Agencies (PGAs) to 
carry out the functions of commercial operations, including accepting 
entries of merchandise, collecting duties, and enforcing the customs, 
immigration, and trade laws of the United States (GF)

HTF: Funded from the Highway Trust Fund
GF: Funded from the federal General Fund

    While SAFETEA-LU set aside money for many of these types of 
projects, Section 1437 of the FAST Act simply made border 
infrastructure an eligible expense under the Surface Transportation 
Block Grant program. Given the clear needs and federal interest in 
ensuring the efficient flow of people and goods across our land 
borders, ATA recommends restoring a dedicated funding program, with 
money apportioned among the northern and southern border states.

    Question 15 Finally, Mr. Spear, what changes can Congress make to 
have the most immediate impact on improving highway infrastructure 
across the United States?
    What steps does the ATA support to help facilitate important 
international trade?
    Answer. The most critical immediate step Congress can take to 
facilitate nationwide improvement in highway infrastructure is to 
provide states with sufficient, long-term, dedicated revenue. According 
to multiple analyses, nationwide spending on highways is roughly half 
of what is needed to maintain highways and bridges, and to make the 
improvements necessary to address safety and mobility needs. Given 
that, on average, the federal-aid highway program represents half of 
states' highway capital budget, without a significant infusion of 
federal funds highways will continue to deteriorate. West Virginia 
relies on federal funds for 60 percent of its capital spending. 
Furthermore, the uncertainty that states have had to deal with since 
2008, when the Highway Trust Fund nearly went bankrupt--an episode that 
has repeated several times since--prevents states from addressing the 
most serious highway deficiencies. ATA has proposed a 20 cent increase 
in the federal fuel user fee. This will raise an average of $34 billion 
annually over the next decade. It will provide the states with the 
predictable funding streams they need to address the massive backlog in 
highway funding that is preventing states from saving lives, lowering 
freight transportation costs and improving quality of life for every 
American.

 Questions from Hon. Angie Craig for Todd Spencer, President and Chief 
   Executive Officer, Owner-Operator Independent Drivers Association

    Question 1. It's graduation season right now and students are 
weighing their options for various careers and trades. Facilitating a 
path forward to a career in trucking is a worthy pursuit, but we must 
also ensure that truck driving will be a good job, as the industry 
undergoes rapid transformation.
    You represent a spectrum of trucking operations. How can we improve 
industry conditions in order to ensure good-paying, sustainable careers 
for the next generation of drivers?
    Answer. There are several ways to make a career in trucking more 
appealing and viable for the next generation of drivers. First and 
foremost, drivers must be properly compensated for ALL the time they 
spend completing a freight movement. Currently, most drivers are only 
paid when the wheels of a truck are moving, rather than on an hourly 
basis. Unfortunately, an increasing amount of a driver's on-duty time 
is spent excessively detained at a shipper or receiver, or stuck in 
traffic caused by growing highway congestion. Both situations consume 
valuable time in driver's day, but result in no compensation. Congress 
can take steps to better ensure all drivers are compensated during 
excessive detention time at loading and unloading docks. Not only would 
this result in more sustainable wages for truckers, but it would 
improve efficiency at a shipper or receiver, which benefits consumers. 
Congress must also repeal an exemption within the Fair Labor Standards 
Act (FLSA) that prevents drivers from receiving over-time pay. This 
exemption is outdated and prevents truckers from receiving adequate 
compensation.

    Question 2. Have you given thought to how we can equip drivers with 
additional certifications (such as mechanical aptitude) that could 
increase their pay meanwhile driving down overall costs in the supply 
chain?
    Answer. Drivers are responsible for complying with a dizzying list 
of FMCSA regulations and are primarily liable for any violations 
incurred. Braking systems, lighting equipment and cargo securement 
regulations generate the most out-of-service violations issued today, 
but few drivers entering our industry have the basic training to 
properly identify and resolve these safety problems. Large motor 
carriers favor the cheapest and quickest training possible, which 
typically results in drivers only being taught about the handling of a 
commercial motor vehicle. More robust training standards--including 
requirements involving the maintenance and repair of vehicle 
components--would expand the skills and capabilities of new drivers, 
which traditionally leads to higher levels of compensation.

    Question 3. Mr. Byrd's testimony highlights that Teamster drivers 
are among the highest paid in the industry with good health benefits 
and pensions, which is why the retention rate is much higher. He also 
notes that Teamster contracts require pay for drivers if they are 
detained, or kept waiting by shippers, for a truck to be loaded or 
unloaded and that ``paying drivers for wasting their valuable on duty 
time gives motor carriers and shippers and incentive to have a load 
ready.''
    Mr. Spencer, is this the typical experience of OOIDA members? 
(Owner-Operator Independent Drivers Association)
    Answer. Some OOIDA members have been successful in including 
detention time compensation into contracts they've negotiated with 
shippers, brokers and motor carriers. These drivers are typically the 
most experienced on the road, which gives them unique leverage in 
reaching such agreements. However, even those operating under such 
contracts often find the entities responsible for payment will avoid 
upholding their end of the agreement when it comes to detention time. 
It is important to note there is also strength in numbers when 
negotiating for detention time compensation. Large fleets and the 
Teamsters union have significantly more leverage than a single-truck 
operator at the negotiating table. As a result, most drivers remain 
unpaid when the wheels of the truck are not moving, especially owner-
operators and those new to the industry.

Driving Training Standards
    Question 4. Do you support the current training standards for the 
ELDT 2020 training program?
    Answer. OOIDA supports thorough training for all entry-level 
drivers and the ELDT final rule that goes into effect next year is a 
step in the right direction. However, more can be done to ensure 
drivers are receiving the best possible training to fully prepare them 
for the challenges of operating a commercial motor vehicle at the 
safest levels. Congress should consider the new ELDT requirements a 
good starting point, but continue to work to develop more robust 
training standards.

    Question 5. Do you support current standards that do not require a 
minimum BTW (Behind The Wheel) time?
    Answer. The lack of any BTW minimum requirement is a critical 
deficiency within the ELDT final rule. The lack of any meaningful BTW 
standards fails to ensure new entrants are adequately trained for the 
conditions they will face on the road, jeopardizing the safety of the 
driver and those with whom he shares the road. OOIDA was extremely 
disappointed no minimum BTW requirements were included in the ELDT 
final rule, despite the fact a vast majority of industry stakeholders 
engaged in the negotiated rulemaking agreed it was necessary. Congress 
must take steps to ensure BTW training is compulsory.

    Question 6. Do you believe that truck drivers should demonstrate 
their driving capabilities on the streets and highways rather than in 
parking lots?
    Answer. Yes, absolutely. Beyond demonstrating their proficiency in 
daily driving conditions, new drivers should be trained to safely 
operate a commercial motor vehicle in adverse weather conditions, 
extreme congestion and diverse terrain.

   Questions from Hon. Peter A. DeFazio for Lamont Byrd, Director of 
       Safety and Health, International Brotherhood of Teamsters

    Question 1. Mr. Byrd, your testimony refers to a report you will 
submit for the record that looks at the state of trucking operations 
across the U.S.-Mexico border, and labor practices where U.S. companies 
effectively use drivers with B-1 Temporary Business Visitor visas to 
deliver loads. You refer to this as a ``spider's web of ownership'', 
which has impacts on U.S. jobs.
    What impact is this model having on the domestic labor market and 
U.S. truck drivers?
    Answer. As our testimony indicated, the Teamsters Union employed 
EMPOWER, LLC, a Mexico City-based research firm to investigate 
irregular employment practices of U.S. domiciled trucking companies and 
their use of B-1 visa truck drivers. The EMPOWER report confirmed that 
in the last ten years, there has been rapid growth of the use of 
tractor-trailer operators with B-1 Temporary Business Visitor visas who 
are working exclusively on long-haul operations in the U.S. While it is 
difficult to quantify the exact number of carriers and drivers involved 
in this practice, it was found that the B-1 job market in Nuevo Laredo 
is on the verge of de facto institutionalization.
    While we have considerably more investigative work to do to 
quantify this practice, the effect on U.S. driver wages and the 
``theft'' of work through cabotage violations is real. The Mexican 
Social Security Institute estimated in 2017 that tractor trailer 
operators in Mexico earn an average of USD 758.73 per month. This 
represents a significant savings to U.S. carriers that utilize these 
outsourced B-1 driver fleets. According to the U.S. Department of 
Labor's Bureau of Labor Statistics, the median hourly wage for U.S 
truck drivers is $21.00/hour with an annual wage of $43,680. The union 
wage scale is considerably higher than that. The use of B-1 visa 
drivers represents a significant savings to U.S. carriers, both 
unionized and non-union, that set up these outsourced driver fleets. 
While EMPOWER was not able to obtain reliable data about the total size 
of the labor market for B-1 drivers, it did find several Facebook 
groups that serve as forums for them, with thousands of members each. 
Online recruiting forums are used by small and large carriers alike and 
also by independent employers. The largest had over 11,000 members, 
leading us to believe that the use of B-1 drivers is growing 
significantly and has a negative impact on the job market for U.S. 
drivers.
    In addition to the inequity in pay, it was found that cabotage 
violations are required by many, if not most, B-1 employers. These B-1 
visa truck drivers are required by law to leave from the Mexican side 
of the border, but many companies have been found to require drivers to 
leave from Laredo or some other U.S. city. The consequence, if caught, 
can mean the loss of the driver's B-1 visa, but the practice appears to 
be fairly common. The U.S. Customs and Border Protection (CBP) holds 
workshops with major B-1 visa employers, part of which is to emphasize 
the U.S. cabotage law, but interviews with drivers confirm this 
practice of violating the law. Every cabotage violation is work lost by 
a U.S. driver. The Teamsters Union is in the process of reaching out to 
CBP to obtain data about cabotage violations. Apparently, enforcement 
is spotty and varies greatly by region at the border. Once that 
information is received and quantified, we will be in a better position 
to inform the Committee of impacts on U.S. jobs. In addition, we are 
continuing to investigate the overall use of B-1 visa drivers in the 
long-haul industry so we can better quantify the effects of this 
practice on the domestic labor market. When that information is 
gathered, we will be pleased to pass it on to the Committee.

Questions from Hon. Angie Craig for Lamont Byrd, Director of Safety and 
             Health, International Brotherhood of Teamsters

    Question 2. It's graduation season right now and students are 
weighing their options for various careers and trades. Facilitating a 
path forward to a career in trucking is a worthy pursuit, but we must 
also ensure that truck driving will be a good job, as the industry 
undergoes rapid transformation.
    You represent a spectrum of trucking operations. How can we improve 
industry conditions in order to ensure good-paying, sustainable careers 
for the next generation of drivers?
    Answer. The first step in protecting driver wages and job quality 
is by addressing rampant worker misclassification and ensuring that 
drivers are paid for all the hours that they work. Similar to other 
sectors of the economy, trucking companies have spent the past several 
decades looking to shed costs at the direct expense of drivers, often 
by misclassifying them as independent contractors. This practice has 
led to an increasing number of drivers who enter into sham leasing 
agreements and become responsible for a majority of the operational 
costs of their business, costs that lead to them earning terrible wages 
and working long hours. This practice is also illegal. These costs 
should be borne by their employer, but we do not have a proper legal 
framework in this country to hold companies who break these laws 
accountable. Until these issues are addressed, drivers will continue to 
suffer. This system also impacts workers who are properly classified as 
employees, as law-abiding companies are often undercut by their law-
breaking competitors. As a result, employee-drivers often face the 
threat of having their work subcontracted out to misclassified drivers 
so that their employers can remain competitive in certain markets. This 
system creates a destructive cycle that is bad for all truckers and 
must be addressed.
    Driver wages in all sectors must also improve to make this industry 
competitive in recruiting and retaining talent. One step is to ensure 
that drivers are paid for all hours that they work. Many drivers are 
only paid when ``the wheels are turning'' leading to them eating the 
costs for any traffic delays or time spent held up by a shipper. 
Shippers and other entities in the transportation supply chain are 
directly responsible for this situation. Anyone who contributes to 
delays in picking up or delivering loads should brought to the table 
and if necessary, forced to improve their turn times. Mandating payment 
for the time drivers spend waiting to pick up or drop off a load is one 
way to address this problem. Doing so would ensure that it is no longer 
cost-effective for shippers to force drivers to wait hours to pick up a 
load and move onto their next location. Addressing these issues are 
crucial, these delays cost the drivers both valuable working hours and 
opportunities for other compensation and should not be tolerated.
    The quality of the driving profession is also directly tied to the 
regulations FMCSA does (or doesn't) put out. FMCSA should stop issuing 
exemptions to the Hours of Service regulations that extend a driver's 
work day and make the job even less attractive to new applicants. FMCSA 
should also promulgate a comprehensive entry-level driving training 
curriculum that is consistent with the draft negotiated rule that was 
developed by stakeholders who were involved in the negotiated entry-
level driver training rule, including a minimum of 30 hours of behind-
the-wheel training time.
    Finally, our crumbling infrastructure further exacerbates driver 
stress and delays in delivering loads and must be addressed.

    Question 3. Have you given thought to how we can equip drivers with 
additional certifications (such as mechanical aptitude) that could 
increase their pay meanwhile driving down overall costs in the supply 
chain?
    Answer. Our focus has been to ensure that we have driver/members 
who are highly competent in all aspects of commercial driving. It 
should be noted that LTL drivers who are Teamster members typically 
possess not only the Commercial Driver's License, but also several 
endorsements, e.g., hazardous materials, tank vehicle, air brakes, 
double trailers, and triple trailers (in some jurisdictions). These 
drivers are also proficient in dock operations that include OSHA 
certification for operating powered industrial trucks, loading 
trailers, unloading trailers, load segregation, load securement, 
connecting and disengaging various trailer configurations, and basic 
hazardous materials/emergency response. Much of the same could be said 
for long-haul drivers.
    Commercial drivers work a very tough job, being tasked with working 
very long hours (10 to 16 hours per day/60 to 70 hours per week) while 
being responsible for ensuring that they obtain sufficient rest to 
operate heavy vehicles safely, complying with health/medical standards 
that are increasingly rigorous, being subjected to drug and alcohol 
testing, etc. In addition, many of these drivers have family 
responsibilities that occupy the minimal time that they have remaining 
in a typical work week. It is not likely that this group of working men 
and women will have time or in some cases, the resources to pursue 
additional certifications.

    Question 4. Mr. Byrd, your testimony highlights that Teamster 
drivers are among the highest paid in the industry with good health 
benefits and pensions, which is why the retention rate is much higher. 
You also note that your contracts require pay for drivers if they are 
detained, or kept waiting by shippers, for a truck to be loaded or 
unloaded and that ``paying drivers for wasting their valuable on duty 
time gives motor carriers and shippers and incentive to have a load 
ready.''
    I'm a strong supporter of our nation's unions like the one you 
represent. What can Congress do to ensure Teamster benefits are more 
common in all segments of the industry?
    Answer. Hurdles to union organizing must be addressed. Our nation's 
laws are stacked against workers who want to exercise their legal right 
to form a union. In trucking, the nature of the industry makes it 
particularly susceptible to illegal union-busting tactics, as drivers 
are often spread out, and on the road in isolation for a significant 
portion of their workday. Unionization is the only way to ensure the 
benefits that Teamster members have fought for are enjoyed by a greater 
segment of the population.
    The plague of worker misclassification mentioned earlier must also 
be addressed. In addition to the terrible and often unsafe working 
conditions most misclassified drivers faced, they are also prevented 
from joining a union because of their independent contractor status. 
This must also be addressed for there to be meaningful change across 
the industry.

Questions from Hon. Peter A. DeFazio for Rodney Noble, Senior Director 
             of Transportation Global Procurement, PepsiCo

    Question 1. Mr. Noble, PepsiCo is an industry leader in 
electrification, owning the largest commercial fleet of electric 
vehicles in the U.S. as well as investing in all-electric semi-trucks 
to add to your fleet.
    Do you believe the Federal Government has a role in ensuring that 
adequate charging infrastructure exists for electric vehicles on long 
distance routes to support this investment by your company and others?
    Answer. Chairman DeFazio, thank you for your question. PepsiCo is 
adopting sustainability in our everyday practices and long-term 
business plans by reducing emissions through efficient, new technology 
and the sharing of best practices. For a number of years PepsiCo has 
made significant improvements in fleet efficiency and we are proud to 
have over 1,500 alternative fuel vehicles in our fleet; including a 
significant number of electric vehicles. PepsiCo has a long history of 
investment in electric vehicles and its associated charging 
infrastructure. Part of our strategic plan in building our electric 
fleet included updating our site and maintenance facilities, including 
our refueling infrastructure and planning our routes to ensure our 
electric vehicles remain adequately charged. PepsiCo has made 
significant investments and will continue to do so in developing its 
own private, on site charging infrastructure. As of right now, 
PepsiCo's belief is that most of our current and future charging needs 
for both delivery and over the road transport electric vehicles can be 
met through charging infrastructure installed at our own facilities.

 Questions from Hon. Angie Craig for Rodney Noble, Senior Director of 
               Transportation Global Procurement, PepsiCo

    Question 2. It's graduation season right now and students are 
weighing their options for various careers and trades. Facilitating a 
path forward to a career in trucking is a worthy pursuit, but we must 
also ensure that truck driving will be a good job, as the industry 
undergoes rapid transformation.
    You represent a spectrum of trucking operations. How can we improve 
industry conditions in order to ensure good-paying, sustainable careers 
for the next generation of drivers?
    Answer. Representative Craig, thank you for the question and we 
agree with the sentiment behind the question and believe it is 
important to provide good working conditions for all our employees at 
PepsiCo, including our drivers. We believe a critical component of good 
working conditions for our drivers is safety. To that end, PepsiCo goes 
above and beyond current federal and state safety regulations. The 
majority of our new vehicles are outfitted with features including: 
collision mitigation, lane departure, blind spot detection, LED 
headlights, back-up cameras, antilock brakes, traction control and 
electronic stability control. We are also adding forward facing cameras 
and lane departure devices to our existing fleet, while continuing to 
leverage telematics for proactive driver training on safe driver 
behaviors.
    In addition to safety we believe incorporating efficiencies for our 
drivers can also lead to a better working environment. PepsiCo is 
working to procure equipment that is best suited to the business, 
allowing our drivers to have the most efficient trucks for our 
operations. For example, PepsiCo Beverages North America is 
accelerating a new and innovative delivery system, which replaces 
segmented bulk and bay delivery trucks with specially designed and 
specified trailers that are pre-loaded at the warehouse. This helps 
ensure the right quantity and assortment of product reaches the retail 
customer in a more efficient and timely manner while saving time for 
our route delivery drivers and fuel by eliminating overlapping delivery 
vehicles. To date, approximately 44.1 percent of routes have been 
converted to this new system, resulting in a 15 percent reduction in 
the number of truck days and total miles from the system. Reducing 
miles also improves safety because it translates into fewer exposures 
for our drivers and decreases the chances of crashes.
    Finally, PepsiCo believes creating a robust pipeline of talent 
coming into the professional is critical to allow individuals to have 
long-term careers in trucking. PepsiCo supports the Developing 
Responsible Individuals for a Vibrant Economy Act also known as the 
``Drive Safe Act'' and believes this legislation would help establish a 
pipeline for drivers by allowing 18-21 year olds that already have a 
commercial driver's license to drive interstate pending completion of a 
400 hour apprenticeship program with an experienced driver.

    Question 3. Have you given thought to how we can equip drivers with 
additional certifications (such as mechanical aptitude) that could 
increase their pay meanwhile driving down overall costs in the supply 
chain?
    Answer. We have internal training for our drivers interested in 
learning new skills and believe this is an area that could be further 
developed.

Our Roads Our Safety
    Question 4. Are you supportive of FMCSA's program Our Roads Our 
Safety?
    Answer. At PepsiCo we are supportive of any education and training 
efforts to ensure drivers of different sized vehicles know how to 
safely share the road and as we understand it, this is a key component 
of Our Roads Our Safety campaign. Additionally, PepsiCo has invested in 
our own internal safety, maintenance and driver training programs.

    Question 5. How can this program be expanded to help truck drivers 
and the public to understand how to operate around large trucks and 
buses?
    Answer. To the extent that funds are available, FMCSA could 
consider providing information in places that it hasn't yet reached, be 
it senior citizen centers, rest stops or other areas where they can 
help get the message out to drivers.

  Questions from Hon. Peter A. DeFazio for Deputy Chief Mark Savage, 
   Colorado State Patrol, on behalf of the Commercial Vehicle Safety 
                                Alliance

    Question 1. Mr. Savage, last year, the US Department of 
Transportation issued guidance that allows a driver to drive beyond 
daily or weekly hours of service limits under ``personal conveyance'', 
even if the driver is laden with cargo. The agency also significantly 
expanded the amount of time transporters of agricultural products can 
drive as part of the guidance. Mr. Savage, you state that drivers will 
be able to ``abuse'' this allowance, since there is no time or distance 
limit placed on it, to get around hours of service rules. This seems to 
be an example of this Administration making decisions to maximize 
flexibility and productivity for carriers, but seemingly without 
consideration of driver fatigue and the impacts on safety.
    When granting administrative exemptions DOT has to demonstrate that 
any change will not negatively impact safety. Do you believe this 
allowance to drive indefinitely will result in an equal level of safety 
on our roads?
    Answer. Simply allowing commercial motor vehicle drivers to operate 
over longer hours and distances without any additional safety 
considerations or requirements cannot possibly result in an equivalent 
level of safety. The personal conveyance and agricultural commodity 
guidance are and will continue to have a negative impact on safety, 
providing drivers who are so inclined with the ability to operate well 
beyond the authorized number of hours. Under the revised personal 
conveyance guidance and agricultural commodities guidance, a driver 
could, in theory, drive hundreds of miles over the course of several 
hours all under the designation of either personal conveyance or 
agricultural commodity hauling. This presents the opportunity for 
increased driver fatigue and negatively impacts safety. While it's true 
that we cannot regulate sleep, the hours-of-service rules set forth a 
framework that, if followed, allows for drivers to get the rest 
necessary to operate their vehicles safely. While operating under the 
personal conveyance allowance drivers may decide to travel hundreds of 
miles in order to strategically relocate to an alternate location after 
driving a full day. When combined with the ability to operate under 
personal conveyance while laden, this new guidance provides an 
opportunity for drivers to abuse personal conveyance time in order to 
circumvent the hours-of-service regulations. Similarly, under the 
agricultural commodity guidance, as long as a driver is transporting an 
agricultural commodity, they could drive indefinitely within 150 air-
miles of their source, providing no limits on their driving time and 
greatly exposing them to fatigue.
    CVSA inspectors routinely see abuse of the personal conveyance 
designation roadside, with drivers traveling hundreds of miles and 
several hours beyond the hours of service limits in order to advance 
their current load or reposition better for their next load.
    Further, our inspectors are hearing from drivers that some are 
being forced to use the personal conveyance designation, either by the 
motor carrier or the shipper, in order to deliver the load more 
quickly. Driver coercion is occurring as a result of this new guidance 
and efforts to level the playing field and force all drivers to operate 
in conjunction with the rules are being eroded by this loophole. 
Attached to the document, please find a list of examples of personal 
conveyance abuse found roadside.

    Question 2. Has it been challenging to enforce this guidance given 
the complete lack of parameters?
    Answer. Both the personal conveyance guidance and agricultural 
commodity guidance present challenges to enforcement of the hours-of-
service requirements. The allowance of laden vehicles for personal 
conveyance use makes it much more difficult for a roadside inspector to 
determine the intent of a driver at the time of inspection. Given that 
there is not an established maximum distance or time that personal 
conveyance can be used, it is very difficult for a roadside inspector 
to determine if the driver is appropriately using the designation. To 
alleviate this confusion, CVSA has submitted the attached petition to 
FMCSA to set a quantifiable distance or time that drivers can log as 
personal conveyance. A clear, maximum time or distance for the use of 
personal conveyance would give both industry and enforcement clear 
guidelines and reduce the abuse of this provision. The agricultural 
commodities guidance not only increases safety risks due to fatigue, 
but also creates excessive burden on enforcement officials. The 
guidance provides various options of how drivers can record their time 
within 150 air-miles of their source. The varying options create 
challenges for enforcement officials that must determine if the 
electronic logging devices have the appropriate annotations and 
accurately reflect the status of the off-duty time or unassigned 
driving miles. With this variance and lack of detail in the guidance, 
the burden falls on state agencies and roadside inspectors to interpret 
how to enforce the regulations, posing a threat to uniformity.

Questions from Hon. Steve Cohen for Deputy Chief Mark Savage, Colorado 
   State Patrol, on behalf of the Commercial Vehicle Safety Alliance

    Question 3. How can the footprint of the enforcement program be 
expanded to improve safety?
    Answer. Given the size of the motor carrier industry, jurisdictions 
do not have the resources necessary to inspect every vehicle, driver 
and motor carrier operating on our roadways on a regular basis. To 
maximize resources, states must prioritize enforcement activities and 
utilize technology to continue to increase enforcement program 
efficiency. For example, technology exists today to identify a 
commercial motor vehicle electronically, while the vehicle is in 
motion. This eliminates the need to stop a commercial motor vehicle to 
review driver information and inspect the vehicle, improving 
efficiencies for the enforcement community and the motor carrier 
industry. To allow for the wide deployment of this technology, all new 
commercial motor vehicles should be equipped with a universal 
electronic vehicle identifier that allows them to be identified 
electronically by enforcement. Deployment of this technology would 
revolutionize the way commercial motor vehicle roadside monitoring, 
inspection and enforcement are conducted, exponentially growing the 
program and improving roadway safety.

    Question 4. In your statement you mention that regulatory 
activities have stalled out at FMCSA. Can you expand on what you mean 
by that?
    Answer. Regulatory activity at the agency--one of the Federal Motor 
Carrier Safety Administration's (FMCSA's) basic responsibilities--has 
come to a near standstill, and the necessary work of maintaining the 
regulations is suffering. High profile initiatives, such as 
implementation of the electronic logging device rule, can consume the 
agency's resources, especially when those efforts are met with a high 
volume of exemption requests. In addition, certain policies currently 
in place, such as the Administration's requirement that two regulations 
be removed for everyone new one put into place, impede the agency's 
ability to move forward with important safety improvements; such as, 
clarifying and updating outdated regulatory language.
    As mentioned in my written testimony, for example, in 2016, FMCSA 
sent a letter to a member of the broadband service industry indicating 
that wireless and broadband services qualify under the `public utility' 
hours-of-service exemption. After learning of the letter, in May of 
2017, CVSA petitioned the agency to update the regulations to reflect 
this decision. In March of last year, the agency granted the petition, 
but to date we are still waiting for the rulemaking to be initiated.
    In an effort to address the growing backlog and delays, the agency 
has come to rely heavily on the use of regulatory guidance to address 
necessary clarifications to the regulations, using guidance documents 
or frequently asked questions (FAQs) to correct technical errors in 
published rules or to clarify vague regulatory language within the 
safety regulations while improvements to the regulations make their way 
through the rulemaking process. However, the number of full rulemakings 
that can make it through the agency in any given year is limited by 
staff and funding, and a number of higher profile rules tend to push 
simple technical changes back in the queue, some never to be published. 
As a result, a disconnect has evolved between written regulation, 
regulatory guidance, interpretations and FAQs. This disconnect has 
caused unintentional inconsistencies and contradictions to work their 
way into the regulatory framework. These inconsistencies can lead to 
confusion among both the regulated and enforcement communities.
    It is imperative that FMCSA be given the resources and support to 
allow the agency to prioritize the day to day maintenance of the 
regulations, while also meeting obligations set forth by Congress. 
Allowing this critical responsibility to lapse does a disservice to 
both the motor carrier industry and the enforcement community and 
undermines the agency's efforts to improve safety.

    Question 5. In your testimony you refer to the need to ensure that 
regulations are enforceable. What do you mean by that?
    Answer. Clear, enforceable rules are the cornerstone of an 
effective regulatory framework designed to ensure safety on our 
roadways. Regulations must be written and maintained in a way that they 
provide clear guidelines to the regulated industry and law enforcement 
officials.
    For example, the current hours-of-service regulations require that 
drivers take a 30-minute break within the first eight hours of 
beginning their day. This provision is difficult to effectively 
enforce, as the inspector has no way of verifying whether or not the 
driver was legitimately off duty during that time or if he/she used the 
time to perform other work-related duties, such as fueling, inspection, 
or loading and unloading times. This provision gives problem drivers, 
and motor carriers, an opportunity to falsify their record of duty 
status (RODS) in an attempt to disguise, or conceal, on-duty hours. 
Enforcing this proposed rule is impossible without supporting documents 
to either verify, or refute, such entries.
    Or, consider the regulation that says drivers may not operate a 
vehicle on an underinflated tire. While it is relatively simple to 
determine when a tire is flat, because of a number of variables, it is 
much more difficult to determine if a tire is `underinflated' roadside. 
When inspecting tires for the correct tire inflation pressure, 
inspectors must read the tire markings to determine tire size, 
determine the axle load, calculate tire load, check the tire pressure, 
and then adjust for cold or warm tire condition. They must then find 
the appropriate Load Limit Table (generally not available to them at 
roadside) in order to determine if the tire is under inflated or not.
    These are two examples of regulations that may have been well 
intended but are not practically enforceable roadside. Regulations must 
be specific, not leaving open room for interpretation and maintained in 
a way that, as they are updated, they do no conflict with other 
regulations or regulatory guidance. Unclear regulations that cause room 
for interpretation challenge uniformity of enforcement and make it more 
difficult for the motor carrier industry to comply with a requirement. 
It is imperative that those subject to the Federal Motor Carrier Safety 
Regulations (FMCSRs) understand their responsibilities and that those 
tasked with enforcing those safety regulations can do so effectively to 
ensure the quality and uniformity of the more than four million 
roadside inspections conducted annually throughout North America. 
Unfortunately, regulatory activity at the agency has come to a near 
standstill, and the necessary work of maintaining clear, enforceable 
regulations is suffering.

    Question 6. In your testimony you mention challenges with 
discrepancies in regulatory guidance. Has the agency taken any steps to 
correct this issue?
    Answer. U.S. DOT recently published a notice in the federal 
register for feedback on regulatory guidance. However, it was a review 
of all regulatory guidance at U.S. DOT. We, along with other 
stakeholders from across all the transportation modes submitted 
comments. While this was a good start, FMCSA should publish a part by 
part review of each section of the FMCSRs to allow for a more thorough 
review. In addition, the agency should conduct a review of informal 
regulatory guidance that has been issued like interpretations, 
electronic communications and FAQs, and officially adopt them as 
regulatory guidance. This process, once complete, will help clarify a 
number of inconsistencies in regulation, helping those who are subject 
to the FMCSRs better understand their responsibilities and allowing 
those tasked with enforcing the regulations to do so effectively. This, 
in turn, will help improve the quality and uniformity of the more than 
four million roadside inspections conducted annually throughout North 
America. However, it is not enough for the agency to do this one 
review. This process must be conducted on an ongoing basis, in order to 
keep pace with ongoing changes and developments. Continued review and 
updates to guidance are necessary to remove redundancies, reflect 
recent changes, correct errors and eliminate contradictions in order to 
provide both the law enforcement community and motor carrier industry 
with clearer guidelines to follow. Regulatory guidance should be 
reviewed and updated on a regular basis to ensure accuracy and clarity.
                 Attachments to Mr. Savage's Responses
                examples of abuse of personal conveyance
    The examples below provide a snapshot of personal conveyance abuse 
that is being seen by inspectors when checking hours-of-service 
compliance.

Commonly reported abuse:
    <bullet>  Using personal conveyance for up to 10 hours between 
dropping off loads and going to the next pick up.
    <bullet>  Driving over 2 hours claiming they are looking for a 
place to park when there are open spaces along the 2-hour drive.
    <bullet>  Using personal conveyance to make up for time lost at 
loading docks.
    <bullet>  Switching to personal conveyance time just before 
violating the 11 or 14-hour rules.

Specific examples of abuse found:
    1.  A driver drove over 200 miles in the direction of his 
destination under personal conveyance. When asked the driver claimed he 
was headed to visit family along his route.
    2.  A driver utilized personal conveyance to avoid violations of 
the 11-hour rule. The driver often switched into personal conveyance 
shortly before exceeding 11 hours of drive time.
    3.  A driver used personal conveyance to reposition for a new load 
and avoid a 14-hour rule violation.
    4.  A driver drove approximately 132 miles under personal 
conveyance from Florida to Georgia to reposition and pick up a load in 
Georgia.
    5.  Within the provided logs, a driver operated several different 
times under personal conveyance to reposition and pick up a new load.
    6.  A driver operated under personal conveyance to move their load 
forward. When asked, the driver indicated that the motor carrier 
instructed him to continue to drive in personal conveyance.
    7.  A driver traveled for 1 hour and 28 minutes under personal 
conveyance to avoid a 14-hour rule violation and continue their trip.
    8.  A driver utilized personal conveyance several times to avoid a 
14-hour rule violation. The first time the driver drove 106 miles 
towards their destination under personal conveyance and on second 
occurrence the driver drove 157 miles towards their destination under 
personal conveyance. When asked, the driver admitted that he used 
personal conveyance when he is going to run out of time.
    9.  A driver drove 2 hours and 30 minutes under personal 
conveyance, stating he was trying to find a place to sleep. After the 2 
hours and 30 minutes he parked illegally on the side of the road. The 
inspector was aware of several safe, legal parking locations that the 
driver passed within that 2 hours and 30 minutes of personal conveyance 
time.
    10.  A pickup truck pulling an empty BigTex gooseneck trailer was 
stopped. The driver had dropped a load in Westlake, LA. At the time of 
inspection, the ELD indicated he was driving under personal conveyance 
for the last 10 minutes. Prior to that it had been turned off for about 
24 hours but recorded that the vehicle was on and moving in the 
direction of the point of inspection. The driver said he was going to 
urgent care in Houston, where he was also picking up a load. The driver 
was from Georgia, did not appear to be sick, and passed several urgent 
care facilities along his route.
    11.  During an off-site audit, logs showed travel from Denver to 
Eastern Kansas in an off-duty status. The carrier was stopped in Kansas 
and cited for not having a log. The driver was an owner operator and 
stated he was driving under personal conveyance to pick up a trailer he 
had purchased in Kansas. When questioned about the use for the trailer, 
the carrier stated that it was for business use. This was a violation 
of personal conveyance because he was completing this trip for the 
furtherance of the business.
    12.  A driver of an unladen dry bulk concrete tanker was stopped 
while driving between Idaho and Texas under personal conveyance. The 
driver stated that she was operating under personal conveyance because 
she had dropped her load in Idaho and was returning to her home in 
Texas. The driver was attempting to utilize personal conveyance for the 
entire return trip and not take required breaks.
    13.  A driver drove from Chicago, Illinois, to Tennessee with an 
empty trailer with the intent of picking up a load in Tennessee. The 
driver drove for 12 hours under personal conveyance.
    14.  A driver used personal conveyance to further his load and meet 
a significant portion of his required off-duty time. The driver had 4 
hours left to finish his trip and switched into personal conveyance 
just before exceeding the 14-hour window. After completing the trip, he 
only took 6 hours of off-duty time, utilizing the 4 of personal 
conveyance drive time to make up his required 10 hours off-duty.
                               __________
                                                 December 17, 2018.
Hon. Raymond P. Martinez
Administrator, Federal Motor Carrier Safety Administration, 1200 New 
        Jersey Avenue, SE, 6th Floor, West Building, Washington, DC 
        20590-9898

RE: Petition for Rulemaking--Add a Definition of Personal Conveyance to 
Title 49 C.F.R. Sec.  395.2 and Remove all Interpretative Guidance from 
Sec.  395.8 and the Agency

    Dear Administrator Martinez,
    Pursuant to Title 49 Code of Federal Regulations (C.F.R.) Sec.  
389.31, the Commercial Vehicle Safety Alliance (CVSA) is petitioning 
the Federal Motor Carrier Safety Administration (FMCSA) to amend Sec.  
395.2 by adding a definition of the term ``personal conveyance.'' To 
adequately clarify what the agency means by ``personal conveyance,'' 
the following term needs to be defined: the maximum distance and/or 
time a driver may operate for personal conveyance.
    CVSA is a nonprofit association comprised of local, state, 
provincial, territorial and federal commercial motor vehicle safety 
officials and industry representatives. The Alliance aims to achieve 
uniformity, compatibility and reciprocity of commercial motor vehicle 
inspections and enforcement by certified inspectors dedicated to driver 
and vehicle safety. Our mission is to improve commercial motor vehicle 
safety and uniformity throughout Canada, Mexico and the United States, 
by providing guidance and education to enforcement, industry and policy 
makers.
                             justification
    FMCSA guidance for Sec.  395.8, Driver's record of duty status 
currently states:

        Question 26: Under what circumstances may a driver operate a 
        commercial motor vehicle (CMV) as a personal conveyance?

        Guidance:

        A driver may record time operating a CMV for personal 
        conveyance (i.e., for personal use or reasons) as off-duty only 
        when the driver is relieved from work and all responsibility 
        for performing work by the motor carrier. The CMV may be used 
        for personal conveyance even if it is laden, since the load is 
        not being transported for the commercial benefit of the carrier 
        at that time. Personal conveyance does not reduce a driver's or 
        motor carrier's responsibility to operate a CMV safely. Motor 
        carriers can establish personal conveyance limitations either 
        within the scope of, or more restrictive than, this guidance, 
        such as banning use of a CMV for personal conveyance purposes, 
        imposing a distance limitation on personal conveyance, or 
        prohibiting personal conveyance while the CMV is laden.

    To be able to log personal conveyance time as off-duty, commercial 
motor vehicle drivers must meet several conditions as outlined in the 
regulatory guidance on the agency's website and noted above. These 
include being relieved of all on-duty activities and responsibilities 
and ensuring that the off-duty trip is personal in nature. While these 
conditions present certain parameters to drivers and enforcement, the 
guidance it offers is incomplete because it does not provide a maximum 
distance and/or time that a driver can travel under the ``personal 
conveyance'' designation.
    In reference to the revised FMCSA guidance, the term ``reasonable 
and safe location'' is used in the ``Federal Register'' response to 
comments to describe travel under personal conveyance. This lack of 
definitive language leaves it up to the inspector's interpretation to 
determine compliance. Individual inspectors will likely have different 
interpretations of what is ``reasonable,'' resulting in inconsistencies 
in enforcement. This will result in some commercial motor vehicle 
drivers being cited for hours-of-service violations while other 
drivers, who are traveling similar distances, are avoiding such 
citations.
    More importantly, the published guidance does not address the 
underlying issue of setting a limit on how far a driver may travel 
under the personal conveyance designation. Under the revised guidance, 
a driver could, in theory, drive hundreds of miles over the course of 
several hours all under the designation of personal conveyance. This 
presents the opportunity for increased driver fatigue and risk on our 
roadways, as drivers may decide to travel hundreds of miles in order to 
strategically relocate to an alternate location after driving a full 
day. When combined with the ability to operate under personal 
conveyance while laden, this new guidance provides an opportunity for 
drivers to abuse personal conveyance time in order to circumvent the 
hours-of-service regulations. Further, the allowance of laden vehicles 
for personal conveyance use makes it much more difficult for a roadside 
inspector to determine the intent of a driver at the time of 
inspection.
    FMCSA should provide a clear, set distance that is permissible 
under the personal conveyance designation. In setting clear guidelines 
on the use of personal conveyance, FMCSA may look to the standard set 
in Canada, which allows drivers to use a vehicle for personal 
conveyance purposes for a maximum of 75 km per day (approximately 46 
miles), unladen. FMCSA should similarly set a quantifiable distance 
that drivers are allowed to log as personal conveyance, in addition to 
the parameters already offered for Sec.  395.8.
    By establishing a maximum allowed distance for personal conveyance, 
FMCSA will not only eliminate confusion and inconsistent enforcement 
among inspectors on this issue but will also ensure safer roads as 
commercial motor vehicle drivers are on notice that personal conveyance 
time cannot be used as a safe harbor for driving hundreds of miles 
after exhausting their hours of service.
    CVSA made a similar request in response to the agency's request for 
comments on the proposed guidance in early 2018 (Docket Number FMCSA-
2017-0108). The agency indicated in its response that such a change 
would be outside the scope of the regulatory guidance and would require 
a formal rulemaking proceeding. CVSA requests the agency address the 
Alliance's request for a maximum travel distance and/or time under 
personal conveyance as part of the rulemaking that is underway to make 
changes to existing hours-of-service regulations (Docket Number FMCSA-
2018-0248).
    CVSA works to closely monitor, evaluate and identify potentially 
unsafe transportation processes and procedures as well as to help 
facilitate and implement best practices for enhancing safety on our 
highways. CMV safety continues to be a challenge and we need the 
involvement of all affected parties to help us better understand these 
issues and put into place practical solutions. We appreciate the 
agency's commitment to safety and stakeholder involvement.
    If you have further questions or comments, please do not hesitate 
to contact me by phone at [redacted] or by email at [redacted].
        Respectfully,
                                 Collin B. Mooney, MPA, CAE
             Executive Director, Commercial Vehicle Safety Alliance
                               __________
                                                 December 17, 2018.
Hon. Heidi King
Deputy Administrator, National Highway Traffic Safety Administration, 
        1200 New Jersey Avenue, SE, Washington, DC 20590-9898

RE: Petition for Rulemaking--Require Commercial Motor Vehicles to be 
Manufactured to Wirelessly Broadcast a Universal Electronic Vehicle 
Identifier

    Dear Deputy Administrator King,
    The Commercial Vehicle Safety Alliance (CVSA) petitions the 
National Highway Traffic Safety Administration (NHTSA) to publish an 
advance notice of proposed rulemaking (ANPRM) in regards to amending 
the Federal Motor Vehicle Safety Standards (FMVSS) found in Title 49 
Code of Federal Regulations (C.F.R.) Part 571 to explore the benefits 
and feasibility of establishing a new FMVSS requirement for the remote 
electronic identification of heavy-duty vehicles, truck tractors, buses 
and semi-trailers being operated in the United States and to inform the 
original equipment manufacturers (OEMs) and facilitate the early 
voluntary adoption of such technology.
    CVSA is a nonprofit association comprised of local, state, 
provincial, territorial and federal commercial motor vehicle safety 
officials and industry representatives. The Alliance aims to achieve 
uniformity, compatibility and reciprocity of commercial motor vehicle 
inspections and enforcement by certified inspectors dedicated to driver 
and vehicle safety. Our mission is to improve commercial motor vehicle 
safety and uniformity throughout Canada, Mexico and the United States, 
by providing guidance and education to enforcement, industry and policy 
makers.
                                request
    CVSA petitions NHTSA to initiate an ANPRM in order to facilitate a 
discussion among stakeholders regarding the advantages and associated 
benefits of amending the FMVSS to require all heavy-duty vehicles, 
truck tractors, buses and semi-trailers to be manufactured with the 
capability for quick remote identification of a commercial motor 
vehicle for inspection and enforcement purposes. There are a number of 
technology options through which this could be achieved. For example, 
the electronic identifier could be communicated through the proposed 
dedicated 5.9 GHz spectrum, or other related communication platforms, 
surrounding the advancement of automated driving systems (ADS) in 
conjunction with automated and connected commercial motor vehicles as 
part of the basic safety message. This immediate electronic 
identification of a commercial motor vehicle will aid in establishing 
the vehicle to enforcement (V2E) connectivity necessary for the 
wireless inspection of an automated or connected commercial motor 
vehicle without impeding commerce by stopping and delaying automated or 
connected commercial motor vehicles and advance the vision and guiding 
principles outlined in Preparing for the Future of Transportation: 
Automated Vehicles 3.0 (AV 3.0). Publishing an ANPRM would initiate 
much needed discussion on this crucial step forward in commercial motor 
vehicle safety technology.
                             justification
    The federal government entrusts the states with the responsibility 
of enforcing the Federal Motor Carrier Safety Regulations (FMCSRs) and 
the Hazardous Materials Regulations (HMRs) through the Motor Carrier 
Safety Assistance Program (MCSAP). The states use funds through the 
MCSAP to conduct enforcement activities, targeting vehicles, drivers 
and motor carriers that present a safety risk to the driving public. 
According to FMCSA, the agency regulates 524,058 motor carriers, 5.9 
million commercial drivers and 12.1 million commercial motor vehicles. 
Given the size of the industry, the states do not have the resources to 
inspect every vehicle, driver and motor carrier operating on our 
roadways on a regular basis. In order to maximize resources, the states 
use a combination of methods to identify vehicles, drivers and motor 
carriers for intervention and enforcement.
    Currently, inspectors use screening technology programs and tools, 
as well as inspection selection procedures and inspector observation to 
identify inspection targets to be examined during a roadside 
inspection. Third party screening technologies that are currently in 
use help to increase the number of vehicles, drivers and motor carriers 
that enforcement community comes into contact with; however, some of 
these technologies are used voluntarily and others are deployed with 
varying degrees of effectiveness. Since technologies exist today that 
would allow automated roadside identification of nearly all commercial 
motor vehicles, if this proposed concept were universally deployed, 
this would revolutionize the way commercial motor vehicle roadside 
monitoring, inspection and enforcement are conducted. It would improve 
the effectiveness of enforcement programs while reducing costs, for 
both enforcement and industry, all while improving safety. In order to 
move forward with full deployment, however, enforcement must have a 
universal mechanism for electronically identifying all commercial motor 
vehicles. We believe this can be accomplished with minimal cost and 
disruption, and we believe the safety and economic benefits will be 
substantial for the enforcement community, motor carrier industry and 
driving public.
    While many questions still exist surrounding this concept, 
establishing a universal electronic vehicle identifier requirement for 
all commercial motor vehicles will have tremendous benefit. 
Jurisdictions will save time and see improved efficiencies as 
inspectors are able to more accurately target vehicles, drivers and 
motor carriers in need of an intervention while allowing safe, 
compliant vehicles to deliver their freight more quickly and 
efficiently.
    Most importantly, establishing a universal electronic vehicle 
identifier requirement for all commercial motor vehicles would benefit 
the public by improving safety, taking unsafe vehicles, drivers and 
motor carriers off the roadways. As industry continues to grow and more 
and more people take to the roads, it is imperative that we leverage 
technology where possible to improve the efficacy of our enforcement 
programs.
    It is important to note that establishing a universal vehicle 
identifier requirement within the FMVSS creates no additional 
regulatory burden for the motor carrier. Further, for the regulated 
motor carrier industry, there are no credible privacy concerns. The 
universal vehicle identifier, potentially tied to the vehicle 
identification number (VIN), would transmit only information that is 
already required to be displayed or made available by regulation. All 
this requirement would do is change how that information is presented 
to the enforcement community.
    Further, the need for a universal vehicle identifier becomes more 
critical as the industry moves forward to implement driver assistive 
truck platooning and increasingly advanced driver assistance systems 
and partially or fully automated driving systems, which will require 
new methods and levels of safety checks. NHTSA's vehicle to vehicle 
(V2V) and vehicle to infrastructure communications (V2I), which we 
understand is planned for medium and heavy vehicles, is an ideal 
platform upon which to achieve this electronic identification and for 
our vehicle to enforcement (V2E) initiative to become a reality. As 
driver assistive technologies evolve in commercial vehicle use, the 
proper identification and monitoring of these commercial motor vehicles 
becomes increasingly necessary. No matter the method, this proposed 
requirement would enable efficient identification and inspection/
screening of vehicle systems to help ensure safe operation of 
commercial motor vehicles, including those being operated with or 
without a human operator on board.
    CVSA works to closely monitor, evaluate and identify potentially 
unsafe transportation processes and procedures as well as to help 
facilitate and implement best practices for enhancing safety on our 
highways. Commercial motor vehicle safety continues to be a challenge 
and we need the involvement of all affected parties to help us better 
understand these issues and put into place practical solutions. We 
appreciate the agency's commitment to safety and stakeholder 
involvement.
    If you have further questions or comments, please do not hesitate 
to contact me by phone at [redacted] or by email at [redacted].
        Respectfully,
                                 Collin B. Mooney, MPA, CAE
             Executive Director, Commercial Vehicle Safety Alliance

cc: The Honorable Raymond P. Martinez, Administrator, Federal Motor 
Carrier Safety Administration

   Questions from Hon. Mark DeSaulnier for Andy Young, Truck Safety 
                                Advocate

Technology Applications for Rural Communities
    Mr. Young, NHTSA reported that large truck rear impacts comprised 
22 percent of fatal two-vehicle collisions between large trucks and 
passenger vehicles during 2017. The Insurance Institute for Highway 
Safety (IIHS) crash tests demonstrated that the rear underride guards 
mandated for trailers by NHTSA in 1998 performed poorly.
    Question 1. Given that eight out of the top 10 leading trailer 
manufacturers have developed rear underride guards that qualify for the 
IIHS ToughGuard Rating, which greatly exceeds the proposed federal 
standard, doesn't it make sense to mandate rear guards now for all 
trailers?
    Answer. Yes! The eight (8) major trailer manufacturers that have 
received the IIHS ToughGuard Rating sell approximately 80 percent of 
all trailers on U.S. Roadways. These trailer manufacturers are Great 
Dane LLC, Hyundai Translead, Manac Inc., Stoughton Trailers LLC, Strick 
Trailers LLC, Utility Trailer Manufacturing Co., Vanguard National 
Trailer Corp, and Wabash National Corp.\1\ A mandate remains necessary 
because many of these trailer manufacturers have not made the IIHS 
ToughGuard rated rear impact guards standard on all new trailer 
purchases. Many of the manufacturers simply sell the IIHS ToughGuard 
rated rear impact guards as optional equipment. A motor carrier working 
with a retail dealer may unknowingly purchase a trailer that has an 
inadequate, less safe, rear impact guard. Whereas, if NHTSA mandated 
the IIHS ToughGuard rated rear impact guards, then purchasers of 
trailers will be guaranteed to have the safest available and 
technologically feasible rear impact guards. A mandated federal 
standard will ensure that 100 percent of new trailers purchased will 
have the safest rated rear impact guards saving countless lives in the 
future.
---------------------------------------------------------------------------
    \1\ Press Release, Insurance Institute for Highway Safety, Highway 
Loss Data Institute, ``All major trailer makers earn IIHS award for 
good underride protection,'' by Russ Rader, Senior Vice President, 
https://www.iihs.org/news/detail/all-major-trailer-makers-earn-iihs-
award-for-good-underride-protection
---------------------------------------------------------------------------

 Questions from Hon. Angie Craig for Andy Young, Truck Safety Advocate

Driving Training Standards
    Question 2. Do you support the current training standards for the 
ELDT 2020 training program?
    Answer. Yes, but the proposed training standards need to include a 
minimum number of behind-the-wheel (BTW) hours. Driving a commercial 
motor vehicle is a safety-sensitive function. It is frequently referred 
to as such in the Federal Motor Carrier Regulations. As I indicated in 
my hearing testimony, I am a truck driver who actively drives a semi-
tractor pulling a 45-foot trailer. I am keenly aware of the 
complexities and challenges behind driving AND backing a tractor-
trailer. Not only is a truck driver responsible for the safety of all 
motorists on the road, he or she is responsible for their own safety 
too. Without a doubt, the knowledge and skills required to drive a 
tractor-trailer requires advanced training.
    The Entry-Level Driver Training (ELDT) Final Rule specifically 
states that this rule ``enhances the safety of commercial motor vehicle 
(CMV) operations on our Nation's highways by establishing more 
extensive entry-level training (ELDT) requirements.'' The ELDT further 
responds to a Congressional mandate already imposed under Section 32304 
of the ``Moving Ahead for Progress in the 21st Century Act'' (MAP-21). 
Presently, most anyone can simply take and pass the various written and 
skills tests, completely self-taught, and obtain a Class A CDL without 
ANY actual training. This is downright scary! Ask any experienced truck 
driver if ELDT should be mandated and each one will likely respond with 
a resounding, ``Yes!''

    Question 3. Do you support current standards that do not require a 
minimum BTW (Behind The Wheel) time?
    Answer. No! Minimum behind-the-wheel time must be required. 
Commercial trucks can weigh up to 20 times the weight of an ordinary 
passenger car. It takes a much greater distance to stop a commercial 
truck than to stop an ordinary car. The size, weight, and length of 
these trucks make driving them very complex requiring more driving 
skill than an ordinary car.\2\
---------------------------------------------------------------------------
    \2\ The Commercial Driver's License Manual, Section 6.1 ``Driving 
Combination Vehicles Safely.''
---------------------------------------------------------------------------
    Earlier this month, I was driving my tractor-trailer with a young 
man sitting as a passenger. This young man is 22-years old and wants to 
obtain his Class A Commercial Driver's License later this year. As I 
was driving, I was pointing out to him the importance of managing space 
ahead of the truck and keeping a significant following distance behind 
other motorists. The most important space for a truck driver is the 
space he or she is driving into. A truck driver must be able to 
comfortably stop in the distance he or she is able to see. This means 
controlling speed, knowing when to take your foot off the accelerator, 
when to brake, and comfortably downshift allowing the engine to help 
brake the truck too. Hard braking and evasive maneuvers should never 
happen if a truck driver is alert, paying careful attention, driving 
defensively and responsibly.
    I was also talking with my young passenger about defensive driving 
concepts, such as being mindful of the ``stale green light'' and 
looking for environmental clues that might present hazards. This young 
man was surprised to learn that I was able to spot and predict 
behaviors of other motorists before the other motorists acted. I talked 
him through the various clues that I saw with traffic that allowed me 
to predict and anticipate other drivers' behavior and actions. I 
explained to him that a truck driver must always give the right-of-way 
as opposed to simply taking it, regardless of the situation. A truck 
driver must not present a hazard to other motorists forcing them to 
suddenly brake or take evasive action. Behind-the-wheel training and 
experience will ensure that a new truck driver will not be put into 
perilous situations that require choices likely resulting in reckless 
decision making. Mandatory behind-the-wheel training with an 
experienced truck driver as a trainer will certainly save lives. Again, 
ask any experienced truck driver, particularly those who have earned a 
``1 million safe miles'' driver award, if there should be a mandatory 
minimum behind-the-wheel time and they will respond with a resounding, 
``Yes!''

    Question 4. Do you believe that truck drivers should demonstrate 
their driving capabilities on the streets and highways rather than in 
parking lots?
    Answer. Yes! Just driving a tractor-trailer in a parking lot or 
controlled environment does not give a trainee the experience required 
to react responsibly to car drivers that are driving irresponsibly. 
Within minutes of driving on a highway, a truck driver sees how 
dangerous many motorists are on our roadways. Many car motorists drive 
distracted, aggressively or without the requisite patience. Ordinary 
motorists frequently present hazards to a truck when that motorist is 
both merging on and off highways. Many motorists will cut-off or drive 
erratically around a much larger and slower moving semi-truck. Unless a 
truck driver trainee has training actually driving on real-world 
streets and highways, a new truck driver will not know how to properly 
respond to other motorists, putting all the motoring public at risk of 
a catastrophic or fatal crash. Not meaning to sound redundant, ask any 
experienced truck driver if it is important for truck drivers to 
demonstrate responsible driving capabilities on streets and highways 
rather than parking lots, and again each one will likely respond with a 
resounding, ``Yes!'' A closed course does not provide real-life 
situations. How a new truck driver responds to the pressures of real-
life driving is imperative to evaluating their ability as a safe truck 
driver.
    I thank both Representative DeSaulnier and Representative Craig for 
these important questions. I hope that my answers have adequately 
responded to their questions. Each of the items discussed here will 
help achieve the goal of ``vision zero'' initiatives all over the 
country. I am grateful for the opportunity to have this response be put 
into the Congressional record. These important issues will not only 
save lives, but also save truck driver livelihoods.


                              [all]
                                    
</pre></body></html>
